<html>
<title> - HOW IS AMERICA SAFER? A PROGRESS REPORT ON THE DEPARTMENT OF HOMELAND SECURITY</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 HOW IS AMERICA SAFER? A PROGRESS REPORT ON THE DEPARTMENT OF HOMELAND 
                                SECURITY

=======================================================================

                                HEARING

                               before the

                          SELECT COMMITTEE ON
                           HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                     MAY 20, 2003 and MAY 22, 2003

                               __________

                            Serial No. 108-6

                               __________

    Printed for the use of the Select Committee on Homeland Security


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
96-366                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                 SELECT COMMITTEE ON HOMELAND SECURITY



                 Christopher Cox, California, Chairman

Jennifer Dunn, Washington            Jim Turner, Texas, Ranking Member
C.W. Bill Young, Florida             Bennie G. Thompson, Mississippi
Don Young, Alaska                    Loretta Sanchez, California
F. James Sensenbrenner, Jr.,         Edward J. Markey, Massachusetts
Wisconsin                            Norman D. Dicks, Washington
W.J. (Billy) Tauzin, Louisiana       Barney Frank, Massachusetts
David Dreier, California             Jane Harman, California
Duncan Hunter, California            Benjamin L. Cardin, Maryland
Harold Rogers, Kentucky              Louise McIntosh Slaughter, New 
Sherwood Boehlert, New York          York
Lamar S. Smith, Texas                Peter A. DeFazio, Oregon
Curt Weldon, Pennsylvania            Nita M. Lowey, New York
Christopher Shays, Connecticut       Robert E. Andrews, New Jersey
Porter J. Goss, Florida              Eleanor Holmes Norton, District of 
Dave Camp, Michigan                  Columbia
Lincoln Diaz-Balart, Florida         Zoe Lofgren, California
Bob Goodlatte, Virginia              Karen McCarthy, Missouri
Ernest J. Istook, Jr., Oklahoma      Sheila Jackson-Lee, Texas
Peter T. King, New York              Bill Pascrell, Jr., New Jersey
John Linder, Georgia                 Donna M. Christensen, U.S. Virgin 
John B. Shadegg, Arizona             Islands
Mark E. Souder, Indiana              Bob Etheridge, North Carolina
Mac Thornberry, Texas                Charles Gonzalez, Texas
Jim Gibbons, Nevada                  Ken Lucas, Kentucky
Kay Granger, Texas                   James R. Langevin, Rhode Island
Pete Sessions, Texas                 Kendrick B. Meek, Florida
John E. Sweeney, New York

                      John Gannon, Chief of Staff

         Uttam Dhillon, Chief Counsel and Deputy Staff Director

                  Steven Cash, Democrat Staff Director

                    Michael S. Twinchek, Chief Clerk

                                  (II)


                                CONTENTS

                              ----------                              

                           MEMBER STATEMENTS

The Honorable Lincoln Diaz-Balart, a Representative in Congress 
  From the State of Florida, and Chairman of the Subcommittee on 
  Rules
  Prepared Statement.............................................     7
  Oral Statement.................................................    71
The Honorable Christopher Cox, a Representative in Congress From 
  the State of California, and Chairman
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Norm Dicks, a Representative in Congress From the 
  State of Washington
  Prepared Statement.............................................     8
  Oral Statement.................................................    37
The Honorable Bob Etheridge, a Representative in Congress From 
  the State of North Carolina
  Prepared Statement.............................................    11
  Oral Statement.................................................    86
The Honorable Sheila Jackson-Lee, a Representative in Congress 
  From the State of Texas
  Prepared Statement.............................................     9
  Oral Statement.................................................    57
The Honorable Zoe Lofgren, a Representative in Congress From the 
  State of California
  Prepared Statement.............................................    12
  Oral Statement.................................................    73
The Honorable Nita M. Lowey, a Representative in Congress From 
  the State of New York
  Prepared Statement.............................................     5
  Oral Statement.................................................    55
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi
  Prepared Statement.............................................     7
  Oral Statement.................................................    27

  The Honorable Robert E. Andrews, A Representative in Congress 
    From the State of New Jersey.................................    66
  The Honorable Sherwood Boehlert, a Representative in Congress 
    From the State of New York...................................    33
  The Honorable Dave Camp, a Representative in Congress From the 
    State of Michigan............................................    49
  The Honorable Benjamin L. Cardin, a Representative in Congress 
    From the State of Maryland...................................    48
  The Honorable Peter A. DeFazio, a Representative in Congress 
    From the State of Oregon.....................................    51
  The Honorable Jennifer Dunn, a Representative in Congress From 
    the State of Washington......................................    25
  The Honorable Barney Frank, a Representative in Congress From 
    the State of Massachusetts...................................    41
  The Honorable Jim Gibbons, a Representative in Congress From 
    the State of Nevada..........................................    46
  The Honorable Porter J. Goss, a Representative in Congress From 
    the State of Florida.........................................    46
  The Honorable Kay Granger, a Representative in Congress From 
    the State of Texas...........................................    79
  The Honorable Jane Harman, a Representative in Congress From 
    the State of California......................................    44
  The Honorable Ernest J. Istook Jr., a Representative in 
    Congress From the State of Oklahoma..........................    54
  The Honorable Peter T. King, a Representative in Congress From 
    the State of New York........................................    75
  The Honorable James R. Langevin, A Representative in Congress 
    From the State of Rhode Island...............................    88
  The Honorable Ken Lucas, a Representative in Congress From the 
    State of Kentucky............................................    87
  The Honorable Edward J. Markey, a Representative in Congress 
    From the State of Massachusetts..............................    34
  The Honorable Karen McCarthy, a Representative in Congress From 
    the State of Missouri........................................    75
  The Honorable Kendrick B. Meek, a Representative in Congress 
    From the State of Florida....................................    90
  The Honorable Holmes Norton, a Representative in Congress From 
    the District of Columbia.....................................    70
  The Honorable Bill Pascrell, Jr., a Representative in Congress 
    From the State of New Jersey.................................    84
  The Honorable Harold Rogers, a Representative in Congress From 
    the State of Kentucky........................................    28
  The Honorable Loretta Sanchez, a Representative in Congress 
    From the State of California.................................     7
  The Honorable John B. Shaddegg, a Representative in Congress 
    From the State of Arizona....................................    82
  The Honorable Christopher Shays, a Representative in Congress 
    From the State of Connecticut................................    42
  The Honorable Lamar S. Smith, a Representative in Congress From 
    the State of Texas...........................................    36
  The Honorable Mac Thornberry, a Representative in Congress From 
    the State of Texas...........................................    64
  The Honorable Jim Turner, a Representative in Congress From the 
    State of Texas, and Ranking Member...........................     3
  The Honorable Curt Weldon, a Representative in Congress From 
    the State of Pennyslvania....................................    39

                                WITNESS

The Honorable Tom Ridge, Secretary, Department of Homeland 
  Security
  Oral Statement.................................................    13
  Prepared Statement.............................................    15

                                APPENDIX
                   MATERIALS SUBMITTED FOR THE RECORD

  Questions and Responses for May 20 and 22, 2003................    93

 
 HOW IS AMERICA SAFER? A PROGRESS REPORT ON THE DEPARTMENT OF HOMELAND 
                                SECURITY

                              ----------                              


                         TUESDAY, MAY 20, 2003

                  House of Representatives,
             Select Committee on Homeland Security,
                                           Washington, D.C.
    The committee met, pursuant to call, at 9 a.m., in room 
345, Cannon House Office Building, Honorable Christopher Cox 
[Chairman of the Committee] presiding.
    Present: Representatives Cox, Dunn, Young of Florida, 
Dreier, Rogers, Boehlert, Smith, Weldon, Shays, Goss, Camp, 
Diaz-Balart, Istook, King, Linder, Shadegg, Thornberry, 
Gibbons, Granger, Sessions, Sweeney, Turner, Thompson, Sanchez, 
Markey, Dicks, Frank, Harman, Cardin, DeFazio, Lowey, Andrews, 
Norton, Lofgren, McCarthy, Jackson Lee, Pascrell, Christensen, 
Etheridge, Lucas, Langevin, and Meek.
    Chairman Cox. Good morning. A quorum being present, the 
Select Committee on Homeland Security will come to order. The 
committee welcomes Secretary Tom Ridge for his testimony on the 
progress the Department has made since he was sworn in as its 
first leader on January 24th and on two initiatives designed to 
improve America's readiness in case of another terrorist 
attack, Operation Liberty Shield and TOPOFF II.
    It has been 116 days since Governor Ridge became Secretary. 
It has been exactly 80 days since the majority of the agencies 
that make up the Department of Homeland Security, including 
Customs, the Border Patrol, the Coast Guard, TSA, and FEMA 
officially joined the Department. Measured in bureaucratic 
terms, 80 days is the blink of an eye; but in the real war 
against terrorism, 80 days is a deadly serious long time.
    Your presence here this morning, Mr. Secretary, is 
requested so that Congress and this committee can get 
authoritative answers to questions that are so vitally 
important to every American: How safe are we? How far has the 
Department come in fulfilling the mandate of Congress to 
establish this new Department? What has become of the billions 
of dollars Congress has appropriated since September 11, 2001 
for antiterrorism, homeland security technology, overseas 
operations and first responders? How has Liberty Shield 
increased the protections for America's citizens and 
infrastructure? And what have we learned after $16 million and 
the energies of over 800,000 people from 100 Federal, State, 
and local agencies were invested in the simultaneous terrorist 
attacks on Chicago and Seattle?
    It is the intention of the Chairman and the Ranking Member 
that as many members of this committee as possible have the 
opportunity to ask questions on these topics in the course of 
this hearing. To ensure that that is possible, given that our 
committee has 50 members, the Secretary has agreed to be with 
us the entire half day. We will also ask that members abide by 
the 5-minute rule.
    And Mr. Turner and I ask unanimous consent to waive opening 
statements beyond the Chairman and Ranking Member. Without 
objection, so ordered.
    Last week Chicago was attacked by terrorists using 
pneumonic plague as a weapon. The panic and death that spread 
rapidly throughout the city were compounded by a disaster at 
Midway Airport when a medical helicopter crashed into a plane 
full of passengers as it made an emergency landing. Two hundred 
victims littered the runway.
    About 40 miles south of Seattle, terrorists simultaneously 
attacked Pacific Lutheran University with a dirty bomb that hit 
150 people; 92 were taken to hospitals. Rescuers sought 20 
people believed to have been buried in the rubble created by 
the blast, and 2 were reported killed in the immediate scene.
    This exercise raised many questions. Those participating 
were given advance notice. Critics of the exercises argue that 
this made the exercise ineffective.
    Does the Secretary believe this exercise was still a useful 
one? Will future exercises live more uncertainly for the 
participants to confront?
    Press reports indicated that there were capacity problems 
in Chicago's hospitals. Is this true? If so, what contingency 
plans are being put in place? Media reports indicated that the 
government had trouble quickly putting in place a system that 
could reliably track the radioactive plume from the dirty bomb. 
What is being done to address this weakness?
    These are just a few of the questions I hope, Mr. 
Secretary, that you will address.
    The Chair now recognizes Mr. Turner, the Ranking Democrat 
Member, for any statement that he may have.

          PREPARED STATEMENT FOR THE HONORABLE CHRISTOPHER COX

    Homeland Security Select Committee Chairman Christopher Cox (R-CA) 
held a hearing today for the purpose of gaining authoritative answers 
to the vital questions about the safety of the American people. 
Chairman Cox made the following statement today as he welcomed the 
testimony of Homeland Security Department Secretary Tom Ridge:
    The Committee welcomes Secretary Tom Ridge for his testimony on the 
progress the Department of Homeland Security has made since he was 
sworn in as its first leader on January 24, and on two initiatives 
designed to improve America's readiness in case of another terrorist 
attack: Operation Liberty Shield, and TOPOFF II.
    It has been 116 days since Gov. Ridge became Secretary. It has been 
exactly 80 days since the majority of the agencies that make up the 
Department of Homeland Security -- including Customs, the Border 
Patrol, the Coast Guard, TSA, and FEMA -- officially joined the 
Department. Measured in bureaucratic terms, 80 days is the blink of an 
eye. But in the real war against terrorists who would destroy the 
United States, 80 days is a deadly serious long time.
    Your presence here this morning, Mr. Secretary, is requested so 
that Congress and this Committee can get authoritative answers to the 
questions that are so vitally important to every American:
    How safe are we?
    How far has the Department come in fulfilling the mandate of 
Congress to establish this new Department?
    What has become of the billions of dollars Congress has 
appropriated since Sept. 11, 2001, for anti-terrorism, homeland 
security technology, overseas operations, and first responders?
    How has Liberty Shield increased the protections for America's 
citizens and infrastructure?
    And, what have we learned after $16 million and the energies of 
over 8,000 people from 100 federal, state and local agencies were 
invested in the simulated terrorist attacks on Chicago and Seattle?
    Last week, Chicago was ``attacked'' by terrorists using pneumonic 
plague as a weapon. The panic and death that spread rapidly throughout 
the city were compounded by a disaster at Midway Airport, when a 
medical helicopter crashed into a plane full of passengers as it made 
an emergency landing. Two hundred victims littered the runway.
    In Seattle's scenario, 150 people were "injured" by the explosion 
Monday, and 92 were taken to hospitals. Rescuers sought 20 people 
believed to have been buried in the rubble created by the blast and two 
were reported killed.
    About 40 miles south of Seattle, participants at Pacific Lutheran 
University near Tacoma acted out a simultaneous attack on the campus, 
where a smoke bomb was set off to simulate a car bomb.
    This exercise generated many questions:
    Those participating in the exercise were given advanced notice of 
many of the details of the planned crises. Critics of the exercise 
argue that this made the exercise ineffective. Does the Secretary 
believe that this exercise was still a useful exercise?
    Will future exercises leave more uncertainty for the participants 
to confront?
    Press reports indicated that there were capacity problems in 
Chicago's hospitals. Is this true? If so what contingency plans are 
being put in place?
    Media reports indicated that the government had trouble quickly 
putting in place a system that could reliably track the radioactive 
plume from the supposed dirty bomb. What is being done to address this 
weakness?
    These are just a few of the questions I hope the Secretary will 
address.
    Mr. Secretary, we appreciate the fact that you have submitted 
extensive written testimony for the record concerning the achievements 
of the Department during 2003. We invite you to summarize for the 
Committee, with particular emphasis on those portions of your testimony 
concerning the lessons learned thus far from Liberty Shield and TOPOFF 
II. We recognize that the 22 agencies comprising the Department have 
wide-ranging responsibilities, such as response to snowstorms, seizing 
illegal drugs, and icebreaking to keep commerce flowing in the Great 
Lakes, but our time here is limited and necessarily we must focus on 
the purpose of today's hearing.
    With that, we are happy to have you here, Mr. Secretary. We look 
forward to your presentation.
    Mr. Turner. Thank you, Mr. Chairman.
    Good morning, Mr. Secretary. We are called here today by 
our constitutional duty to provide for the common defense. The 
mission of the Department of Homeland Security is to provide 
the American people a common defense from the threat posed by 
international terrorism.
    Mr. Secretary, the mission of this Congress and this 
committee is to be a full partner with you in this effort to 
protect America. In the past few days we have witnessed renewed 
al Qaeda attacks in Saudi Arabia and in Morocco. And, according 
to recent news reports, we gather this morning in the wake of 
new warnings of terrorist attacks against the United States.
    America's enemies are dedicated to doing us harm and 
destroying our way of life and we must be united in our efforts 
to stop their evil plans, for as we learned from the 
firefighters, the police officers, the health care providers, 
and the construction workers during the attacks of September 
11, America is at her best when we stand together.
    In that spirit, Mr. Secretary, let us move forward, united 
in the task. To protect America we have to improve our 
intelligence capabilities to thwart the enemy before it 
attacks.
    Congress created the Department of Homeland Security to do 
a better job of connecting the dots of our intelligence. But 
serious questions remain. Are the various intelligence agencies 
responsible for our security fully sharing counterterrorism 
information? Does the Department of Homeland Security have the 
capacity to analyze threat information and direct resources to 
appropriate vulnerabilities? And, finally, is intelligence 
information being provided to Federal, State, and local 
officials who are on the job every day to ensure the safety of 
the American people? We must get the intelligence aspects of 
homeland security right. If we fail, then much of the rest of 
what we will do will have little meaning.
    To protect America, I believe we must move faster and be 
stronger than we are today. We must secure America's borders on 
land, sea, and air. That means more Border Patrol agents on the 
front lines, putting more Coast Guard patrols to sea, and 
ensuring that every passenger airliner flying in the United 
States has had passengers and cargo cleared by security.
    Mr. Secretary, we need stronger forces on the front line. 
We must prevent catastrophic attacks against the American 
people that could involve chemical, biological, or nuclear 
materials. Every major city in America should have detection 
devices and specialized equipment to neutralize the effects of 
a chemical attack. Every port of entry in America should have 
the capability to screen and detect nuclear materials that 
might be a part of a smuggled weapon of mass destruction. Every 
hospital in America should have access to the training and 
expertise necessary to identify and turn back a biological 
attack.
    Every day that these preparations lag is a day that we 
continue to be unnecessarily at risk. Mr. Secretary, I believe 
we must move faster. We must also prepare our communities in 
case even our best efforts to prevent an attack come up short. 
The lessons of September 11 speak to us today. Our first 
responders must be able to communicate with each other on 
standardized equipment in time of crisis. And just as we 
provided the best training and equipment to our soldiers on the 
front line in Iraq and Afghanistan, we must also provide the 
training and equipment first responders will need on the front 
lines of the war on terror.
    Last month this Congress provided $62 billion to the 
Department of Defense for the 3-week war to remove the threat 
of Saddam Hussein in Iraq. We have always joined together in 
the defense of our Nation. But we have appropriated less than 
10 percent of the sum we spent on the war in Iraq for our first 
responders who defend us here at home.
    In the days after September 11, flags appeared on roadways 
and front yards all across America and there were home made 
signs saying ``United We Stand.'' It is our challenge, it is 
our duty, Mr. Secretary, to live up to that call from the 
American people.
    We must ask business to join us with a public/private 
partnership to secure the 85 percent of the critical 
infrastructure such as nuclear, chemical, and computer 
facilities that are in the private sector. We must work 
together, Mr. Secretary, to build sustained strategies to 
protect the American people and win this war on terror.
    The Congress and the President working together in a true 
partnership comes only through consultation and collaboration. 
That is the only real way to move forward. Speaker Hastert 
charged our committee with making certain that the executive 
branch is carrying out the will of the Congress and serving, as 
he said, as the eyes and ears of Congress as this critical 
Department is organized. We need enhanced communication, 
cooperation, and consultation with the Department as the months 
move forward.
    Let us live up to the promise of those early days of 
September 11 that united we will stand and working together we 
will win the war against terror.
    Thank you, Mr. Chairman.
    Chairman Cox. I thank the gentleman for his outstanding 
statement.
    Chairman Cox. The Chairman observes that beyond the 
permanent record of this hearing that is being created by the 
House, it is being televised nationally on C-SPAN and 
simultaneously Web cast on homeland.house.gov. The Internet 
video record of this hearing and the written records of the 
hearing on the Web will remain indefinitely available at 
homeland.house.gov.
    Mr. Secretary, we appreciate the fact that you have 
submitted extensive written testimony for this hearing 
concerning the achievements of the Department during 2003. We 
also recognize that the 22 agencies comprising the Department 
have wide-ranging responsibilities, such as response to 
snowstorms, seizing illegal drugs, and ice breaking to keep 
commerce flowing in the Great Lakes. And of course, our time 
here is limited.
    We must necessarily focus on the purpose of today's 
hearing, so we invite you to summarize for the committee for 5 
minutes, with particular emphasis on those portions of your 
testimony concerning the lessons learned thus far from Liberty 
Shield and TOPOFF II.
    With that, we are happy to have you, here Mr. Secretary. We 
look forward to your presentation.

            PREPARED STATMENT OF THE HONORABLE NITA M. LOWEY

    Thank you, Mr. Secretary, for appearing before this unique select 
committee today. As federal officials, we share a grave responsibility 
to the people of the United States, and I believe strongly that our 
unprecedented military might - shown once again in the war with Iraq -- 
must be matched strength for strength by our security at home.
    The Department of Homeland Security's mission - to prevent 
terrorist attacks in the US, protect the American people and the 
country's critical infrastructure, and ensure an optimal response 
capability - is a big job that demands clear priorities.
    Everywhere you look, there are tremendous challenges.
    It seems that we are doing a capable job of securing our borders. 
But we still inspect less than 5% of container ships entering major 
seaports, and we don't have anywhere near the manpower to ``extend'' 
our borders by operating in foreign ports, warehouses, and travel hubs. 
I was very disturbed to learn that only five major overseas ports have 
U.S. inspectors present to inspect cargo before it leaves for the 
United States.
    I'm not satisfied that we've improved how information is gathered, 
shared, and analyzed. Immediately after September 11th, there was a 
call for better intelligence across America. Ray Kelly, our Police 
Commissioner in New York City, who clearly recognizes that New York is 
the most symbolic target for terrorists, created a counterterrorism 
bureau. Today, NYC police officers are monitoring Moscow, London, Tel 
Aviv, Islamabad, Manila, Sydney, Baghdad, and Tokyo. They're watching 
Al-Jazeera and other foreign news broadcasts, and have language 
specialists who speak Arabic, Pashto, and Urdu, to name a few.
    Because the FBI and CIA, as well as defense-related intelligence 
resources, remain outside the Department of Homeland Security, New 
York's action reflects the significant concern about the Department's 
ability to assess threats without access to ``raw'' intelligence from 
foreign sources and domestic law enforcement. This is a critical lapse 
that demands correction, and I look forward to discussing your sense of 
intelligence gathering and sharing.
    I also believe we must do a better job of setting clear priorities 
for the protection of vulnerable assets. It is not possible to 
safeguard every facility within our borders, but some are clearly more 
tempting as targets and, therefore, more deserving of comprehensive 
security improvements.
    The nation's 103 nuclear facilities are excellent examples, 
particularly Indian Point, just north of New York City. Nearly 300,000 
people reside within 10 miles of the plants. The 50-mile ``peak 
injury'' zone encompasses all of New York City. I called for the 
orderly decommissioning of Indian Point in February 2002 after 
extensive research, and have worked since to ensure that the plants are 
as secure as we can make them, as long as they remain open.
    I've been shocked that FEMA, which is now part of the Department of 
Homeland Security, and the Nuclear Regulatory Commission, haven't taken 
the basic steps necessary to secure this facility. Searches of Al Qaeda 
caves in Afghanistan produced detailed plans and studies of nuclear 
power plants, and yet we can't seem to get the agencies to take 
seriously the potential of a large-scale terrorist attack on a nuclear 
or chemical plant.
    I believe strongly that we must federalize security at nuclear 
plants, as we've done at airports since September 11th. We should 
strengthen qualification and training standards for security personnel 
- many of whom have no law enforcement or military background; and 
conduct more frequent, realistic emergency exercises, with more 
rigorous drills and planning standards for plants adjacent to high-
density urban areas like ours.
    We also must improve security of spent fuel pools. The pools, 
filled with enormous quantities of flammable radiological material, are 
generally considered the most vulnerable part of a plant. In test 
drills at Indian Point, the three spent fuel pools were poorly defended 
and easily penetrated.
    Unfortunately, the lapses at our nation's nuclear facilities seem 
to be part of a generalized failure.
    As I've traveled throughout the New York area and talked with 
mayors and supervisors, law enforcement, emergency responders, doctors, 
parents, and teachers, I've heard the edge of frustration in their 
voices. They are anxious to prepare but are looking for credible 
direction and real money.
    It's glaringly obvious that we need both more resources and better 
coordination at all levels of government.
    I'll give you an example. During the last Congressional work 
period, I sat down with representatives of local hospitals, to get a 
sense of their readiness and discuss their concerns. I asked them about 
their experience with an impressive new resource I had visited with HHS 
Secretary Tommy Thompson - a health ``emergency center'' that links the 
federal health department to every hospital in the country. Not one of 
the hospitals with which I met had any idea such a resource existed. As 
far as they knew, their facilities were not connected to this 
headquarters.
    That's bad news. The good news is: resources are finally becoming 
available, and I want to thank you, Mr. Secretary, for your public 
support for adjusting federal formulas for homeland security funding.
    The ``base plus per capita'' funding formula is very detrimental to 
many high-threat areas. Even though New York is universally 
acknowledged to be the top target for terrorism, the federal government 
sent us only $3.21 per state resident, compared to $22.46 for Wyoming 
resident, in initial homeland security grants for fiscal year 2003.
    The New York delegation felt very strongly that this was the wrong 
approach, and we worked with our Governor, Mayors, County Executives 
and others in a bipartisan way to change how the federal government 
funds preparedness. I'm very pleased that this bipartisan effort was 
successful, and that the $800 million now available to high-threat, 
high-density urban areas is being distributed under a formula that 
takes into account credible threat, vulnerability, the presence of 
infrastructure of national importance, identified needs of public 
agencies, as well as population.
    As opposed to the base plus per-capita formula used in the past - 
under which New York State as a whole got about $70 million - under 
this standard, New York City ALONE was allocated $150 million.
    So we're making progress, but there's much more to do. The money is 
a good start, but it's not enough. We must put more resources into 
local preparedness, and we must work at every level of government to 
coordinate our needs and our plans. I know you are as concerned and 
focused as we are on doing all we can to prevent terrorist attacks in 
America and on Americans wherever they are.
    I thank you for your efforts to date, and look forward to your 
testimony and our discussion today.

        PREPARED STATEMENT OF THE HONORABLE LINCOLN DIAZ-BALART

    Thank you Secretary Ridge for coming before us to testify on the 
progress, status, and plans for the Department of Homeland Security. I 
look forward to your testimony, and to working with you as we continue 
the process of securing our homeland.
    I commend President Bush, you, and the Administration for what has 
already been accomplished in establishing the Department of Homeland 
Security, constituting the largest federal reorganization since World 
War II.
    Obviously it has been no small task, yet there is much that we have 
yet to accomplish. I look forward to working with you particularly to 
ensure that we weigh the level of terrorist threat versus our 
vulnerability. I believe we must do all we can to protect our ports, 
borders, and critical infrastructure from potential terrorist attack 
whether it be through changes in physical security or through 
improvements in intelligence collection and dissemination.
    I also look forward to hearing from you with regard to how the 
Department will create an effective partnership with our nation's 
emergency first responders. Clear lines of communication must flow from 
the Department to the states, and to county and local governments.
    As the recent wave of terrorist suicide bombings abroad have 
indicated, the war against international terrorism is far from over--
and our efforts to secure our homeland must be pursued tirelessly.

         PREPARED STATMENT OF THE HONORABLE BENNIE G. THOMPSON

    Mr. Chairman, thank you for taking the lead and organizing this 
hearing. It is with great pleasure that I welcome Secretary Tom Ridge 
before today's Committee hearing. Mr. Secretary, I would like to begin 
by commending you on the absolutely great effort put forth by you 
toward accomplishing the daunting task of putting together the 
Department of Homeland Security. I also would like to thank you for 
your willingness to come before the Select Committee. With this 
hearing, I hope that we can begin to create an atmosphere between this 
body in the House of Representatives and the new Department that is 
conducive to frequent constructive dialogue and the welcomed free 
exchange of ideas, all focus with the same goal in mind--securing The 
United States of America.
    Despite our country's continued success with the ``War On 
Terrorism'', last week's suicide bombings in Riyadh, Saudi Arabia and 
Casablanca, Morocco are a brutal reminder of recent tragic events and 
make it quite evident that there is still an element functioning out 
there that is ready, willing, and able to cause harm to American 
citizens and interests at a moments notice. These attacks just 
emphasize the fact that as we continue this international manhunt we, 
the U.S. Congress, must do our part to come together and work to 
protect people here at home from threats of all nature.
    We must work to secure our borders by land, sea, and air. We must 
work to develop and properly disseminate quality intelligence and 
state-of-the-art technology. We must develop and stockpile the latest 
bio-countermeasures. We must eliminate the federal bureaucracy so that 
states and localities can have access to the funds necessary to train 
and equip ``first responder'' so that they can successfully carry out 
their duties. And we must educate our citizens so that they are well 
informed and are prepared in the event an attack occurs. These tasks 
will by no means be completed overnight, but I know that we will 
continue to work and with every passing day this county will indeed 
become more secure.
    Thank you again Mr. Chairman for organizing this hearing. Mr. 
Secretary, I look forward to hearing your testimony and having the 
opportunity to ask you a couple of questions.

 PREPARED STATEMENT OF THE HONORABLE LORETTA SANCHEZ, FOR THE MAY 19TH 
                    HEARING WITH SECRETARY TOM RIDGE

    Thank you, Mr. Chairman. I would first like to thank Secretary 
Ridge for taking the time to be here with us today. This Committee has 
been anxious to have you come before us, and I know that we all have a 
number of questions and concerns that we are glad to present to you.
    As you well know, since September 11th I and other Members of this 
Committee have been focusing a large amount of our attention on 
Homeland Security, both in our districts and throughout the country. 
During this time, I have met with police and firefighters, medical 
personnel, port authority personnel, hospital administrations, and many 
constituents. I have visited the ports of Los Angeles and Long Beach, 
local hospitals, and many potential targets, such as Disneyland.
    During these meetings, one question is inevitably raised: ``Is our 
nation more secure than it was before September 11th?'' Unfortunately, 
I do not feel that I can answer ``yes.'' This is why we are here today. 
I hope that this is the first of many hearings that may provide us, as 
members of this historic Committee, with answers and a continued 
dialogue with you.
    Mr. Ridge, you have a very difficult task in front of you. But when 
it comes to Homeland Security, we cannot be patient. We need to be 
aggressive and we need to be smart.
    We need to assess our borders. The entry/exit system, U.S. VISIT, 
set out by the Department is a good step, but we need to make sure that 
this system has the funding needed to make it work. We need to make 
sure that under this system, foreign students have access to our valued 
universities while terrorists, who intend to manipulate the system, do 
not. And we need to fully staff and train personnel at our borders so 
that the US VISIT system is adequately administered, while still 
facilitating legitimate immigrant entry.
    We should have Custom officials at every vital port throughout the 
world, but have the assurance that we are still fully staffing the 361 
ports here at home. Our ports should be provided adequate federal 
funding to assist with the installation of basic security measures 
mandated under the Maritime Security Act. Furthermore, a comprehensive 
cargo supply tracking system and other upgraded technologies should be 
implemented at every port so that workers are not spending their time 
inspecting packages unless they are reliably deemed as compromised.
    We should have a critical infrastructure priority list based on a 
sound risk assessment so that a national critical security action plan 
can be established. In the meantime, we should be developing public/
private partnerships to facilitate access to better technologies and to 
formulate incentives to private industry to upgrade their security 
without losing out in the national market.
    For financial security, the key players in the government 
securities market should have integrated communication networks and up-
to-the-minute data and software backup repositories to ensure that, in 
case of a national incident, our government has sufficient funds for 
American financial institutions.
    And our first responders need a funding source that is streamlined, 
timely, and based on local needs, so that no matter where they are in 
the county or what threat they might face, they have the means 
necessary to respond effectively.
    Secretary Ridge, as you know, these are just a few priorities that 
your Department faces. And as our nation once again stands at an 
increased level of alert, the truth is, right now we don't know where 
or when the next attack on our own soil may occur. The Department needs 
to work fast to ensure that all of our nation's vulnerabilities are 
addressed in the quickest and best way possible. I look forward to 
hearing your testimony, and I hope that you will address many of these 
questions today and over the next several weeks as you continue the 
challenging process of fully establishing the Department of Homeland 
Security.

             PREPARED STATEMENT OF THE HONORABLE NORM DICKS

    Thank you, Mr. Chairman. I would also like to join you and others 
from this Select Committee in welcoming our former colleague, Secretary 
Tom Ridge. Many of us enjoyed serving with you in the House, Mr. 
Secretary and we appreciate your service afterward as Governor of 
Pennsylvania. So we welcome you back, Mr. Secretary, and I just want to 
say that we hope you will be visiting this panel more frequently to 
discuss your new Department's progress on securing our homeland from 
future terrorist attacks and perhaps even to listen to some of the 
suggestions from our Members, who are all serious individuals committed 
to the success of your task
    First of all, Mr. Secretary, I want to commend you for your 
commitment, your energy and your patriotism. When the President called 
after 9-11 to ask for help, you set aside your career and responded 
immediately to assume a new post within the Administration. And now as 
Secretary, you have the monumental task before you of overseeing the 
formation of an entirely new Cabinet department from the dozens of 
existing government functions ... and at the same time assuring that we 
are taking any and all prudent actions to make our nation safer from 
terrorist threats.
    Clearly, Mr. Secretary, there is no more pressing issue before the 
Congress this year than that of protecting our homeland from those that 
wish to do us harm. From my viewpoint, however, I am not convinced that 
we are putting all of our resources where they can best accomplish the 
task. I remain deeply concerned that, in their zeal to cut taxes for 
investors, both Congress and the Administration are under-funding 
programs that are absolutely critical to our national security.
    Since just after September 11 the President has championed the role 
of first responders--and we all know how important these firefighters, 
police and other first responders have been and are for homeland 
security. They are the men and women upon whom we will rely most 
heavily in the event of future attack But I worry, Mr. Secretary, that 
in this case our actions have not matched our rhetoric, and I fear that 
we're not giving the first responders the equipment and the training 
they desperately need.
    Last year, the President requested $3.5 billion for first 
responders. This amount, taken at face value, would have provided 
significant assistance to state and local jurisdictions. However, about 
half the funds are cut from existing first responder programs for law 
enforcement and firefighters. Congress restored this funding; but as a 
result, only about $1.4 billion in new money was actually appropriated 
for first responders, far short of the President's announced target.
    The supplemental appropriations bill passed last month helped to 
fill some of this gap, but we remain nearly $1 billion short of the 
$3.5 billion goal for this year, with little hope of seeing any 
additional funding allocated for the remainder of this year. I 
understand that the competition for funding has been very tough this 
year, Mr. Secretary. But, again, I worry that the Bush Administration 
is shortchanging the very real and very urgent needs of your 
Department, and I want you to know that there are many of us on Capitol 
Hill (certainly on this committee) who stand ready to help you make the 
case for additional funding.
    I am likewise disappointed that the Administration's strategy for 
the next fiscal year appears to be more of the same. Again, $3.5 
billion is proposed for first responders, but again, half the funds are 
cut from existing first responder programs. Clearly, the threat of 
terrorism within the United States has dramatically increased, but I am 
sure you know that there has been no corresponding reduction in the 
threat of violent crime or fire. Slashing funds for these programs 
makes very little sense, and I believe we must work harder to make the 
case for sufficient funding for these vital programs within your 
Department.
    During the recent congressional recess, I took the opportunity to 
meet with many of the first responders in my district. In addition to 
concerns about the amount of money being made available, many also 
expressed concerns with regard to the inflexibility of the grants.
    For example, lists of available equipment that may be purchased are 
rather narrow, and I am told that grant funds cannot be spent on either 
training to use and maintain this equipment or for its upkeep. This is 
an issue that must be addressed, as it does little good to provide 
state and local jurisdictions with equipment that they can neither use 
nor maintain properly.
    Port security is another area where I believe we are falling short. 
The Coast Guard is currently working with the ports to assess 
vulnerabilities and make improvements, but progress is far slower than 
we had hoped. The Coast Guard estimated that in FY 2003 $938 million 
was needed for the first year of this process; however, the President's 
request was well short of this figure and, even with supplemental 
appropriations, we are falling half-a-billion short.
    In addition, other programs critical to border security, such as 
the Coast Guard's Deepwater plan, the Container Security Initiative, 
and northern border staffing from the Bureaus of Customs and Border 
Protection and Citizen and Immigration Services remain dangerously 
under-funded.
    This is, of course, an issue of priorities. Our top priority as a 
nation, an Administration, and a Congress must be to secure the people 
of our country from acts of terrorism. Knowing you and your reputation, 
Mr. Secretary, I am confident that you share this Committee's priority 
for quick action. You know that tomorrow is too late for us to be 
prepared for threats we face today. in this regard, I look forward to 
your testimony today, and I look forward to working with you, Mr. 
Secretary, in addressing the very real and very serious threats to the 
safety and security of the American people. Thank you.

         PREPARED STATEMENT OF THE HONORABLE SHEILA JACKSON-LEE

    Thank you, Chairman Cox and Ranking Member Turner for convening 
this very important hearing to hear testimony on America's level of 
safety, and the progress of the Department of Homeland Security's 
national security efforts.
    In the wake of the September 11th terrorist attacks on the World 
Trade Center and the Pentagon, the United States government has taken 
many steps in its efforts to stop terrorists and other dangerous people 
from entering the country. These efforts are absolutely essential to 
the security of our nation.
    Last week, we conducted the TOPOFF II exercises to simulate the 
devastation of a terrorist attack and to assess our cities readiness to 
deal with an attack. Many Members of Congress have undertaken efforts 
to prepare their own communities for dealing with a terrorist attack.
    For example, I, along with Congressmen Jim Turner, Gene Green, Nick 
Lampson, and Chris Bell participated in a valuable homeland security 
initiative in Houston entitled the ``The Homeland Security Briefing 
With Testimony--Community and Local Government Readiness If Subjected 
To A Terrorist Attack.'' This was one of the first briefings of its 
kind in the nation to bring Members of Congress, local community 
officials, and members of the public together to engage in dialog on 
the issue of community preparedness to deal with a terrorist attack.
    We heard invaluable testimony from Houston's first responders, 
hospital administrators, school superintendents, and community 
organization directors. Each of these individuals is an integral part 
of community homeland security preparedness efforts. Their testimony 
provided previously unheard recommendations on preparing their segment 
of the local community to deal with terrorist attacks.
    It is critical to develop comprehensive procedures and policies to 
protect Americans from a terrorist attack. As we develop these 
procedures it is equally critical to protect the civil rights and civil 
liberties of every American resident including our immigrants.
    Long-time skeptics of immigration have tried to turn legitimate 
concerns about security into a general argument against openness to 
immigration. It would be a national shame if, in the name of security, 
we were to close the door to immigrants who come here to work and build 
a better life for themselves and their families. Like the Statue of 
Liberty, the World Trade Center towers stood as monuments to America's 
openness to immigration.
    Workers from more than 80 different nations lost their lives in the 
terrorist attacks. According to the Washington Post, "The hardest hit 
among foreign countries appears to be Britain, which is estimating 
about 300 deaths ... Chile has reported about 250 people missing, 
Colombia nearly 200, Turkey about 130, the Philippines about 115, 
Israel about 113, and Canada between 45 and 70. Germany has reported 
170 people unaccounted for, but expects casualties to be around 100." 
These men and women from other countries were not the cause of 
terrorism. They were its victims.
    The problem is not that we are letting too many people into the 
United States but that we are not keeping out the dangerous ones who 
come to our country with bad intentions. Immigrants come here to 
realize the American dream; terrorists come to destroy it. We should 
not allow America's tradition of welcoming immigrants to become yet 
another casualty of September 11th.
    American lives and the quality of life in this country depend to a 
substantial extent on the security measures that the Department of 
Homeland Security will provide. You have an enormously important 
responsibility. Nevertheless, the economic state of this country is 
vital too, and that can be adversely effected by how your Department 
handles the millions of legitimate international visitors who come to 
our country every year.
    Visiting international tourists and business entrepreneurs are a 
valuable component of our nation's economy. Last year, more than 41 
million international visitors generated $88 billion in expenditures 
and accounted for more than one million jobs nationwide. As the 
Department of Homeland Security moves forward, you will be faced with 
many challenges with respect to international traveler facilitation.
    I also have concerns about the programs that seem to give too 
little regard to civil liberties. For example, I am troubled by the 
methods that have been employed to implement the Special Registration 
Program. I believe that this program is fundamentally flawed in both 
design and implementation. It will not enhance our security. It is a 
needle-in-a-haystack approach. The call-in registration program seeks 
to identify tens of thousands of law-abiding temporary visitors to our 
country and require them to come to government offices to be 
fingerprinted and photographed. The haystack being created by this 
program is huge.
    The persons coming forward to comply with call-in registration are 
those who are seeking to obey the law. The program is ineffective at 
seeking out and identifying those in the United States who might 
actually be intending to harm our nation.
    The resources being expended to fingerprint, photograph and 
interview thousands of people coming forward to comply with this 
program are staggering. Some offices have turned away would-be 
registrants because they do not have the staff to cope with the work. 
This program is diverting resources from the more important work of 
investigating and prosecuting the people who may truly be dangerous. We 
need to implement initiatives that address our security in an effective 
manner. Effective initiatives would target terrorists, not innocent 
immigrants. At the very least, they would not so frequently alienate 
the immigrant communities whose cooperation we need to identify the 
terrorists in our midst.
    Another major concern of mine, and I'm sure every American and 
Member of this committee is the amount of time domestic preparedness 
has taken. The Department of Homeland Security is over a year old. Our 
local first responders still lack the funding, equipment, and training 
necessary to properly wage the war on terrorism, and to protect our 
local communities. Many hearings and briefings have been held but few 
concrete changes have been implemented at the local level.
    Mr. Chairman and Mr. Ranking Member, I want to emphasize that I 
have supported and will continue to support the efforts of the 
Department of Homeland Security to enhance national security. My 
objective is ensure that the methods the Department employs to secure 
our homeland are effective and give due regard to the civil liberties 
that make this country great. I also want to be sure that local 
communities receive the funding and equipment they need to efficiently 
protect our homeland.
    I look forward to hearing Secretary Ridge's testimony today and 
learning more about the progress of the Department of Homeland 
Security.
    Thank you.

           PREPARED STATEMENT OF THE HONORABLE BOB ETHERIDGE

    Thank you, Chairman Cox and Ranking Member Turner, for holding this 
hearing. I have been looking forward to hearing from you, Mr. 
Secretary, for several months now, and I am anxious to get your 
perspective on the progress the Department of Homeland Security has 
made in protecting the United States from both foreign and domestic 
threats.
    I have met with many of the first responders in my district to hear 
their concerns and get their feedback on their efforts in protecting 
North Carolina, and I want Secretary Ridge to understand their 
predicament. Last month I held a summit in Raleigh to bring together 
first responders, emergency management officials and all those involved 
in homeland security to get their perspective from the front lines.
    They have plenty of concerns: Our local police and firefighters 
will be the first on the scene in any disaster--natural or man-made--
and it is absolutely critical that the federal government supports 
their efforts with funding, training and region-specific intelligence.
    Despite national efforts to prepare the country to respond to a 
disaster, many first responders are frustrated because they continue to 
operate in a vacuum.
    They are forced to ramp up patrols, surveillance and other 
protective measures in the case of an elevated code status, such as the 
recent Code Orange alert, but they do not have appropriate information 
about the possible reasons for the alert status or the relative risk to 
their jurisdictions. Nor are they compensated for the additional costs 
they incur during heightened alert status for necessary expenses like 
overtime pay. In addition, too often the bureaucracy is more hindrance 
than help.
    For example, the Department encourages first responders to apply 
for fire or COPS grants, yet the Administration has changed the rules 
in mid-stream for COPS grants. Instead of allowing small departments to 
use the grants to hire personnel that can respond to all a community's 
needs, the Administration is now giving priority to jurisdictions that 
wish to hire personnel devoted to homeland security, which tend to be 
larger departments that can devote personnel to that specific purpose.
    It is absolutely imperative that the Department of Homeland 
Security recognize that domestic security functions must be integrated 
into daily first responder duties and training. House fires keep 
burning, drug dealers still push their poison and hurricanes do not 
wait for Orange Alerts to be rescinded.
    It has taken us a long time to get to work on our oversight duties, 
and I appreciate the effort both the Chairman and Ranking Member have 
put into hiring staff and hammering out the details of the committee 
administration, but as we can see from the tragic bombing in Saudi 
Arabia and Morocco last week, the terrorists are not going to wait for 
our committee to staff up or hold hearings. We need to move forward as 
quickly as possible with our business of protecting out country.
    I agree with your statement that the best defense against terrorism 
is to prevent attacks. However, we must also be prepared to respond to 
all threats. Thank you again for giving us the opportunity to begin 
discussions about the role of the Department in maintaining our 
security.

            PREPARED STATEMENT OF THE HONORABLE ZOE LOFGREN

    Thank you Chairman Cox and Ranking Member Turner for calling this 
hearing today.
    I am pleased that we are finally going to have the opportunity to 
question Secretary Ridge. Frankly, I think we have waited much too long 
for this inaugural appearance. The House created this Committee on 
Tuesday, January 7, 2003. The House leadership appointed Members to the 
Homeland Security Committee on Wednesday, February 12, 2003. A full 97 
days have passed since we were appointed to this committee. It is 
unacceptable that this committee is getting its first report from the 
Department of Homeland Security (DHS) today.
    We have too much important work to do to have to wait over three 
months for this initial hearing with the Secretary. I call on Chairman 
Cox to pick up the pace. I understand that there is much work to be 
done when a new House Committee is created, however, the mission of 
this committee is urgent and it requires us to move faster. The 
American people have real concerns about our domestic security, and 
this committee should be in the business of addressing these concerns. 
I sincerely hope that we will not have to wait another three months 
before we see Secretary Ridge again.
    I am looking forward to hearing from Secretary Ridge today and 
hopefully learning about the progress being made in the development of 
the Department of Homeland Security. I know that he has the monumental 
task of leading the largest federal reorganization since World War II, 
and that this effort will take time.
    However, the need to protect our citizens and critical 
infrastructure is urgent. Last week's terrorist attacks in Saudi 
Arabia, Morocco and Israel prove that the war against terrorism did not 
end with the fall of Baghdad. The threat of attack against the United 
States and our allies is very real. The DHS must be ready to continue 
this fight.
    Secretary Ridge, I have a few areas that I would like to cover 
during the questioning today.
    First, I want to hear about the integration of the INS into the 
Department of Homeland Security. I have had the misfortune of working 
with the INS as a former immigration attorney and now as a Member of 
Congress attempting to identify and fix the problems that plagued the 
INS and now the DHS. Now that the INS is no more, and its duties have 
been absorbed into your agency, I am hoping that you are having more 
success in fulfilling its mission. I have real concerns that the 
problems of the former INS still exist within your agency. Are 
immigration officials within your department and the State Department 
still using outdated technology like microfiche, and even paper files, 
to track visitors to this country? Are legitimate legal visitors like 
students, professors, and scientists being kept out of the United 
States to the detriment of our national interest? At this critical time 
in which you are formulating your management plans for the immigration 
bureaus within the DHS, you have a tremendous opportunity to institute 
change free of the shackles of bureaucratic tradition and standards 
that often plagued the INS.
    I also would like you to comment on the Department's efforts to 
help the states and cities better protect themselves from terrorist 
attack. I hope you will take some time to explain the DHS formula for 
awarding state and local grants. I have concerns that large states like 
California, New York and Texas are being short-changed on a per captia 
basis. These large states have not only greater numbers of people, but 
also they tend to have more landmarks and key critical infrastructure 
that could be at risk and thus require greater protection. I am from 
San Jose, which is located on the Southern edge of San Francisco Bay 
area. In this relatively small area, we have national landmarks like 
the Golden Gate Bridge, important Federal installations like NASA Ames, 
and of course Silicon Valley, home to many of the country's most 
innovative high tech companies.
    Has DHS provided enough funding, training and advice to the local 
officials in the Bay Area to sufficiently protect these critical sites? 
If so, why does California rank dead last in the per capita allocation 
in homeland security state and local grants under the DHS formula? Why 
does Wyoming rank first? Is Wyoming at greater risk than California? 
This needs to be addressed and explained.
    Finally, I hope that you will also take a minute to talk about your 
efforts to address cybersecurity efforts at the DHS. As you may know, I 
serve as the ranking member of the Cybersecurity, Science and Research 
and Development Subcommittee. I would like you to assure me that 
cybersecurity will be a priority at the agency and will receive your 
personal attention.
    Secretary Ridge, I look forward to your remarks today and hope to 
work closely with you in the coming days and months.

STATEMENT OF THE HONORABLE TOM RIDGE, SECRETARY, DEPARTMENT OF HOMELAND 
                                SECURITY

    Secretary Ridge. Mr. Chairman and distinguished members of 
the committee, I do apologize for the delay in getting here and 
I will briefly summarize so we can get into the question and 
answer period.
    It is a pleasure and a privilege to be here today to 
discuss the progress and the outlook for the Department of 
Homeland Security. Since this is my first opportunity to appear 
before you, let me begin by congratulating you on the creation 
of this new committee. I thank you for your willingness to 
serve on a body that shares both a common focus and a common 
purpose with the Department of Homeland Security. Your 
commitment to the security of our homeland and the success of 
our Department will be critical to achieving the mission for 
which we were created.
    It has been slightly less than 4 months since the 
Department of Homeland Security came into existence, and less 
than 3 months since we truly became an operational entity. 
Given that brief time span, I believe we have made a great deal 
of progress in this enormous undertaking,and I hope that you 
will share my assessment that we are off to a good start, 
understanding that we still have a long way to go.
    During this short period of time, the Department of 
Homeland Security has, as it has been noted, launched Operation 
Liberty Shield to prepare and protect our Nation, including our 
ports and critical infrastructure, during a heightened threat 
period; completed TOPOFF II, the most extensive terrorist 
response exercise in history; launched a multimedia ready-
public information campaign to help families, businesses, and 
schools become safer and stronger citizens; announced the U.S. 
VISIT system which will use biometrics to track the comings and 
goings of visitors at our airports and seaports by the end of 
the year; and expedited the distribution of nearly $4 billion 
in grant monies to States and localities.
    We also began to engage the Congress to make sure that we 
put a grant system into place that maximizes every Federal 
security dollar.
    These are just the most visible signs of the progress we 
have made to date. As we speak, across the country people have 
been hired, trained, and deployed. Equipment has been provided, 
investigations have been run, and campaigns have been conducted 
that have the terrorist networks off balance.
    This quiet but remarkable progress has made a real 
difference. It was made possible by the sustained partnership 
between Congress, the President, and the Department in 
conjunction with the States and the localities of our country. 
We greatly appreciate the work you have done, the laws Congress 
has written, and the resources Congress has provided. And in 
that spirit I want to talk with you briefly about how we can 
build on this progress in the months to come.
    To that end, I ask for your support of the President's 
Department of Homeland Security budget request for fiscal year 
2004. I believe it lays a critical and solid foundation for the 
future. At $36.2 billion, the budget request represents nearly 
an 8 percent increase in funding for DHS programs over the 
fiscal year 2003 and active base levels. You will note that it 
contains critical initiatives to advance the efficiency and 
effectiveness of our Department, as well as to sustain ongoing 
programs and vital services unrelated to security, the 
traditional missions of many of these departments that so many 
of the Members are legitimately concerned about, and so are we 
within the Department.
    In short, the budget request for the Department of Homeland 
Security supports and carries out the President's National 
Strategy for Homeland Security a strategy that provides the 
right framework to preempt threats as best possible and prepare 
for an incident, should an incident occur. It helps meet our 
needs in every phase of homeland security from border and 
transportation security to infrastructure protection to 
emergency response and recovery. It also engages the academic 
and scientific community and private sector to find solutions 
to these challenges.
    In sum, it enables the 180,000 dedicated men and women of 
DHS to maximize their strength so that together we can help our 
Nation rise to a new level of readiness each and every day. I 
would add that all of this makes us a stronger and healthier 
country as well, better able to cope with disasters, diseases, 
and incidents of every kind.
    As we go forward into the future, I want to assure you the 
Department of Homeland Security will vigorously pursue our 
detection and prevention missions, while at the same time work 
to respond and recover from acts of terrorism. We cannot choose 
one mission over the other. We must put an equal effort in all.
    Today we are significantly safer than we were 20 months 
ago. We are safer because as a Nation we are more aware of the 
threat of terrorism and much more vigilant about confronting 
it. We are safer because our homeland security professionals 
now have the single Department leading them, and our States and 
cities have a place to turn for financial, technical, and 
operational support. We are safer because Congress and the 
President have devoted an unprecedented amount of resources and 
training to this effort. And with the help of our partners in 
Congress and the private sector and the cities and States of 
this country, we will become safer every day.
    As Winston Churchill once said, when faced with another 
grave worldwide threat to peace and liberty: ``This is not the 
end. It is not even the beginning of the end. But it is perhaps 
the end of the beginning.''
    In many ways we are still just at the beginning of a new 
chapter in America history, a chapter of renewed commitment and 
capability in the fight to safeguard the liberties, ideals, and 
precious lives that we hold sacred. I assure you it is a 
chapter together we as a Nation will write.
    Mr. Chairman and members of the subcommittee, I thank you 
for your commitment and for helping us build the capabilities 
to achieve our mission, and I thank you for the privilege of 
appearing before you here today.

    I will be happy to respond to any questions you might have 
at this time.

             PREPARED STATEMENT OF THE HONORABLE TOM RIDGE

    Good morning Chairman Cox, Congressman Turner, distinguished 
members of the Committee. It is a pleasure and a privilege to be here 
today to discuss the progress, status and plans for the Department of 
Homeland Security.
    Since this is my first opportunity to appear before you, let me 
begin by congratulating you on the creation of this new committee and 
thanking you for your willingness to serve on a body that shares both a 
common focus and a common purpose with the Department of Homeland 
Security. Your commitment to advancing the security of our American 
homeland and your interest in the success of DHS are critical to our 
ability to accomplish the mission for which the Department was created. 
Today's hearing marks a significant milestone in our combined effort to 
ensure the Department of Homeland Security fulfills its promise and 
potential.
    It has been slightly less than four months since the Department of 
Homeland Security came into existence and less than three since we 
truly became an operational entity. Given that extremely short time-
span, and with not all components even yet on board, I would be 
reluctant to call my testimony here this morning a ``State of the 
Department'' address, but to some extent, that's what I hope to 
provide. We recently completed our first 100 days as a Department. 
While somewhat arbitrary, this seems to be an increasingly popular 
point at which to assess whether an undertaking is getting off on the 
right foot. I'd like to share some of the Department's accomplishments 
since the 24th of January in the hope that you will share my assessment 
that we are indeed, off to good start.
    Since its inception on January 24, 2003, the U.S. Department of 
Homeland Security has:
    <bullet> Orchestrated and launched Operation Liberty Shield, the 
first comprehensive, national plan to increase protections of America's 
citizens and infrastructure;
    <bullet> Deployed new technologies and tools at land, air and sea 
borders;
    <bullet> Established the Homeland Security Command Center, a 
national 24-7 watch operation;
    <bullet> Launched the Ready campaign, a national multimedia public 
information program designed to build a citizen preparedness movement 
by giving Americans the basic tools they need to better prepare 
themselves and their families. Since its launch, Ready.gov has become 
one of the most visited Web sites in America.
    <bullet> Expedited distribution of millions of dollars in grant 
monies to states and cities, with more to come.
    <bullet> Initiated a comprehensive reorganization of the border 
agencies as well as other administrative measures to enhance 
departmental services and capabilities;
    <bullet> Completed transition of 21 out of 22 component agencies 
into the Department in the largest federal reorganization since World 
War II;
    <bullet> Conducted a series of listening sessions at strategic 
ports throughout the U.S. and began development of regulations that 
will require security assessments and plans for vessels, facilities and 
ports as required by the Maritime Security Act of 2002 and;
    <bullet> Completed TOPOFF II, the largest terrorist response 
exercise in history.
    <bullet> Began, in conjunction with the Office of Personnel 
Management, the development of a Human Resources Management System that 
both meets the critical needs of the Department and protects the civil 
service rights of its employees.
    Other accomplishments to strengthen security and improve services 
include:
    Border and Transportation Security
    <bullet> The Transportation Security Administration (TSA) 
inaugurated the federal Flight Deck Officer Training Program. The first 
class concluded on April 19th, with 44 pilots certified to carry 
firearms in the cockpit as Federal Flight Deck Officers
    <bullet> All front-line Bureau of Customs and Border Protection 
(BCBP) inspectors across the country have received personal radiation 
detectors that alert them to the presence of radioactive material.
    <bullet> The Bureau of Immigration and Customs Enforcement (BICE) 
launched a special operation to identify and remove persons with 
unknown or questionable identities with access to restricted areas of 
military installations. The effort called Operation Joint Venture, 
resulted in 37 arrests, of which 28 were removed from the United 
States.
    <bullet> BICE acquired and deployed additional ``A-STAR'' and 
``HUEY'' helicopters to bolster enforcement efforts along the U.S. 
Southern border.
    <bullet> Operation Green Quest (a multi-agency task force) 
continued its efforts to ensure the integrity and lawful operation of 
U.S Financial systems.
    <bullet> Project Shield America continued. This effort, a BICE 
initiative, continued to prevents sensitive U.S. technology and 
munitions from falling into the hands of terrorists and other U.S. 
adversaries. Under this initiative, BICE agents partner with U.S. 
manufacturers and exporters to guard against illegal arms exports.
    <bullet> The BICE Office of Air and Marine Interdiction (OAMI) 
provided 24-7 airspace security coverage over Washington, D.C. During 
Operation Liberty Shield, OAMI expanded this mission to include 
airspace security coverage over New York City as well.
    <bullet> BTS created a 24 hour Radiation/WMD Hotline to assist BCBP 
and BICE officers with scientific and technical needs regarding 
Chemical, Biological, Radiological and Nuclear (CBRN) alerts along the 
border.
    <bullet> TSA screeners at Denver International Airport developed a 
pilot program, ``Tots Friendly,'' designed to put children at ease as 
they go through security. The program is being evaluated for possible 
nationwide expansion.
    <bullet> Working with other federal agencies and private industry, 
TSA took steps to improve customer service by coordinating screening 
across different forms of transportation. For example, passengers who 
are disembarking from cruise ships in Miami can now have their baggage 
screened for their flight home right at the dock as they depart from 
their cruise.
    <bullet> We have held bilateral meetings with UK Home Secretary 
David Blunkett, Canada's Deputy Prime Minister, John Manley, and 
Mexico's Secretary of Interior, Santiago Creel, to continue progress on 
security initiatives of mutual interest.
    <bullet> DHS recently provided $65 million in grants to 20 transit 
agencies for security enhancements.
    Coast Guard
    <bullet> Coast Guard forces served on the leading edge of maritime 
security for Operation Liberty Shield by providing maritime security 
off our shores and in our harbors. During this effort, Coast Guard 
units escorted 1,809 ferries and passenger ships, and conducted 1,597 
air and 12,049 surface patrols, respectively. Coast Guard sea marshals 
and security teams boarded 1,059 merchant ships to assure their safe 
transit into and out of U.S. ports.
    <bullet> In April, the Coast Guard awarded a $140 million shore-
based response boat contract, which will dramatically improve Coast 
Guard capabilities. This contract calls for the delivery of up to 700 
new vessels that will be capable of speeds in excess of 40 knots (46 
miles per hour), have an enclosed cabin for crew protection allowing 
for all-weather operations, weapons mounting capability for light 
machine guns and less than lethal technology, state of the art 
navigation systems and a communications system enabling Coast Guard 
personnel to communicate with other homeland security partners.
    <bullet> The Coast Guard's Helicopter Interdiction Tactical 
Squadron (HITRON) was tasked to develop airborne use-of-force tactics 
to counter possible terrorist threats, and operating guidelines for the 
employment of HITRON assets for homeland security missions. HITRON was 
originally developed for counter-drug operations and is comprised of 
fully armed MH-68 helicopters capable of providing precision disabling 
fire, lethal fire, as well as close in suppression fire.
    <bullet> Coast Guard cutters and over 1,100 personnel deployed to 
the U. S. Central and European Commands continue to participate in 
coalition efforts to bring freedom to Iraq.
    Since March 1st, the Coast Guard has:
    <bullet> Interdicted 193 Haitians, 335 Dominicans, 310 Cubans and 
two Ecuadorians who were trying to illegally enter the U.S.;
    <bullet> Seized 20,828 lbs. of cocaine and 1,870 lbs. pounds of 
marijuana destined for the U.S. and;
    <bullet> Uncovered five significant violations of domestic fishing 
vessel regulations and made three catch seizures as a result of illegal 
fishing activity.
    <bullet> In the wake of the most challenging ice season in 25 
years, Coast Guard icebreaking cutters, in concert with their Canadian 
counterparts, worked to keep critical Great Lakes sea lanes open, 
permitting passage for 619 ore carriers and other vessels carrying 
cargo worth an estimated $620 million in this economically vital 
region.
    Emergency Preparedness and Response
    <bullet> Since March 1st, the Directorate of Emergency Preparedness 
and Response (EP&R) processed fifteen major disaster declaration 
requests that were subsequently favorably acted upon by the President 
and 12 emergency declaration requests related to various events, 
including the President's Day snowstorm.
    <bullet> Following President Bush's emergency declarations for 
Texas and Louisiana after the Space Shuttle Columbia incident, I 
directed EP&R to lead the federal effort to help protect public health 
and safety, recover materials and reimburse the affected localities. 
With the help of federalof federal, state and local partners, and more 
than 25,000 people, the effort produced 82,500 pieces of material 
totaling almost 84,800 pounds to assist NASA with its 
investigation.Sec. 
    <bullet> EP&R accepted 19,949 applications requesting more than $2 
billion from the Assistance to Firefighters Grants program 
(AFG).Sec. rant announcements are expected to be made in late May after 
a peer review process.Sec. he AFG has approximately $750 million to 
distribute to an estimated 8500 fire departments over the next twelve 
months to help better train, equip and prepare our nation's 
firefighters.
    <bullet> The Emergency Management Institute (EMI) expanded its 
training partnership with the Centers for Disease Control and 
Prevention to include integrated emergency management for bioterrorism, 
Incident Command System (ICS) training for federal, state and local 
public health agencies and health care-specific, exercise-based 
training for specific jurisdictions.<greek-e> new facility EP&R 
acquired during the Homeland Security transition, the Noble Training 
Center in Anniston, Alabama, will host some of this training.
    <bullet> EP&R trained a record number of leaders from volunteer 
fire departments for its Volunteer Incentive Program.Sec. his reflects 
a 42% rise in admissions for the program.
    <bullet> EP&R's National Fire Academy trained 27 FBI agents and 
investigators at an Arson Training Course to help improve their 
investigatory skills.Sec. he training included use of site burn 
buildings, scenario simulation labs, classroom and NFA curriculum.
    <bullet> To improve on-site management of federal assets in the 
immediate aftermath of an incident, EP&R initiated plans for the rapid 
deployment of DHS Incident Management Teams.
    <bullet> To significantly strengthen DHS emergency response 
capabilities, EP&R began incorporating Domestic Emergency Support 
Teams, Nuclear Incident Response Teams, the National Disaster Medical 
System and the Strategic National Stockpile into its planning and 
response capabilities.
    <bullet> In support of Operation Liberty Shield, EP&R enhanced 
operational readiness of the National Interagency Emergency Operations 
Center (NIEOC), Regional Operations Centers, National Disaster Medical 
System, Domestic Emergency Support Teams and other specialized support 
teams.
    <bullet> Citizen Corps signed a partnership with the U.S. Junior 
Chamber (Jaycees) to raise public awareness about emergency 
preparedness, first aid, disaster response training and volunteer 
service.
    <bullet> Citizen Corps initiated a partnership with the National 
Volunteer Fire Council to work together to raise public awareness about 
emergency preparedness, fire hazards, volunteer service programs and 
the development of fire safety training.
    <bullet> Citizen Corps has added 15 additional states and 
territories and 266 local governments to the Citizen Corps Council 
roster. This brings the total of Citizen Corps Councils to 43 and 524 
respectively.
    <bullet> For the first time in more than eight years, the National 
Flood Insurance Program is operating in the black and currently has 
surplus funds, which it has begun investing through the U.S. Treasury.
    <bullet> EP&R delivered the first set of digital flood map products 
to the Map Service Center. These new tools are integral to the 
emergency planning of local communities.
    Information Analysis and Infrastructure Protection
    <bullet> In March 2003, IA&IP began implementing its requirements 
under the Homeland Security Act, as well as, specific objectives 
identified by the President's National Strategies to Secure Physical 
Assets and Cyber Space.
    <bullet> DHS' Information Analysis and Infrastructure Protection 
Directorate (IA&IP) provides infrastructure coordination for physical 
and cyber disruptions, maps threat against vulnerability information, 
and a process to provides indications and warnings of potential 
attacks.
    <bullet> IA&IP is implementing a plan to conduct standardized 
vulnerability assessments for infrastructure sectors to be conducted 
with other federal agencies, states and industries in order to ensure 
interdependencies are understood and protective measures are 
prioritized for implementation.
    <bullet> DHS recognizes that partnering with the private sector is 
central to successfully securing the Homeland. Representatives from the 
private sector Information Ssharing and Analysis Centers (ISACs) 
participate in IA&IP analytical and protective efforts. In addition, a 
thorough review of the ISACs is being conducted to ensure that their 
requirements are being fulfilled by IA&IP structure.
    <bullet> Consistent with the President's direction, we are reducing 
America's vulnerability to terrorist attack by working closely with 
Congress and the White House to develop legislation that will secure 
commercial chemical and nuclear facilities.
    <bullet> DHS is also an active partner in establishing the 
Terrorist Threat Integration Center (TTIC).
    <bullet> We recognize that many of our nation's infrastructures and 
processes are highly reliant on cyberspace. DHS is committed to making 
the protection of our nation's cyber infrastructure and prevention of 
cyber attacks a strategic priority.
    <bullet> Consistent with the President's strategy, DHS, DHS is 
developing tools to model, simulate and game potential disruptions, 
natural or deliberate, on, on our national critical infrastructures. 
DHS is working with closely with the National laboratory complex on 
this important effort.
    <bullet> As directed by the Homeland Security Act, the Department 
is developing a Critical Infrastructure Information management system 
to guide DHS' handling of private sector information. The draft 
regulations establishing the process and procedures for managing this 
information were submitted for public comment andcomment and published 
in the Federal Register.
    <bullet> In support of Operation Liberty Shield, Secret Service 
personnel acted as local department liaisons to designated Homeland 
Security Advisors and provided these advisors with information on the 
locality's critical infrastructure sites.
    <bullet> Approximately, two and half months ago DHS, inherited 
disparate lists that represented the federal government's best guess as 
to why one facility or one component of a sector was more important 
than another. Efforts are currently underway with the help of the 
private sector to provide a rational analytical basis for determining 
criticality and importance under a various threat scenarios.
    Science and Technology
    <bullet> DHS' Science & Technology division (S&T) established the 
Biowatch program in several metropolitan areas across the country. The 
Biowatch program employs devices to detect terrorist agents like 
anthrax in time to distribute life-saving pharmaceuticals to affected 
citizens.
    <bullet> S&T released the first Homeland Security Broad Agency 
Announcement through the Technical Support Working Group for rapid 
prototyping of off-the-shelf or nearly off-the-shelf technologies for 
use by DHS agents in the field.
    <bullet> S&T also developed draft guidelines for technical 
performance and testing of radiation detection equipment.
    <bullet> Pilot programs to test radiation detection equipment were 
launched at various sites in cooperation with the Port Authority of New 
York and New Jersey.
    <bullet> S&T initiated the Homeland Security Fellowship Program, 
which provides scholarships for undergraduate and graduate students 
pursuing degrees in the physical, biological, and social and behavioral 
sciences and interested in careers aligned with the mission and 
objectives of the Department. We've established a website at 
www.orau.gov/dhsed for potential applicants.
    <bullet> S&T created the Homeland Security National Laboratory 
composed of all the incoming DHS labs across the country.
    Citizenship and Immigration
    <bullet> The Bureau of Citizenship and Immigration Services (BCIS) 
has now developed the technology to accept electronic filing as an 
option for two of the most commonly submitted immigration forms--the 
application for replacement ``green card'' (Form I-90) and the 
application for Employment Authorization (Form I-765). These forms were 
selected in part because filings of these applications represent over 
30 percent of the total number of applications filed with BCIS 
annually. The system will go online shortly.
    <bullet> Approximately 165,000 new citizens have been processed in 
the months of January, February, March and April. In May alone, BCIS 
plans to conduct over 290 ceremonies and the naturalization of 
approximately 50,000 citizens.
    <bullet> BCIS also processed approximately 6,500 requests for 
expedited citizenship for military applicants since July 2002. In the 
last 30 days, eight requests have been processed for posthumous 
citizenship, which is granted to non-citizens whose death resulted from 
injury or disease incurred while on active duty with U.S. Armed Forces 
during specified periods of military hostilities.
    <bullet> BCIS launched a pilot project to standardize the English, 
government, and United States history tests administered to citizenship 
applicants. The first phase of the two-stage pilot focused on the 
English language test. Five cities participated in this first phase of 
the naturalization pilot: Newark, Los Angeles, Sacramento, San Antonio 
and Atlanta.
    Reorganization and Administration
    <bullet> DHS launched the effort to create a new human resources 
management system that merges the personnel and pay systems of all DHS 
component agencies into a single system. The target timetable for the 
new system is late 2003 or early 2004..
    <bullet> CBP consolidated incoming agencies into a single face of 
government at ports of entry by establishing a new organizational 
framework involving Interim Port Directors to integrate all of the 
incoming border agencies into one chain of command.
    <bullet> BICE combined all the investigative functions of Customs, 
Immigration and the Federal Protective Service into one bureau. ICE has 
taken steps to provide a single point of contact within DHS for U.S. 
Attorneys and other law enforcement agencies.
    <bullet> IAIP integrated the legacy operations of the National 
Infrastructure Protection Center (NIPC), the Critical Infrastructure 
Assurance Office (CIAO), the National Communications System (NCS), the 
Federal Computer Incident Response Center (FedCirc), the DOE's Energy 
Assurance Office, and developed the functional organizational 
components of its IA and IP divisions. The NCS, NIPC and FedCirc 
combined their watch and warning functions into a single, more 
effective ``virtual'' watch. In addition, IAIP has consolidated 
critical infrastructure outreach and awareness programs into a 
coordinated process, and has implemented partnership building support 
mechanisms with public sector, private sector, and international 
communities.
    This list is far from complete, but I believe it shows that DHS is 
hard at the task before us. We are shaping a new department, improving 
the security of our country and still sustaining the centuries old 
traditions of operational excellence that our individual components 
have brought to DHS.
    Fiscal Year 2004 Budget Request
    To continue our progress we will need sufficient resources to 
ensure this critical work is done properly. I ask for your support of 
the President's Department of Homeland Security Budget request for 
Fiscal year 2004 which lays a critical and solid foundation block for 
the future of the DHS. It is a $36.2 billion commitment to advancing 
the safety and security of our American homeland and those whom we 
exist to serve. This request represents an 18.3% increase in funding 
for DHS programs over the 2003 baseline enacted level. It contains 
critical initiatives to advance the efficiency and effectiveness of our 
Department, supports ongoing efforts and programs, and sustains vital, 
non-security services and missions throughout the Department.
    The President's budget contains $18.1 billion for Border and 
Transportation Security. It reflects organizational improvements, funds 
personnel enhancements and training, and improves the technologies 
needed to support the Department's two strategic goals to improve 
border and transportation security while at the same time, facilitating 
the unimpeded flow of legitimate commerce and people across our borders 
and through our seaports and airports.
    The budget request also calls for $3.6 billion to strengthen the 
readiness capabilities of state and local governments that play a 
critical role in the Nation's ability to prepare for and respond to 
acts of terrorism and moves us toward a ``one-stop'' shop for state and 
local response funding and training needs within the Office for 
Domestic Preparedness.
    Funding requested for Emergency Preparedness and Response totals 
$5.9 billion. These funds will be used to enhance nationwide readiness 
to manage and respond to disasters, whether caused by the forces of 
nature, or the forces of evil. In addition to fully funding traditional 
FEMA programs, the President's budget includes needed investment in 
America's pharmaceutical and vaccine stockpiles. It also includes 
nearly $900 million for Pproject BioShield, a critically needed 
incentive for the development and deployment of new and better drugs 
and vaccines to protect Americans from the threat of bioterrorism.
    The request for Information Analysis and Infrastructure Protection 
is $829 million. The funds will support the directorate's efforts to 
analyze intelligence and other information to evaluate terrorist 
threats, assess the vulnerability of critical infrastructure, issue 
timely warnings to private sector industries, and work with federal, 
state, local and private stakeholders to take or effect appropriate 
protective action. The President's request provides the resources 
necessary for us to carry out this most important and unique DHS 
responsibility.
    Roughly $803 million is requested for the directorate of Science 
and Technology. In the quest to secure our Homeland, we face fanatical 
and sinister enemies. Their willingness to contemplate the most evil of 
means, and the possibility that others might help them to acquire those 
means, create an absolute imperative that we sustain a scientific and 
technological edge to stay ahead of our enemy. The funds requested for 
Science and Technology will support the essential research, 
development, testing and evaluation needed to do just that, through 
existing programs and institutions as well as new entities like the 
Homeland Security Advanced Research Projects Agency.
    The President requests $6.8 billion for the United States Coast 
Guard, a 10 percent increase over the 2003 base enacted level for this 
vital component of the new Department of Homeland Security charged with 
pushing our maritime borders farther out to sea. This request will 
support continued and enhanced operations of the service across its 
broad portfolio of indispensable missions. It enables the Coast Guard 
to grow to meet its ever-increasing security responsibilities, while at 
the same time sustaining operational excellence in non-security 
functions. The request provides for vital recapitalization of the Coast 
Guard's offshore, near shore, and communications assets.
    The proposed budget also contains $1.3 billion for the United 
States Secret Service so they may perform their unique mission of 
protection and criminal investigation. The funds will support the 
Secret Service's protection of the President, the Vice President and 
their families; heads of state; the security for designated National 
Special Security Events; and the investigation and enforcement of laws 
relating to counterfeiting, fraud and financial crimes.
    $1.8 billion of the President's budget request will support the 
Bureau of Citizenship and Immigration Services, including $100 million 
to reduce the backlog of applications and begin ensuring a six-month 
process standard for all applications.
    In summary, this budget request for the Department of Homeland 
Security supports the President's National Strategy for Homeland 
Security. This strategy provides the framework to mobilize and organize 
the nation--federal, state and local governments, the private sector, 
and the American people--in the complex mission to protect our 
homeland.
    Liberty Shield and TOPOFF II
    As you know we recently completed Operation Liberty Shield, a 
nationwide effort to enhance Homeland Security during the most active 
portion of Operation Iraqi Freedom. We also just concluded TOPOFF II; 
an exercise intended to test and refine our processes and protocols 
during response to a terrorist incident. While full analysis of these 
two major undertakings is still being conducted there is one immediate 
and immutable truth that they both reemphasized: as costly as adequate 
preparation and prevention may seem, it is a cheap by comparison with 
response and recovery from a successful terrorist attack. That is why 
DHS must and will vigorously pursue our detection and prevention 
missions while at the same time ensuring we are prepared to respond to, 
and recover from, acts of terrorism. We cannot choose. We must do both.
    Conclusion
    I hope my testimony here today has helped to answer the question 
posed in the title for this hearing, ``How is America Safer?'' I 
believe we are safer, and with the help of the American people, and our 
federal, state, local, private and international partners we are 
getting safer each day. We are safer because our armed forces, and 
those of our allies, are able to find and destroy the organizations and 
individuals that threaten our country. We are safer because all those 
who serve and protect here on our own shores are ever diligent and ever 
willing. We are safer because you, the Congress, recognize the threat 
and are taking bold steps like creating the Department of Homeland 
Security to ensure that our government is properly structured and 
properly resourced to counter it. We are safer because we are more 
aware, better organized, more focused and more committed to protecting 
America, Americans and American ideals.
    Thomas Jefferson is credited to have said that, ``The price of 
freedom is eternal vigilance.'' While attribution of the quotation 
seems somewhat uncertain, the truth it contains is not. The history of 
the Department of Homeland Security is short, but the future of this 
great republic and the challenge of safeguarding our homeland is long. 
We are at the beginning of a new chapter in American history. I believe 
it is a chapter of renewed vigilance and commitment to secure and 
preserve the things we hold sacred. I believe we must do this so that 
future generations of Americans can live in a nation that is free, is 
safe and is ever mindful that the blessings of liberty must not only be 
secured but they must also be kept secure.
    Mr. Chairman and Members of the Subcommittee, we arrive at this 
point in history together. The challenge is ours, the opportunity is 
ours and the responsibility is ours to lead this effort forward. I have 
no doubt that we will succeed and I have no doubt that we will do it by 
working together.
    I thank you for the privilege of appearing before you here today, I 
look forward to your partnership and I would be happy to answer any 
questions you may have at this time.

    Chairman Cox. Thank you very much, Mr. Secretary, for your 
concision and your brevity as well as the extensive written 
testimony that you have provided.
    I would like to begin with some questions about TOPOFF II. 
This was a very significant exercise, the largest, as you say, 
simulated terrorist exercise in our Nation's history. The $16 
million cost is either a lot or a little, depending upon what 
we got out of this and the lessons learned. And I think we will 
have an opportunity today to bear down on that question.
    Now, the purpose of an emergency drill is to learn where 
one's weaknesses are so that we can address those areas. One of 
the things we need to know as a result of our investigation of 
TOPOFF II is whether more such exercises will be necessary, as 
well as whether we can immediately take lessons learned and put 
solutions into place through regulation or through legislation. 
It appears that there were capacity problems in Chicago's 
hospitals during the exercise. It also appears that we had 
difficulty distributing antibiotics as fast as we would like; 
in particular because one of the work-arounds that we tried to 
develop, using volunteers supervised by nurses, was ruled out 
because of potential legal liabilities for the volunteers and 
or their supervisors. The executive director of the DuPage 
County Health Department, Leland Lewis, reportedly approached 
you and said, here is what we would like to do. Here is how we 
can get antibiotics to these people who are going to die 
otherwise. And we hit this roadblock, and I wonder if you could 
describe to us where does that roadblock exist? Is this a 
Federal problem, a State problem, both? Can you address it in 
regulation? Does Congress need to address this legislatively, 
Mr. Secretary?
    Secretary Ridge. Mr. Chairman, first of you all as you 
indicated, we did spend $16 million on this exercise, and I 
need not remind my colleagues in public service that the 
Department of Defense spends hundreds of millions of dollars 
each and every year to train and practice and exercise, and so 
I think, on balance, as we look toward training and practice 
and exercising our first responders and developing the 
communication partnership among the Federal, State and local 
authorities that respond, it is a good investment.
    The capacity problem that you alluded to with regards to 
hospitals and with regard to professionals' availability is 
something that we talked about publicly right after the 
exercise. We weren't quite at the saturation point, but again 
as part of the exercise, we concluded that we needed to 
determine what we would do if we did get to the saturation 
point.
    And at that point in time in the exercise, we know that the 
Department of Defense has portable hospitals, so we made a very 
appropriate request to DOD. We know the public health system 
has emergency teams, and we alerted an emergency team and 
theoretically they were on their way with 125 additional nurses 
and 25 additional doctors. So again, as part of the exercise, 
while there was still a beds capacity in Chicago and there was 
still not a human resource problem, there does get a time when 
you are treating such an intense event that the personnel in 
these hospitals would need to be relieved and there might be a 
strain on the physical facilities. So we just plugged that into 
the system to see how we would resolve that problem.
    It's interesting, the Public Health official from DuPage 
County in Chicago said look, under the law I need to use Public 
Health nurses to distribute these medicines. And he mentioned 
to the Governor that it would be a lot easier if a Public 
Health nurse were supervising the distribution of medicines 
with three or four different volunteers. And he had concluded 
that the only thing the Governor needed to do--that it was a 
State-related matter that the Governor, by executive order, 
could deal with the whole question of liability.
    I think it just offers us an opportunity to take a look at 
all the State laws, the whole question of liability of Public 
Health supervision on the distribution team so we could 
facilitate the division of those pharmaceuticals. It raised a 
very appropriate question. One of the reasons we have the 
exercise is how can we improve of the delivery of services? 
That is a fair, practical suggestion. We will just have to 
determine what the legal implications are.
    Chairman Cox. Last week was a bad week, if one were to take 
the simulated terrorist exercises as real, for our country. 
Simultaneously, while all of this horror is occurring in 
Chicago, we also had horrible things going on in Seattle. And 
one of the problems that we didn't know we might have as a 
result of the dirty bomb detonation in Seattle is that we got 
apparently different assessments from EPA and the Department of 
Energy about the extent of the radioactive plume, with the 
result being that Mayor Nickels was betwixt and between, 
uncertain how to warn area residents what area he should warn, 
because they didn't know whose advice to rely upon.
    What are we going to do to coordinate the advice that the 
Federal Government provides through different agencies, both 
with scientific expertise, in the event of a radiological 
attack so that this won't happen again?
    Secretary Ridge. We will identify a single source within 
the executive branch to provide the relevant scientific data 
upon which the State, the local, and the Federal Government can 
operate upon. The Congress, in the years gone by, has provided 
executive branch assets and resources to the EPA, the 
Department of Energy, et cetera. There are even some national 
labs out there that do some modeling. And so we had all that 
capability at the scene. But coordinating and getting a final 
answer, getting model on which to work, frankly, took too long.
    Again, that is the reason we have the exercise. We have got 
the assets there. The modeling was done. But we need to 
centralize it and look at a primary source, so we can act upon 
it quicker, and that's exactly what we will do.
    Chairman Cox. Well, Mr. Secretary, I think it is a good 
thing that these exercises seem to have raised more questions 
than they have answered, because that is their purpose. I am 
very, very interested with not only in those things that went 
well during these exercises but also those things that didn't, 
because it is focusing our attention where it belongs.
    I hope that you will continue to plan such exercises as 
needed. Albeit this tradition began before September 11, the 
planning for this is something that has been ongoing in our 
government. The need for it, since September 11 and indeed 
since the events of recent days, couldn't be more plain. And so 
I am pleased that we are doing this.
    And I will yield to Mr. Turner for 5 minutes.
    Mr. Turner. Thank you, Mr. Chairman.
    Mr. Secretary, I have and I know many Members of the 
committee have had some frustration with the lack of 
information that we have received from the Department, 
particularly in the intelligence area. And I sometimes think I 
learn more from reading the Washington Post than I do from 
serving as Ranking Member of this committee.
    I think that it is important for us in our oversight 
capacity to inquire of you regarding the intelligence piece of 
your Department's responsibility. I wrote a letter, or our 
staff wrote a letter to the Department back the first part of 
April, I believe it was April 4, asking the Department to 
provide in essence a catalog of the intelligence products 
received by the Information and Infrastructure Protection 
Directorate, which is the directorate charged with the 
intelligence analysis function of your Department. We felt it 
was necessary to begin our own assessment of whether the 
Homeland Security Act was being carried out; specifically, is 
the Intelligence Community sharing information with you, and 
are you using it to inform policy decisions?
    Now, we received a partial answer toward the end of last 
week, and I was disturbed by what I read. The Department, 
according to your letter, received no hard copy CIA reports to 
date. The department, and I quote, ``is not receiving CIA top 
secret cables because the CIA's message handling system does 
not contain Department of Homeland Security addresses.''
    Now, as you know, Mr. Secretary, much of the important 
terrorism information is above the secret level. And your 
Department and the directorate charged with intelligence 
analysis has adopted no--according to your letter--automated 
document registration system for products assessed on line and 
are currently recording the few hard copy products received to 
date by hand.
    Now, what does all this mean? It is very simple, as I 
understand it. And that is, despite our repeated inquiries 
regarding the intelligence that you are receiving and the 
analysis you are making, we have got no response; and perhaps 
it is because of the deficiencies recorded in the most recent 
letter that we have received from the Department. It is hard 
for me to understand how the Department can fail to produce, to 
date, a single analytical intelligence briefing or document for 
this committee.
    And as we travel across the country, many of us have been 
told by our local mayors, our local law enforcement officials, 
that they haven't received any tailored intelligence product 
from the Department to date. How can this be, given the mandate 
of the law? You have hired, as I understand it, a first-class 
intelligence officer, Assistant Secretary Redmond. But no 
matter how skilled he is, he is going to need some support in 
order to function as required by the statute.
    So I have basically three questions:
    What Intelligence Community products do you plan to 
receive? In other words, what is going to be the input to your 
Department to carry out your responsibilities?
    What analytical process do you plan to apply to that input?
    And, finally, what tailored analytical intelligence 
products do you plan on creating and disseminating not only to 
this committee but to the State and local law enforcement 
officials that needs the information that your Department is 
charged with collecting?
    Secretary Ridge. I appreciate your notice of the 
extraordinary talent of Mr. Redmond, who is our Assistant 
Secretary for Information Analysis. In time we hope to build--
we have several analysts that are working with him, and I am 
confident that with his leadership, we will be able to complete 
the mission in a comprehensive way, as you have indicated. We 
are fast on our way to doing that right now.
    Let me respond to those questions that you have.
    First of all, under the President's executive order, the 
Threat Integration Center, which is the basic data collection 
point for all the intelligence agencies, will include analysts 
from the Department of Homeland Security, from the Information 
Analysis Unit. We have access through our representatives in 
the TTIC to all the raw data and all the source material that 
we need. That is the intention of the President. That 
intention--that goal--will and is being met.
    Second, we have the capacity, because of this new unit 
within the new Department, to go back to the Threat Integration 
Center with intelligence requirements, because we have a very 
unique mission which is really the second piece of your 
question,--what is the analytical process? Our responsibility 
under the legislation is to take a look at the threat 
information, identify the potential threats against this 
country, map it and match it against the infrastructure or the 
vulnerabilities that we might have, and then work with either 
the private sector or the State and locals to reduce or 
eliminate those vulnerabilities. We have that capacity because 
we also have within the analytical piece an infrastructure 
protection piece. So at the end of the day, the analytical work 
is to get the intelligence piece, map it against the 
vulnerabilities and then give direction to the potential target 
as to what additional measures it needs to take in order to 
protect itself.
    We have begun the process of developing both information 
bulletins and information advisories to send down to the State 
and locals where we work with the CIA and the FBI to take 
secret or classified information and mold it in such a way so 
that we can give the State and locals an idea as to the nature 
of the threat, but, perhaps even more importantly, give them 
direction and recommendations as to what they can do to either 
reduce the threat or eliminate the threat. We provide them the 
guidance as to what they should do with the information and how 
they should harden these particular targets.
    So again, I think we are well on the way of establishing 
not only a relationship with the TTIC, but an analytical 
component that matches the threat information with the 
vulnerabilities. And then to a very relevant point, 
Congressman, we will only be as secure a country as we are 
strong in our relationship with the State and locals. And 
getting that information down to them in a way that it is 
actionable is at the very heart of what we are doing in the 
Information Analysis and Infrastructure Protection Unit.
    Mr. Turner. Thank you, Mr. Secretary. And I do hope as you 
move forward that you will share that with us because I think 
that is an important function. If this committee is to assist 
you in carrying out the responsibility we have, we need to know 
the same information that you know, because we are here making 
choices, determining priorities, assessing vulnerabilities, and 
trying to decide where we spend the limited dollars we have. We 
can't do that well unless you help us learn more about the 
nature of the threats and how we are analyzing the information 
that we get.
    And I might mention in passing, as I have urged you in my 
opening statement, to try to share more information with us, I 
sent you a letter the other day regarding the matter that 
involved the Texas legislature and the possible misuse of 
Federal resources.
    Secretary Ridge. Right.
    Mr. Turner. And I made a request of you that you allow the 
committee to hear the tapes of those conversations between 
State officials and your Department. And I got back a response 
yesterday indicating that because an inspector general 
investigation had been launched, we will not be allowed to hear 
the tapes.
    Now, those tapes have been released in part to the press 
and I think--from what I determine and advice received from 
legal counsel--there is really no basis for the Department to 
deny the committee the opportunity to hear the tapes that we 
requested. And I only raise it in the context of this hearing 
because I think it may set a precedent regarding our 
relationship.
    I think there are certain pieces of information that this 
committee is entitled to, that we ought to be able to hear, we 
ought to be able to see, in order to do the job we are charged 
with doing.
    Thank you Mr. Secretary.
    Secretary Ridge. If I might just comment briefly, I will go 
back and review that denial, but we are under the impression 
that, number one, that prejudging what may or may not have 
occurred based on press reports may end up being an 
inappropriate thing to do. You may reach the right conclusion 
or you might not. But I think it is somewhat premature based on 
some of the accounting.
    Second, we thought it was appropriate based on multiple 
inquiries that we received from Members of Congress, including 
yours, that we deploy the means which Congress has given us, 
and that is an inspector general within our Department who, by 
the way, is from Texas, has recused himself and assigned the 
investigation to another individual within his office. So I 
will refer back to legal counsel to review that decision. But 
again, the Congress of the United States said under 
circumstances like this we think it is best to use the 
inspector general, and that is precisely what we did.
    Mr. Turner. Thank you, Mr. Chairman.
    Chairman Cox. The gentlelady from Washington, the vice 
chair of the full committee, Ms. Dunn, is recognized for 5 
minutes.
    Ms. Dunn. Thank you, Mr. Chairman.
    And welcome, Secretary Ridge, we are happy to have you here 
today. I want to move back to your previous comment about how 
important it is to show commitment to working with State and 
local officials. Right now, we in Washington State are very 
grateful for the $41.14 million in ODP funds that you have sent 
back to us for the purpose of funding first responders.
    In addition, because the city of Seattle is the seventh 
most vulnerable in the Nation, we have received an additional 
$29.45 million. There is discussion, though, in Congress about 
changing the formula for administering first responders grants, 
because many communities simply believe that they deserve money 
and they are not getting this funding. Do you think that such a 
change is necessary and, if so, what recommendations would you 
have to us as a committee?
    Secretary Ridge. I believe that both the legislative and 
executive branch want to make sure that every dollar we send 
out to secure America is a good security investment. And for 
that reason, I think it is very appropriate that we review the 
traditional grant-making formula that Congress provided through 
the Department of Justice in the Office for Domestic 
Preparedness a couple of years ago, that it basically starts 
with three quarters of 1 percent, goes out to the States for 
distribution.
    I think it is necessary for us--and there are some other 
factors--but I really do think that we need to work together to 
see if we can find a better means of distributing these dollars 
based not only on population, but on threat, on vulnerability, 
on the presence of critical infrastructure and the like. We 
will be working with this committee and your colleagues in the 
other body to devise that kind of formula.
    But I am grateful for the question and the inquiry, because 
I think we need to try to devise a better means of distributing 
those dollars. As you know, in the supplemental, Congress gave 
the Department $700 million in rather broad discretion. We 
expanded the list of cities as we looked at population, 
critical infrastructure, threat and the like to 30 cities, but 
we also, using that discretion in the direction you gave the 
Department to focus on urban areas, used additional dollars to 
enhance port security as well as mass transit and subway 
security as well.
    So, again, I think it is definitely a work in progress. And 
to Congressman Turner's point of view and everybody else, this 
is the place where we have an opportunity to collaborate and 
cooperate and hopefully can find a common ground on this one.
    Ms. Dunn. That is good. I hope so, too. Let me ask you 
another coordination question, Secretary Ridge. The Department 
is doing an excellent job coordinating between other 
departments, but we still have questions coming from 
constituents of mine, for example, about coordination at the 
regional level. For example, FEMA. The regional office of FEMA 
operates totally separately from the local Bureau of Customs 
and the Border Protection Office, even though they are located 
within the same region. There are currently no regional 
coordinators to oversee the different areas and agencies of the 
Department.
    I am wondering how the Department plans to better 
coordinate regional offices so there is a much more efficient 
and effective way for communities to interact with the 
Department and for local officials to be able to know whom to 
go to for the proper answers.
    Secretary Ridge. Congresswoman, the range of regional 
offices among the 22 departments and units that we inherited 
are rather significant. I think the Animal and Plant Health 
Inspection Service has two regional offices. I think you can go 
to Customs, and they have over 30.
    And so, again, we have different units that have a 
different number of regional offices. As we look to 
reorganizing and restructuring the Department for command and 
control and coordination purposes, not consolidation--we have 
assets and places that we need to keep in places--we are 
looking at a regional concept. We have not made any decision as 
to where or what it would entail, but as we go about 
restructuring these 180,000 people from 22 departments so that 
there is a regional command and control structure, that is very 
much on our mind.
    We would like to centralize the planning, the budgeting, 
the strategic goals, the training, and the exercises, but 
decentralize the execution of some of those responsibilities at 
a more regional level; but also to your point, would give us a 
point of contact for Governors and mayors within that region a 
more direct point of contact. So again, we are looking at a 
regional concept and obviously, as soon as we get closer to 
concluding what is the best way to deal with this issue within 
the Department, we will come up and discuss this with members 
of the committee.
    Chairman Cox. The gentleman from Mississippi, Mr. Thompson, 
is recognized for 5 minutes.
    Mr. Thompson. Thank you, Mr. Chairman.
    Welcome Mr. Secretary. If we will go to the budget, if we 
take the 2003 request and the 2004 request, it represents an 18 
percent increase overall. But if we include the supplemental of 
2003 in overall numbers, it makes the 2004 request much 
smaller.
    Secretary Ridge. Right.
    Mr. Thompson. Six or 7 percent. I am wondering, looking at 
that time, is what you are requesting in your mind sufficient; 
or can we expect another supplemental at some point for next 
year?
    Secretary Ridge. Well, for the time being, Congressman, we 
believe that the President's budget request gives us adequate 
resources not only to expand the operation of the Coast Guard, 
but there is also additional personnel for the border and 
transportation security operation. That also enables us to set 
up, I think, in a fairly robust way, the Information Analysis 
and Infrastructure Protection Unit as well as the Science and 
Technology Unit. So to that end, we believe it is adequate.
    I should forewarn the committee, however, given the rash of 
natural disasters that we have had during the past couple of 
weeks, sometime in the future, depending on the request by 
Governors for Presidential declarations to provide individual 
assistance or business assistance and the like, we might have 
to come back for a supplemental to deal with the natural 
disasters. But right now, that would be the only thing that I 
see on the radar that we might have to do, depending on how 
Mother Nature treats us over the next couple of months.
    Mr. Thompson. So is it safe to say with what you have 
shared with the committee, that there are no new initiatives or 
anything you see coming out of your shop next year for which 
you don't have money?
    Secretary Ridge. I think that is safe to say at this point, 
Congressman. We have quite a few new initiatives within the 
2004 budget. We take the President's National Strategy for 
Homeland Security, which prioritizes some of our goals, and 
built that into the budget. So we are comfortable that if the 
Congress will embrace the total sum and then direct it as 
requested, that we will have adequate resources to get the job 
done.
    Mr. Thompson. I'd like to talk a little bit about the 
grant-making process. Right now the Department of Homeland 
Security, the Office of Domestic Preparedness, and the 
Directorate of Border and Transportation Security awards 
formula grants to States and localities. At the same time, 
Emergency Preparedness and Response Directorate handles the 
State and local fire grants. Then there is the Office of State 
and Local Government Coordination, which serves as the State 
and local liaison, but handles no grants.
    Do you feel that the current approach to providing money to 
the States is the right approach?
    Secretary Ridge. One, Congressman, I do hope we can revisit 
and rework the distribution formula. Two, one of our goals this 
year within the 2004 budget process is to set up a one-stop 
shop within the Department of Homeland Security so the State 
and locals can go to one unit within the Department to deal 
with the grant-making process.
    So right now, as the Department is configured with ODP in 
the BTS unit, and you have State and Local as a separate unit, 
we think putting the State and the Local and the Office for 
Domestic Preparedness together and taking the fire grants from 
FEMA and putting it over and making a one-stop shop under State 
and Local would be the best way to deal with the technical and 
the financial assistance that the Congress will distribute to 
the States and localities in years ahead. So we need to make 
those realignments.
    Mr. Thompson. I don't think you get much disagreement among 
the committee on that, and I would encourage you to move 
forward in whatever direction that would accomplish that.
    Secretary Ridge. Thank you.
    Chairman Cox. The gentleman from Kentucky, the chairman of 
the Appropriations Subcommittee on Homeland Security, Mr. 
Rogers, is recognized for 5 minutes.
    Mr. Rogers. Thank you, Mr. Chairman.
    Mr. Secretary, good to see you, although it is difficult 
from this vantage point. Let me ask you about the story that 
ran last Friday in the Washington Post but originated in the 
Los Angeles Times, indicating that more than 24 screeners at 
the Los Angeles airport have been found to have criminal 
records. And at least 50, at JFK similarly. We don't know at 
this point how widespread that is, but it certainly raises very 
serious questions about the hiring practices of TSA's screeners 
workforce of some 55,600 employees.
    Can you help us out with this? How come these people were 
hired, and why aren't they fired?
    Secretary Ridge. Congressman, first of all, as you know, in 
order to respond to the congressional intent and all of our--
actually it wasn't just the congressional intent, but the 
national intent to significantly improve security at our 
country's airports, we went through not only the process of 
identifying needs, both personnel and technology, but there 
were specific mandates as to when the personnel and the 
technology was to be deployed. Clearly, the ability to vet 
through all possible Federal sources the 55,000 potential 
employees was not something that the Federal Government had the 
capacity to do. Much of this, or most of it, was given to 
outside sources. It is clear that while they went through 
several phases of background checks, some of the information 
they relied upon was inaccurate. Admiral Loy is revisiting this 
issue in the entire process to take the necessary corrective 
action.
    Mr. Rogers. Well, I mean, we have spent several hundred 
million dollars, approaching a billion dollars, for the 
screening of the screeners, and yet we come up with this kind 
of a result.
    Secretary Ridge. There were several phases to it, 
Congressman. The first thinking they tried to do, and I think 
we have to understand that trying do background checks on this 
volume of people within the time frame directed by Congress was 
a task that I think, very appropriately concluded, we couldn't 
possibly get the FBI and others to do that. So we had to engage 
companies within the private sector. The first background check 
they did was just a name check. And then right now, OPM is 
going through a check based on fingerprints.
    So again, there is a series of checks that we had to take. 
But remember, we have 55,000 people. And I am not trying to 
condone the sloppiness or the inaccuracy of the work that was 
done. We saw that ourselves, and Admiral Loy is taking the 
necessary corrective action.
    Ideally, from the outset, we would have done a fingerprint-
based check, a credit check, and a variety of checks that are 
normally associated with government employment. Given the 
number and the time constraints, it was privatized. And now we 
over the past several months have begun to use Federal assets 
to, again, add another level of screening to that done by the 
private sector. The appropriate remedial action--if necessary, 
disciplinary action, if necessary, and corporate action will be 
taken.
    Mr. Rogers. Do I hear you say that the contractors who were 
paid big dollars to do the screening of the screeners somehow 
will be held accountable?
    Secretary Ridge. I assure you that accountability is 
something that not only the Congress of the United States will 
insist on--we regard every dollar that flows through the 
Department of Homeland Security--but so will all of us within 
the Department.
    Mr. Rogers. Will you be--will you submit to us a report on 
how this took place?
    Secretary Ridge. We would be pleased to do that for you. As 
you may or may not know in your conversations with Admiral Loy, 
we had some questions with regard to the performance of some of 
or at least one of the companies that was engaged in part of 
this process, and have withheld a substantial sum from them 
pending completion of our investigation and discussions with 
them. We have withheld quite a bit of money from one of these 
contractors.
    Mr. Rogers. Well, now, while these screeners are being 
rechecked for criminal background, we know--surely you know 
that many of them have in fact a criminal background, (a); and 
(b), that they lied on their application for the jobs, saying 
they did not have a criminal background. And yet many of them 
are still working. I can't figure that one out.
    Secretary Ridge. They lied with regard to their criminal 
activity. Depending on the nature of that criminal activity, 
they will lose their employment. I don't have the specifics, 
but as I said to you, Congressman, we would be happy to submit 
the report to you as soon as we complete our work in this 
regard.
    The report indicated above was not received by the 
Committee at the time of the printing of this hearing.
    Chairman Cox. The gentleman's time has expired. The 
gentlelady from California, Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman.
    Good morning, Mr. Ridge. Secretary.
    Secretary Ridge. Good morning.
    Ms. Sanchez. Thank you for coming before us. We have all 
been anxious to ask you questions and I am glad you are finally 
here. In the interest of time, I am going to submit some 
questions for the record that I hope your different Department 
heads will get information back.
    But I do have a couple of comments. I go back to the whole 
issue of are Americans safer 20 months later after September 
11, and I guess my assessment in everything that I have learned 
so far is barely. I mean, we are--I don't think that we are 
that much safer. And one of the areas, of course, that if you 
went and you asked firemen or law enforcement, they would tell 
you that this whole process has been pretty messed up and that 
basically a lot of the local agencies have been paying the 
money to try to be up to speed and be ready for any attack.
    But I am actually really more interested in the whole issue 
of not having attacks happen in the United States. And I sort 
of break it down into four different areas. We have the whole 
area of intelligence, and because of more intelligence 
gathering and working to get this intelligence together, 
Americans in my opinion have really lost some of their civil 
rights; and, you know, that certainly is a question for the 
Judiciary Committee maybe to take a look at.
    I look at the whole issue of cybersecurity and the fact 
that, you know, it seems to be a revolving door at your 
Department with respect to that. And I hope Ms. Lofgren will 
speak a little on that and ask you some questions on that.
    I look at the movement of goods and people, and it hasn't 
really changed much across our borders and through our ports 
and that really worries me.
    And I look at also the whole issue of fortification of our 
assets or protection of our assets and that is, you know, ports 
and transportation, nuclear, et cetera. And I know, I hope some 
of the members like Mr. DeFazio and others will talk a little 
about what they have seen.
    So we are talking--you know, people are coming to us, they 
are talking about incredible amounts of dollars to protect all 
of this and do all of this. Any of these responses that we 
don't really take a look at and take seriously could mean an 
extreme economic loss to our Nation. I have already talked 
about the losses with respect to civil rights that I think have 
happened.
    I have really three questions for you sitting as the 
Ranking Member on the Border and Infrastructure Committee. The 
first is, all of these different areas, I am having a hard time 
assessing who in your Department--or whether it is you, or how 
often you look at that, how are you going about making the 
overall priorities--because there is so much to be done here. 
There isn't a lot of time. You know, we are told that any day 
could be an attack. And there just doesn't seem to be--it is 
hard for me at least to figure out who is running the store.
    So my first question is if you could sort of give a layout 
of what you are really doing with the overall priority of all 
of this.
    Second is back to these assets. You know, we had one of 
your Under Secretaries come in and talk about this list of 
assets, and all the States have done a list, they have all got 
different ways and details of what they have put on the list or 
what they haven't. How are you going to get it together? We 
have no idea. He had no idea of a real time line for a list of 
assets and what it would take to protect them and how fortified 
they are or they are not.
    So I guess what I would like to know is how are you going 
to get this list together? How are you going to work with 
States? Are you going to have them redo it, because they all 
have different criteria by which they base their assets that 
sit on their lists, and what is a time line for this?
    And the third question I would have for you is the whole 
issue of all the private assets. Your Department tells us that 
85 percent of our assets that we need to worry about are held 
in private hands. What are the initiatives that you are going 
to use to help or to force the private sector to enhance 
security preparations? What is the strategy? Are you going to 
ask us to do regulation enforcement, tax breaks, insurance 
incentives?
    I think, you know, I would like to--I am trying to find out 
what we need to protect, what are the priorities, how we are 
going to go about this. And I know it is difficult to get an 
agency up and running, you know, but time is wasting and are 
Americans safer? Not much in my opinion.
    Secretary Ridge. Well, first of all, let me begin by saying 
that there are 180,000 of your fellow citizens who go to work 
every day, trying to make this country safer in the Federal 
Government. And they work for what used to be the INS, and they 
work for Customs, and they work for TSA, and they work in 
national labs. And I think they would probably respectfully 
disagree with you that the work they are doing today doesn't 
make the country safer than it was on September 10, because of 
certain things that they have done and we have done in the past 
80 days in setting up this new Department; because of resources 
that have been provided them; because of, at the borders, the 
improved relationship they have with our friends in Canada, 
Mexico; because of the multibillion dollar investments that 
Congress has made in our ports, our airports; because of the 
work that the Coast Guard has done working with the 55 
strategic ports to set priorities and to identify 
vulnerabilities; because of the creation of the Terrorist 
Threat Integration Center; because of the work that--50 
Governors have all created homeland security advisors that we 
talk to twice a month, if not more; because of the outreach and 
technical assistance that Information Analysis and 
Infrastructure Protection is providing.
    Secretary Ridge. So I think that, in respectful 
disagreement, we are much safer. I think we go to a new level 
of readiness every day. That is not to say, Congresswoman, that 
we still don't have a considerable distance to travel, and your 
question raises some of the challenges in traveling that 
distance, and let me try to response to it.
    First of all, what are the priorities? Well, I think the 
Congress very appropriately identified the kinds of things that 
the Department had to focus on in order to meet the three goals 
of the President's strategy. The President's strategy was let 
us configure this department so we can do a better job of 
preventing a terrorist attack, reducing our vulnerability, and 
then responding to an attack if it occurs.
    Congress very appropriately said, look, you have several 
agencies that deal with border and transportation security. You 
need to consolidate that. We have done that. It used to be at 
the borders you had Customs and APHIS and INS all reporting up 
a single chain of command, their own chain of command. We have 
consolidated at the borders; we have built capacity and we 
provided them additional equipment. There is certainly more to 
be done, but within the first 90 days, I think there has been 
considerable improvement.
    Congress said, look, Congress understands that our military 
and our CIA and our FBI are really the first responders in 
terms of going after the actors, going after the terrorists 
themselves. With the success of the military overseas and the 
work that we have done in this country, I think, coupled with 
the Threat Integration Center, coupled with the enhanced 
information sharing between or among the agencies even before 
they created that, it is a different time. In a post 9/11 era, 
much more information is being shared. There will be new 
products, different products, and better products that we can 
rely upon. So you said to us create that unit within your 
department, and we have.
    Congress also said to us, you know, we need to really take 
a look at this country, because it is our creativity and our 
genius and our technology and our enterprise that can help us. 
And again, you have helped create the unit of science and 
technology. We have asked for considerable resources so we can 
do two things: One, take a look at what detection equipment and 
the protection equipment exists. What is on the shelves right 
now that we can apply immediately? We have begun that process. 
And let us take a look long term at some of our broader 
security needs. And we have done that.
    And then you said let us make FEMA an all--hazards agency, 
and let us continue to work with the State and locals to 
respond to incidents, whether they are a force of nature or 
forces of evil. All this has been done in the past in less than 
100 days. Operation Liberty Shield was a perfect example how 
the State, the Federal Government and local government 
identified critical assets and went out and hardened those 
assets.
    So, again, we admit, Congresswoman, that we have a real 
challenge ahead of us. But I think Congress has been supportive 
with the resources. We have used it to begin the process of 
building this department. And I truly believe we are 
considerably safer today than we were on September 10th.
    One of the things that I think--and I will conclude. I 
apologize for the lengthy response to your question. We are not 
more vulnerable because of what happened on September 11th; we 
are just more aware of our vulnerabilities.
    And, finally, the fact of the matter is we have an open, 
diverse, and welcoming country. And we have 7,500 miles of land 
borders, and we have 95,000 miles navigable waters and 
seashores. And we have 500 million people come across our 
borders every year. And we have millions and millions of 
containers that come into our ports. So we do have a lot of 
challenge ahead of us, but I think the men and women of the 
department are up to it.
    Chairman Cox. The gentleman from New York, the chairman of 
the Science Committee, Mr. Boehlert, is recognized for 5 
minutes.
    Mr. Boehlert. Thank you, Mr. Chairman.
    Mr. Secretary, I for one want to tell you I think you are 
doing an exceptionally good job under exceptionally difficult 
and most challenging circumstances.
    Are we safer? That is an elusive question. I don't know how 
to quantify are we safer. But we are better focused, we are 
better prepared, and we are getting better focused and better 
prepared each day. And it is our obligation here in the 
Congress to work cooperatively with you to see that you have 
the resources to do the job that we expect of you.
    Now, a lot of others might focus on the big macro issues. 
Let me get to something that is very important. You hit a home 
run at the Fire Service's dinner when you talked about the fire 
grants program, a program that is for, of, and by the 
firefighters. There is some of us that are concerned that there 
might be a change in direction as you restructure the agency, 
and I would hope you would address that subject. Do you intend 
to keep the Fire Grants Program a program that is basically run 
by the firefighters, for the firefighters, and valued by the 
firefighters? Because it is serving the Nation very well, and 
it is getting resources where they need it.
    Our firefighters can't depend on car washes and bake sales 
and living in a hand-to-mouth existence. They need resources to 
get the equipment that they need to have to be better prepared, 
and we have a program that is finally working, and you 
acknowledged its worth, and I think all of us in the Congress 
are very supportive of it. Talk to that a moment, if you will, 
please.
    Secretary Ridge. Congressman, the Fire Grant Program is, as 
you appropriately noted, of, with, for, and by firemen. I mean, 
they even are involved in the process review to determine what 
departments get the grants. And what I think most folks are not 
aware of, it is even a matching grant program. If you are a 
community of 50,000 or less, you have to come up with 10 
percent of the grant request; and if you are 50,000 or more, 
you have got to come up with 30 percent of the grant request. 
So it is not as if--it is not just an outright grant. The folks 
at the local community still have to do bingos, car washes, 
chicken dinners, whatever they do in my community, I am sure 
they do in yours, in order to raise the money in order to get 
the match. But all we would like to do is take it from FEMA and 
place it under the State and Local unit. We are trying to 
create within the agency one point of contact for first 
responders, one point of contact for State and Locals, and for 
financial and technical assistance, and we think that we will 
preserve the program as is but move the administration over to 
the State and local unit. That would be our preference, and 
that is our--I have talked to a lot of people within the fire 
service community and assured them that we like the program and 
that we will preserve it as is.
    Mr. Boehlert. That is reassuring, and we will monitor that 
very carefully. Let me ask you, in the TOPOFF II exercise that 
you have just been through, was there any point where you had a 
communications failure, a breakdown in communications? Because 
we learned that from the sad experience of 9/11, where there 
was not interoperability of various communications systems, 
where firefighters couldn't be warned in a timely manner. Did 
you experience any of that?
    Secretary Ridge. Congressman, actually, we had several 
hundred observers not only from the Office for Domestic 
Preparedness but emergency professionals around the country 
that we invited in to monitor on an hour-by-hour basis what 
occurred in Seattle, what occurred in Chicago, take a look at 
communications, take a look at hospital capacity, take a look 
at the distribution system. And we will be going through a very 
robust and very comprehensive review process over the next 60 
days to make those determinations.
    Mr. Boehlert. And--
    Secretary Ridge. I am not aware of any, but that doesn't 
mean that they were not detected in either community and simply 
not available in the first report.
    Mr. Boehlert. OK. Fine. Thank you very much, Mr. Secretary.
    Chairman Cox. The gentleman from Massachusetts, Mr. Markey, 
is recognized for 5 minutes.
    Mr. Markey. Thank you, Mr. Chairman.
    Welcome, Mr. Secretary. TSA is cutting 3,000 screeners this 
month, meaning my airport, Logan, where the two planes took off 
with a couple of hundred New Englanders that flew into the 
World Trade Center towers tragically is going to lose 50 
screeners. And by the end of the summer, another 3,000 
screeners are going to be terminated nationally, which I think 
is heading in the wrong direction. We will leave that question 
aside for a second.
    Twenty-two percent of all air cargo in the United States is 
placed upon passenger planes, not cargo planes. Twenty-two 
percent of all cargo. Right now, there is no system in place 
which guarantees that that cargo is screened. In fact, very 
little of that cargo is screened. The vast, vast majority is 
not screened, and it is put on passenger planes. Now, what is 
troubling about that is that the Lockerbie incident was not 
caused by a passenger getting on a plane; it was caused by 
cargo. And we yet don't have a system in place to do that.
    So my question to you, Mr. Secretary, is are you 
recommending a dramatic increase in the amount of funding for 
the screening of all cargo which goes on all air passenger 
traffic across the country?
    Secretary Ridge. Congressman, we are aware of that 
deficiency with regard to the inspection of cargo. As you know, 
first of all, we have put some rather significant restrictions 
on the kinds of cargo and the size of cargo that can be 
carried. That has had a significant impact, financial impact on 
airlines that are struggling for a variety of other reasons as 
well. And in the process--
    Mr. Markey. It is not screened though. Are you going to 
screen it?
    Secretary Ridge. Well, Congressman, very appropriately the 
answer is, working with the science and technology folks as 
well as the airline industry, we recognize this vulnerability, 
and that is a very high priority within Admiral Loy's shop 
presently. We have focused on the baggage, we have focused on 
the passengers, and now we are beginning to focus on the cargo.
    Mr. Markey. But what doesn't make any sense to me is that 
as we cut back by 6,000 screeners for passengers, that there 
still is no plan in place at all, at all, nearly 2 years after 
September 11th. And it is having a dramatic impact on air 
passenger traffic across the country. We are still down 
significantly in Logan. Nearly 20 percent of the passengers 
that were there on September 11th still aren't there. And we 
are a trade, tourism, and technology economy. So if we can't 
give people confidence that the cargo that is put in the bay of 
a plane under these passengers is being screened, then you are 
leaving a tremendous hole in the system. And almost none of the 
cargo is screened.
    So how much time do you want to give to putting a plan in 
place that is funded that deals with this incredible 
vulnerability?
    Secretary Ridge. First of all, Congressman, with regard to 
the right sizing of the workforce, I hope you understand that 
it is not done cavalierly and it is not done generically across 
the board. We anticipate, as we match technology with people--
because we first rushed into and I think hired in some airports 
more people than we think are adequate and needed for the 
purpose of providing the kind of security, which is our first 
priority. And we want to match people with technology, 
Congressman.
    Mr. Markey. I know you do. The technology exists. The only 
question is how much money are you willing to spend on it? The 
technology is there that can screen this cargo.
    Secretary Ridge. That is exactly right.
    Mr. Markey. So will you make a recommendation for the 
funding to screen all cargo going on passenger planes in the 
United States?
    Secretary Ridge. If we need additional funding, 
Congressman, to achieve that goal, I will be the first one to 
recommend it.
    Mr. Markey. You don't have the funding. You don't have 
money for it. You are cutting back--
    Secretary Ridge. We do have--
    Mr. Markey. You won't have the funding if the tax cut goes 
through. That is for sure. You can't drain 350 billion and say, 
well, we need an extra billion for screening but we don't have 
the money because the tax cut has to go through. The security 
of the American people should be first. Twenty-two percent of 
all cargo goes on to passenger planes and it is not screened.
    Secretary Ridge. Congressman, one of the additional 
responsibilities that Admiral Loy is looking at as we go about 
readjusting the force requirements, that the airport is using 
some of these people in other capacities other than dealing 
with passengers and baggage. And part of that--
    Mr. Markey. And have you requested that?
    Chairman Cox. The gentleman's time has expired. The 
gentleman from Texas, Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    Mr. Secretary, I appreciate the progress report you have 
given us today, and I, like you, agree that we are safer today 
than we were a year ago, and I think we will be safer a year 
from now than we are right now. I still have two concerns and 
two questions to address to you, one dealing with cyber 
security, one dealing with border security. And in regard to 
cyber security, we have been told at various briefings that 
there is a good possibility that if there is another terrorist 
attack it will involve at least in whole or in part a cyber 
crime of some sort, the use of the Internet perhaps to disable 
computers, shut down the energy grids in a large State and so 
forth. It is further my understanding that the private sector 
may be far ahead of the government in defending against various 
forms of cyber crime. And my question is, do you feel that we 
are--how vulnerable do you think we are to a cyber attack?
    Secretary Ridge. As you know, Congressman, in previous 
years the Congress has directed that within Commerce and Energy 
and several other executive agencies, like Secret Service, they 
have set up capacity to deal with cyber intrusion, cyber crime. 
Much of that capacity is being merged into the new Department 
of Homeland Security.
    As you also know, the Office of Management and Budget has 
primary responsibility for cyber security within the Federal 
Government, and they work very closely on a day-to-day basis, 
on an as-needed basis, depending on the information or 
intelligence received or an actual act of someone attempting to 
hack into a government system, with the private sector to deal 
with that.
    So again, I would tell you that I think we have the 
capacity to deal with it. We are going to merge some of that 
capacity within the Department of Homeland Security. And 
someone previously inquired as to or mentioned something about 
the turnover in the Department. The President previously had a 
cyber security adviser. That competency and that mission has 
been pulled into the Department of Homeland Security. So within 
our Infrastructure Protection Unit there will be a National 
Office for Cyber Security as part of the overall security 
effort.
    Mr. Smith. Thank you, Mr. Secretary. Mr. Secretary, in 
regard to border security I continue to think that high levels 
of illegal immigration threaten homeland security, because if 
you don't know who is coming into the country then you don't 
know what is coming into the country, like terrorist weapons or 
even illegal drugs. And we have a situation today, we have a 
proliferation of fraudulent documents that people use to stay 
in the country illegally or come in illegally. We have a 
situation where if an individual is in the country illegally 
unless they have committed a serious crime they are unlikely to 
be deported. At least in south Texas, if an individual is 
caught sneaking across the border six or eight times, they 
might be charged with violating immigration laws, but otherwise 
they won't be. We are only apprehending an estimated 20 percent 
of people coming across the border. None of that gives me a 
whole lot of confidence that we are defending the border as 
much as we might.
    What plans does the administration have or does your 
department have to stop the illegal immigration that threatens 
homeland security?
    Secretary Ridge. First of all, Congressman, I think the 
creation of the Bureau of Immigration and Customs Enforcement, 
when we took formerly some INS investigators and Customs 
investigators and others into one unit, really helps us build 
additional capacity. We are going to have a lot more 
flexibility to assign people that way.
    Second, I think you have given us additional resources to 
hire more folks at the border.
    And, third, we are, again with the new science and 
technology unit that is up and operational, looking at perhaps 
the application of some technology that we have used in a 
military environment that gives us the capacity to view those 
who would enter illegally across some of these difficult pieces 
of terrain where it is very difficult to get through and where 
it is very difficult for us to have a permanent physical 
presence.
    In addition to that, we are working very hard with our 
friends at the Mexican government to create a balance at the 
border between security and the free flow of goods and 
commerce. And we have several pilot programs dealing with 
pedestrian traffic, vehicular traffic, and truck traffic, again 
proceeding on multiple fronts to deal with the question of not 
only illegal immigration but to facilitate legal immigration 
and enhance commercial activity.
    Mr. Smith. Thank you, Mr. Secretary.
    Thank you, Mr. Chairman.
    Chairman Cox. The gentleman from the State of Washington, 
Mr. Dicks, is recognized for 5 minutes.
    Mr. Dicks. Thank you, Mr. Chairman.
    I want to welcome our former colleague Tom Ridge. You have 
got a tough job, and our committee, wants to help. And I want 
to go back to one thing that Congressman Turner raised, the 
Terrorist Threat Integration Center. We have been unable, Mr. 
Secretary, to find the executive order that created this. We 
are not sure there has been an executive order.
    Now, I believe in my heart that we had the information on 
9/11, but it just didn't get up to the level of the FBI where 
action could have been taken. Therefore, as a former member of 
the Intelligence Committee, I am very concerned that you, the 
responsible individual, get the information from this 
intelligence center that has been created.
    Can you tell us why this was created inside the Central 
Intelligence Agency instead of at the Department of Homeland 
Security?
    Secretary Ridge. Well, actually, the individual that is 
appointed to run it, John Brennan, is from the CIA. But that is 
an appointment made in consultation with the FBI Director, with 
the Secretary of Defense, and with myself. And this is not a 
collection agency; this is an analytical unit. And for the 
first time we have in this country a repository and access to 
all the information generated by all the intelligence gathering 
units within the Federal Government. So, again, it has been 
operational for a very brief period of time, but we have 
already seen the benefit of having a group of analysts not in 
the business of collection but having the authority to go back 
and secure additional information from whatever the source and 
in order to come up with a comprehensive threat picture for 
this country.
    Mr. Dicks. Do they develop a product that you see each day?
    Secretary Ridge. Yes.
    Mr. Dicks. Are there people from Homeland Security there, 
or is this all CIA?
    Secretary Ridge. Very good question. The hierarchy is, 
there is a Director from the CIA, the Deputy is from the FBI, 
and there are two assistants, one from the Department of 
Homeland Security, one from the Department of Defense. We have 
presently deployed several analysts there. And as we build our 
team, there will be additional men and women assigned to the 
Threat Integration Center. They will be part of not only the 
analytical unit, but because of their work within the 
Department of Homeland Security, we will have intelligence 
requirements since our primary function is to get information 
to State and locals and reduce vulnerability. So we will be 
able to go back and task and ask questions through the Threat 
Integration Center that heretofore not only were we not able to 
go and ask but we didn't have much likelihood of getting any 
answers. So I think we will enrich it because we will give it 
information. We will also be a consumer of the information and 
their work product.
    So, again, I think it is a huge value added to the effort 
particularly to prevent a terrorist attack.
    Mr. Dicks. That is the point I wanted to make. We should be 
thinking about prevention. I think this aids in that.
    Could you also explain your relationship with the newly 
created NORTHCOM and how that relates to the Department of 
Homeland Security and the kind of role that it is going to 
play?
    Secretary Ridge. Well, first of all, again, having within 
the DOD's chain of command a general assigned to this unit, I 
think in time, as we develop strategies and plans to deploy 
some of the special resources that are available to us through 
the Department of Defense, really will help us build a stronger 
and safer country. As you well know, because I think you served 
on Defense Appropriations, there are some very unique assets 
they could conceivably under certain circumstances make 
available to us in a radiological event, a biological event. So 
we have the opportunity to plan and work with General Eberhart. 
But we make that communication through a former colleague of 
ours, Assistant Secretary of Defense Paul McHale.
    DOD was very involved in the TOPOFF II exercises. So again 
as we reconfigure not just the Department of Homeland Security 
but kind of rethink our relationship with the Department of 
Defense, I think NORTHCOM and Paul McHale will give us an 
opportunity to do that sooner rather than later.
    Mr. Dicks. The only other thing I would say is I hope we 
get you more money. I worry about these first responders--I 
talk to them back home. I don't see the resources getting 
there. Yes, to Seattle, but to the other smaller communities, 
it hasn't happened yet, and we need to work together to find an 
answer to that.
    Secretary Ridge. Thank you, Congressman. I think, depending 
on Congress' will to embrace the President's first responder 
portion of the budget, which is $3.5 million, we will have 
available to State and locals within this calendar year nearly 
$8 billion. And one of the challenges we have is we want to 
make sure that we have the right amount of resources; second, 
make sure that they are invested in priority, security, and 
capacity building. And, third, and I am going to need Congress' 
help on this, I just really think that the dollars that we 
distribute to the State and locals should be consistent with an 
overall strategic plan that says to you as the Congressman and 
to the Congress generally and to the State, we have a statewide 
plan, and we build it from the bottom up.
    So as we think about not only the grant formula, I am going 
to seek Congressional support for the notion that it be 
distributed against a broader strategic plan, because obviously 
there is going to be sequential funding, but we have to build 
capacity.
    Mr. Dicks. Thank you, Mr. Chairman.
    Chairman Cox. The gentleman from Pennsylvania, Mr. Weldon, 
is recognized for 5 minutes.
    Mr. Weldon. Thank you, Mr. Chairman.
    Secretary thank you for being here and for your great work 
and service to the country. On the Intelligence Assessment 
Center, I applaud you for the work on that, and I did have some 
concerns about the CIA managing. As you know, that was a 
Congressional initiative. As far back as 1998, we proposed 
creating a National Data Fusion Center. In fact, we wrote up a 
specific brief to create what we called the National Operations 
and Analysis Hub, which would for the first time link together 
all 33 classified systems that are under the control of the 
Federal Government. The CIA balked at that and did not want to 
do it. In fact, we put language in two successive defense bills 
in 1999 and 2000 that specifically called for the creation of a 
National Data Fusion Center of external raw data, and the CIA 
and the FBI balked at it.
    So I am glad it is finally happening; but when we proposed 
it we proposed having it report to the President, the national 
command authority. And so following up on Congressman Dicks' 
comments, I would feel more comfortable reporting directly to 
the President or as a part of Homeland Security. But be that as 
it may, we need to have that capability.
    Second, I know it is not in your jurisdiction, but in my 
opinion one of the greatest efforts in Homeland Security has 
got to go back into where the weapons of mass destruction 
exist. 40,000 metric tons at a minimum of chemical weapons 
insecure, unsecure in Russia. Tons and tons of biological 
weapons in Russia. We are not having enough success in getting 
access. We put forth an initiative cosponsored by 25 
colleagues, including Chairman Cox and Steny Hoyer that creates 
a new initiative that goes beyond Nunn-Lugar that calls for an 
additional $300 million. And on the Russian side, they have--in 
fact, five letters have been received by me where they are now 
willing to give us total access to all of their secure sites if 
we follow through on this new approach. To me, in terms of 
securing a homeland, denying those weapons of mass destruction 
where they exist is of the highest importance, because after 
all the Iraqis and Iranians didn't have the indigenous 
capability to build biological and chemical weapons. That all 
came out of a destabilized Soviet Union.
    The third point on domestic security, and I know you have 
taken this to heart. We still do not have an integrated 
national domestic communications system. You are making good 
strides, you have asked for additional money, but it is not 
there yet. In the short term, I would suggest that you use the 
new technologies that some of the companies have come out with 
portable units that go right to the scene that can integrate 
systems. You have seen Raytheon has it, a number of companies 
have it. But in the short term that gives us a temporary 
solution at the site to integrate high band, low band, digital, 
and other communication capabilities.
    Along with that--and this is extremely important, Mr. 
Secretary--we need you to come out and vocally call for the 
dedication of frequency spectrum allocation for public safety. 
Jane Harman and I have a bill that we introduced. This is what 
the PISAC committee recommended in 1995, that we set aside 
frequency spectrum for public safety use. But we keep kowtowing 
to the big media providers in this country. We are not willing 
to stand up to them and tell them they have got to give up the 
spectrum that they were told to give up back in the late 
1990's. Chairman Tauzin has told me that he will move our 
legislation in June. A word from you publicly would help, I 
think, get the administration to support that legislation.
    And, finally, the technology transfer is not being provided 
from the military to the domestic defender. It is just not 
happening, Tom, and we have got to do more. The Pentagon, I 
have tweaked them, I have harassed them. They are still not 
transferring technology. When a soldier has access to GPS 
technology so the battlefield commander knows where he is on 
the battlefield, or she is, why shouldn't the firefighter have 
that technology? And why shouldn't they have the technology 
beyond that that has sensors and transmitters that tell us the 
vital signs, the health condition of the emergency responder? 
All that technology is available, but it is not being 
transferred in to the first responder. A push from you I think 
will help move that forward.
    And one final thing, and this is not meant to embarrass 
you, because it happened in the previous administration--but it 
still exists. Six years ago to deal with the problem, which is 
a homeland security threat, of wildlands and forest fires. We 
took $14 million of DOD money to use classified intelligence 
satellites to help us develop a software program to be able to 
identify when a forest fire occurs at a size of one acre or 
less using sensitive technology that was put up in space for 
our military and for our intelligence. The software system was 
developed. Today, that software system sits in boxes over in 
Crystal City where it has been for the past 4 years while 
America is ready to burn again. That is absolutely outrageous.
    I talked to Joe Albaugh about this. It was a battle between 
who was going to oversee it, whether it was going to be NOAA or 
whether it was going to be FEMA. Joe said he would take it. In 
last year's defense bill, we transferred the responsibility to 
FEMA; they came back and said we don't have any money. The 
technology is there.
    Chairman Cox. The gentleman's time has expired.
    Mr. Weldon. And for a minimal uptake we can put it into 
place, and I would encourage you to please make sure we get 
that program on line this year.
    Chairman Cox. The gentleman from Massachusetts, Mr. Frank.
    Mr. Frank. Mr. Secretary, I apologize, I am going to have 
to leave as soon as I have asked my questions. But your former 
committee is in markup, and I have to go over there.
    The two specific points. I and others have written to you 
about the SEVIS program, the Student and Exchange Visitor 
Information Service. It is an importantly--it is well 
conceptualized, but the administration has been difficult. And 
in particular, many of the schools have asked for a delay from 
August to December in one particular certification in a way 
that has nothing I believe to do with national security. You 
know, foreign students among other things subsidize American 
students, I mean, just in class terms, because they pay the 
full tuition, and we have caused a great deal of difficulty and 
I hope you will be able to look at that.
    The second point again on a letter that some of us are 
sending you with regard to the no-fly list, the people who 
aren't allowed to fly. There have been instances where people 
were kept off there who were people who had been involved in 
political disputes and political protests, were told that there 
were other reasons why they were kept off, that there may have 
been a name confusion. But obviously it is essential that there 
be no one in the private sector, in the public sector who 
thinks that being obnoxious in your political discourse is a 
reason that you can't get on a plane. And I think we need to 
lean over on that.
    The other point I want to make is I was struck when you 
explained that part of the problem with the incompetence on the 
screening was that private contractors had been hired to do it 
in a hurry and now that you are deploying government assets you 
think it can be done better, and I appreciate that. I think the 
notion that it is always better to privatize is not a good one, 
and in this case what you are saying is that it is being done 
better by the Federal employees, and I am not surprised by 
that.
    One of the problems I have is we are on the one hand trying 
to improve our security with police and fire and health, but 
there is this general tendency to denigrate the public sector. 
For example, in public health, we asked after anthrax, we asked 
ourselves, is the American public health system ready for an 
outbreak of bioterrorism? Well, in most of our cities it is not 
ready for Friday night. By Friday night emergency rooms are 
closing. And you cannot simultaneous build up a capacity to 
deal with homeland security while denigrating the overall 
capacity of the public sector. They are not two separate 
entities. In fact, the homeland security is kind of the point 
of the handle that is the overall public sector, and we won't 
ignore that.
    And then because I don't think the subject could adequately 
be covered, I would yield the rest of my time to Mr. Markey.
    Mr. Markey. I thank the gentleman from Massachusetts.
    Admiral Loy has had the job of putting together a plan to 
screen cargo on passenger jets in America. He has had that job 
for some time now. What do you think is a reasonable deadline, 
Mr. Secretary, for Admiral Loy to give us a plan, to give you a 
plan, to give the country a plan? This country wants this 
gaping hole closed. What is a reasonable time in your mind for 
Admiral Loy to make a decision?
    Secretary Ridge. Well, I would tell you, Congressman, it is 
a very appropriate question, and let us report back to you 
within 2 weeks.
    Mr. Markey. A 2-week deadline?
    Secretary Ridge. You have made a reasonable request of our 
department. I know Admiral Loy has been working on it. I do not 
know where he is on the specifics. I know we are looking at 
using--if we don't need so many people screening passengers and 
baggage, we may have other uses for them at the same airport. 
One of the potential uses is dealing with this question of 
cargo. So if you give me 2 weeks to review it with Admiral Loy, 
I would be prepared to come back and discuss it with you.
    Mr. Markey. And the answer could--will you give us an 
answer as to what the screening technology would be and how 
much it would cost for the whole country in 2 weeks?
    Secretary Ridge. We will do everything we can to respond to 
that answer, Congressman.
    Mr. Markey. Thank you.
    Secretary Ridge. You are welcome.
    Mr. Frank. Let me return then, if I could reclaim my time, 
to say on the whole the question of the public sector, with 
regard to the--particularly with public health, I am concerned. 
You know, you had those TOPOFF II and whatever it was. What 
time of day did those things take place? When did they begin, 
those outbreaks, the simulated ones?
    Secretary Ridge. Actually, the outbreaks began a couple 
days before we initiated the--well, we first detected the 
outbreaks, Congressman, I think midday on Tuesday.
    Mr. Frank. My concern is that if something happened and we 
didn't control when we were going to time it and it happened at 
11 o'clock on Saturday night, we would be in very tough shape. 
I mean, our public sector health system is badly strained now, 
and I think it is unwise to think that we can cope with a 
public health emergency of the--got a bioterrorism of another 
sort, and at the same time the amount of deterioration that is 
going on in hospitals. I know very few hospitals in urban areas 
today that can keep up with what they have got. So I think this 
two-track that we have got of spending enough money at the tip 
for Homeland Security while the overall structure deteriorates 
is a grave mistake.
    Secretary Ridge. If I might, Congressman. I think in I 
believe it was the 2002 budget, Congress appropriated in excess 
of $1 billion to start not only building up but enhancing the 
national disease surveillance network.
    Mr. Frank. But at the same time we are cutting Medicaid and 
Medicare.
    Chairman Cox. The gentleman's time has expired.
    The gentleman from Connecticut, Mr. Shays, is recognized 
for 5 minutes.
    Mr. Shays. Thank you. I appreciate you, Tom, being here, 
and I want to say that this process is almost a bit frustrating 
because there are so many elements I want to talk to you about. 
But that made me realize that is your job, and it must be kind 
of challenging every day for you to just think of how you 
allocate your time. But I want to add my voice to what Mr. 
Markey said.
    Jay Inslee and I put legislation in that passed to check 
for luggage and cargo in the belly of an aircraft. And 
basically the administration and members of Congress came back 
and took it out of the law because we had a deadline that was 
too ambitious. I believe that the Secretary of Transportation 
could wake up in the morning and find out six planes were blown 
out of the sky because we can't check. That is the reality of 
the world we live in now. And so I would like to make sure that 
when you come back in 2 weeks you are able to describe not just 
when we are going to do it, but is there a value in waiting 6 
months so we get better equipment? Because one of the problems 
was the equipment that we could buy that exists now is just not 
good. And the irony is that animals, that dogs can do a better 
job than the machinery. So, but I would love to be aware of the 
plan that you are coming forward, because I think it is huge.
    The other thing that I want to say is that Mr. Weldon's 
comments about detection and prevention, I would love you to be 
able to come down a little more in support of what Mr. Nunn and 
Mr. Lugar are trying to do. And that leads me to this question 
in your statement. You say that all frontline Bureau of Customs 
and Border Protection inspectors across the country receive 
personal radiation detectors to alert them to the presence of 
radioactive material. I would say to you that that equipment 
they use is almost useless. It doesn't allow you to know about 
enriched uranium, it doesn't allow you to know about plutonium. 
And I am curious to know what it allows you to do, but it 
doesn't get at what Mr. Weldon knows we need to get at. A 
Unabomber will be able to explode a nuclear weapon in 5 to 10 
years. We have got to get this stuff out of the system and we 
have got to detect it.
    So I noticed later in your statement under science that we 
are doing more research. Could you tell me what you think these 
radiation detectors do and what we are going to be doing and 
what we are looking to be able to do?
    Secretary Ridge. Congressman, your assessment of the 
existing technology I think is fairly accurate. It does give us 
the capability under certain circumstances to detect a source 
emitting radiological rays. I mean, it does give us a limited 
capacity to deal with the emission of radiological material. We 
made the decision that--
    Mr. Shays. That is basically the dirty waste? Yeah.
    Secretary Ridge. The good shouldn't be the enemy--the 
perfect shouldn't be the enemy of the good. We realize it has 
limited capacity. We also realize, and one of the first 
priorities within the Science and Technology Unit, is to 
specifically work on substantially enhancing our ability to 
detect radiogical material. I mean, it is one of the highest 
priorities within the Science and Technology Unit.
    Earlier today one of your colleagues asked what are your 
priorities? Well, we have set them with the S&T Unit, and one 
of the highest priorities is detection of biological, chemical, 
and radiological substances.
    So I can't speak more specifically than that. But detection 
equipment is a priority within the new unit.
    Mr. Shays. Thank you. I will yield back. Thank you.
    Chairman Cox. I thank the gentleman.
    The gentlelady from California, the ranking member on the 
Select Committee on Intelligence, Ms. Harman, is recognized for 
5 minutes.
    Ms. Harman. Thank you, Mr. Chairman.
    Welcome, Mr. Secretary, and thank you for spending 2 days 
last month in Los Angeles County, the largest county on the 
planet in the largest State in America, to meet with our first 
responders and to see our state-of-the-art Terrorism Early 
Warning Center, and to visit LAX, which has been the target 
three times of terrorist attacks. So it was very important to 
us that you were there, and you added a lot.
    A number of us in this room, as you know, supported Cabinet 
status for the Homeland Security Director before you and the 
White House did. We worked with you to fashion legislation that 
would give us added capability, and the goal is capability, not 
just reorganization. In fact, my metaphor is that the 
legislation was not about moving the deck chairs around, it was 
building one deck, one national integrated strategy. And I 
stress strategy, because that was your answer to Mr. Dicks. We 
need one national integrated strategy.
    Well, it has been quite a while, 116 days or so, I think, 
according to our chairman, and we still don't have that 
strategy. The key to that strategy I believe is one national 
integrated vulnerability assessment, which is required by 
Section 201(d)(2) of the Homeland Security Act.
    There has been a presentation to this committee by one of 
your assistant secretaries that we need to wait another 180 
days before we get this vulnerability assessment. That is half 
a year. Meanwhile, last week, as you know, 100 people died 
around the world as victims of terror attacks, and that could 
happen here, any day, any hour, any minute. So I want to ask 
you a question about that.
    Second, I want to ask you a question about your public 
awareness campaign. I was very pleased to see that you rolled 
out ready.gov. I think it is a good initiative. Everywhere I 
go, not just in California, people are anxious. They understand 
the color system, but they don't know what they particularly 
are supposed to do. And ready.gov I think gives them added 
information.
    So let me just ask you three questions. The first is, when 
exactly will we get this one national integrated vulnerability 
assessment? I think it is absolutely critical that we get that 
as soon as possible.
    The second is, meanwhile, we certainly are aware of a 
number of problems Congressman Weldon talked about. There is 
interoperability and things we could do there. Let me highlight 
a different one, which is watchlists. We learned recently from 
GAO and also from some testimony in another committee that I 
believe there are 12 separate watchlists that are run by nine 
different departments. What can you do, what can the Homeland 
Security Department do in this interim to organize, 
consolidate, and integrate these different watchlists?
    And on the subject of public awareness, I am very concerned 
that one of the weak links in public awareness is our schools 
and our school kids. You made a very appealing statement in a 
New Yorker article on ready.gov that in the 1950's in the civil 
defense drills you did what the nuns told you to do. Well, 
those of us old enough remember all that, and we did what our 
teachers told us to. I am not sure that today's teachers and 
today's kids are as well prepared--because the threat is more 
difficult. And I wrote you a couple weeks ago about the FLASH 
Program, which is a program in California designed to help 
educate kids in 8,000 public schools--that is how many we 
have--plus all the private schools who want to participate on 
what to do in the event of a terrorist attack. It would cost $5 
million to do this. It seems to me a small price.
    So my question is three parts: The vulnerability 
assessment, the watch list, and will you support programs like 
the FLASH Program to help get school kids up to speed?
    Secretary Ridge. Congresswoman, the challenge of doing a 
complete nationwide vulnerability assessment of all potential 
targets within 6 months in a huge, monstrous economy requires 
that we begin by setting priorities within the different 
sectors of the economy. There are certain sectors within energy 
that we will begin working on, certain sectors within 
telecommunications. So we have viewed the national strategy; 
you will note that we have identified and divided the critical 
assets of the country, of which 85 percent are owned by the 
private sector, into 13 different categories. And, again, we 
have begun the process of working with the private sectors as 
well as the State and local officials to set priorities within 
those different sectors to take a look at developing standards, 
best practices, and then working with means to--and working 
with the first responders at these critical places to make sure 
that those vulnerabilities have been reduced or eliminated.
    So I am afraid it will take us a little longer than 6 
months to deal with a comprehensive national plan dealing with 
every single economic asset that we have in this country, but 
we are going to start with those who we feel pose the greatest 
problem because they are closest to the most densely populated 
areas and work on down from there. But it is a process that we 
have undertaken. We will work in many, many different ways to 
develop the standards and the best practices. And that process 
is ongoing. We are doing it now. And as we build up with more 
and more people and we work with the JTTF's and we work and 
respond to the terrorist information, there are just so many 
things that we have been doing and we will continue to do.
    The second question with regard to the watch list. We are 
presently in our shop working on the technology that will 
consolidate it and are working with the Homeland Security 
Council and other agencies to determine the kinds of 
information, the quality of information that we would 
effectively put into a watch list, because that is the kind of 
information we want to share with State and locals. So, again, 
that is a process that we undertook some time ago. Candidly, 
ensuring that the information that we would share with the 
State and locals is credible and actionable about these people 
is something that we are working on now. But within the 
Department we are working on the technology and with the other 
departments we are working to consolidate the names and the 
information.
    And then, finally, I do appreciate the sensitivity to doing 
more to work with school boards, teachers, and children at our 
schools. And I know that Secretary Paige has begun that 
process, and he and I will talk about the FLASH Program and 
related programs and respond to you. It sounds like the kind of 
initiative that would be appealing. We just need to see how it 
works and would be pleased to get back to you.
    Ms. Harman. Thank you, Mr. Chairman.
    Secretary Ridge. By the way, I didn't realize until I 
visited Los Angeles County that you have a larger population 
there than almost 40 other States. So we had to spend quite a 
bit of time, and I appreciate you working with us to set up all 
those visits.
    Chairman Cox. We do, however, have only 2 votes in the 
Senate. The gentleman--
    Secretary Ridge. Recognizing and well understood by a 
former Member of the House, Mr. Chairman.
    Chairman Cox. The gentleman from Florida, the chairman of 
the Permanent Select Committee on Intelligence, Mr. Goss, is 
recognized for 5 minutes.
    Mr. Goss. Thank you very much, Mr. Chairman.
    Welcome, Mr. Secretary. I am going to yield my time to the 
gentleman from Nevada, Mr. Gibbons, who has been here on behalf 
of our committee. But before I did, I wanted to congratulate 
you and express my appreciation for the work you and your 
people are doing so far, not only protecting our country; at 
the same time, you are trying to stand up in this town a 
manageable bureaucracy. It is tough work.
    The one area I did want to emphasize, I know you understand 
very well the need to balance between the gates, guns, and 
guards part of your program and the very aggressive acquisition 
of what I will call value-added information. Most success is 
going to depend on good information. That translates to me 
intelligence, taking nothing away from the gates, guns, and 
guards piece of the program. I think as a Nation we have 
learned it is better and cheaper to have good prevention rather 
than better cleanup, and I wish you well. I yield to Mr. 
Gibbons.
    Secretary Ridge. Absolutely.
    Mr. Gibbons. I thank the gentleman for yielding. I had a 
question with regard, Mr. Secretary, to Liberty Shield, the 
program Liberty Shield.
    Secretary Ridge. Yes, sir.
    Mr. Gibbons. When the war in Iraq began, Iraqi Freedom 
began, you elevated your security status and implemented the 
program Liberty Shield. What new initiatives were put in place 
as part of that exercise? And, additionally, are those security 
measures still in place?
    Secretary Ridge. Congressman, as part of Liberty Shield, as 
we are working on identifying critical infrastructure within 
this country and setting priorities among the infrastructure 
that we identify. We went out to the States and talked with 
them about enhancing security at various locations within those 
individual States, and then requested that they take a look at 
what we had provided; and, if there were other similar 
facilities, perhaps not quite the magnitude, that they would 
consider enhancing security. But we went with them with some 
specific targets that we felt needed additional security above 
and beyond what may have been provided by the governor.
    Mr. Gibbons. Let me ask, with regard to the TTIC, the 
analytical portion there. Are there any gaps being created by 
the withdrawal or the usage of analysts from other departments 
like the CIA, FBI, in creating the analytical portion of 
Homeland Security?
    Secretary Ridge. Congressman, I can't speak to how the CIA 
or the FBI feels, because I know both agencies, including my 
own, wish there were a larger body of trained professionals and 
analysts that we could pull into TTIC, to their agencies and 
into ours. But I have not detected in my conversation with 
either the FBI Director or the CIA Director the kind of strain 
to which you elude, particularly because I think together they 
began several months ago in Quantico a very robust and very 
aggressive training program. They have gone out to recruit more 
and more people to come into their respective agencies as 
analysts. We are going to use the same facility to enhance our 
body of analysts as well.
    Mr. Gibbons. How long do you believe it will take to 
acquire the required analysts to completely staff your 
facilities so that you feel you are up to speed 100 percent for 
the work that is needed to be done?
    Secretary Ridge. We are in the process of hiring right now. 
Again, it is a fairly cumbersome process because there is not a 
huge pool. We are going to hire--the FBI and the CIA, as we set 
our operation up, were very generous and deployed several of 
their analysts and are presently working with us. We hope to 
replace them and send them back. But I think we are hiring on a 
pace which we are comfortable. We could probably move faster if 
there were a lot more people out there to choose from, but 
there are not.
    Mr. Gibbons. And, finally, what steps have you been taking 
to develop the collection priorities for the Intelligence 
Community?
    Secretary Ridge. The collection priorities come in several 
forms. But since our primary mission is to harden America and 
to match the threat information with potential vulnerabilities, 
as we have set up TTIC, our initial response based on any kind 
of threat information is really around securing additional 
information. We need to see if we can get some particularity 
with regard to potential targets so that we can go out and work 
with either the private sector, the governor, or whatever 
combination of individuals or groups we need in order to secure 
that venue or secure that region. So again we are just--the 
TTIC has been up and operational for 20-some days. We now know 
that we can go back and task these analysts to get back to the 
respective agency and, frankly, even get to the point where we 
can if they are in the process of interviewing people based on 
our unique requirements in the Department of Homeland Security, 
go back and request that certain inquiry, certain specific 
inquiries be made of the people that they have detained and are 
questioning.
    Mr. Gibbons. Thank you, Mr. Secretary.
    Chairman Cox. The gentleman from Maryland, Mr. Cardin, is 
recognized for 5 minutes.
    Mr. Cardin. Thank you, Mr. Chairman.
    Mr. Secretary, it is a pleasure to have you before our 
committee. Welcome. All of us are spending a lot of time with 
our local officials assessing our own homeland security 
availabilities and needs in our district. So let me share with 
you some of my observations where I think your agency could be 
more aggressive in trying to help our local governments be 
fully prepared for homeland security.
    All of our communities have a Joint Terrorism Task Force. 
In Maryland, I have had a chance to visit with ours, and I 
think they are doing an excellent job in coordinating the work 
among different law enforcement agencies at the Federal and 
local levels. It is totally different than it was before 
September 11th and we are much better prepared. As you have 
created the Terrorist Threat Integration Center, we are 
creating in Maryland a Maryland Coordination and Analysis 
Center, which will be a coordinated location for all of the 
different partners with the Joint Terrorism Task Force. I 
mention that because there is no funding for that center. There 
is no direct funding available through the Department of 
Justice; the other partner agencies do not have funds to do 
this. And I just would urge that you look at the advisability 
of establishing that type of a funding availability through 
your agency in order to try to coordinate better the work that 
is being done at the local levels.
    I also just want to reinforce the comments that have been 
made about first responders. I applaud your effort to take a 
look at a different funding formula. I think we need to have 
one that is more sensitive to local threat. But I would also 
urge you to take a look at the needs that go up for local 
budgets every time we change the risk assessment, and that 
perhaps the formula should also be sensitive to the fact that 
when we go to higher alerts there is additional pressures on 
local budgets that sometimes cannot be handled without some 
outside help. And we would urge you to be more sensitive to the 
risk issues in the formulas and the funds that are made 
available on first responder.
    And then lastly, let me before I ask for your response 
mention our ports in this country. There hasn't been that many 
questions asked by my colleagues today about that. We have made 
progress in inspecting containers in the port of Baltimore and 
the ports around the Nation. We have a VACIS machine, we are 
getting a second which deals with x-raying and portable x-
raying of the containers, which makes a lot of sense. But it is 
my understanding that the proposed budget does not fully fund 
the equipment that is necessary to expedite the inspection of 
the containers and also being more aggressive on the port of 
origins for inspection of containers that come into U.S. 
waters. So I would urge you to be as aggressive as you can in 
the needs for proper inspection of containers coming into U.S. 
waters.
    Secretary Ridge. Congressman, to ease some of the pressure 
that your local officials have discussed with you, and frankly 
most have discussed with me and I think all have discussed with 
their Congressmen, one of the eligible uses of the dollars that 
we are sending out in the supplemental will be overtime. I 
think it is very appropriate. We do want them to use it on 
equipment acquisition and training and exercises. But more 
often than not, when we go up to another state of readiness it 
is labor intensive. So that normally means people just working 
longer. And so we will be mindful of that in the future, as we 
write future eligibility requirements for any kind of Federal 
funding. I think it is a very appropriate use of some of our 
Federal dollars.
    With regard to our port security, Congressman, I think you 
see a pattern that we are developing similar to that around 
aviation security in that we need to layer defenses, and we 
have begun by engaging the international community to give us 
the capacity in the country to inspect containers before they 
are even transferred to the ship in a foreign port. We have 
about 20 ports around the world that generate about 65 percent 
of the container traffic. We have already reached agreement 
with these ports so that we can put our folks in those ports 
and similar machines in those ports. And we have also now 
required and the international community and the shippers 
agree--they didn't care for it particularly--but there is a 24-
hour requirement that you need to convey to us the information 
about the contents.
    Secretary Ridge. That information along with some other 
information that we are able to secure through multiple sources 
gives us an opportunity to begin targeting some of these 
shipments even before they board. And so we will have that 
capacity in those 20 ports. We are going to expand that around 
the world.
    Moving closer to home, you hear the story, and I see it 
again and again. We are only boarding 2 or 3 percent of the 
vessels. And what I need to reaffirm and reiterate and repeat 
is that it is not a casual, random boarding that occurs; that 
the Coast Guard and other agencies have worked out an algorithm 
based on information they are able to secure from multiple 
sources depending on where the ship has been and ownership. 
There is a lot of things that they plug into the algorithm. 
They can say, we better board this ship. And so we board 100 
percent of what the Coast Guard calls high-interest vessels. We 
don't board them all. But whenever we have reason to board one 
based on our analysis, we board it. So 2, 3 percent perhaps, 
but 100 percent of the high-interest vessels.
    Moving closer to the shore, the 2004 budget request from 
the President with regard to Coast Guard, there will be more 
platforms that we will be able to acquire, more Coast 
Guardsmen, and we will continue the port vulnerability 
assessment that the Coast Guard's begun with the 55 strategic 
ports first and then the balance of the 300 plus ports. And 
then finally, the Coast Guard has begun working with the 
international maritime community to develop protective measures 
and protective standards notwithstanding the cargo security 
initiative that we have initiated, but similar processing and 
standards around the world.
    So again, layer the defenses. A lot of people are working 
on it, and I think we have made significant progress to date.
    Mr. Cardin. Thank you, Mr. Secretary.
    Chairman Cox. The Chair of the Homeland Security 
Subcommittee on Infrastructure and Border Security, the 
gentleman from Michigan, Mr. Camp, is recognized for 5 minutes.
    Mr. Camp. Thank you, Mr. Chairman.
    Mr. Secretary, thank you for your effort. You mentioned in 
response to one of your questions the number of people working 
hard to make our country safe every day. Well, yesterday we had 
an opportunity--the subcommittee had a field hearing together 
with the Government Reform Committee in Niagara Falls, and we 
heard from a number of employees of DHS, from Bureau of Customs 
and border protection, Coast Guard and Drug Enforcement 
Administration, as well as from some local law enforcement, and 
it was, if nothing else, a very informative hearing, but you 
couldn't help but come away and be impressed with their 
dedication and service.
    My question to you is in the 2004 Department of Homeland 
Security budget report there is an indication that DHS plans to 
implement a regional structure for all DHS agencies except the 
Coast Guard. And in this regional structure, I understand all 
functions will report to a regional director, who will in turn 
report to you. I am particularly concerned about how Customs 
will be affected in this new structure, especially the 
uniformity, development and maintenance of national programs, 
such as the FAST program, the Free and Secure Trade Program; 
ACE, Automated Commercial Environment; other programs such as 
that. And can you comment on what work has been done on the 
regional structure, who has been involved in it, and how you 
see--if that's true, how you see that coming?
    Secretary Ridge. I know there have been some preliminary 
concerns expressed by the private sector that if we go to a 
regional structure--now, again, I want to reemphasize this is 
really to oversee and coordinate activity. This is not going to 
be a consolidation of assets across the board. I mean, you have 
Coast Guard assets we are going to keep, Bureau of 
Transportation Security assets. This is really about ensuring 
on a regional basis that the national strategy, the national 
goals, the national plans, and the national priorities are met.
    So I know the private sector is concerned that there might 
be different levels of enforcement and different 
interpretations of Customs law, depending upon the region, and 
I am just here to assure you that that should not happen. Under 
our watch it will not happen. Their job is to make sure that 
whatever the law is, whatever the regulation is, that it is 
consistently applied, not erratically applied. It is really a 
coordination and command system, but they don't have unilateral 
discretion to change the law, the regulation or the policy that 
is set by the Department and Congress at the national level.
    Mr. Camp. Well, thank you.
    The Red Cross is the only nongovernmental agency with 
mandated responsibilities under the Federal response plan, and 
I know they were actively involved in TOPOFF II with their 
expertise, obviously disaster preparedness and response. The 
Washington Post has recently detailed some of the challenges 
facing the disaster relief fund, and I am interested in your 
thoughts on their role and the overall Homeland Security 
effort; and also for any Red Cross mandated activities, if you 
see any future funding and future budgets in Homeland Security 
for those functions.
    Secretary Ridge. Well, Red Cross has historically been a 
partner of the Federal Emergency Management Agency and 
obviously a close collaborator with communities and bringing 
their own brand, I think, of service and compassion to 
communities that are hit with a natural disaster, and we saw 
how well they responded on 9/11. I think our relationship as we 
develop our own--as you know, there are four or five national 
incident management plans out there that Congress has directed 
be created over the past several years. Under the new 
Department you have instructed us--we are going to create one 
plan, and once we have this plan developed, it would be an 
opportune time to sit down with not only the private sector, 
but with philanthropic organizations like Red Cross to see how 
in the event of a terrorist event or a natural event occurs in 
the future, how we can better coordinate our work together.
    But we have--I just don't think--again, as a voluntary 
philanthropic organization we have no plans to provide them 
Federal assets to do their job.
    Mr. Camp. Thank you.
    I realize we are almost out of time, but do you see any 
local option with regard to the code system for local 
jurisdictions that want to do more or do less at some point in 
the future?
    Secretary Ridge. Yes. You are talking about the threat 
warning system.
    Mr. Camp. The color-coded warning system.
    Secretary Ridge. Yes. Well, one of the--we tested the 
system in the exercises, and during the course of the exercise, 
I had occasion to call the 55 homeland security advisors from 
the States and the territories, and just to remind them that 
while the Federal Government has adopted it, Los Angeles has 
adopted it, New Jersey has adopted it, some other States and 
communities have adopted it, I think it would be in this 
country's best interest if we all adopted a version, and within 
that, again, a color really to alert the public. But it really 
triggers certain preventive measures, or security enhancement 
that the emergency folks, the law enforcement professionals, 
the security folks are to do.
    And again, part of our mission in the Department--and 
again, it is a challenge because you can't dictate that the 
States do it because it is a Federal system. But I think we 
have been able to convince most homeland security advisors and 
their Governors that some form of system is needed so that they 
know when we go to a certain level alert, there are certain 
things that they need to do in respective States and urban 
areas. We cannot mandate it, but, again, we are bringing them 
along. I think we have convinced them that this would be a good 
thing to do. And within that there should be a range, and we 
will work with them. We will give them--just as we have given 
them a template to develop a plan for Federal dollars, we can 
give them a template to develop a security protocol depending 
on the level of threat.
    Mr. Camp. Thank you.
    Thank you, Mr. Chairman.
    Chairman Cox. The gentleman from Oregon, Mr. DeFazio, is 
recognized for 5 minutes.
    Mr. DeFazio. Thank you, Mr. Chairman.
    Mr. Secretary, thanks for being here. Thanks for this 
generous grant of time.
    Two quick points and then a question. The first would be, 
you know, I am learning a lot as we go through this, as I am 
sure you do. I would observe that the national emergency alert 
system is not all that it appears to be. I drive around in my 
old Dodge Dart. I have still got the Conorad things on there, 
rubber band and that. But the new system we have gone to is not 
what I envisioned, some sort of state-of-the-art 21st century 
system. In my State they contact Oregon Public Broadcasting, 
who is having its State funding eliminated because of our 
budget crisis, and then they are supposed to relay the alert, 
and they tell me, well, with deregulation a lot of these 
stations, there is nobody there. There is nobody to relay the 
alert to. We need some new, much more automated state-of-the-
art system to communicate from Washington down through the 
emergency alert system.
    Second point: First responders. I, like many others, went 
out and held hearings, meeting with my first responders. As you 
know, police can't communicate with fire in some communities. 
Some communities can't communicate community to community. 
Nobody can communicate with the State, and nobody can 
communicate with the Feds on a digitally secure radio format. 
It is a very expensive undertaking to convert to this. You 
know, we are trying to do it, and a number of my jurisdictions 
are trying to do it. Improving your grant system will help a 
little bit. If you could remove the requirement that they get 
only reimbursed, but go to a system where they could have an 
approved grant, because my communities are broke right now 
because of our budget crisis. If they didn't have to get 
reimbursed, some of them could move ahead.
    But beyond that, the funding isn't adequate for one county. 
I have one large county the size of the State of Connecticut. 
It is one of my six counties. It will cost 25 million. My whole 
State is getting 14 million in grants. So the partnership isn't 
adequate, and I think this would serve the Nation well and 
would also produce some jobs because we would buy American.
    Now, the question, Mr. Markey talked about the problems 
with aviation. There is another one that came to my attention 
which is absolutely shocking, and I am not--at first I raised 
it in a sensitive manner because I thought it was an oversight 
of one airport. I was accompanying the committee, and we saw 
that airport employees were filing into the airport with no 
security checks, flashing a photo ID. I asked about it and I 
was told, oh, well, don't worry, they are not getting on 
airplanes. I said, well, how do you know they are not getting 
on airplanes? They could have a ticket in their pocket. They 
could have an e-ticket.
    Second, who do you know--how do you know what they are--who 
they are meeting in the terminal?
    And third, we have taken the steak knives out of the 
restaurants, and these people are walking through with 
overcoats on with no--not even a basic metal detector there, no 
screening whatsoever.
    I thought it was sensitive. I raised it sensitively, got no 
response. I raised it again sensitively, not in a hearing, with 
a TSA administrator, without naming the airport, and then I was 
told, oh, no, Congressman, that is our national policy. They 
have all had background checks.
    So all the McDonald's employees, all the Borders employees, 
you know, all the vendors and 600,000 people a day, I am told, 
filed through security, they have had background checks done by 
the private sector, by McDonald's and other private firms under 
contract. Given what's happened with TSA doesn't give me a lot 
of confidence, and I think it makes the whole system a lie. 
There is the pilot out there being searched. There is the 
flight attendant out there being strip-searched. There is the 
frequent traveler. There is all the public. But over here, 
600,000 people a day are filing through without even a modicum 
of security. It is extraordinary.
    And so I put an amendment in the bill last week to require 
that. Immediately the TSA started making phone calls, lobbying 
against my amendment, saying they can't afford it. They don't 
have the resources to do it. Now, you are cutting 6,000 people, 
and we are not screening 600,000 people. That wouldn't 
require--if you kept those 6,000 people, they could screen just 
100 people each day. I think they can do better than that, so 
maybe you could lay off maybe 4- or 5,000 of them.
    But I can't believe we have this loophole. I can't believe 
that we are not requiring the airport employees--while pilots 
are a threat, flight attendants are threat, Members of Congress 
are a threat. We all go through security, but somehow--maybe 
the Members of Congress--but somehow, the airport employees 
don't have to go through that. Could you respond to that?
    Secretary Ridge. I sure would, and I sure should, because 
that is one of the reasons that they are working on the 
transportation worker identification card that will require--
again, I have talked to Admiral Loy, and I don't know who 
communicated to you they do or do not have available in terms 
of resources, but that is a project that each Federal airport 
director and Federal security officer has been and is engaged 
in. We need to, again--and I say this with--you appropriately 
discuss the problem and the magnitude of the problem with 
600,000 people whose background we need to check. And it is not 
just employees that come in and work on a day-to-day basis, but 
those that provide the food, those who are the vendors and the 
like. I mean, we will--
    Mr. DeFazio. Mr. Secretary, we are going to run out of 
time, so let me just get back to it. I agree with the worker 
identification card, but that would be like the frequent 
traveler card I want. My vision and everybody else's vision is 
those people still go through basic security, including a metal 
detector. I can't believe we took out the steak knives, and 
600,000 people of unknown--they don't even have to be U.S. 
citizens to work in the airport--are filing through, and we are 
not planning on putting them through rudimentary security. The 
worker ID card will help.
    Chairman Cox. The gentleman is correct. His time has 
expired.
    Mr. DeFazio. But they need to go through security, too. I 
think they need both.
    Secretary Ridge. Congressman, you have made a very 
appropriate statement, and I would like to review what each of 
the Federal security directors is doing at the airports and 
report back to you on that particular challenge.
    Mr. DeFazio. Thank you, Mr. Secretary.
    Chairman Cox. The gentleman from Oklahoma, Mr. Istook, is 
recognized for 5 minutes.
    Mr. Istook. Thank you very much, Mr. Chairman.
    Secretary Ridge, very good to be with you.
    Let me make a couple of opening statements. First I want to 
thank FEMA for its response to our recently--recent tornadoes 
in Oklahoma City and the area there. Most of that was in 
Congressman Cole's district. Some of it was in mine. But as 
usual FEMA was right on top of things and providing the 
assistance to our citizens, and we appreciate that.
    I also want to express appreciation in some of my area of 
appropriations responsibility for the grants that Homeland 
Security is making for security on different mass transit 
systems around the country I think will be well taken. I know 
the challenges you have in dealing with policies and structure 
and the demands on your time.
    I am still a little concerned about communications. I tried 
to reach you several weeks ago on a matter, and not only did I 
not hear back from you, but nobody on your behalf ever got back 
to me. That matter is resolved, so it is needless now, but I am 
still concerned about the responsiveness in your office.
    What I wanted to address with you in particular, though, 
regards TSA. And I understand that decisions have been made, 
and working with the prime contractor to enable this, in 
establishing 5 core offices and 20 regional offices for TSA. I 
think it is a decision, from what I understand about it so 
far--TSA, of course, has responsibilities that are spread out 
all over the country. I don't know how well a regional office 
approach would work with things like Customs, which are not as 
uniformly scattered around the country, and definitely has very 
serious needs for uniform approaches. But I would appreciate 
your giving us some elaboration on what is the intended purpose 
and use of the core centers and the regional centers for TSA, 
and what is the approaches you expect to be taking regarding 
regional offices for the other parts of homeland security.
    Secretary Ridge. I suspect that the goal is basically the 
same, whether it is a TSA regional office which will be 
ultimately incorporated into a Department of Homeland Security 
regional office--TSA is no longer an independent entity,--they 
are now part of ours, and so they would be integrated into our 
regional offices. Congressman, I think the primary purpose--
    Mr. Istook. Excuse me for a minute. Does that mean that the 
20 regional offices--that TSA will become regional offices for 
homeland security, the same 20?
    Secretary Ridge. It does not.
    Mr. Istook. OK. Please proceed. I am sorry.
    Secretary Ridge. And the other thing I want to allay any 
concerns about, it doesn't necessarily mean that an existing 
regional office that has infrastructure personnel and mission 
in Customs or what was formerly the INS will be consolidated or 
moved. But the accountability and authority, the command and 
direction of that particular unit may be transferred. The 
management may be transferred, but the assets will remain. But 
the purpose of our consideration of a regional infrastructure 
is frankly predicated on the notion that you cannot secure the 
homeland from Washington, D.C. You'd better have people 
responsible, accountable and managing outside of this--outside 
of the Nation's Capital, and you need someone a lot closer to 
the day-to-day operations of the various units within the 
Department of Homeland Security to oversee that activity, to 
coordinate that activity, and from time to time at certain 
levels resolve any disputes or differences between the 
respective agencies.
    It is also, we think, very important for us to have a 
regional approach toward the States and to the locals, both the 
first responders, the law enforcement community, as well as 
political figures. So the notion, again, is that at the 
national level, the departmental level, we would centralize the 
budgeting and the establishment of priorities and the policies 
and the like, but at the regional level there would be the 
oversight and the coordination and the outreach function, which 
we think our mission is much better suited to getting much of 
the management and much of the outreach a lot closer to the 
folks back home.
    Mr. Istook. Certainly.
    Well, I want to do some follow-up in writing, and I know 
that the TSA centers are intended to be training centers 
mostly. I know, for example, you know, Oklahoma City, having 
the FAA aeronautical center and the postal training center, has 
been selected for one of those. And I--
    Secretary Ridge. And they will continue to train. Again, I 
am sorry. I think you understand.
    Mr. Istook. Sure.
    Secretary Ridge. There are agencies, historically we have 
inherited some good people, some technology, some assets, some 
infrastructure that are located--it is not a matter of closing 
ports and closing a lot of these units. It is a matter of 
consolidating their management for oversight purposes and 
accountability as well as outreach to the State and locals.
    Chairman Cox. The gentlelady from New York, Mrs. Lowey, is 
recognized for 5 minutes.
    Mrs. Lowey. Thank you, Mr. Chairman.
    And, Mr. Secretary--sorry. Mr. Meeks' head is in the way. I 
just wanted to thank you very much for assuming this urgent and 
enormous responsibility and assure you that on both sides of 
the aisle, we really want to work with you as effectively as we 
can and provide the resources you need.
    And I would like to follow up with three specific 
questions. First of all, Mr. Secretary, there was some 
reference made to the fire service. As you know, in every major 
emergency situation, firefighters report immediately to the 
scene, and more often than not it is the chief firefighter who 
leads the response/cleanup/recovery effort. I don't understand 
why it hasn't been a priority within the Department of Homeland 
Security to create an office specifically dedicated to this 
element of the response. That's the first question.
    Second, I am a strong supporter of the Weldon-Harman bill. 
All of us have been talking to each other about the problem of 
interoperability and the fact that the police can't talk to 
each other, the firefighters can't talk to each other. There is 
an Office of Homeland Security, Office of State and Local 
Government Coordination. I personally have gotten on the phone 
with FEMA. I have had my office calling everybody.
    You talk about a strategic plan. If there is to be a 
strategic plan, why should every village, town, mayor, et 
cetera, be buying their own equipment? In my meetings with all 
of them, they said, we would love some direction. There is no 
direction. According to Mr. Weldon and others, there is 
technology that exists. I don't understand why this office 
cannot provide some direction so we are not throwing out some 
money. There is a lot of money that has been appropriated 
through Mr. Rogers' committee. It seems to me your office 
should be communicating with the localities and providing 
direction.
    Third, when you decided--oh, and I should mention, talk 
about communication. I was talking to the Greenberg--which is a 
town in my district--police chief. He says what he is getting 
from the Department of Homeland Security by way of 
communicating urgency is birthdates of prominent Muslims. He 
said the DHS items go directly from the fax to the garbage. 
They are not getting any information that could be used by 
localities in my district just north of New York City. And 
there is a great deal of anxiety, as you can imagine, 
everywhere.
    When you decided to rightsize the number of screeners, did 
you rely on intelligence analysis of the nature and level of 
the threat? If so, can you provide to us the intelligence you 
relied on so as we consider your budget requests, we can assess 
whether your rightsizing was right? There is a real concern 
about the cutbacks in New York. I am even more concerned that 
we can't count on a background check on the TSA officials that 
we have there right now.
    But if you can respond to those three questions, I would be 
most appreciative.
    Secretary Ridge. First of all, with regard to your inquiry 
about a strategic plan, we have communicated to and delivered 
to Governors and homeland security advisors and mayors at major 
metropolitan areas as well as all the trade associations a 
statewide template that has been out for nearly 2 months.
    Mrs. Lowey. May I interrupt, because I know the red light 
is going on. Does that include specific directives of equipment 
that would provide interoperability among the various 
departments?
    Secretary Ridge. That is a separate issue. We have the 
responsibility to do that, and we will be doing that.
    Mrs. Lowey. But you should know, Mr. Secretary, with the 
greatest of respect, that these towns and villages can't wait. 
They are all buying equipment, and if I hadn't called them 
together and said, hey, wait a minute, I am going to try to get 
you some information--but there is no information. There is no 
directive. Could you give me some guidelines as to when the 
Department will specifically be providing directives to their 
localities?
    Chairman Cox. If the gentleman would suspend at the request 
of the Chair and the Secretary would suspend before giving his 
answer, the chairman is aware that the President has requested 
you at the White House at 11:45. I think it is appropriate if 
you could complete the answers to Mrs. Lowey's questions, if 
that is possible, before you leave. But we also want to make 
sure you have the opportunity today to do your job as well. 
Because you have been willing to endure over 2 hours of 
questions from 20 Members, we appreciate very much the time 
that you have given us today. Still, I note that there are 
other Members who have been here since the fall of the gavel 
who will not have the opportunity to answer questions, and so 
the Ranking Member and I would propose that after the 
congressional recess, we might invite you for a return visit to 
complete the subject matter of this hearing.
    Secretary Ridge. We would be happy to return under those 
circumstances.
    Chairman Cox. During which time, Mr. Secretary, the 
questions would be put only by Members who were present at this 
hearing, but did not have the opportunity to ask questions.
    Ms. Jackson Lee. Would the chairman yield for a question?
    Chairman Cox. I would be pleased to yield.
    Ms. Jackson Lee. Mr. Chairman, first of all, I want to 
thank the chairman and Ranking Member. I think the remaining 
Members realize what a crucial day this is and a crucial 
hearing. I am hoping that the distinguished Secretary could 
look at his calendar and possibly be able to participate in 
such a hearing before the break. I know that there are limits 
on people's times, but I am sure we would be happy to return at 
6:00, 7:00, 8:00 at night to finish this hearing, and I would 
appreciate, Mr. Secretary, if you could look over these next 4 
days, 3 days.
    Secretary Ridge. We would be pleased to.
    Ms. Jackson Lee. And we would be delighted to accommodate 
you.
    And I yield back to the gentleman.
    Chairman Cox. Thank you.
    And, Mr. Secretary, we appreciate the urgency of your 
imminent departure, and so we leave you to address Ms. Lowey's 
questions in whatever time you have.
    Mrs. Lowey. Thank you very much, Mr. Secretary.
    Secretary Ridge. Mr. Chairman, I would be happy to work 
with you and your colleagues to find additional time, and if we 
can do it this week, certainly I am prepared to do it. It is a 
pretty hectic schedule. I am sure yours is as well. If we can 
match the two schedules, I would be happy to come back this 
week; if not, as soon as you return.
    Chairman Cox. Thank you, Mr. Secretary. Your dedication to 
this job and to make America safer is very much appreciated. We 
are all very grateful. We wish you every success in your 
mission.
    Mrs. Lowey. Excuse me. I thought the Secretary was going to 
respond just to those questions about the interoperability, if 
I could impose on you.
    Secretary Ridge. First of all, the strategic plan that we 
talked about is out there, and the issue that you talked about 
is critically important because we can, and I can, use your 
help, because right now we don't want the local communities to 
go out to do their own thing. We want them to build up a 
standard capacity around the country, and that is precisely one 
of the key missions of the Science and Technology unit, to set 
the standards and to put basically an imprimatur. This is the 
kind of technology that is interoperable. There are a bunch of 
vendors out there. You choose the one you want, but make sure 
it is within this range. That is something that we are 
developing right now.
    The rightsizing at the airports, I am just going to share 
with you, Congresswoman, again, the rush to get people at the 
airports and technology at the airports, some airports we had 
more technology and fewer people. It is just trying to balance 
now, because frankly, with the added technology at some of 
these airports, we can make adjustments. And I must also tell 
you that we feel that a significant number of these individuals 
will either be removed because of problems with malfeasance, 
they haven't done a good job working, and some may be removed 
because of the latest revelations about their background. And 
many will be removed just because of attrition.
    Again, we are trying to balance a number of employees with 
the amount of technology at each and every airport. It is not a 
generic across-the-board of we have to cut X number of people 
from the system. That is not it at all.
    Mrs. Lowey. Thank you. And I hope I have the opportunity to 
follow up with your Department to get additional information. 
Thank you.
    Mr. Turner. Mr. Chairman.
    Chairman Cox. Yes. I would yield to Mr. Turner.
    Mr. Turner. Mr. Chairman, I thank you for working out the 
arrangement where the Secretary can come back, and I 
appreciate, Mr. Secretary, you being here. I think we all 
understand the urgency of your departure. I understand the news 
is reporting that the Homeland Advisory Council of the 
President will meet after noon to consider raising the threat 
level. But we do appreciate you being here today.
    And, Mr. Chairman, I would request that all the Members be 
given an additional week to submit statements and/or questions 
for the record, particularly those Members who have already 
asked questions who will not be afforded the opportunity to do 
so when the Secretary returns.
    Chairman Cox. Without objection, so ordered.
    Chairman Cox. Mr. Secretary, thank you again.
    This hearing is adjourned.
    [Whereupon, at 11:45 a.m., the committee was adjourned.]



 HOW IS AMERICA SAFER? A PROGRESS REPORT ON THE DEPARTMENT OF HOMELAND 
                                SECURITY

                              ----------                              


                         THURSDAY, May 22, 2003

                  House of Representatives,
             Select Committee on Homeland Security,
                                           Washington, D.C.
    The committee met, pursuant to call, at 10:08 a.m., in Room 
2318, Rayburn House Office Building, Honorable Christopher Cox 
[Chairman of the committee] presiding.
    Present: Representatives Cox, Dunn, Hunter, Boehlert, Goss, 
Diaz-Balart, Goodlatte, King, Shaddegg, Thornberry, Gibbons, 
Granger, Turner, Markey, Dicks, Lowey, Andrews, Norton, 
Lofgren, McCarthy, Jackson Lee, Pascrell, Etheridge, Lucas, 
Langevin, and Meek.
    Chairman Cox. [Presiding.] Good morning.
    A quorum being present, the Select Committee on Homeland 
Security will come to order. This is a continuation of the 
hearing that began on Tuesday, May 20th.
    Mr. Secretary, we would like to welcome you back.
    Secretary Ridge. Glad to be back.
    Chairman Cox. We particularly appreciate your making the 
time to be with us again so soon. Even though it was just a few 
days ago, much has transpired in the interim on the heels of 
the news of last week's bombings in Saudi Arabia and Morocco.
    We are absorbing the details of the arrests that were made 
in Saudi Arabia in the aborted airport attack. We are absorbing 
the news first broadcast on Al Jazeera from Ayman Al-Zawahiri, 
if it is he on those audio tapes.
    We had to adjourn Tuesday because you were summoned to the 
White House for good reason. The president asked you to join 
him to discuss whether the threat level should be raised, which 
you decided to do.
    Mindful of the jurisdiction of this committee and of the 
strong interest of our members, I would invite you, Mr. 
Secretary, to take a few moments before we resume questioning 
to comment on the events that led to this change in status 
before we begin with questions.
    Before you do, let me say that we very much appreciated the 
closed briefing that Undersecretary Hutchinson provided to 
members yesterday. Still to the extent that you can enlighten 
us in this forum about the factors that went into raising the 
threat level, we would be most grateful.
    Mr. Secretary?

  STATEMENT OF HONORABLE TOM RIDGE, SECRETARY, DEPARTMENT OF 
                       HOMELAND SECURITY

    Secretary Ridge. Well, I will tell you, Mr. Chairman, ever 
so briefly so we can begin the question period, I would like to 
just spend a few moments talking about the process basically 
that the administration goes through in analyzing the threat 
and then making a decision to raise or lower the National 
Threat Awareness System.
    First of all, let me talk about the Threat Awareness 
System. Because we are a federal government, the challenge of 
taking a system, which we have adopted in the federal 
government, system-wide; the Defense Department, for obvious 
reasons, has a similar system as well as the State Department 
for overseas, but now the entire federal government operates 
under a Threat Warning System.
    The Threat Warning System is a color-coded system that has 
been subject to some humor--some good, some bad--but very 
appropriately, I happen to think that humor is a good way to 
talk about very important subjects. So I don't mind it at all.
    The threat system and the color-coded system for the 
average citizen hopefully will be viewed very much like a 
traffic light, where there are three colors, and depending on 
the color of the traffic light, you are, as a driver, to do or 
not to do certain things. The color indicates the kind of 
conduct that is expected by you driving your vehicle.
    Well, the color-coded National Threat Warning System is an 
alert, is a signal of general information to the general 
public, but basically the system is an alert, a signal to the 
law enforcement community, to security personnel to do certain 
things.
    We will expect certain levels of protection, certain levels 
of enhancement depending on the color. And so the level of 
security around federal buildings at a yellow level is less 
than it is at an orange level. Flip it around: When we went to 
orange, we enhanced, we increased the amount of protection we 
had within the federal government.
    Now, there are cities, like Los Angeles and New York and 
others, that have adopted the system. There are states, like 
New Jersey and others, that have adopted the system.
    And so one of our biggest challenges, I think as a country, 
is to accept the notion that from time to time we want to give 
general information to the public. Our analysts say we are at a 
higher level of risks for the foreseeable future, that is why 
we are raising the level of alert--but understand that really 
the color-coded system is an indicator, it is a warning, it is 
a declaration to the law enforcement security personnel, ``We 
want you to engage in either more or less enforcement in 
security activity.''
    The process is a cumulative process, Mr. Chairman. I think 
you and members of the intelligence community know this. I 
don't mean to be taking too much time, but I do think it is 
important for this committee to understand every single day--
and now with the Department of Homeland Security as well as the 
Threat Integration Center, we now have even more participants 
in the daily, if not hourly, process of not only gathering 
information and assembling information but then analyzing 
information.
    And over a period of time there have been, I believe now, 
on four occasions where the aggregation of information that we 
have seen from credible sources has led us to call together the 
president's Homeland Security Council.
    It is comprised of quite a few members of the President's 
Cabinet. It is this body that--after others may review the 
information and the intelligence that is out there, convenes.
    We get a briefing from the CIA. The last time we had a 
briefing from the Threat Integration Center. We get a briefing 
from the FBI. And then everybody gives their own input, their 
own analysis, their own opinion of the measures that they 
believe we should take, whether it is credible, whether it is 
corroborated, whether it is significant enough for us to say to 
the security personnel in the country and the law enforcement 
personnel in the country, ``Under the circumstances as we know 
them now, you should better ramp up not only your vigilance, 
but you better enhance your security.''
    That process culminated within 45 minutes after you 
adjourned this committee hearing on Thursday. We had most of 
the President's Homeland Security Council either physically 
present or through teleconference. We reviewed it. I made the 
recommendation, along with the President's acting homeland 
security adviser, Admiral Steve Abbott, that we go to orange 
and accordingly we went to orange.
    So that is how we go about making that decision. It is as 
much art as it is science.
    As the President in this country and our allies continue to 
prosecute the war on terrorism, as we accumulate more and more 
information and this piece of information leads to another 
piece of information, I believe, in the months and years ahead, 
we will have more intelligence that we will deem credible, not 
always actionable even if it is credible. There has been four 
times since we have gone to the system where the accumulation 
of information, the general consensus with the intelligence 
community with regard to its credibility, and I must say, we 
don't have specific corroborated information that says, ``This 
is the time, place and manner of the attack.''
    But certainly there was enough specific corroborated 
information that said to us, after Morocco, after Saudi Arabia, 
after the statements, ``We had better take it up.''
    So that is precisely what we did on Tuesday afternoon, Mr. 
Chairman.
    Chairman Cox. Thank you very much, Mr. Secretary.
    Before we begin the questioning, which will resume with Ms. 
Lowey, I recognize the gentleman from Texas, the ranking 
member, Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    And Mr. Secretary, thank you for coming back so promptly. 
We appreciate it. And I know the members who didn't get an 
opportunity to ask a question earlier in the week greatly 
appreciate it.
    The fact that you had to leave our gathering and shortly 
thereafter raise the threat level to orange once again 
reaffirms my sincere belief that we need to call upon the 
president and the administration to reassess our priorities.
    It is interesting that you are here today on the day when I 
understand the House and the majority will pass the $350 
billion tax cut which, if not sunsetted, we are told will cost 
$1 trillion over the decade. And yet when I look at your 
budget--if you look at your budget in terms of what you 
received in the current fiscal year, plus the supplemental that 
you were provided, your budget for next year is actually 
smaller than the budget and the supplemental that you had to 
spend in the current year.
    And when I look at the total comparison of where we were in 
terms of spending on homeland security before September 11, 
2001 and compare it to where we are today, by the figures I am 
looking at we have increased spending about $12 billion.
    I mentioned to you the other day that we have spent $4.5 
billion since September 11th and appropriated funds for those 
first responders, those front-line troops who we are asking to 
protect us in these times of high alert. I know much of that 
money has not gotten to them yet, but it is a small sum when 
compared to the $65 billion that we spent in Iraq in just three 
weeks to prevail in that conflict. And I am proud we prevailed.
    Mr. Turner. But I think it is so very important--and you 
are, obviously, the key point person on this--to join with us 
in advocating that we do whatever is necessary to protect the 
safety of the American people. And I am convinced that we need 
to move faster and that we need to be stronger than we are 
today.
    And I think it is solely a matter of priorities because I 
am confident the American people, when confronted with the 
facts, will choose security over tax cuts. And I hope that we 
can move in that direction, Mr. Secretary.
    I wanted to acknowledge today that Ms. Christensen is not 
with us because she had another engagement, but she wanted the 
record to reflect that her absence in no way indicated her lack 
of interest in this very important hearing.
    And again, Mr. Secretary, I do appreciate the generosity of 
time that you have provided to come before this committee. We 
heard yesterday in a subcommittee from Dr. McQueary. It is an 
amazing task that you have, and we want to be supportive in any 
way we can to accomplish the goals that I know we all believe 
in.
    Thank you, Mr. Chairman.
    Chairman Cox. I thank the gentleman.
    The gentlelady from New York, Ms. Lowey, is recognized for 
five minutes.
    Mrs. Lowey. Thank you very much, Mr. Chairman.
    And I want to welcome you again, Secretary Ridge, and make 
it very clear that in my judgment homeland security is not a 
partisan issue, it is an American mission, and I know all of us 
on this committee take our responsibilities very seriously.
    In following up on my question a couple of days ago, I did 
send you a letter regarding the inter operability of the 
communication systems. This is the original copy. And I would 
hope that you could respond to this committee as soon as 
possible regarding direction from your agency to the localities 
because I think it is cost-effective.
    They are all going out on their own and spending too much 
money in systems that really may not be the best system. So I 
would appreciate your advice on that and this letter details 
that request.
    With regard to another issue and following up on your 
statement today, as we know--and you certainly know--every 
incident of international terrorism actually begins as a local 
crime.
    And local enforcement, first responders, the private 
sector, are integral to preventing and responding to incidents. 
The best plan for protecting the country will take into 
consideration the central role each of these sectors plays.
    If you can tell us, Mr. Secretary, how has DHS consolidated 
and expanding the ability of our government to accept and 
synthesize information coming in from both local law 
enforcement and the private sector?
    And number two, is there a one-stop shop where suspicious 
incidents, such as people appearing to case targets for future 
attacks, are collected and analyzed? If not, are there plans to 
set up such an operation?
    Again, it refers to the communication systems, because I 
know that you are getting organized, but we all believe we have 
to move quickly. And I have heard too often from my local law 
enforcement officials that they are not getting enough 
information from the top to help them be alert and understand 
what is actually happening. So if you can respond.
    Secretary Ridge. I thank you for your question because I 
think it goes to the heart of one of the primary missions of 
the new Department of Homeland Security. It is one of the 
reasons the President set up as a unit, directed and requested 
Congress to support the notion that we have an Information 
Analysis and Infrastructure Protection Unit.
    The Congress also said in the organizational plan, ``We 
need a state and local office as well.'' And what we intend 
during the proces, I will say that I don't believe right now 
that there is any other agency in the federal government that 
has more day-to-day contact with the state and locals, fire and 
police, than ours. We are grateful for their support and their 
participation.
    We understand their frustration with the delay in getting 
them dollars. We would have been in the position to distribute 
the dollars from the 2003 appropriations last year but we 
didn't get a bill. We didn't have any money to distribute until 
March of this year.
    We had a 30-day application period. That application period 
expired I think a couple of weeks ago, and we are starting to 
send those dollars out. We will, within the next several weeks, 
start receiving applications for the supplemental money that 
you provided to us.
    And so, I think, within a short period of time, we are 
going to have about $4 billion at the state and local level.
    Having said that, I am going to implore you and ask you--
because I think you have also highlighted in your question a 
very important issue, is that we work with the mayors and we 
work with county officials to see to it that in future-year 
expenditures the dollars go out consistent with a statewide 
plan built from the bottom up.
    I think if we are interested--everybody is interested in 
inputs; how many dollars are we going to spend, and I am, too. 
But we are also interested in outcomes.
    And I think we will have better assurance that the dollars 
that we expend for security purposes achieve our goal if, when 
the applications are made to access the federal dollars that 
Congress has appropriated, we can take a look at the 
application, match it against a strategic plan and say, ``Yes, 
they are building capacity. They are working with their first 
responders. They have purchased the kind of communications 
equipment we want.''
    So I am anxious to work with you in response to that.
    Secondly, you asked a very important question. Again, it 
goes to the heart of one of the primary missions of this 
department, and that is sending information up and down the 
chain, because we need to have our state and locals informed.
    But by and large, as I have traveled around the country and 
have seen in some of our larger urban areas, they are beginning 
to develop an operational capacity, an analytical capacity, 
some of these bigger cities have linguists available to them.
    And I think we are going to see a time in this country in 
the next several months, and certainly we will mature over the 
next several years, where we are going to get information up 
from locals and the states into our shop which we can share 
with the rest of the intelligence community. The next challenge 
for us is to distill what we have and then pass it on down to 
the state and locals.
    Now, I must tell you--and I know I am going way over the 
red--but you have asked a very important question. From time to 
time we will get information, particularly the FBI and 
sometimes the CIA and all us--the intelligence business will 
get some information about a particular city. The name may come 
up. It may not necessarily be from a source we consider to be 
credible; it may not be from a source we have been able to 
corroborate.
    But from time to time we are going to go to New York City, 
we will go to Washington, we will go to Chicago, we will go to 
the city and say, ``You have been talked about generally. We 
don't think much about it. There is a lot of circular 
reporting, certain names come up, cities come up all the time. 
But we think you ought to know about it.''
    That is not necessarily actionable.
    And one of the other things we need to do is make sure 
that, even though it goes out and it says, ``Don't disclose it 
to the public,'' we live in a very transparent world. We all 
know that as soon as it goes down to a local law enforcement 
official, you are going to see it on the television. But some 
of that is not actionable. Some of it is just so those local 
law enforcement folks know, ``Yes, they are talking about you 
again.''
    And so, again, we will continue to do that, but we will 
work with the FBI in a process, and the intelligence community 
in months ahead that when we even get some classified 
information we can distill it and send it on down so they can 
act on it.
    And then finally, we are beginning to develop a couple of 
products in the Department of Homeland Security. The first 
product is an intelligence bulletin. We took a look at what 
happened over in Riyadh and we took a look at what happened in 
Morocco, we talked to the FBI and said, ``There is a certain MO 
here. They have done things differently here. Here is what they 
did. Here is what we think about it. And here are the kind of 
precautionary things we think you should take. Here are the 
kind of things we think you ought to look for.''
    We will send it out to the law enforcement, and we also 
will send it out to the private sector.
    So again, as we mature as an organization, the information 
bulletins we send out and the advisory we send out will be full 
of not only alert information, but, ``Here are the things you 
ought to look for, here are the things you ought to do.''
    Mrs. Lowey. Thank you, Mr. Secretary.
    Secretary Ridge. Thank you.
    Mrs. Lowey. Thank you, Mr. Chairman.
    Chairman Cox. I thank the gentlelady.
    The chair next recognizes, in order from attendance at the 
last hearing, the gentleman from Texas, Mr. Thornberry, for 
five minutes.
    Mr. Thornberry. Thank you, Mr. Chairman.
    Mr. Secretary, over the next several months our 
Subcommittee on Cyber-Security is going to be holding a number 
of hearings with academic folks, think-tank people, as well as 
folks from the department, try to get our arms around the 
issues involved in cyber-security, and as well as explore some 
of the options and ideas that people have.
    You have said in your statement, of course, that it is one 
of your priorities to help prevent cyber-attacks. You talked 
about a new office that is being set up in NIP. But I wonder if 
you could just, kind of, lay out for us how you see 
cybersecurity in the greater scheme of things.
    Part of your challenge--and that we are just coming to 
grips with is--how you offset the possibility of a biological 
attack versus radiological versus airplanes flying into 
buildings versus cyber, and trying to not necessarily rank in 
order of one, two, three, but still there has to be some sort 
of prioritization.
    And as you look at the infrastructures and so forth, how 
does it rank among your concerns, and what is it in the area of 
cyber that is at the top of your concerns?
    Secretary Ridge. First of all, Congressman, we believe 
within the department that while it is important for your 
inquiry and your assistance with regard to helping us set the 
priorities for cybersecurity and the like, and we welcome the 
opportunity to testify and participate, that we would probably 
be interacting with the same organizations and private sector 
folks as you do. I think it would be very good to collaborate 
on that. We view it to be very, very important that we don't 
segregate cyber from physical security, because in the 21st 
century world they are interdependent.
    You really can't, in our judgment, focus just on cyber 
because of the impact that it has on the physical side of every 
business.
    I have talked to several businessmen, was talking to a 
railroad CEO the other day and he said, ``I really have an 
Internet company and we just use.''
    Everything they do is generated by cyber, everything, where 
their cars are, what the distribution chain is, the maintenance 
schedule. So it is pretty difficult for many businesses and 
many economic assets in this country to segregate the cyber 
side from the physical side because how that company operates, 
how that community operates is interdependent.
    The second area of concern that we have is the 
simultaneity--the possibility of a simultaneous attack that 
might involve a physical attack on a physical structure and, of 
course, perhaps simultaneously a cyber-attack in the same 
community, because a lot of your response systems are 
predicated and built on the Internet.
    And so, again, that is a priority and that is a concern--
just the interdependent nature of cyber with everything we do.
    And of course, our first challenge in the department is to 
manage the risk and manage the risk against catastrophic 
attacks. And for the next several months, just as your 
subcommittee, we will be working with the private sector to 
make--
    Chairman Cox. Do we have physical transcription being made?
    A Staff Member. It is recorded, sir.
    Chairman Cox. All right, Mr. Secretary, we will just all 
speak up.
    Secretary Ridge. All right. Very good. Thank you, Mr. 
Chairman. So, again, we look forward to working with you and 
the subcommittee to engage the private sector in that process.
    Chairman Cox. Mr. Secretary, if I could just briefly, was 
there a cyber element to TOPOFF II, and is there anything that 
we can learn from that yet?
    Secretary Ridge. It is a very good question, and I can't 
give you a specific answer to it. There were assets that we 
pulled in that I am sure had merit. We had a couple hundred 
people doing an analysis, and of course with your 
subcommittee's interest in that.
    You raise a very interesting question. As ODP goes ahead--
as our office goes ahead in the future to plan future 
exercises, some of which we are doing this year even in the 
states, to program in a session a cyber-attack, although, 
unfortunately, as you well know, we have enough hackers 
knocking into the public sector and the private sector that we 
don't have to table top it, we have to deal with it on a fairly 
regular basis.
    Chairman Cox. I thank the gentleman.
    The gentleman from New Jersey, Mr. Andrews, is recognized 
for five minutes.
    Mr. Andrews. Thank you very much.
    Mr. Secretary, thank you for your time. You have, I think, 
the toughest job in America, and I am optimistic that you will 
do it well and highly confident in your abilities and 
appreciate your service to your country. I can't think of a 
person I would rather see sitting in that chair than you.
    Secretary Ridge. Thank you, Congressman.
    Mr. Andrews. And I also want to say that the questions I am 
about to ask about the TSA are in no way a reflection on 
Admiral Loy. I brought the concerns that I am about to raise to 
him. On two occasions he has called me personally, and I am 
very pleased with that and wish to commend him for that.
    But I want to raise some points that I think indicate that 
we need a significant culture change at the TSA. I think if you 
were presented with these facts, Mr. Secretary, when you were a 
member here or a governor you would have rattled some cages 
very quickly.
    At an airport that you know quite well, the Philadelphia 
International Airport, there have been two instances called to 
my attention in the last couple of weeks.
    The first one is that there is a gate through which vendors 
are able to pass without going through metal detectors or any 
kind of other screenings. One individual in particular was able 
to go through the gate and get immediate access to the tarmac 
while his background check was still pending. That is problem 
number one.
    Problem number two is that a former employee of the TSA, 
who resigned from the agency, had not turned in his badge or 
his ID or any of his keys and was able to really wander through 
the airport pretty much wherever he wished, whenever he wished, 
without being stopped. And he was videoed by a local news 
organization doing that the other night.
    Now, I am obviously gravely concerned about these episodes, 
but I am more concerned about the TSA's response to the 
episodes.
    When we called the first episode, which was people getting 
access to the gate, to their attention, the first response we 
got was that in eight or 10 weeks we would get a letter 
responding to our concern.
    To the credit of Admiral Loy, we called that to his 
attention and he spoke to me twice on the phone within a couple 
of days.
    But the response that we eventually got from his 
subordinate was that, ``Because the airport was complying with 
policy, this was okay.'' We said, ``Well, seems to us the 
policy would be pretty simple that everybody should walk 
through a metal detector before they get into any area of the 
airport that's sensitive.''
    You have to, Mr. Secretary. We have to. And the idea that 
employees have access to the tarmac are not walking through a 
metal detector is alarming. What is more alarming is the answer 
was, sort of, classic answer you get from a government 
bureaucracy which is, ``Well, it is in the handbook, so it must 
be okay.''
    The second problem with the key, the explanation we have 
gotten thus far is that, ``Gee, it was an oversight and we 
ought to get around to getting this guy's key and ID before he 
is allowed to walk around the airport again.''
    But it strikes me as a pretty simple, rudimentary procedure 
when someone is exiting a job that we do this with our interns 
here when they leave for the summer, as you did in your office, 
as well.
    So I call this to your attention because I believe you are 
the right guy to fix it. My impression is that Admiral Loy is 
very committed to fixing it, but there is something that really 
needs to be fixed. The responses have been very bureaucratic. 
Some of the things that makes Americans unhappy with the 
government is what we are systematically hearing from the TSA. 
I wonder if you could respond.
    Secretary Ridge. A couple of quick thoughts. One, thank you 
for your very appropriate and I think very respectful criticism 
of what has occurred. You and I both, and I think all of us, 
hold Admiral Loy in very high regard. He is an extraordinary 
public servant. And it certainly doesn't reflect his attitude 
toward getting things done--not only getting them done, but 
getting them done right.
    Secondly, unfortunately, these kind of anecdotes cast a 
pall over what I consider to be a highly motivated, 
professional work force, even though there are obviously some 
other matters we have to deal with, with regard to the work 
force.
    I have talked to enough TSA employees, and been searched by 
a couple once in a while just to go through the process myself 
to appreciate their commitment to their task, their 
professionalism and their understanding that they have a very 
critical role in homeland security.
    And thirdly, I would say that the time delay in responding 
and the nature of the response was unacceptable.
    I am not going to try to explain it.
    Mr. Andrews. And they fixed it.
    Secretary Ridge. Well, it should be fixed. I would like to 
see the interpretation of the policy that says keeping badges 
to give people access to airports after their business has been 
terminated is part of the policy at TSA.
    Mr. Andrews. If I could just say one more thing, too. It is 
inconceivable to me that any employee who can get anywhere near 
a plane does not go through a metal detector. And if that is 
the policy that permits that, you ought to change it this 
morning.
    Secretary Ridge. We will. And as you know, in addition to 
working with the TSA--and we do have some challenges with some 
of the screeners in the background checks, we are going to have 
to review about $2 million for HAZMAT trucks and we are also 
working with railroads and everything. A lot of things going on 
over there.
    Having said that, in the transportation worker 
identification card, this is a matter that we will bring up and 
I personally will bring up with the Admiral Loy and the federal 
security officers on this very important subject that you 
raised so appropriately.
    Mr. Andrews. Thank you very much.
    Secretary Ridge. You are welcome.
    Chairman Cox. The gentleman from Nevada, Mr. Gibbons, is 
recognized for five minutes.
    Mr. Gibbons. Thank you, Mr. Chairman.
    And, Secretary Ridge, I want to thank you for the 
additional time you have allowed us to present some issues to 
you for consideration.
    And I also wanted to thank you and I hope you will pass 
along to your staff, the Information and Analysis and 
Infrastructure Protection Division gave an additional briefing 
to our office. They were very professional and I thought did a 
superb job, and I hope you will pass that along to them.
    Secretary Ridge. Sure will.
    Mr. Gibbons. In addition, we have sent you an invitation to 
visit the Nevada Test Site. I hope you will consider that at 
some point in the future and see what capabilities are 
available out in Nevada for training and utilization of the 
Nevada Test Site for homeland security purposes.
    My question is to you: On May 14th, the Department of 
Homeland Security announced the allocation of about $700 
million of fiscal year 2003 supplemental monies, of which $500 
million was allocated for enhancement of urban securities. And 
the release stated that there were three criteria, of course, 
that had to be met: One would have been critical 
infrastructure, population density, and the level of threat to 
the community.
    My question would be, of course, when I looked at the list 
I was curious to know why a community such as Las Vegas, 
Nevada, a community of a million-plus population, which expands 
on any given day up an additional 500,000 due to the tourists 
that come there--it is a threat, because we do know that the 
September 11th, 2001 terrorists had visited Las Vegas before 
they conducted their activities elsewhere.
    Infrastructure, of course, we have Hoover Dam, which is a 
major power center and a major water supply for the Southwest 
as well. The population, of course, we have already talked 
about.
    I would ask you to help me better understand why a 
community like Las Vegas would see little or no distribution 
from this supplemental compared to a city like Sacramento of 
comparable size or Memphis, Tennessee? Can you help us 
understand that?
    Secretary Ridge. Yes, I would be pleased to.
    Beginning with the notion, Congressman, that these dollars 
were distributed pursuant to a congressional decision--I happen 
to think it was an appropriate one--to give the department a 
little flexibility with a lot of money, $700 million.
    And we don't have a perfect formula, but we tried to come 
up with something that we felt was rational and reasonable and 
responsible. That is basically how we went about it, based on 
information that was available to us about the threat and 
vulnerability.
    And again, threat is not always complete in terms of what 
the threat might be; it is just some information we may have or 
the chatter that might be out there. And the vulnerability 
part, again, is still in its nascent stages, just beginning.
    We have an idea of what the critical infrastructure is 
around the country. But as we work with governors and fellow 
homeland security advisers, they also have a better handle on 
very significant pieces of economic infrastructure, energy 
infrastructure and telecommunications infrastructure.
    So we took a look at the threats and the vulnerabilities. 
We took a look at population. We took a look at the critical 
infrastructure.
    And based on that, came up with a--and I would be happy to 
share it with you--weight, and that was discretionary. We think 
it was reasonable to weight certain factors certain ways, and 
we came up with that list.
    Your question raises two thoughts in my mind. One, your 
population on a day-to-day basis is higher than the census 
would allow, because if you got 80 percent capacity in all 
those hotel rooms out there, you have a much larger population. 
So your city, because of some unique circumstances, has on a 
day-to-day basis a higher population; perhaps that should be 
calculated in. I don't know.
    And it also brings to mind the concern I have about the 
other distribution formula that we have, where we just 
basically send out dollars to the states and localities on a 
formula that doesn't consider infrastructure, doesn't consider 
anything other than population.
    So one, I am anxious to work with you on Nevada or Las 
Vegas specifically, and be happy to review with you privately 
what transpired.
    Secondly, I am just going to engage my colleagues in public 
service, Republicans and Democrats. Right now we do have a 
formula that we distribute a lot of that money; 20 percent goes 
to the state, 80 percent goes to the locals. We are all 
interested in inputs, and that is how much we are going to 
appropriate.
    But I also think we have to be concerned about outcomes and 
are the dollars going to the right communities for the right 
reason.
    Mr. Gibbons. Thank you.
    Secretary Ridge. You are welcome.
    Mr. Gibbons. Thank you, Mr. Chairman.
    Chairman Cox. Thank you.
    The gentlelady from the District of Columbia, Ms. Norton, 
is recognized for five minutes.
    Ms. Norton. Thank you, Mr. Chairman.
    And thank you, Mr. Secretary, for coming back and for your 
hard work on what many regard is a mission impossible that you 
are showing otherwise.
    Where there is an important new mission like this where 
everybody is involved, as we all are now, and new equipment 
that is involved, a problem that we have seen before, for 
example, in the health-care area, may loom large. A lot of new 
toys, a lot of new suppliers wanting to provide them. 
Jurisdictions besieged with people with newer and newer toys.
    I am concerned about the problem of duplication which leads 
to waste and about connectedness and synergy, especially since 
people often have to communicate across jurisdictional lines.
    I am also concerned about this, kind of, super-duper 
hospital problem that we had when the lung machines, the heart 
machines, all those things came out and ultimately the federal 
government had to control that.
    And I am wondering what you are doing, how you are managing 
guidance to jurisdictions, and for that matter the private 
sector, about resources, these new resources, this new 
equipment across federal, state, local and even private 
jurisdictions, so that once you get your new toy you can talk 
to somebody who you may need to communicate with.
    Secretary Ridge. Well, what we are trying to do within the 
Department of Homeland Security--I don't know whether we are 
begging, pleading, advocating, cajoling--trying to get all the 
states and all the county officials and all the mayors, at 
least as it comes to homeland security issues, to abandon the 
20th-century model in terms of coming to Washington for 
assistance.
    I know, for 12 years, representing Pennsylvania's 21st 
Congressional District, I came down here, and if it was my 
town, folks I represented, I wanted to get whatever I could for 
those folks. That may be the model that we would use in other 
areas, but for the 21st century in homeland security I would 
like to see the Congress and I am anxious to work with you to 
see that, one, in terms of dollars inputs; two, in terms of 
outcomes, but mutual aid agreements, standards and practices 
across the board, and a strategic plan to buy and use assets.
    Now, we have sent a template out to the governors and to 
the homeland security advisers in urban areas. Frankly, what 
you are doing in the national capital region is a terrific 
model for that part of the country that hasn't adopted the 
notion that we are a community of communities.
    Now, we have some real unique challenges in the nation's 
capital, but we have people from Virginia and Maryland and 
Pennsylvania who come in and out of work into the nation's 
capital every day, but not every firehouse is going to have the 
same thing, not every community is going to have the same 
HAZMAT equipment, not every police force is going to be 
equipped with the same amount of protective gear.
    So let's take a look at a regional approach, build it to a 
state approach, and let's--over the next couple of years, as we 
will be spending billions and billions of dollars, let's start 
building capacity.
    You know, California has a statewide mutual aid agreement. 
Statewide. First responders, law enforcement.
    Now, we couldn't tell them to do that. They just had some 
innovative leaders out there in the first responder community 
and did it. So that is what we need to do to work together.
    Ms. Norton. And Mr. Secretary, I think that perhaps this 
committee or perhaps the Congress ought to require that, the 
template, be adopted. I mean, if we leave it to people, I am 
not sure it will happen. I am very pleased to hear there is a 
template.
    I would like to get one more question in. You have $30 
million in your budget to start the work on a new permanent 
headquarters. Considering that with your mission you would want 
the same access that other Cabinet agencies have to Congress 
and to the White House, which is one of the reasons why law 
requires that Cabinet agencies remain in the District of 
Columbia, and if you go out of the District of Columbia, you 
are headed into one of the worst congested areas--number two in 
the country.
    I would like to know whether you intend to locate 
permanently in the District of Columbia as you have now located 
your interim headquarters here.
    Secretary Ridge. Well, right now I don't believe there has 
been any decision on a permanent location; and that is a 
location where I believe we are going to put all the Department 
of Homeland Security employees--I mean, not the consolidation 
of just around the country, but those that--
    Ms. Norton. The headquarters.
    Secretary Ridge. --the headquarters here. And I might add 
that at some point in time, FEMA probably should be included in 
that group. So we would need a much larger campus. And those 
decisions, I think, will be made years down the road.
    For the time being, we like the facilities at Nebraska 
Avenue, and it is our intent to build out and to work with the 
Navy to phase people out, so we can move people in.
    Ms. Norton. That is excellent. We want to work with you on 
your plans.
    Secretary Ridge. Yes.
    Chairman Cox. The gentleman from Florida, the chairman of 
the Subcommittee on Rules, Mr. Diaz-Balart, is recognized for 
five minutes.
    Mr. Diaz-Balart. Thank you, Mr. Chairman.
    Secretary Ridge. Good morning.
    Mr. Diaz-Balart. I commend you on your leadership and hard 
work in this extraordinarily difficult and important area.
    As you know, Mr. Secretary, the administration sought $100 
million to get the time frame for naturalization and other 
immigration applications to no more than six months.
    Secretary Ridge. Correct.
    Mr. Diaz-Balart. When is the goal, in terms of achievement, 
of that time frame? And what plans do you have to keep that 
six-month time frame in place?
    Secretary Ridge. First of all, we have the pending 
confirmation by the Senate of an extraordinary man to lead the 
Bureau of Immigration and Citizenship Services, Eduardo 
Aguirre.
    Mr. Diaz-Balart. He is an extraordinary leader.
    Secretary Ridge. He has been in the people business, the 
service business, and he reminds me, because he is a 
naturalized citizen that he is qualified to do the job. Because 
he has worked with people, he understands the technology needs, 
and he has had the experience. He wants the job. So we have 
somebody with the right attitude and a great leadership style 
at the top of it.
    Congress has been very generous with us, and we have a $100 
million in the 2003 budget. I think we have requested, and we 
will get a $100 million or more in the 2004. I cannot recall 
the time frame that you have given us--the end of 2004 or 2005; 
I think there is a congressional direction there.
    But, obviously Eduardo and I want to expedite it to the 
point that we can get those--and it is six months with every 
kind of application with INS. Some of those we think we can 
move more quickly to two and three months, and we have prepared 
a schedule that I would be happy to share with you as to where 
we are and where we think we can be by a certain time period.
    I don't recall it. It is a fairly significant work product, 
but I would be happy to share it with you.
    Mr. Diaz-Balart. I would appreciate that.
    Secretary Ridge. And we will try to accelerate everything. 
Completion of the six month is first, but also fast-forwarding 
and getting behind the six month to a lesser period of time for 
some of these other applications.
    Mr. Diaz-Balart. Well, I appreciate that and I look forward 
to receiving that schedule.
    I share your view of Mr. Aguirre. He is an extraordinary 
leader who has a tremendous track record in the private sector 
as well as already in government at the Export/Import Bank. The 
president has made a wise decision in naming him.
    Secretary Ridge. There are a lot of good people over there. 
I just know that, historically, this is an organization that 
has--and some of it has been appropriate--been the subject of a 
lot of criticism. But I tell you they have a very important job 
because we want to remain an open and diverse country.
    And I was at a swearing-in ceremony in Los Angeles a couple 
of weeks ago. There were 4,200 people from 135 countries, and 
they all made a choice to come to America.
    When they put their hands down they were all American 
citizens. And if we are talking about homeland security, that 
is the kind of America we are trying to protect, and I think 
Eduardo is going to do a pretty good job doing that.
    Mr. Diaz-Balart. And, Mr. Secretary, I am cognizant of the 
difficulty in balancing the need to retain and improve 
efficiency in the economy when we are dealing with trade, 
efficiency in trade and at the same time increased security.
    With regard to specifically Customs security screenings of 
cargo ships, containers while they are in foreign ports, could 
you talk a little bit more about that, what our plans are?
    Secretary Ridge. Twenty megaports around the world generate 
about 65 percent of our container traffic, and we have 
initiated a program called the Container Security Initiative, 
and the Congress provided us, I think, $62 million last year. 
We are asking for a little more in the 2004 budget so we can 
continue that.
    We have had agreements with these governments and the port 
authorities to allow us to position in those ports Customs 
people, as well as non intrusive technology.
    You add those two things together with our requirement now 
that we get a 24-hour advance notice of what the contents are, 
and then Customs, with that information and other information 
they get from other sources, can make determinations as to, you 
know, what containers that we need to open, what containers we 
need for the time being until we get more technology that we 
need to literally run through these VACIS machines.
    So again, we have the agreements signed with 20-plus 
countries. We are going to go expand it to the other ports. We 
went to the largest ones first. So I think it is coming along 
pretty well. The idea is to push our perimeter out as far as 
possible.
    To that end, I must tell you that we do board, the Coast 
Guard boards and Customs boards, together they board 2 or 3 
percent of the international traffic, the high-interest 
vessels, but it is not random.
    And so the notion that they are just out there boarding on 
random, ``Oh, there's a ship. Let's get on and see what they 
got in it''; that is not why they are boarding it. We board 100 
percent of the vessels that the Coast Guard and Customs are 
concerned about.
    Mr. Diaz-Balart. Thank you.
    Chairman Cox. The gentlelady from California, Ms. Lofgren, 
is recognized for five minutes.
    Ms. Lofgren. Thank you, Mr. Chairman.
    And thank you, Mr. Secretary, for coming back so soon.
    Secretary Ridge. Sure.
    Ms. Lofgren. Not a question, but just a plea for leadership 
from you on these grants. I have a printout that indicates 
California gets $4.23 per capita under the formula, and Wyoming 
gets $31.89.
    And I think that the backbone of the Internet, which is in 
Silicon Valley, probably is a greater target for Al Qaida than 
the beautiful vistas of Wyoming. So we are hopeful that you can 
give some leadership there.
    I want to go back to the issue raised by Mr. Diaz-Balart, 
and this is not a criticism of our former colleague, Mr. 
Hutchinson, who I worked with on Judiciary for many, many years 
and talked to just yesterday, but he did inherit an agency that 
is dysfunctional. And the Immigration Service has many good 
people who work in it.
    Secretary Ridge. I know.
    Ms. Lofgren. And the State Department has many good people 
who work in it. But the leadership has been such that basically 
the technology deficiency is overwhelming.
    We heard in our hearing a short while ago that the watch 
lists are not integrated. We also know that they are not 
effectively communicated to the decision-makers on visa 
matters. The Immigration Service has over 100 databases that 
cannot communicate with each other.
    They are still creating paper files and microfiche which, 
obviously, cannot be searched. And they are implementing 
biometrics that are not standardized nor tested.
    We explored this with your science director--who, by the 
way, I was very impressed with yesterday--on the need to have 
some scientific depths or some technology depth in that 
department, and he indicated that his office had not been asked 
for help. I am hoping that you can make sure his office is 
asked for help on this.
    Because when I read in the paper that the plan of the State 
Department was to the SEVIS system--the SEVIS system crashes 
every day. It doesn't work.
    And so the notion that they are just out there boarding on 
random, ``Oh, there's a ship. Let's get on and see what they 
got in it.'' That is not why they are boarding it. We board 100 
percent of the vessels that the Coast Guard and Customs are 
concerned about.
    And so this is an agency that needs help. The 
administration of the technology is pathetic. And we are having 
problems. And as we make decisions, we are going to be paying 
for those decisions, not just in terms of who is coming in who 
may be a terrorist, but who needs to come in for the well being 
of our country.
    Business Week reported today that 53 percent of U.S. 
universities said they had students who missed the fall 
semester this year because of visa problems--53 percent of the 
foreign students couldn't get in.
    Now, Dr. McQueary told us yesterday that we are starting a 
fellowship program out of DHS because of the shortage of 
scientists. Most of these students are coming in for science 
studies and want to become Americans like those people that you 
saw. And I love to go to the naturalization hearings, too.
    So here is a question I have for you: Have you met with 
Secretary Powell and Director Mueller and Director Tenet and 
other agencies to sort through the visa process that is now 
incredibly delayed? Have you met with them?
    Secretary Ridge. Oh, yes. Thank you.
    I have had two very productive conversations with Secretary 
Powell. Most recent one was the form of biometrics that we want 
to use in the U.S. VISIT system, obviously congressionally 
mandated, the Attorney General was a participant in that 
conversation.
    We are working with them on a memorandum of understanding, 
because, as you know the responsibility for visa policy has 
been given to the Department of Homeland Security, but the 
consular offices, et cetera, still are under the jurisdiction 
of the Department of State.
    I have also met with the representatives of the academic 
community. We don't pretend to tell you that the SEVIS system 
is perfect. It is not. It has a lot of imperfections. I think 
we got most of the technical challenges out of the way, but 
there are still a few more to be dealt with before the entering 
class or the return class in September comes back.
    And then finally, we are very aware that, while the federal 
government has invested billions and billions and billions of 
dollars in technology over the past 10 years, much of it is not 
networked very well. I mean, it is great for the vendors, I 
guess, but what you really need to do is build capacity.
    And so we are trying to find--and I know you want to follow 
up--we are trying to find for the time being, as we develop a 
whole enterprise architecture for the whole department, what 
could we do right now just to connect these things.
    Ms. Lofgren. Right.
    Secretary Ridge. We are working on the watch lists. We have 
an idea with the--
    Ms. Lofgren. Well, there are legacy systems that can be 
linked up with commercially available.
    Secretary Ridge. That is exactly right.
    Ms. Lofgren. I mean, as a stopgap measure. I mean, you may 
want to do the ultra system later.
    Secretary Ridge. That is exactly right.
    We are now in the process of developing, I think, some 
products that we will send out mutually. The department has 
only been up for 80-some days, but there have been a couple of 
occasions when they have done something, they sent out to law 
enforcement, that we have used, scrubbed it and sent it out to 
the private sector.
    Most recently, we did a couple of things that we thought 
the private sector needed to know, and Director Mueller thought 
that the Joint Terrorism Task Force needed to know it and they 
sent it out to them.
    So I think it is not where we need to be, but I think we 
are making progress, and you are going to have to stay on top 
of us and make sure that we continue pushing the progress and 
making the paradigm change the way we need it; and that is good 
solid communication to the state locals and get information 
back up from them.
    And I am going to add just one other response with regard 
to the formula, why only in California. I want to reiterate 
again, I really want to work with you on that. I think that was 
a formula the Congress devised several years ago and directed 
the Office for Domestic Preparedness to use it when the office 
was in the Department of Justice.
    And it starts with 0.75 percent of whatever is appropriated 
goes to the state regardless of the population, and then the 
rest of it is distributed.
    So I think we are going to have a challenge politically and 
otherwise in order to change that formula, but I think we ought 
to take it on if we want to maximize every security dollar that 
is invested in the country.
    Mr. King. I am ready to state for the record on that. I 
recall you contacting me and pointing out the necessity of 
making that change. So you have been in the forefront of 
pushing for that reform. I really want to commend you for that.
    Secretary Ridge. And I am confident that we can work it 
out, but we need to work it out together, obviously. Congress 
created the formula. You didn't give me the discretion to 
change it.
    Mr. King. Thank you, Tom.
    I yield back.
    Chairman Cox. I thank the gentleman.
    The gentlelady from Missouri, Ms. McCarthy, is recognized 
for five minutes.
    Ms. McCarthy. Thank you, Mr. Chairman, for calling this 
important hearing on is America safer.
    And thank you, Mr. Secretary.
    Secretary Ridge. You are welcome.
    Ms. McCarthy. The district I represent is the greater 
Kansas City area, the 5th District of Missouri, which is also 
region 7 federally. And as you know, we have long been--over 20 
years we have had a Mid-America Regional Council which has 
combined the seven counties on the Missouri and Kansas side to 
work together for emergency preparedness resources, and it is 
working.
    We are one of the 30 cities--thank you--that is getting 
some money. We will get about $6.9 million out in our community 
to help our first responders.
    But nobody was quite sure--when I met with the MARC folks 
this past week, no one was sure how they were going to get the 
money. So I wonder, when I pause with my questioning would you 
kindly, for the rest who are here on the committee, who also 
have communities that are going to receive those funds for our 
first responders, I know they would love to know, too.
    I was in the state legislature for 18 years, and the 
concern at the local level was, ``Is this passing through the 
state and will we ever see it?'' And like you, I am sensitive 
to that issue.
    You know, you know our state director. We were one of the 
first states to put in a Homeland Security Department. Colonel 
Daniels has been grateful for your visits and inputs and you 
also recognized the efforts of our regional model.
    But I do want to tell you that in conversations with my 
local emergency responders from a community, like Independence, 
Missouri--just a model of an American community; Harry Truman's 
home town--they have a training facility which is part of the 
community college that is now training police and fire, you 
know, and basically at a rate to replace those who are 
retiring.
    This facility could be beefed up to serve a four-state 
region and do more of the training we know we need for the 
region, but it will take some federal dollars to accomplish 
just the physical component of that. But the people who train 
are very good, the facility is very highly regarded, and this 
would greatly help expand what we all know is needed, more of 
that.
    On the communications capacity, we are not as lucky as the 
District of Columbia; we don't have any new toys. Recently when 
we had the tragedy with the tornadoes the chief of police of 
Independence and the fire chief of Independence don't have 
equipment to talk to each other. They were using their cell 
phones until the tornadoes took that away.
    But there they were trying to, you know, coordinate their 
efforts on behalf of the immediate needs of the community.
    And then, in outlying communities, what I learned in 
conversation with them, when they wanted to go help some of the 
outlying communities affected by these tornadoes that really 
hit, you know, four congressional districts out there in my 
area, if they didn't have a memo of understanding, which is a 
bureaucratic process designed to cover the liability question.
    It is the responders going into another jurisdiction, 
apparently there is a requirement that they sign this liability 
form so that if something happens to their truck or their 
people they are responsible, that is a bureaucratic decision--
but they couldn't go into some communities, they hadn't thought 
ahead to sign this paper because they didn't ever think about a 
tornado might hit there and that they would need more help.
    So to the degree that your department can help smooth over 
some of those old bureaucratic things that are in the way of 
what we now know when we have an incident it will cross lines 
that we never even thought, you know, would need to be crossed.
    And the other issue that came up was about health and how 
to beef up our capacity to deal with the health needs--an 
outbreak of disease or--you know, for our emergency responders 
and our ambulance services. How can we better address that?
    And the monies that we will be receiving no one believes 
are going to be adequate to just really beef up something that 
has not been addressed for a long, long time. And, in fact, 
some things that we have done most recently have cut back on 
funding for ambulances--for a community like Independence that 
actually contracts with a private ambulance company, because it 
is efficient, they are small, they are not like Kansas City, 
they are not getting reimbursed at all for those ambulance 
costs.
    They are having to find it in their own city budget. There 
is no way that they are getting federal dollars now to help. It 
is a private ambulance service.
    There are some things going on out there that if you 
department would please look into it might smooth the way for 
smaller communities trying to work together to help each other 
in a regional system such as mine. I would welcome your 
thoughts on this, and I know my first responders would, too.
    Secretary Ridge. Well, first of all, I want to thank you 
again for your public acknowledgement that I would be pleased 
to validate that within your region the notion of a regional 
approach toward combating natural disasters.
    Whether it is the forces of nature, or the forces of evil, 
we need to bring people together to prevent it, disrupt it or 
respond to it. And certainly your region has done that.
    Our emphasis, going into the 2004 appropriation process, of 
not only changing the formula, but also requiring that any 
dollar that we send out to your region or any other region is 
consistent with a plan, and not a plan that somebody comes up 
in a particular community; it has to be part of a broader 
community statewide plan.
    We will build capacity over the next several years. And 
there are some communities that have that mind set and think in 
terms of mutual aid and others don't.
    You raise the question of legal liability. I must tell you 
that it is astonishing, but it is true, that post-9/11 you have 
some extraordinary people out there--public health nurses, 
first responders, police--worried about getting sued. ``What 
will our liability be?''
    You know, it is the Good Samaritan. If we go to rush to 
somebody's assistance or if we--I mean, we really have to 
reflect on some of the subtle, but I think very important, 
legal challenges that some of these communities have to deal 
with the possibility, ``Well, if we leave our jurisdiction and 
go to another jurisdiction are there legal implications?''
    The last thing in the world we want for first responders to 
do on the way to a natural incident or a terrorist tragedy is 
worry about being a plaintiff in an action. So we have to work 
our way through that, and we will.
    We were out with the Public Health Department leader in 
DuPage County in Illinois the other day, and I think I 
mentioned in my opening--not in this committee hearing, but in 
another one--he would like to have his public health nurses 
oversee three or four volunteers to distribute the medications, 
but he can't do it because under the law it has to be 
distributed by professionals.
    Now, they are either getting this pill or that pill, and 
you could have had a public health nurse overseeing volunteers, 
but he couldn't do that because he is worried about--in the 
real world, about legal liability. So have to work through 
those, and I am anxious to work with you on that.
    And then again, you and your colleagues have talked about 
the need to set up standards, and the Science and Technology 
unit is working with FEMA and working with others to set up 
particularly communication standards. ``This is the kind of 
equipment that we think is interoperable. You make your best 
deal with the vendor. You can choose it from this range,'' and 
that is something that is a very high priority for us.
    We are going to put $4 billion, $6 billion, or $8 billion 
out there to the state locals this year. I am very anxious to 
see how much money they spend on communications equipment when 
we get information back. And we think it is important for us to 
give them some guidance as they expend those dollars in the 
months ahead, and we will.
    Chairman Cox. I am sorry, the gentlelady's time has 
expired.
    Ms. McCarthy. May I beg your indulgence, Mr. Chairman? I 
did ask for a--
    Chairman Cox. Would the gentlelady like to ask unanimous 
consent for an additional minute?
    Ms. McCarthy. Yes, Mr. Chairman.
    Chairman Cox. Without objection.
    Ms. McCarthy. I am also through. My first question was--
thanking you for the federal dollars that are coming out there. 
Does it go through the state? How does the community get it?
    Secretary Ridge. I am sorry. That is why we really need to 
talk about formulas. First of all, we need a one-stop shop in 
the DHS, and I need your help and support to move some of these 
over into the State and Local.
    Secondly, the dollars that are going out according to the 
2003 budget appropriation were going to the states down to the 
locals. The locals are concerned that they are not going to get 
them in a timely fashion.
    Again, we have to monitor how those dollars are delivered, 
look at all 50 states and the territories collectively to see 
if we can improve that process.
    You said 20 percent stays in the state capital, but the 
folks back home are not sure. A lot more than 20 percent will 
stay there. And you all said, ``We want 20 percent in the state 
capital, 80 percent down to the cities.'' So we just have to 
monitor that. We are going to do our very best.
    The dollars are out there. Many of the states have received 
checks. We are just going to try to push it down to the locals 
as quickly as possible. Again, we have to direct that process 
since it is federal money.
    Chairman Cox. The gentlelady from Texas, Ms. Granger, is 
recognized for five minutes.
    Ms. Granger. Thank you, Mr. Chairman.
    And thank you, Mr. Secretary, for returning to us. We 
appreciate that.
    I would like to return to the airport security one more 
time. Our understanding is that 75 screeners were fired because 
they were found to have criminal backgrounds. I have several 
questions.
    One is, how did you find this out? In other words, did some 
incident occur, and then you did further checking or was it 
completing those background checks after they were working?
    And if it was that, then are there others who were found to 
have lied on their application? If so, were they fired, are 
they still working? In other words, what decision was being 
made?
    Secretary Ridge. Well, if you lied, you are gone.
    Ms. Granger. Good. Let me add that they are definitely more 
professional. --There is more confidence in the public as they 
go through those screeners in those airports, and the 
performance has been significantly better.
    And the few times when I have found that it wasn't as good 
I have called Admiral Loy, who called immediately back and took 
care of it. So excellent response.
    I would ask you this, though. We still have people that are 
employed, but we haven't finished the background checks, and 
you are eliminating, I think you said, 6,000 to 8,000 
screeners. I can't remember the number. Will those who will be 
eliminated come from the list of the background checks who have 
not been completed? That seems reasonable.
    Secretary Ridge. They have all gone through a couple of 
background checks. And obviously, in a rush to get 55,000 
people, to meet a mandate, they went through a couple of 
background checks that were fairly thorough.
    We are very, very confident about just about everybody in 
the work force, but absolutely we can't be confident about all. 
Now they are going through an even more rigorous OPM screening, 
which involves credit histories. I mean, they are really going 
through the rigors.
    First of all, as we right-size and match people with 
technology on an airport-by-airport basis, we estimate there 
will be a reduction probably of about 5,000 to 6,000 between 
now and the end of the year.
    There will be an attrition that will probably eliminate 
about half. There will be some that got caught up in these 
kinds of misstatements or what have you or transgressions will 
be removed. And the other adjustments we will just make as we 
go along.
    Ms. Jackson Lee. We are under an orange alert, and I think 
the title of this hearing is, ``Have We Moved Toward Safety?'' 
I say we are moving, but I believe that we are not safe.
    And I believe that we can do things together on many fronts 
to ensure that. And I indicated that my themes will be somewhat 
conflicting.
    First of all, let me thank you for the work that was done 
in Columbia 7, helping us in the state of Texas and other 
regions. We appreciate it very much, worked with Homeland 
Security. And I might personally compliment the Transportation 
Security Administration staff and personnel in the Houston 
region. It is a busy airport and I think that they have been 
working very hard.
    At the same time, I would offer to say that TSA personnel 
on the ground do need enhanced training on several points. I 
know that the surprise element is key, and I am going to say a 
number of things and then if you would comment on them.
    The surprise element is important, but it looks as if in 
some of the ways that they are utilizing their skills, it is 
not focused on getting the guy or the gal who is intending to 
do the wrong thing. And I think it is important that they have 
the skills of focusing in.
    I have been a surveyor of some of the actions and when you 
are stripping down individuals who are clearly not intending or 
have any basis of doing anything, you still run into the same 
problems we had before.
    I will just leave that on the table.
    The other point I think is important is if we clearly get 
an opportunity for intelligent sharing that is accurate to our 
local communities, in talking to my first responders, I am 
finding that the actual sharing of intelligence--clear 
intelligence--such that it is not represented as chatter--it 
confuses the locals when they information said, ``It's chatter, 
but what are we supposed to do?'' And I think if we can get 
clear lines of understanding.
    Let me move to this issue of immigration. I have also said 
that immigration does not equate to terrorism; that immigrants 
come here for legitimate concerns and interests and we have 
legitimate concerns about security. But the long-term critics 
of immigration are now trying to equate immigrants to 
terrorism.
    And it would be a national shame if in the name of security 
we were to close the door to immigrants who come here to work 
and build a better life for themselves and their families.
    The problem is not that we are letting too many people into 
the United States, but that we are not keeping out the 
dangerous one. And we know that immigrants come here to realize 
the American dream.
    We have a program where you are calling up--we have been 
calling up a number of individuals asking them--the special 
registration program, and I believe that this program is flawed 
in its design and implementation. These mass call-ins are 
intimidating. It is questionable whether they are working.
    At the same time, you have heard this other question being 
asked as well. We are treating business persons, persons coming 
in for medical need like terrorists, individuals who are going 
to perpetrate terrorist acts. And I would ask that we find ways 
to handle that system.
    We have had an individual in the Houston airport who got a 
recommendation from the ambassador in Saudi Arabia--and I know 
when you say Saudi Arabia it raises the ire. And he was in the 
airport for two hours, interrogated, filling out five and six 
pages of paper. It really is hurting business.
    On the other hand, Mr. Secretary, we have a smuggling 
problem; 19 people died in Texas. And I believe we need to 
enhance our laws on that, because as we have a smuggling 
problem on the northern and southern border, we don't know who 
may be able to get in that way. And I would like to see more 
technology used on the borders.
    The other question I would be interested in is whether you 
would be amenable to a four-month extension on the SEVIS 
program.
    And then, as I close, let me leave the hospital question on 
the table. I think you saw it in Chicago, the fact that our 
hospital capacity is still a problem, and we need to look at 
that as homeland security individuals advocating this issue. 
And I believe that if we can come to grips on some of these 
concerns, we can get where we need to go.
    I think the last point is, the money that you have 
allocated is not getting to the local persons. And I would 
appreciate it if we could look at ridding ourselves of the 
grant process. If the money is designated, let them draw down, 
let them be accountable, get rid of the grant process because 
they are not getting the money.
    And I would appreciate your answers on those questions.
    Chairman Cox. Mr. Secretary, if you would, before you 
answer, I understand that while you are scheduled to leave at 
11:30, we are going to have you until 11:45.
    And I would put to the members, having just discussed this 
with the ranking member, the advisability of a unanimous 
consent request that the time for further questioning per 
member be limited to three minutes. If we agree to this, then I 
believe that everyone who is here will have the opportunity to 
ask questions.
    So moved. Without objection, so ordered.
    Secretary Ridge. I appreciate it. I will try to go through 
the list, Congresswoman, quickly.
    The concern about the training at TSA I think is legit. 
Admiral Loy believes that there ought to be a continuous 
training element. There is. We have requested additional 
dollars in the 2004 budget precisely for that purpose.
    I thank you for your comments about their professionalism. 
They are highly motivated. But you need to keep them motivated 
and you need to keep them trained.
    They do get and will continue to get directions based on 
information we receive as to what to look for as people walk 
through the portals, walk through the metal detectors.
    I stopped at an airport and I have talked to a couple of 
them. They pulled some people over who were acting anxious, 
acting nervous; and, you know, they found some things on them. 
They were not terrorists, but they were carrying some things on 
the plane that should not have been carried on.
    So, I mean, again, it is a training regimen. It is very 
robust now, but it is going to continue to get better.
    The intel to the locals, we have just begun that process. I 
think they have a legitimate concern. I do think, however, 
there is a notion that we get a lot of specific information, 
that we are not sharing. We get a lot of general information, 
some of which is not corroborated. But when we get actionable 
information we will get it down to them.
    What we have been doing in the department's short tenure, 
less than three months, there have been three or four occasions 
when we have sent down to the state and locals lessons learned 
from overseas, lessons learned not from what transpired and we 
observed, but as we talk to the intelligence community in other 
countries around the world have had to deal with the phenomenon 
of terrorism.
    There are certain things, observations they make, certain 
protocols, certain MOs. And so, we share that information.
    Your concern about the balance of immigration between 
keeping us open and diverse and secure is very much at the 
heart of the border accords that we are negotiating and really 
have begun to implement with our friends in Canada and Mexico, 
to include the legitimate concern you have about smuggling. We 
will be working on some pilot projects this year to use some 
technology to expand the reach of the Border Patrol and others 
at the borders. So we are hoping to work that out.
    We understand there were technical problems with the 
Student Exchange and Visitor Information System. We think we 
have most of the technical problems under control. So I do not 
want to commit to a four-month extension. We would like to get 
it up and running and improve what went wrong, and I think we 
can do that.
    On Chicago, I talked publicly about Chicago having a 
capacity in a public statement that I made as we analyzed the 
drill, and we, kind of, plugged that in to the drill to see how 
our system of the federal government would respond.
    If you had a bad capacity responding to a bio attack in 
Chicago and you were saturated, where would you go? Well, we 
ran our request through DOD to get an emergency hospital. We 
ran our request through the public health system to get 150 
more nurses and 25 more docs, and that seemed to work pretty 
well.
    And, again, we know we have a challenge to get timely and 
actionable information down to the local folks, and we are 
working with them and our partners in the federal government to 
do just that.
    Chairman Cox. The gentleman from Arizona, Mr. Shadegg, is 
recognized for three minutes.
    Mr. Shadegg. Thank you, Mr. Chairman.
    And first, Mr. Secretary, thank you for being here and for 
the graciousness of coming a second time. In my tenure in 
Congress it is unprecedented.
    Secretary Ridge. For the first couple of terms, I was on 
the bottom row and, you know, I wanted to ask my questions too.
    Mr. Shadegg. I very much appreciate that.
    Second, let me commend you. I think trying to stand up an 
agency of this size, the biggest revision of the federal 
government in decades, is very difficult, and I wish you all 
the best, and I think it is a tremendous challenge, and I know 
that it is near impossible to do in this amount of time, but I 
think you are doing a great job of it, and I want to commend 
you.
    I have three questions, which I am going to put to you, and 
I am not so certain that I am interested in your answer today, 
but I also want you to reflect on them and figure out the long-
term implications of them.
    The first goes to the statute. This committee has primary 
jurisdiction over the statute itself, and I find the statute we 
gave you somewhat confusing on a critical issue; and that is 
the issue of who is responsible for, specifically, terrorist 
attacks and for preparing for them.
    Section 502 of the act says that, ``Amongst the 
responsibilities of the undersecretary for emergency 
preparedness and response is helping to ensure the 
effectiveness of emergency response providers to terrorist 
attacks.''
    It goes on to mention disasters.
    Section 430 of the act says, ``That the Office for Domestic 
Preparedness shall have the primary responsibility within the 
executive branch of the government for the preparedness of the 
United States for acts of terrorism.''
    So on the one hand it is here and on the other hand it is 
here, unless the word ``primary'' has some real significance.
    My first question of you is, have you examined that issue?
    Have you found it be confusing within your own department?
    And is there something we, as a Congress, could do to 
clarify that part of the statute so that you make it clear, 
``Well, here is where the response to terrorism is and here is 
where response to other disasters are''?
    Because I feel the country should already be pretty good at 
handling disasters; we have dealt with hurricanes and floods 
and forest fires. I am worried and I think the American people 
are worried about how is our new response to terrorism. So that 
is question one.
    Question two, and I am going to put them all at once. 
Question two is an issue of the Arizona-Mexico border. 
Recently, the entire Arizona delegation wrote you and expressed 
our request that you support and assist us in getting unmanned 
aerial vehicles for the Mexican border.
    Quite frankly, I have been on that border a number of 
times. I know you have been on that border a number of times. 
Helicopters do a great job, but they are phenomenally 
expensive.
    The foot patrols and other things we do there are doing a 
great job, but I think UAVs could be a key. And I guess my 
question in that is, are you looking seriously at UAVs?
    Is that something we can hope for in the near future?
    The third question has to do, again, with the effort of 
your agency to try to bring some consistency. On Monday of this 
week, a number of us and some of my colleagues here today went 
to Niagara Falls. We held a hearing to look at port security 
there.
    Chairman Cox. The gentleman's time has expired.
    Mr. Shadegg. I want to conclude quickly.
    We have conflicting systems for people who frequently cross 
the Canadian border and for people who frequently cross the 
Mexican border, and they do not seem to talk to each other and 
they do not seem to be consistent.
    In addition, some people have talked to you about, ``Well, 
should we be prescreening frequent fliers and prescreening 
people who frequently use cruise ships?''
    And my question is, is your department looking at 
consolidating or bringing a level of consistency to all of 
those?
    Secretary Ridge. First of all, I would like to get back to 
you with a technical recommendation on the language that may 
appear to be inconsistent. And, in fact, internally both of 
these organizations know they need to work together, and are.
    Very appropriately, Congress said that FEMA, which we call 
right now the Directorate for Emergency Preparedness and 
Response, I am probably going to come back to you and say, 
``Let's just keep it FEMA, FEMA's a brand name, FEMA's what 
everybody knows. We ought to continue to call it the Federal 
Emergency Management Agency.''
    But they work very, very closely with ODP and they were 
very much a part of the Office of Domestic Preparedness 
terrorism exercise, TOPOFF II.
    So we are collaborating. It is seamless. But I would like 
to get back to you on the technical nature of the language.
    Secondly, we are very seriously looking at UAVs, for both 
border application, land and sea. In the Coast Guard's 
Deepwater project, which is a multi-year acquisition to build 
new platforms and employ new technology, they are looking for a 
system that can elevate off the back of a cutter, get out and, 
obviously, go out hundreds of miles and come back.
    That will expand their range enormously. That is a fairly 
sophisticated piece of equipment; you have to take off and land 
on a cutter or small operation.
    Where you have wide open spaces, it is a lot easier for us 
to take a look at some of the technology that is presently 
employed by the Department of Defense. We have a group that is 
working on that, the Science and Technology Unit is working on 
it.
    It is our goal to have a pilot up by the end of the year 
using a UAV along some of our land borders.
    And, thirdly, we are trying to harmonize some of the 
processes at our borders with regard to pedestrian traffic, 
commercial traffic and particularly the trusted traveler 
program.
    The Canadian government knows them. We know them. The 
Mexican government knows them. We know them. They ought to be 
in a fast lane.
    We call it NEXUS in one place, SENTRI in the other. We need 
to bring compatible technologies. But we are basically working 
the same thing through both borders.
    Chairman Cox. The gentleman from New Jersey, Mr. Pascrell, 
is recognized for three minutes.
    Mr. Pascrell. Thank you, Mr. Chairman.
    Governor, the first folks that responding at Yale yesterday 
were our first responders. Thank God no life was lost.
    I recommend to you and suggest, and you know my feelings 
about this, that the FIRE Act be kept intact, for a couple of 
reasons. Number one, there is no money that moves through the 
state to the local communities.
    This is money directed to the states. And these are needs 
which have been highlighted and identified before 9/11. And so, 
I think if we meld those programs; I mean, you have suggested 
that we move away from U.S. Fire Administration.
    I think that this would be not very good for the FIRE Act. 
And you meld the monies, I know what is going to happen when 
that money goes to the states: half of it will never get to the 
local communities.
    So I would hope that we keep the same formula and I would 
be more than willing to discuss that with you at another time.
    Secretary Ridge. Okay. But we share the same goal, 
Congressman. It is a program that is of, for, and by the 
fireman. It is a matching grant program. It is a program where 
the firefighters actually help us review the applications so we 
make sure we are getting good value for the dollar.
    Mr. Pascrell. And it works.
    Secretary Ridge. And it works. Again, we are trying to 
create a one-stop shop, but I want to keep it intact. I just 
want to move the administration to a grant-making operation 
within State and Local. But, we want to keep the FIRE Act 
intact.
    Mr. Pascrell. Governor, the Congressional Research Service 
gave us a report on May the 16th. The report was, ``Foreign 
Terrorists and The Availability of Firearms and Black Powder in 
The United States.''
    On page CRS5 of that report, there is some startling and 
chilling evidence; that because of the lax position in this 
country of firearms, that these weapons have indeed fallen into 
the hands many times of the wrong people.
    In the second paragraph on page CRS5, ``Following a three-
day delayed sale, licensees have transferred firearms to 
persons whom the FBI subsequently learned were prohibited from 
possessing firearms. In such cases, efforts were made to 
retrieve these firearms.''
    I think when you read this report and then you read the 
response of the attorney general, who ordered that reports and 
files be destroyed, because he said that it was in 
contravention to the Brady act, there is something wrong.
    And I want to know what steps you recommend that we take in 
order to help preventers from exploiting our increasingly 
lenient gun laws?
    Secretary Ridge. Well, first of all, I would be happy to 
give you some recommendations after I read the analysis done by 
the Congressional Research Service. Obviously, I think, all of 
us in this country--the President, the Attorney General--want 
to make sure that the illegal distribution of powder, firearms 
and the like, is eliminated.
    Certainly, we have to do everything we can on a day-to-day 
basis to achieve that goal. I am not familiar with the report, 
and I guess it is my job to get back to you with it.
    Mr. Pascrell. Just a final question, if I may, Mr. 
Chairman?
    Chairman Cox. The gentleman's time has expired, but if you 
can have Mr. Etheridge yield to you, you are welcome. We are 
now against a finite time cap, so it is just borrowing from 
your colleagues.
    Mr. Etheridge, would you like to yield a minute to Mr. 
Pascrell?
    Secretary Ridge. If the gentleman wants to submit the next 
question in writing, I would be happy to get back to him with?
    Mr. Pascrell. Well, it is about Texas, so it is going to be 
a long question.
    Secretary Ridge. Oh, all right.
    Chairman Cox. The gentleman from North Carolina, Mr. 
Etheridge, is recognized for three minutes.
    Mr. Etheridge. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary.
    Mr. Secretary, I represent an area in North Carolina that 
includes Fort Bragg, Pope, part of the Research Triangle, a 
nuclear power plant, a distribution center for major fuels.
    I had hearings last fall with my first responders, police, 
fire, rescue and again earlier this year. Last year they were 
blaming the FBI for not getting the information to them. What 
they got was general information they could not respond to. 
They were frustrated. This spring they are concerned about the 
resources to fit their needs.
    I raise it in the context of this question, because some of 
these are small units, and as we look at the formula to go to 
them we have a major oil terminal in Selma, North Carolina.
    It is at a crossroads with two major interstates with a 
huge terminal, a small town with very little resources, and 
they are crying for resources, and they need them, because if 
something happened at that terminal, you would have a major 
problem.
    You could conceivably shut down two major interstates, I-95 
that moves toward I-40, and they do not fit some of the 
formulas. And I hope as we look at it, these things are put in 
as part of it.
    And the communications issue is a critical piece I keep 
hearing. In North Carolina, of all states, has been hit with 
enough natural disasters over the last eight or 10 years--
    Secretary Ridge. Absolutely.
    Mr. Etheridge. --we really do have some coordination. But 
still, that coordination between units is still a major 
problem.
    We are working on it, but we certainly need the footprint 
or the profile and help from the federal government with 
resources going quickly.
    Because I think, unless we do it; if I were a terrorist, I 
would know where I would hit. I would hit in areas where we 
have soft spots. And certainly these are the kind of soft spots 
with local units close to major installations, and a lot of 
time they do not have the resources.
    Secretary Ridge. Congressman, I think, again, your area has 
a unique configuration of assets that are probably different 
than your colleagues, which I think, again, cries out very 
loudly to the notion that we, with the governors' leadership--
    I mean, somebody said before, this is not an American 
issue, this is not a partisan issue; I do not care whether you 
are Republican governor or Democrat governor or Independent. 
With the governors' leadership, and obviously working in 
collaboration from the group, a state like North Carolina takes 
a look at your assets, your vulnerabilities and the capacity to 
respond to attacks within a region.
    And then, as we distribute these dollars in that future 
formula, we may say instead of 20/80 to the states, 80 
specifically to the communities, it is a different formula so 
that pursuant to that statewide plan your communities can 
access those dollars.
    I mean, we have given billions and we are going to give 
billions more. We really need to develop plans to make sure 
that we manage the risks, that we work on the areas where there 
is greatest possibility of a catastrophic incident, and then 
build from that.
    So, again, I am going to implore you to work with me to see 
to it that we get statewide plans and distribute resources 
according to those plans.
    Chairman Cox. The gentleman from Kentucky, Mr. Lucas, is 
recognized for three minutes.
    Mr. Lucas. Thank you, Mr. Chairman.
    Mr. Secretary, I know you are being pulled in 100 
directions, and I do not know your job and your 
responsibilities, so I just hope you hang in there.
    Mr. Secretary, this next week I have several meetings set 
with first responders, fire, EMS, police and so forth out in 
the district. And I realize that we are not in the interior in 
Kentucky, we are not in a high-threat area.
    And, you know, I realize that the funding and attention is 
going to go to the higher-threats areas, which it should.
    But, you know, nevertheless we have these first responders 
out there that are very frustrated. And, you know, I have not 
been able to tell them a lot. And, of course, you have talked 
about this one-stop shop for grants and so forth, and leaving 
the FIRE Act as it is, and I can appreciate that.
    But I would just ask you, I do not want to have the 
expectations too high for folks in my area. And I would just 
ask you what pearls of wisdom I could say to these first-time 
responders in areas like we represent.
    Secretary Ridge. Well, first of all, I hope you reassure 
them that because of your advocacy and that of others that the 
Fire Grant Program remains intact. I mean, they are concerned 
that that will be torn apart, and it will not. You have my word 
on it.
    And most of those dollars go to those firefighters and 
those kinds of communities. It has certainly much more of a 
rural base than an urban base, number one.
    Secondly, again, one of our challenges, and every challenge 
is an opportunity, is to sit down with the homeland security 
adviser in these states, who I think can really be the prime 
leader in pulling together the police and the fire and the 
emergency services to build mutual aid pacts.
    And I think, what I would hope that you would share with 
them is, one, I think fairly confident that because of the 
administration's commitment and congressional commitment, they 
are going to see money come into Kentucky.
    There is more money going to be coming out this year, next 
year and foreseeable years. They work within the state to 
develop mutual aid programs and build capacity with some of 
these dollars that Kentucky's going to get. I think that is the 
only way we can go about doing it. That would be my 
recommendation to you.
    Mr. Lucas. In anticipation, would there be a pecking order 
of priorities? I mean, we have some counties--
    Secretary Ridge. What I have heard, from just about 
everybody, is communications equipment.
    Mr. Lucas. Communications, yes.
    Secretary Ridge. And, again, I think there are ways that we 
can address that right now, but everybody has to agree to it. 
And that is why I think having a statewide plan that says, ``We 
have adopted priorities. Priority number one is communication. 
And that we will use X percent of our dollars on this equipment 
to start tying our communities together,'' and they will get 
it.
    But it will not be done if every police chief and every 
fire chief and every emergency service organization decides 
they have to have their own equipment. Somebody has to say, 
``Stop! There is going to be some money, but let's start 
building a single system.'' Some states have done it; some have 
not. And I think we all have to do better with it.
    Chairman Cox. The gentleman from Rhode Island, Mr. 
Langevin, is recognized for three minutes.
    Mr. Langevin. Thank you, Mr. Chairman.
    And welcome back, Mr. Secretary.
    Secretary Ridge. Good to see you again.
    Mr. Langevin. Thank you for making it in.
    Secretary Ridge. Sure.
    Mr. Langevin. I would like to share with the committee, 
just briefly, our first meeting at the White House.
    We were at the White House together and discussing the 
department and I expressed my concern that it needed to be 
elevated to a Cabinet-level office, needed to have budgetary 
authority. You told me then that you would have all that you 
needed to get the job done and the very next morning the 
president announced he was elevating it to a Cabinet-level 
position.
    Secretary Ridge. Right.
    Mr. Langevin. I just wanted to congratulate you, Mr. 
Secretary.
    Secretary Ridge. Thank you. But be careful; when you paid 
for it, I got it.
    Mr. Langevin. Thank you.
    I have two questions, both of which I believe were 
addressed during Tuesday's session, so I apologize if my 
inquiry is repetitive. However, I think that it is such a 
critical issue and one on which we have yet to receive a 
sufficiently detailed response that it bears repeating.
    The department recently provided a listing of the 
information that the Information Analysis and Infrastructure 
Protection Directorate is receiving from the intelligence 
community.
    So far, it has received FBI documents, no hard copy 
products from the CIA and only has access to intelligence 
reports at the secret level. I also understand that the IAIP is 
not on CIA's top secret cable system; thus limiting the amount 
of intelligence that can be used on our nation's critical 
vulnerabilities.
    And my question is: Is this situation adequate for the 
directorate that is supposed to receive all information about 
threats to the homeland and map them against assessed 
vulnerability?
    And, if not, and I believe that it is not, what is being 
done to address this problem?
    My other question concerns the TTIC, which was discussed 
several times on Tuesday, and its relationship to the 
Department of Homeland Security's Information Analysis and 
Infrastructure Protection Directorate. You said that the DHS 
would be both the consumer and a supplier. I still do not have 
a grasp on exactly what role DHS will play in terms of 
intelligence collection and analysis.
    And part of my confusion stems from the fact that before 
TTIC was announced this year, I thought that a major purpose of 
the IAIP directorate was to perform exactly the kind of 
intelligence integration it sounds like TTIC has responsibility 
for.
    Therefore, can you describe the specific role DHS would 
play in the intelligence community, exactly what type of 
information collection analysis it would perform?
    Secretary Ridge. A very appropriate question. It is 
appropriate because it is one of the most important pieces of 
the new department, and everybody in the country wants it to 
work well and work immediately. And so let me explain to you 
where we are, and where we are going to go.
    First of all, we distinguish between threat assessment and 
vulnerability assessment. Threat assessment is really a 
determination by analysts within the intelligence community as 
to the possibility of an attack against a particular target, 
general or specific.
    But what is the likelihood that terrorists, whatever 
organization, are in a position to attack and bring death and 
destruction to this country? What is the threat?
    We have the CIA, the FBI, our analysts, and the Department 
of Defense doing threat analysis minute-by-minute, hour-by-
hour. That is going on all the time.
    The vulnerability assessment that we often talk about 
really reflects our view, our perspective as we take a look at 
different either economic assets, pipelines, telecommunication 
centers, dams, or transportation assets.
    How vulnerable are they to potential terrorist attack?
    And there is a wide range of attacks, from individual to 
organized with conventional explosives to a radiological 
attack, chemical attack, and the like.
    What are the protective measures that they have? What 
security do they have against those kind of attacks?
    We blend them together in the Information Analysis and 
Infrastructure Protection piece so that the information we get 
from the intelligence community about a possible attack and to 
the extent that we have information about a target, we then 
take a look at the vulnerability of the target.
    And then it is our job to work with that sector and work 
with that venue to say: ``You need to do these things and you 
need to do them now.'' We may have the possibility to 
anticipate long-term needs and do it across the sector, across 
the country.
    Let me tell you, how this piece in our department works 
with the rest of the intelligence community.
    We have analysts within DHS who do not have access to the 
raw information immediately. We get all the analytical reports 
from the CIA and the FBI. We also have analysts inside the 
Threat Integration Center. Where they work with their 
colleagues from the FBI, and the DOD and the CIA. There we have 
access to everything.
    Now, we are just setting up the organization. I do not 
think the technology that we want is in place yet.
    But the goal is to do two things. We will, because we have 
agencies within the department like the Coast Guard, and TSA. 
We have Immigration, maybe not the Immigration and Citizenship 
Services, but the Bureau of Immigration and Customs 
Enforcement, and a couple others.
    They will potentially generate information, and with our 
connections with state and local, we will get some information. 
We will provide that to the Threat Integration Center, through 
our IAIP.
    But we can then, through our relationship with the 
Terrorist Integration Center go back and ask specific 
questions. We can set intelligence requirements for our 
responsibility. Our responsibility is not to disrupt the 
terrorists as much as it is to harden America.
    All right, we read this report, and you got it from some 
place so go back to that source and ask the following 
questions. We would like to get answers to these questions, if 
you can, because we want to do these things at that site.
    So, again, we are a consumer and we are a provider. It has 
been up and running for a couple weeks. I will tell you that 
the product that we see every day, and the primary goal is to 
give us a comprehensive threat picture. I not only get the 
comprehensive threat picture, but I get the individual threat 
reporting.
    We finally have one place, and again, we still need to beef 
it up with more analysts. We are going to do a better job with 
the technology. It will be one place that will be a common 
source where those analysts in that unit have access to 
information across the board.
    Chairman Cox. The gentleman from Florida, Mr. Meek.
    And I would thank the secretary. We are pushing the 
envelope on our unanimous consent agreement. We have Mr. Meek 
and the chairman of the Armed Services Committee, Mr. Hunter, 
remaining.
    Mr. Meek, you are recognized for three minutes.
    Mr. Meek. Mr. Chairman, I would like to yield one minute to 
Mr. Pascrell, if I can.
    Chairman Cox. Your time.
    Mr. Pascrell. Thank you, the gentleman from Florida.
    Thank you for your service, Governor. And I have supported 
everything you have recommended since you got the job. You have 
done a great job.
    But I got to ask you this question as a follow-up. You know 
the ranking member of this committee has asked you very 
specifically about what went on between the department and the 
Department of Public Safety in Texas with regard to--
    Secretary Ridge. Oh, sure.
    Mr. Pascrell. --those folks that left. I know that you took 
it under review. I am anxious to get the results of that 
review, anxious to know if we are going to hear the tapes of 
correspondence between the departments. And I think the 
American people have a right to know that, and I think you 
believe the same thing.
    Secretary Ridge. Well, I do not think there is any question 
about it. I think very appropriately your colleague from Texas 
asked the question two days ago, and I think very appropriately 
we responded.
    This is now potentially a criminal investigation. The tapes 
are part of the evidentiary chain. When you are involved in a 
criminal investigation involving information and pieces of 
evidence, they are not necessarily available for public review 
right now. At some point in time, I suspect it will be 
available.
    But if there is an investigation being conducted by an 
inspector general, so you know and to be very clear about it, 
the acting inspector general is from Texas. Attorney General 
Clark Ervin has recused himself. He is too close to this.
    He turned it over to a very able lawyer within the IG 
office because there is a potential conflict. I mean, there is 
an investigation that, may or may not have a criminal 
component. Who knows what the outcome will be. But it is just 
not appropriate to be passing that information out right now.
    Mr. Meek. Thank you, Mr. Secretary. I thank you for your 
service.
    I have been a first responder myself at the Florida Highway 
Patrol in Florida, and I know what is important as it relates 
to communicating with the public, communicating with a crowd at 
a tragedy. On 9/11 there were a lot of folks who did not know 
what to do, how to do it. We are better prepared today than we 
were then.
    Myself and members of this committee are looking at how can 
we communicate with the American public. We know that people 
are saying that individuals can be e-mailed or through wireless 
hand-held Palm Pilots, but the average American does not have 
that pleasure or even technology to be able to be informed on 
what is going on, and it can be rural or city.
    Today, along with myself and members of this committee, we 
are putting forth a ready-call bill that would allow you, the 
secretary of Homeland Security, to be able to work with a 
telecommunications company or system to notify Americans in 
their own homes. The FCC says that we have over 109 million 
homes, 104 million homes or households, who actually have a 
hard-line phone.
    Let's say, for instance, if it was the ``Hour of Power'' on 
Sunday, if something was to happen, they would not be plugged 
into any of the national television. But if someone could call 
that sanctuary or wherever the place may be to be able to let 
them know what is going on right outside, what they should do 
and how they should do it with precision would be good to be 
able to let them know.
    It would help the first responders, because at least they 
will not have to use those resources to try to talk over a 
megaphone or whatever the case may be.
    Recently, I had a tornado in my district and, you know, I 
saw the mayor there talking, telling people, people who were 
affected by the tornado: ``Please don't go outside, the power 
lines--''
    Well, they don't have power, so how are they going to hear 
you? I mean, everyone else can hear you. But they had phone 
service.
    So I think it is important if the Department can look at 
being in support of not only such a bill, but even moving in 
that direction with the power that you have now communicating 
with Americans, letting them know what is going on.
    Even if we had to go to a severe alert and we had an issue 
in Virginia, we could call those homes in a matter of minutes 
to let them know what they should do and how they should 
prepare for that. And if they see anything suspicious it could 
very well help law enforcement, because government can't do it 
all by itself.
    We need the general public to be able to help us.
    And I think it will be a great move toward communicating 
with our public in helping our first responders.
    Secretary Ridge. Congressman, first of all, I appreciate 
your perspective as a former first responder. You understand 
that at a time of crisis, if you have those not necessarily 
directly involved in the crisis or the incident acting on good 
information, that relieves you from being concerned about them. 
You can focus your concern on people being affected by the 
incident.
    That is one reason why we have the Ready Campaign and that 
is one reason that we believe within the department that one of 
our primary missions is public awareness. And I am anxious to 
take a look at the measure that you have proposed.
    We know that communication among first responders is 
critically important, but there is a broader world we need to 
correspond with and keep informed is America. I think we are an 
intelligent, sophisticated country; you can deal with 
information and we can act on information. Our job is to get it 
to them.
    And if we get them timely and accurate information, 
particularly at a time of crisis, every first responder I have 
talked to said: ``If those who are not directly involved don't 
get in our way, we can focus our attention and our resources on 
those that are involved.''
    And the only way we get them out of the way is keep them 
informed with information so they understand they don't have to 
get involved.
    So I am anxious to take a look at the bill and continue the 
conversation with you.
    Ms. Jackson Lee. Mr. Chairman?
    Chairman Cox. Gentlelady?
    Ms. Jackson Lee. Can I have unanimous consent for 15 
seconds? I will not ask him to respond. I just want to put 
these two issues on the record.
    Chairman Cox. Yes, the gentlelady is so recognized.
    And for those members present who wish to submit questions, 
we will make those questions and any response from the 
department as part of the permanent record.
    The gentlelady is recognized.
    Ms. Jackson Lee. The secretary has been wonderful. A 
question that I asked that did not get answered: grant 
application process, the monies are not getting to local 
government. And I just think that we need to look at a new 
formula.
    The second is, I want to thank you for acknowledging that 
the Texas incident is a criminal investigation. And I only ask 
and, you may want to correct me, that the investigation be 
expedited and that we get the full story. I think that is the 
most important thing.
    Secretary Ridge. I do want to correct you. We don't know 
where it will lead, but I think it is very appropriate that the 
evidentiary chain and those bits and pieces of information or 
everything else that is part of the inspector general's 
responsibility be, for the time being, contained, to see where 
the investigation takes us.
    And, again, I think Congress said we need inspector 
generals for precisely these reasons, and we are going to use 
ours to get to the bottom of it.
    We are all interested.
    Ms. Jackson Lee. I am excited about that, thank you very 
much.
    Thank you, Mr. Chairman, ranking member.
    Chairman Cox. Mr. Secretary, thank you very much, you have 
essentially completed two-and-a-half hearings now, because we 
had the first, this is an extension, then you extended it. We 
want to thank you very much for that.
    I just wish to ask the department to assist this committee 
in our preparation of legislation that we expect to bring to 
the floor in July. Presumably, we will report it out of this 
committee during the month of June.
    I think the time will be right when we return from this 
one-week recess to address any areas that we have already 
discussed and additional issues that we have not discussed 
within the Homeland Security Act, that the department believes 
need attention, I think the time will be right.
    Secretary Ridge. Thank you, Mr. Chairman.
    Chairman Cox. Thank you again, Mr. Secretary.
    [Whereupon, at 12:05 p.m., the subcommittee was adjourned.]

                                APPENDIX

                   MATERIALS SUBMITTED FOR THE RECORD

      Responses to Questions for the Record by Secretary Tom Ridge

    At the hearing on May 20, 2003, the following questions, or 
requests for information were asked by Members.
    Mr. Turner. Please provide a catalog of the intelligence products 
received by the Information and Infrastructure Protection Directorate 
(j an April Letter). Can you update the information relating to the 
document receipt of your Department relating to CIA reports on 
information.
    Mr. Turner. Can you provide the guidelines for information sharing 
with State and local governments.
    Mr. Rogers. Please submit a report to the Committee on the status 
of TSA employees with criminal record, and background checks to assure 
that this does not happen.
    Mr. Markey. The Secretary stated that he would provide within 2 
weeks of the hearing a report on the plan to screen cargo of passenger 
jets in America; technology capabilities, costs and potential uses. 
Please provide this report to the Committee.
    Ms. Harman. Can you share with the Committee proposals for sharing 
information with school board, teachers, and local communities in 
preparation for potential threats.
    Mr. Istook. Can you provide the Committee with an update on the 
ability of the Department to adequately respond to letter and 
information requests from Members of Congress.
    Answer: The Department of Homeland Security is in the process of 
hiring additional staff to better respond to information requests from 
Members of Congress. Expanding the use of existing technology should 
also improve response times.
    Mr. Istook. Please provide the Committee with the status of the TSA 
regional training offices, how they are being selected, locales.

    Questions Submitted for the Record from the Honorable Bill Young

    1. Could you give us an update on efforts to secure stockpile 
quantities of Prussian Blue for the treatment of radiation exposure due 
to a ``dirty bomb'' incident or any other incident using a radiological 
dispersal devise. I understand that your agency is working in concert 
with HHS to take the necessary steps to enable production of this agent 
in the U.S. on an expedited basis.
    Answer: Currently, the Food and Drug Administration, the Centers 
for Disease Control, the Department of Health and Human Services 
(DHHS), and the Department of Homeland Security (DHS) are working 
together toward the goal of obtaining a quantity of Prussian Blue for 
the Strategic National Stockpile (SNS). In an effort to plan for the 
future, a notice was published in the Federal Register on February 4, 
2003, encouraging pharmaceutical manufacturers to submit new drug 
applications for Prussian Blue drug products. As a result of the 
Federal Register notice, several companies have expressed interest in 
the U.S. production of such a product. Other options, such as employing 
foreign manufacturers, are also being explored. U.S. production would 
be beneficial because of faster production time and more rapid 
licensure, whereas foreign manufacturers would probably encounter some 
shipping and licensing delays.

    Questions Submitted for the Record from the Honorable F. James 
                           Sensenbrenner, Jr.

    1. What is the Department's timeline regarding implementation of 
the SAFETY Act? When can we expect proposed implementing regulations to 
be promulgated by the Department?
    Answer: Applications for sellers of technologies potentially 
covered by the Act will be available on September 1, 2003. The rule 
implementing the legislation cited in Public Law 107-296, Subtitle G, 
was submitted to the Federal Register for public comment on July 11, 
2003. The duration of the public comment period was 30 days. At the 
close of that 30-day public comment period, the rule, as published, 
went into effect as an interim rule. Although comments are currently 
being assessed for potential impact on a final rule, the process will 
begin immediately.
    2. In my letter to you of March 5, 2003, I urged you ``to quickly 
identify a priority list of proven anti-terrorism technology solutions 
that can be qualified under the SAFETY Act immediately, including 
technology with prior military or government use and biological and 
chemical detection systems now sought by Federal, state and local 
entities responsible for public safety.'' Does such a priority list 
exist? If not, what is the Department's timeline for putting such a 
list together?
    Answer: The Department will begin accepting applications for 
Support Anti-Terrorism by Fostering Effective Technology Act of 2002 
(SAFETY Act) protections on September 1, 2003. All applications will be 
reviewed using the criteria contained in Public Law 107-296, Sections 
861-865. The Department has designed a rigorous review process to 
determine which of the technologies submitted for consideration have 
the verifiable capability to both address large-scale terrorism and to 
be rapidly deployed. Although there are many technologies that are 
important to protecting our homeland, the SAFETY Act designation and 
certification is designed to support very specific technologies that 
are primarily targeted at preventing, detecting, responding to or 
recovering from mass destruction or injury resulting from an act of 
terrorism. In addition, the Department will conduct a comprehensive 
review of the seller's business and insurance plan to confirm that use 
of the SAFETY Act designation meets the criteria contained in the Act. 
Sec. 
    A web site has been designed to facilitate the application 
submission process and to assist users in understanding both the 
criteria for submission as well as the application and review process. 
In addition, DHS is conducting five workshops to introduce interested 
parties to the SAFETY Act. The workshops will:
    <bullet> Provide a forum for describing the process that will be 
used by DHS to determine whether a technology should be designated as a 
Qualified Anti-Terrorism Technology under the SAFETY Act.
    <bullet> Present general information about the SAFETY Act and how 
to prepare an application.
    <bullet> Introduce potential applicants to opportunities for DHS 
assistance prior to submitting a formal application in order to enable 
the applicant to determine whether or not a technology is likely to be 
a candidate for SAFETY Act protection.
    The timelines are driven in part by the ability of each applicant 
to provide the information required to ensure a defensible, fair, and 
consistent evaluation and to comply with the stated intent of the law. 
The timelines contained in the rule include:
    <bullet> An initial notification to the submitter within 30 days 
after receipt of an application as to whether the application is 
complete.
    <bullet> If complete, the Department has 90 days to conduct its 
review of the application and supporting documentation to determine 
whether to recommend issuing a designation or certification. During 
this review period the Assistant Secretary may extended the time period 
beyond the 90 days upon written notice to the seller.
    <bullet> Within 30 days after receiving a recommendation, the Under 
Secretary must issue the appropriate designation, notify the seller in 
writing that the technology is potentially eligible for designation but 
additional information is needed before a decision can be reached, or 
deny the application and notify the seller in writing of such decision.
    All applications will be reviewed and evaluated as quickly as 
possible. However, DHS will focus its first efforts on those 
technologies and systems that have been demonstrated to make the 
largest contribution to risk reduction for the homeland security 
defensive system--and that meet the criteria contained in Subtitle G. 
Each ``target'' (i.e., people, facilities, critical infrastructure 
element) has a different set of vulnerabilities and probabilities of 
attack. The various means of attack (i.e., radiological, biological, 
explosive, cyber) will have different consequences on different 
targets. Therefore, the highest priority technologies will be 
determined based on the contribution of that technology on the total 
system of defense, including consideration of the synergies and the 
respective degree of impact on overall risk.
    3. How many applications for SAFETY Act coverage have you received 
so far? Does the Department currently have adequate resources to handle 
those applications expeditiously?
    Answer: Applications for SAFETY Act coverage will not be accepted 
until September 1, 2003. No products have yet been designated as 
Qualified Anti-Terrorism Technologies, nor have any yet been certified 
under the SAFETY Act.
    In order to implement the Act in a rigorous, defensible, and 
impartial manner, extensive efforts have been underway to develop a 
process that will govern the evaluation of applications against the 
complex criteria mandated in the Act. There has also been a concerted 
effort to implement an electronically based application, evaluation, 
and tracking system that will support consistent and efficient 
processing of what are expected to be numerous applications. Five 
seminars are being held across the country in order to provide 
information regarding the application and evaluation process. The 
intent is to assist potential applicants in first determining whether 
or not it is in their best interest to use resources to pursue SAFETY 
Act designation and/or certification and also to help them understand 
how to move through the process.
    No separate funds were set aside in the budget for SAFETY Act 
implementation, which was recently assigned to the Science & Technology 
Directorate. The dimensions and resource requirements of the program 
depend largely upon the number of applications submitted. Each proposed 
technology must undergo technical, legal, and insurance reviews. The 
dimensions of the SAFETY Act program are thus unknown; the 
Administration will monitor resources and request additional funding if 
required.

  Questions Submitted for the Record from the Honorable Duncan Hunter

    1.: The Bush Administration has met the 1996 congressional mandate 
of 10,000 Border Patrol Agents, with the majority of the agents 
stationed along the Southwest border. Since 9-11-03, however, many of 
these Southwest agents have been redeployed to other sectors, primarily 
along the Northern border. As a result, our personnel assets in the 
Southwest are once again insufficient to meet the region's heavy 
requirements.
    A. How many Border Patrol agents do you believe are necessary to 
fully protect all our borders?
    Answer: Since 1994, the U.S. Border Patrol has operated under a 
comprehensive national strategy designed to gain and maintain control 
of our Nation's borders. Major initiatives have had a significant 
effect on illegal migration along the Southwest Border. These 
initiatives sought to bring the proper balance of personnel, equipment, 
technology and infrastructure into areas experiencing the greatest 
level of illegal activity on the southwest border. Enforcement related 
technology has been applied to support field agents, especially in 
isolated and remote areas of the border. Existing resources such as air 
and marine units, horse patrols and all terrain vehicles have been 
enhanced to support day-to-day field operations. Infrastructure has 
been deployed in the way of fencing, vehicle barriers, cameras and 
lighting to assist field agents in their efforts to deter and prevent 
the flow of illegal aliens and contraband. While there is certainly 
more that must be done in this area, the strategy has yielded important 
results.
    In the wake of 9-11, vulnerabilities and deficiencies along the 
northern border have received increased attention, challenging us to 
increase our enforcement presence along the northern border. With the 
recent reassignment of more than 375 agents to the northern border, 
there will be 1,000 agents strategically and permanently placed along 
the northern border by the end of the year, enforcing a northern border 
strategy built on interagency and international cooperation and 
coordination, effective technology development and deployment, and 
innovative resource allocation. Overall, efforts have been very 
successful, with decreases in apprehensions and illegal entries, 
indicating that an impressive deterrent effect.
    By far the most critical component with regards to the successful 
implementation of the Border Patrol's enforcement strategy is 
personnel. Border Patrol Agents are the most essential element to 
gaining, maintaining and expanding control of our Nation's borders. An 
adequate number of agents must be deployed into an area if a decisive 
level of control is to be achieved and indefinitely maintained. 
Apprehensions require mobility and the threat of apprehension is 
critical to deterrence. Technology and equipment alone are of little 
value if there are not sufficient agents in the field to actually 
prevent and interdict undocumented aliens and contraband as it crosses 
the border. Force-multipliers (e.g., technology and tactical 
infrastructure) must be supported by agents who provide a response to 
detected intrusions. Border Patrol will continue to move forward with 
this strategy, staffing as appropriate to implement border control 
strategies.
    B. Would completion of the San Diego border fence allow personnel 
currently deployed in the San Diego sector to be redeployed to other 
areas where illegal activity has increased? In particular, to points 
immediately East where more and more illegal border crossing activity 
is occurring? If yes, what are the Department's plans to complete the 
fence in a timely fashion?
    Answer: In 1996, Congress mandated the construction of the San 
Diego Multi-Tier Fence. Successive Congresses have annually 
appropriated funds for an integrated system of border infrastructure, 
including multiple fences, lights, and roads for the 14 miles of border 
from the Pacific Ocean to the Otay Mountain foothills. The Border 
Barrier Project is an effort to provide a highly-visible physical 
deterrent to illegal entry into the United States, and to improve 
border infrastructure by building access roads, installing stadium 
style lighting, surveillance cameras and other technology to support 
the ``prevent and deter'' enforcement strategy. Phase I, which is 95 
percent complete, provides a continuous roadway system with security 
fencing and lighting within the middle 9 miles of the project area--
adjacent to residential and industrial areas of Tijuana, Mexico.
    Phase II extends the Phase I roadway system, fencing and lighting 
roughly 3 \1/2\ miles west through the Tijuana Valley Regional Park to 
the Pacific Ocean, and eastward about 1 \1/2\ miles to Otay Mountain. 
Phase II is awaiting completion of a final Environmental Impact 
Statement (EIS) and receipt of an Individual Permit pursuant to the 
Clean Water Act.
    Relying upon a proper balance of personnel, technology and 
infrastructure, Border Patrol will continue to asses the border 
security needs in the San Diego Sector to develop strategies which will 
provide for the best possible security along the border in that area.
    C. Q00014: The All-American Canal in the El Centro Sector has the 
dubious distinction of having among the largest number of immigrant 
deaths and many of those by drowning. Last year, the Border Patrol 
deployed several expensive assets to address this problem including 
additional helicopter deployment, a hydroplane for the Canal and stand-
by emergency rescue teams. While I support the Agency's dedication to 
saving lives in this region, has the Department looked at the 
possibility of building a fence, similar to the one being constructed 
in San Diego, along the Canal to ensure that immigrants are unable to 
access the Canal? Would it be a more cost-effective means of protecting 
the border and saving lives? According to CRS, the fence construction 
authority included in P.L. 104-208 extends along all U.S. borders.
    Answer: Border Patrol has been proactive in the Border Safety 
Initiative along the Southwest Border. In the El Centro Sector, total 
deaths are down 52% overall from the high in 2001. Drowning deaths are 
down 58% from the 2001 high. Border Patrol has considered barrier 
fencing in the El Centro Sector along the All-American Canal, and it 
has been included in the Sector's long-range infrastructure plan. 
Initial planning and justifications have already been completed for 
extending the existing fencing already in place. Consideration and 
assessment is continuing as to fence construction, material and 
location to best serve border security needs. In such, cost estimates 
have not been ascertained completely. Indications at this time are that 
a fence project would greatly enhance operations in the area.
    2. Sec. 102 of P.L. 104-208 directed the Attorney General to 
construct a 14-mile international border fence in San Diego, 
California. Included within that directive was the authority to 
``promptly acquire such easements as may be necessary to carry out this 
subsection...'' In addition, Sec. 102 (c) states ``the provisions of 
the Endangered Species Act of 1973 and the National Environmental 
Policy Act of 1969 are waived to the extent the Attorney General 
determines necessary to ensure the expeditious construction of the 
barriers and roads under this section.''
    [No Response Received by the Committee]

    3. Is it your opinion that the directive and coinciding waivers 
included in Sec. 102 of P.L. 104-208, in its entirety, have been 
transferred to the Department of Homeland Security and therefore are 
the responsibility of the Secretary for Homeland Security?

 Questions Submitted for the Record from the Honorable Nita. M. Lowey:

                            First Responders

    1. Q00016: The Domestic Emergency Support Teams (DEST) are 
interagency teams of experts that provide an on-scene special agent in 
charge with advice and guidance in situations involving weapons of mass 
destruction, or other significant domestic threats. The Homeland 
Security Act transferred DEST functions from the FBI to the Emergency 
Preparedness and Response Directorate at DHS. Could you tell us how you 
will be working with the FBI, since it seems likely that the FBI will 
need to maintain some capabilities in order to respond most effectively 
to domestic terrorist incidents?
    Answer: The Domestic Emergency Support Team (DEST) is a specialized 
interagency Federal team and response element that provides information 
management support; enhanced communications capabilities; tailored 
expertise, assessment, and analysis capabilities; and consequence 
contingency planning capabilities. The operational control of the DEST 
transferred from the FBI to DHS on March 1, 2003. While each agency 
continues to bring its own personnel and equipment to the DEST, DHS has 
assumed the administrative and logistical responsibilities for the 
team. Coordination with the FBI will continue through FBI 
representatives who serve on the DEST.
    2. Many of the individual agencies that are now included in DHS 
were not part of a larger cabinet-level department only a few months 
ago, and did not have to internally compete for resources in the same 
way they will now. Not all of them can remain ``first among equals,'' 
given limited resources. How will the Department's leadership decide 
what the priorities should be?
    [No Response Received by the Committee]

                              Indian Point

    1. Mr. Secretary, I would like to discuss the Indian Point Energy 
Center in Buchanan, New York, which is located on the eastern bank of 
the Hudson River, only a few miles north of my district. Nearly 300,000 
people reside within 10 miles of the plants, and the 50-mile `peak 
injury' zone encompasses all of New York City and major urban centers 
in New York, New Jersey, and Connecticut.
    An independent analysis of the emergency response plans for Indian 
Point completed by former FEMA director James Lee Witt concluded that 
the plans were fundamentally unworkable. The four counties surrounding 
the Indian Point nuclear facility and New York State, which have all 
refused to submit certification documents to FEMA, are similarly 
convinced that the plans are wholly inadequate. Yet, FEMA has 
repeatedly postponed ruling on the adequacy of the plans, demanding 
certain planning documents from the counties. Because there's concern 
that FEMA might use any information to approve plans, Westchester and 
Rockland counties have made it clear time and time again that they will 
not submit certification information.
    a. How long will FEMA wait for State and county emergency planning 
documents that will clearly not be forthcoming? Has the agency set 
itself a new submission deadline or is it operating under an open-ended 
schedule?
    Answer: FEMA continues to maintain its scheduled requirements 
consistent with regulations that involve plan reviews and an exercise 
process. It is important to note that the aforementioned counties 
continue to update their plans and to participate jointly with FEMA in 
exercises, training, and planning. Although they did not provide the 
State of New York Annual Letters of Certification (ALC), the counties 
continue to work to ensure plans and procedures are updated. The ALCs 
are not required by FEMA regulations. They are voluntary reporting 
mechanisms that are helpful, but are not necessary for FEMA to make its 
final determination. FEMA's July 25, 2003, finding was based on the 
following:
    <bullet> FEMA's letter of February 21, 2003, transmitting the 
Indian Point 2002 Exercise Report to New York State reported that the 
September 2002 full-scale exercise of local emergency response plans 
was successful, with no deficiencies in the offsite emergency 
protective measures used.
    <bullet> In the most recent out-of-sequence demonstrations and 
drills related to the September 2002 exercise, the State and counties 
have continued to successfully demonstrate their ability to respond to 
the scenarios presented.
    <bullet> In FEMA's review, it is apparent that the plans from 
Rockland, Orange, and Putnam counties have been further updated since 
the September 2002 exercise to address: (1) the 2003 Evacuation Time 
Estimate Studies, with shadow evacuation estimates; (2) Letters of 
Agreement between counties and resource providers, such as bus 
companies; and (3) planning for schoolchildren with appropriate 
notification and protective action decisions. These plans, including 
Westchester County's plan, will be tested in the scheduled exercise in 
the middle of 2004.
    <bullet> Although Westchester County has not permitted a detailed 
review by FEMA of its updated plans, the County has worked with Entergy 
to update its plans in response to comments from FEMA, it continues to 
participate in all drills, and it continues to demonstrate its 
involvement by leading the Four County Nuclear Safety Committee, and by 
attending other training and planning events.
    FEMA will utilize the same review procedure next year as it goes 
through the planning and exercise process. In December, combined 
comments from the Federal agencies that make up the Regional Advisory 
Committee will be forwarded to the State. We anticipate that the 
counties and the State will update their plans accordingly in 
preparation for a terrorism-based exercise in June of 2004.
    b. Is it conceivable that FEMA would certify the emergency response 
plans without the necessary planning documents from the counties?
    Answer: Certification is an ongoing process. The critical decision 
for reasonable assurance lies with the successful completion of an 
exercise based on plans that are required to be continuously updated. 
It is possible that some counties may not submit plans again next year. 
If, as in last year, all counties still fully participate in the 
planning process and demonstrate that there is an active program, it is 
possible that ``reasonable assurance'' could be provided. It is equally 
important to note that even if all plans are submitted, a determination 
of reasonable assurance would not be provided if deficiencies were 
identified during the upcoming exercise.
    c. In its February 21, 2003, letter to New York State Emergency 
Management Director, Ed Jacoby, FEMA Acting Regional Director Joe 
Picciano stated that in the absence of updated plans from the New York 
State Emergency Management Office, FEMA would be unable to certify the 
plans. Is that still FEMA's position?
    Answer: Following Mr. Picciano's letter to New York State, and 
prior to FEMA's decision of July 25, 2003, three of the four county 
plans had been submitted along with an updated State of New York Plan. 
Although Westchester County has not permitted a detailed review by FEMA 
of its updated plans, the County has worked with Entergy to update its 
plans in response to comments from FEMA. Westchester County also 
continues to participate in all drills, continues to demonstrate its 
involvement by leading the Four County Nuclear Safety Committee, and 
attends other training and planning events. On April 18th, 2003, New 
York State provided a progress report covering all counties, including 
Westchester County, which clearly indicated progress in all four 
critical areas outlined in Mr. Picciano's letter. As a result, the 
conditions in his letter have been met.
    2. On March 24, 2003, I wrote a letter to Admiral Loy, 
Administrator of the Transportation Security Administration, requesting 
that a strict no-fly zone be reinstituted and enforced around Indian 
Point. In a letter dated April 29, 2003, Admiral Loy denied my request 
for a no-fly zone. An FBI intelligence bulletin released the following 
day warned law enforcement agencies across the country to watch for 
suspicious activities around nuclear power plants. An overwhelming body 
of evidence, including threats against and Al Qaeda maps of specific 
nuclear reactors, suggest terrorist intentions to strike our nuclear 
infrastructure, yet the TSA has failed to act. What type of incident or 
threat would justify reinstituting a no-fly zone?
    [No Response Received by the Committee]

    3. Emergency planning guidelines for nuclear plants currently 
assume an accidental rather than terrorist-induced release of 
radiation. Although a terrorist attack could result in a radioactive 
release in as little as an hour, emergency drills assume a far longer 
timeframe. Does FEMA plan to adopt more realistic time estimates that 
factor not only accidental but also terrorist-caused releases?
    Answer: FEMA does not plan to change the time estimates for 
accidental releases of radioactivity that provide the basis of its 
emergency preparedness program. The current release time estimates 
contained in NUREG 0396, EPA 520/1-78-016, ``Planning Basis for the 
Development of State and Local Government Radiological Emergency 
Response Plans in Support of Light Water Nuclear Power Plants,'' 
addresses releases that could occur in as little as 1 hour. In fact, 
Table 2 - Guidance on Initiation and Duration of Release, identified 
the time from the initiating event to the start of an atmospheric 
release could occur in as little as 30 minutes. However, scientific and 
engineering analyses being conducted for the Nuclear Regulatory 
Commission appear to indicate that even a release from a terrorist-
initiated event will not occur within the 1-hour timeframe being 
suggested.
    4. The current Emergency Planning Zone for nuclear plants extends 
just ten miles from the plant, even though people living as far as 
fifty miles from the plant could be exposed to radiation levels well 
above the EPA threshold for evacuation. An adult standing 20 miles 
downwind from Indian Point, for example, would receive a dose of 
radiation 60 times larger than the evacuation threshold, and have a 30% 
higher average risk of dying from cancer. Do you believe that emergency 
evacuation plans should exist for those living outside the 10-mile 
emergency planning zone?
    Answer: FEMA does not believe that evacuation plans need to exist 
for people living outside the 10-mile emergency planning zone. NUREG 
0396, EPA 520/1-78-016, ``Planning Basis for the Development of State 
and Local Government Radiological Emergency Response Plans in Support 
of Light Water Nuclear Power Plants,'' does not support the notion that 
doses requiring evacuation would exist beyond the 10-mile emergency 
planning zone. In fact, more recent analyses of the various accidental 
release scenarios that have been based on an improved understanding of 
reactor physics, engineered safety features, and atmospheric dispersion 
modeling indicate that the 10-mile zone could actually be reduced.

                       Public Health Preparedness

    1. Mr. Secretary, initiatives like Project BioShield depend on our 
public health system's ability to distribute and deliver vaccinations 
to the general public in a timely, safe, and orderly fashion. In the 
case of smallpox, the cost of vaccinating - roughly $200 per 
vaccination because of screening, testing, post vaccination 
surveillance, and treatment of adverse reactions--has been a 
significant impediment to the program.
    The anthrax outbreak in New York City also provides a good example 
of how far our system is already stretched. Tens of thousands of scared 
New Yorkers flooded into emergency rooms, doctors' offices, community 
health centers, even police and fire stations, to be tested for anthrax 
exposure. The New York City and State public health laboratories were 
so swamped with items to test that lab workers slept at the lab for a 
week. Thus, the key to an effective first responder system must include 
a sharp, capable, and agile hospital and public health system.
    As I have discussed with other Administration officials during 
Labor HHS Appropriations Subcommittee hearings, the bioterrorism grants 
provided through CDC and HRSA have not been adequate, particularly in 
the context of the current economy and failing state budgets. Basic 
health care programs are starved for cash for their core public health 
missions, while also trying to take on greater responsibilities in the 
terrorism preparedness arena.
    A. How can we expect our hospitals and public health network to be 
able to support widespread distribution of any new countermeasures?
    Answer: DHS continues to work with DHHS on methods to improve 
medical surge capacity at the local level. For example, as a result of 
TOPOFF II, a DHHS-led Surge Capacity Workgroup has been working on ways 
to enhance surge capacity. FEMA participates in the activities of this 
workgroup. The National Disaster Medical System (NDMS) is also 
examining ways to expand the current surge capacity of that system. 
Future NDMS plans include improving response times so that outside 
support can arrive earlier, developing additional and more frequent 
training for the NDMS participating hospitals, and enhancing casualty 
evacuation capacity and capability.
    The SNS Program has been working with State and local officials to 
develop more effective distribution plans for the contents of the SNS. 
To this end, a ``Guide for Planners'' has been published and onsite 
training for public health and emergency management personnel is being 
conducted. Once receipt and distribution plans developed by State and 
local officials are finalized, the SNS Program will conduct exercises 
to assist in evaluating these plans. Coordinating these plans with the 
DHHS public health and hospital preparedness programs to improve 
overall capabilities is a DHS priority.
    The SNS Program is but a small piece of the Bioterrorism Grants 
program. It is responsible for ensuring that State and local 
authorities have the capacity to receive, stage, distribute, and 
dispense SNS assets. The support that is needed by hospitals and the 
public health network could, perhaps, be better described by DHHS and 
the Centers for Disease Control and Prevention.
    B. Is this an issue that should be addressed in Project BioShield 
or to a greater degree by the Department of Homeland Security?
    Answer: DHHS, DHS, and our State and local public health and 
medical colleagues are jointly responsible for ensuring that our public 
health and medical infrastructures are fully capable of detecting and 
responding to a public health emergency. To make sure that we provide 
effective support, we are in constant communication and ensure close 
coordination of our activities with the State and local public health 
and medical representatives. While DHS would oppose the diversion of 
Project BioShield resources to support of the basic public health 
infrastructure, DHS supports the capacity building programs of DHHS and 
we will continue to work closely with them to identify specific needs 
and evaluate appropriate solutions.
    C. Is the Administration looking at the larger issues facing 
hospitals, such as staffing shortages and Medicare cuts, as it asks 
them to take on more responsibility?
    Answer: DHHS, through the Health Resources Services Agency, has 
been addressing hospital preparedness through cooperative agreements 
with the States and selected municipalities. The cooperative agreements 
provided $130 million in the first year and more than $400 million in 
the second. DHHS can provide additional information on the agreements 
and other issues relative to hospital preparedness.
    D. How can hospitals be a key player in our first responder team 
without additional funding?
    Answer: One of the most important measures hospitals can take to be 
key players in detecting bioterrorism is to ensure that their staffs 
are adequately trained to be able to clinically detect and report 
symptoms of their patients that could be indicative of the use of 
biological agents. In fact, one of the best early warning systems is an 
astute clinician who suspects bioterrorism in any cases with unusual 
presentations. Well-developed information sources are easily accessible 
from Federal, State, and local medical and public health authorities 
through the Internet. In addition, hospital staff can participate in 
community training and disaster exercises.
    Participation in the exercises will not only aid the hospital in 
its internal preparedness, but will also ensure that the hospital is 
well integrated with the emergency management community and the public 
health system. Finally, hospitals can become participants in the NDMS. 
By participating in NDMS, hospitals can contribute to the nation's 
medical surge capacity system free of any additional financial 
obligations.
    2. The Public Health Security and Bioterrorism Preparedness and 
Response Act also recommended that an official Federal Internet site on 
bioterrorism be established. I realize the Department of Homeland 
Security, CDC, and other agencies have relevant emergency preparedness 
information on their web pages, but has one specific site been posted 
to provide bioterrorism information to the public?
    Answer: This question should also be directed to DHHS. Although 
many agencies within the Department of Homeland Security post 
bioterrorism information on their agency websites, the Department of 
Homeland Security does not have a consolidated bioterrorism information 
page at this time.

                     Emergency Planning for Schools

    1. Mr. Secretary, after Columbine, schools were required to put 
together an emergency plan. But four years later and after September 
11th, the situations for which our schools are preparing have changed 
and so must crisis plans. Earlier this year, the Secretary of Education 
unveiled a new website, ``Emergency Planning--Office of Safe and Drug-
Free Schools,'' which provides school leaders with information on how 
to plan for an emergency, including natural disasters, violent 
incidents, and terrorist acts. While the website provides important 
information on what our schools should be doing to prepare for the new 
world, there is barely any Federal funding available to help support 
these activities. The website directs school administrators to Project 
Serve, which only provides financial assistance to local education 
agencies recovering from a violent or traumatic event--no funds to help 
evade an incident.
    [No Response Received by the Committee]

    2. Schools need funding to hire consultants to improve their 
emergency plan, and they need to implement better communications 
systems so they can quickly and consistently contact parents during 
emergency situations. The reality is that if our school superintendents 
and principals cannot communicate accurate and timely information to 
parents, then parents will go to get their children-- not necessarily 
the best thing to do during an emergency situation. Can you please tell 
the Committee what, if anything, the Department is doing to assist our 
schools in the homeland security arena?
    [No Response Received by the Committee]

                          Technology Standards

    1. Mr. Secretary, in the aftermath of September 11th, law 
enforcement and other first responders have found it necessary to 
purchase new technology and equipment in order to upgrade their 
homeland security infrastructure. However, standards have not yet been 
issued for Homeland Security technology.
    A. How long will it be before standards for new technology are 
issued?
    Answer: The need for standards and criteria for equipment being 
developed by the Department of Homeland Security (DHS) was recognized 
during the initial stages of developing the Science and Technology 
(S&T) Directorate's long-range strategy. During the transition phase, 
the need for standards to address design, procurement, deployment, and 
use of the radiological and biological detectors was determined to be a 
key need. In collaboration with the National Institute of Standards and 
Technology (NIST), the American National Standards Institute (ANSI) and 
the Institute of Electrical and Electronic Engineers (IEEE), the DHS 
S&T transition team began development of standards for four high-
priority classes of radiation detection equipment. The four classes are 
personal dosimeters (``pagers''), alarming hand-held detectors, hand-
held isotope identifiers, and radiation portals. These standards have 
been released in draft form and will soon go to ballot, in accordance 
with ANSI process requirements for national consensus standards. A 
contract to develop a standard test method for hand-held bulk anthrax 
immunoassay kits is being prepared.
    Work is also progressing in the areas of training standards and 
personnel certification. Additional standards needs for both detection 
and response are being identified as part of a systematic evaluation of 
capabilities versus needs for standards to support the homeland 
security mission-related equipment, operators, models and analyses, 
data and information, and integrated systems.
    B. Would you recommend that communities wait until standards are 
issued before they buy equipment?
    Answer: No, there is excellent guidance available through resources 
such as the Office of Domestic Preparedness (ODP) and the Interagency 
Advisory Board for Equipment Standardization and Interoperability. Each 
of these organizations has created equipment lists that are useful in 
guiding purchases that can be made today. The Interagency Board (IAB) 
for Equipment Standardization and Interoperability Working Group is 
designed to establish and coordinate local, state, and Federal 
standardization, interoperability, and responder safety to prepare for, 
respond to, mitigate, and recover from any incident by identifying 
requirements for Chemical, Biological, Radiological, Nuclear or 
Explosives (CBRNE) incident response equipment. The IAB has developed a 
Standardized Equipment List (SEL) which can be used as a guideline. The 
SEL promotes interoperability and standardization among the response 
community at the local, state, and Federal levels. The goal of the ODP 
Equipment Grant Program is to provide funding to enhance the capacity 
of state and local jurisdictions to respond to, and mitigate the 
consequences of incidents of domestic terrorism involving the use of 
Weapons of Mass Destruction (WMD). Because the SEL also contains lists 
of general use and support equipment, as well as medical equipment, a 
narrower list was derived from the SEL to identify the specific types 
of specialized equipment authorized for purchase under the ODP 
Equipment Grant Program.
    2. Has the Department or will the Department established best 
practices for purchase of these technologies?
    Answer: In addition to the work described above (Q00031), the S&T 
Directorate has been working with the Oklahoma City Memorial Institute 
for Preventing Terrorism (MIPT) to deploy a web-based tool that will 
communicate directly with user communities. The user community has had 
a broad representation in the development of the tool. ``Project 
Responder,'' with direct input from DHS, is evolving into a tool that 
can catalog technologies, provide links to manufacturer data, and 
indicate which standards apply and also the degree of compliance with 
DHS standards. At will also show links to appropriate training and with 
potential grant programs.
    A. Should municipalities act independently, or should they act in a 
coordinated fashion, perhaps by county or by region?
    Answer: It is highly recommended that municipalities act in a 
coordinated fashion whenever feasible. Initiatives such as the Urban 
Area Security Initiative (UASI) are specifically targeted to address 
the unique equipment, training, planning and exercise needs of large 
urban areas, and to assist them in building sustainable capacity to 
prevent, respond to, and recover from threats or acts of terrorism. 
Just as our country relies on the capabilities of volunteer fire 
fighters, and health care organizations like the Red Cross, we must 
also encourage mutual aid agreements between cities, counties and 
states in the event of catastrophic disaster.
    B. Q00034: What methods can assure the best inter-government 
coordination, both horizontally among communities, and vertically 
between layers of government?
    Answer: Communication is the key to coordination. It is important 
for all levels of government to utilize interagency working groups, 
professional associations, and organizations (such as the IAB) to 
communicate needs, develop technology requirements, and coordinate 
operational plans.

                             Cybersecurity

    1. Mr. Secretary, while many of us fear a biological attack or 
another physical attack on the United States because of the devastating 
loss of human life, an attack upon our critical infrastructure could be 
far equally or more harmful to our economy. Because our economy is now 
so integrated with the Internet, a massive cyber attack resulting in 
three or four days without Internet service could have broad 
repercussions across our economy, because the impact would be nation- 
and even worldwide.
    [No Response Received by the Committee]

    2. Has the Department studied the possible impact of a crippling 
Internet attack; does the Department have any plans to do so?
    [No Response Received by the Committee]

    3. What preparations has the Department made to recover quickly 
from such an attack? Has it prepared to ``clean-up'' from a cyber 
attack and minimize its impact in a fashion similar to the release of a 
biological agent?
    [No Response Received by the Committee]

    4. Has DHS looked at existing expertise among its offices, like the 
ODP, when setting up the mandate of the Office of Science and 
Technology?
    Answer: The Science and Technology Directorate is actively engaging 
all of the other DHS directorates in definition and implementation of 
S&T program plans. In addition to the crosscutting research and 
development in the CBRNE and standards portfolios, the Directorate has 
specifically created portfolios that are targeted at each of the other 
directorates as well as the United States Secret Service and the United 
States Coast Guard.
    5. Has DHS set priorities within the Office of Science and 
Technology's mandate--for example, that radio communication system 
recommendations be made first, followed by HazMat ``kits'' of masks, 
breathing devices, followed by other specialized equipment?
    Answer: The Science and Technology Directorate has established 
working groups to examine standards requirements in many crosscutting 
areas, communications hardware and software, certification (of 
products, service and personnel), personal protective equipment (PPE), 
and training including each of these areas. The radiation detector 
standards, developed on a fast track, will be available in 2003. The 
standards for immunoassay kits for anthrax detection will be available 
in 2004. The DHS Office for State and Local Outreach will be apprised 
on the state of development of standards and will serve as a conduit to 
the state and local emergency planners. In addition, almost all the 
standards writing groups will have participants for national groups 
that coordinate at the state and local level. The Science and 
Technology Directorate is also actively engaged with work such as 
``Project Responder,'' which has developed a prioritized list of 
national technology response objectives for first responders that range 
from personal protective equipment to mass decontamination needs.
    ODP launched its Fiscal Year (FY) 2003 State Homeland Security 
Assessment and Strategy (SHSAS) process on July 1, 2003. As part of 
this effort, ODP has refined the SHSAS process that was originally 
established in fiscal year 1999.
    The fiscal year 2003 process will allow states and local 
jurisdictions to update their needs assessment data to reflect post-
September 11, 2001, realities, as well as identify progress on the 
priorities outlined in their initial homeland security strategies. In 
coordination with ODP, S&T will incorporate the needs identified in 
these assessments into our planning process.Sec. 
    6. Is the Department drawing on private sector resources, such as 
the Council on Foreign Relation's recent conference on preparedness 
with the professional associations of all major first responders?
    Answer: The private sector has already been involved in the process 
of developing voluntary consensus standards. Manufacturers, academics, 
and professional societies have been strongly represented in the groups 
that have already been activated. The traditional method for producing 
standards involves volunteers to lead and staff the writing 
groups.Sec. Sec. 
    A number of Standards Development Organizations (SDOs) have stepped 
forward to offer their help to the S&T Directorate in development of 
consensus standards for Homeland Security. The American National 
Standards Institute (ANSI) has volunteered to coordinate the activities 
of about 280 SDOs that are members of ANSI as well as other SDOs to be 
identified in development of standards under the auspices of the 
Homeland Security Standards Panel. Other SDOs are establishing their 
own Homeland Security committees and engaging DHS directly in their 
planning processes. Three of the many important private sector groups 
are: American Society for Testing and Materials (ASTM), the Institute 
for Electrical and Electronics Engineers (IEEE), and The Infrastructure 
Security Partnership (TISP). Each of these groups draws heavily from 
private sector volunteers in establishing committees and standards 
writing groups.
    Some funding has been set aside to support the writing committee 
chairs. Funds have also been planned to help support the ANSI Homeland 
Security Standards Panel that will aid in cataloging and coordinating 
standards development with the professional societies that are the 
traditional source for United States? national voluntary consensus 
standards.
    In addition, as previously discussed, the DHS is actively engaging 
organizations such as the Memorial Institute for the Prevention of 
Terrorism (MIPT) in the development of research objectives for first 
responders.
    7. Will the Department communicate its recommendations beyond State 
Emergency Management Offices?
    Answer: The Department maintains an open line of communication at 
all levels of government, through several professional and nonprofit 
organizations, and with the American public. The Director of National 
Capital Region Coordination for Emergency Response will oversee and 
coordinate Federal programs for and relationships with State, local, 
and regional authorities in the National Capital Region. The Office of 
State and Local Outreach provides outreach to state, local and tribal 
communities. Under Secretary Brown has traveled the country extensively 
to talk about the continuing effort to help Americans prepare 
themselves and their families in the event of an emergency and 
highlight the recently launched Ready.gov website that was unveiled by 
the Department of Homeland Security. In addition, DHS routinely 
provides technical guidance and other information through organizations 
such as the National Emergency Management Association (NEMA), National 
Fire Protection Administration, International Code Council, 
International Association of Fire Chiefs, as well as other technical 
professional societies such as the Association of Civil Engineers.
    [No Response Received by the Committee]

    8. How quickly will the recommendations of the Office of Science 
and Technology, or other DHS agency, be ready for dissemination? How 
often will such recommendations be reviewed?
    Answer: The development of a suite of standards is a significant 
undertaking. The interrelated nature of the homeland security defensive 
system for emergency response--plus the need to ensure that the 
emergency system is interoperable and integrated with the existing 
infrastructure--adds complexity. Incorporating the requirements of 
Federal, state, and local responders into a coherent and flexible 
system is essential but creates a very large-scale problem set. 
Finally, we are dealing with both a rapidly evolving threat and with 
constantly evolving technologies. Therefore, there is a crucial need to 
ensure flexibility in the standards that are developed or they will 
quickly become unusable, and an obstacle to the deployment of next 
generation technologies.
    The process for developing standards traditionally takes a minimum 
of 18 months and some standards have taken up to 15 or more years to 
develop. The proposed radiation detection standards have been developed 
in about 6 months--and the rollout of the draft occurred less than a 
month after the Department became operational. Our future efforts will 
continue to use the ANSI existing standards development organizations 
and their memberships to expedite development and adoption of relevant 
standards. We also will provide funding to support what were heretofore 
strictly volunteer efforts, to expedite writing of critical standards 
for homeland security. We will champion the inclusion of users in all 
major stages of standards development--including the formulation of 
operational test protocols. We will also encourage the use of automated 
tools and web-based review and tracking to streamline the process. The 
assets provided by ANSI will be leveraged to build on existing 
standards and standard development expertise to fill the gaps and needs 
in our current system of standards.
    9. Finally, should localities be concerned that, if they purchase 
equipment or technology in the period before the Department issues 
recommendation, those purchases might be considered ineligible for 
Federal reimbursement or support?
    Answer: No, DHS will not penalize localities for acquiring properly 
listed equipment. The goal of the ODP Equipment Grant Program is to 
provide funding to enhance the capacity of state and local 
jurisdictions to respond to, and mitigate the consequences of incidents 
of domestic terrorism involving the use of Weapons of Mass Destruction 
(WMD). An Authorized Equipment List (AEL) has been developed as a 
subset of the Standardized Equipment List (SEL) to identify the 
specific types of specialized equipment authorized for purchase under 
the ODP Equipment Grant Program.

                   Questions from the Majority staff:

           General Questions about the Department's Progress

    1. How has the Department succeeded in making the country safer?
    Answer: The Department of Homeland Security has made a great deal 
of progress to secure the homeland. Many of the efforts by the 
Department of Homeland Security to make America safer were detailed in 
the written statement. Some of the most visible signs of progress 
include:
    <bullet> Launched Operation Liberty Shield, to prepare and protect 
our nation, including our ports and critical infrastructure, during a 
heightened threat period;
    <bullet> Completed TOPOFF II, the most extensive terrorist response 
exercise in history;
    <bullet> Launched the multimedia ``Ready'' public information 
campaign, to help families, businesses and schools become safer and 
stronger citizens;
    <bullet> Initiated US-VISIT, which will couple biometric 
identifiers with biographical information to capture point of entry and 
exit information of visitors to the United States. US-VISIT will be 
available in all major air, and many critical seaports of entry by the 
end of calendar year 2003.
    <bullet> Expedited the distribution of nearly $4 billion dollars in 
grant monies to states and localities.
    <bullet> Rollout of the National Cyber Security Division and 
increased coordination and information sharing across government 
(through FedCIRC) and with the private sector regarding 
vulnerabilities, monitoring of exploits, and response to cyber 
incidents and attacks.
    2. What challenges has the Department faced that you didn't 
anticipate?
    Answer: The Department of Homeland Security has faced numerous 
challenges since January 2003, but none of the challenges were 
necessarily unanticipated. The tremendous challenge of merging 22 
agencies each with its own operating and management procedures into a 
cohesive organization was part of the extensive debate that occurred 
prior to the Homeland Security Act of 2002 becoming law.
    3. What are your most important priorities for the next month? Six 
months? Year?
    Answer: The most important priorities for the Department of 
Homeland Security involve implementation of the President's National 
Strategy for Homeland Security. The strategic objectives of homeland 
security are to: prevent terrorist attacks within the United States; 
reduce America's vulnerability to terrorism; and minimize the damage 
and recover from attacks that do occur. These are the guiding 
principles for the Department of Homeland Security.
    Questions based on Ridge's Testimony
    1. You commented extensively during your testimony about Department 
activities such as the Coast Guards'icebreaking cutters and its arrest 
of illegal immigrants, and the Directorate of Emergency Preparedness 
and Response's actions related to the Space Shuttle Columbia tragedy 
and successful flood preparations. These are certainly important 
activities but the Department's raison d'etre is to prevent terrorist 
attacks and to limit the potential damage terrorists can inflict by 
being prepared to respond to an attack. Do you feel that all elements 
of the Department are focused on that core mission?
    Answer: Yes, the Department of Homeland Security is focused on the 
core mission areas of preventing terrorist attacks within the United 
States and reducing America's vulnerability to terrorism. Congress also 
gave the Department of Homeland Security clear direction to not neglect 
the critical non-homeland security missions charged to several of the 
agencies that transferred into the Department like Coast Guard and 
FEMA.
    2. You noted during your testimony that 21 of the 22 component 
agencies have been transitioned into the Department. Which component 
has yet to be transitioned and when do you expect that to take place?
    Answer: At the time of the hearing, the Plum Island Animal Disease 
Center had not been officially transferred to the Department of 
Homeland Security. That transition took place in June of 2003.

                               TOPOFF II

    TOPOFF II cost an estimated $16 million and involved more than 
8,500 people from 100 Federal, state and local agencies, the American 
Red Cross, and the Canadian government.
    1. What did you learn from TOPOFF II?
    2. The purpose of an emergency drill is to learn where your 
weaknesses are so that you can address those areas. What areas of 
weakness did you identify?
    3. Will another such exercise be necessary in the future? If so, 
what will you do differently?
    4. One area of concern post-September 11 was the ability of levels 
of government to communicate effectively and coordinate plans. Was the 
communication system a success in TOPOFF II? How effective was 
coordination between local, state, and Federal agencies?
    5. Some press reports indicated that there were capacity problems 
in Chicago's hospitals during the exercise. Is this true? What 
contingency plans are being put in place so that in the case of a 
widespread outbreak people would be able to find treatment?
    6. During this exercise, the threat level was raised to ``Red'' to 
indicate that the country had been attacked. Can you describe what 
additional procedures are put into place as a result of this elevated 
status?
    7. Media reports indicated that the government had trouble quickly 
putting in place a system that could reliably track the radioactive 
plume from the supposed dirty bomb. What is being done to address this 
weakness?
    8. Some critics of the exercise argued that it wasn't effective 
because it was too planned out and lacked the element of surprise. How 
do you answer those criticisms?
    RESPONSE TO ALL QUESTIONS RELATED TO TOPOFF II:
    The Top Officials (TOPOFF) II (T2) After Action Report (AAR), which 
is being prepared by the Department of Homeland Security's (DHS) Office 
for Domestic Preparedness (ODP), is scheduled for completion on 
September 30, 2003. DHS is controlling access to the T2 exercise 
findings in order to prevent any premature release of the data prior to 
Secretary Ridge's review and approval of the final report.
    The T2 after action process will produce three separate documents: 
a T2 After Action Conference Report; a TOPOFF II After Action Report 
(T2 AAR) that will be provided to Members of Congress; and a T2 After 
Action Report for public release. The T2 After Action Conference 
Report, due to be completed by the end of August, is a summary of T2 
participant issues identified during the T2 After Action Conference. 
The T2 AAR and the report for public release are scheduled to be 
completed on September 30, 2003.
    Both the congressional and public reports will present the 
objective findings based upon a data collected during the T2 full scale 
exercise. The documents will define the data as is relates to six core 
areas of analysis, which were identified previously during the 
evaluation and analysis of building-block events preceding the T2 full 
scale exercise. The six areas of analysis are: emergency public policy 
and decision making; emergency public information; communications, 
coordination, and connectivity; jurisdiction; resource allocation; and 
anticipating the enemy.
    To support the T2 AAR process, the ODP established a T2 AAR review 
panel. This review panel is made up of Federal representatives from 
ODP, the Federal Emergency Management Agency, Department of State, 
Homeland Security Council, Department of Energy, Department of Health 
and Human Services, and Federal Bureau of Investigation. The purpose of 
this review panel is to include key Federal agencies in the after 
action report process to ensure the accuracy of T2 after action report. 
This panel will review the after action report data, as it relates to 
both the 6 core areas of analysis and other significant special topics 
that fall outside the core areas. In addition, the panel will review 
both agency-specific T2 participant lessons learned as well as comments 
made on the AAR.
    On August 8, 2003, ODP distributed to participating T2 exercise 
agencies and organizations an AAR draft for preview. Along with the 
reconstruction and analysis of data collected during the T2 full scale 
exercise, ODP requested that all T2 participating agencies/
organizations submit their T2 exercise lessons learned and also any 
agency-specific T2 after action reports. The T2 participating agencies 
and organizations are currently providing this information to DHS/ODP.
    After a review of the T2 participating agency and organization 
comments on the draft T2 AAR, ODP will forward the revised version of 
the T2 AAR to Secretary Ridge on September 30, 2003. Upon completion of 
the DHS review process, ODP will publish the report.

                             Liberty Shield

    In your statement this morning, you indicated that ``Liberty 
Shield'' was a ``comprehensive, national plan to increase protections 
of America's citizens and infrastructure.''
    1. Was Liberty Shield conceived and approved by the Department? Was 
the Department able to task other departments to take actions under 
Liberty Shield?
    [No Response Received by the Committee]

    2. To call Liberty Shield a ``comprehensive, national plan'' 
suggests that it is ongoing--not tied to the conflict in Iraq--and that 
it has not sunset with the end of the war. Is that true?
    [No Response Received by the Committee]

    3. A large number of different departments and agencies were 
involved in Liberty Shield. All told, how many specific actions did 
Liberty Shield include?
    [No Response Received by the Committee]

    4. Were all of them fully implemented?
    [No Response Received by the Committee]

    5. How effective were they and were they worth the costs and 
inconveniences?
    [No Response Received by the Committee]

    6. Did any department or agency represent that it was unable fully 
to implement the measures it was responsible for implementing under 
Liberty Shield?
    <bullet> Which? Why? Please provide a specific list of all such 
measures and the responsible department or agency. [No Response 
Received by the Committee]

                            First Responders

    1. How much money has the Department provided to state and local 
entities for first responders?
    [No Response Received by the Committee]

    2. How does a local firefighter or police chief apply for a first 
responder grant?
    [No Response Received by the Committee]

    3. What DHS office is the lead agency for first responder grants?
    [No Response Received by the Committee]

    4. Are the states required to submit a request for funds? Does DHS 
provide the states guidelines for these requests?
    [No Response Received by the Committee]

    5. What communications procedures have been put in place so that in 
case of an attack all levels of government will be able to coordinate 
and communicate with first responders effectively?
    Answer: It is critical that States and local governments develop 
communications plans that reflect coordination among all levels and 
disciplines. Limited and fragmented planning can lead to delays and 
impediments in achieving interoperability. Coordinated planning is the 
foundation for a successful solution to interoperability. Without such 
planning, time and money are wasted as agencies compete for limited 
resources and make decisions without consideration of the larger 
problem or solution. The Department encourages States and local 
communities to plan for communications interoperability so that as 
funding becomes available, they are ready to implement solutions.
    In the short term, bridging and other technologies are available to 
help make existing systems interoperable. To achieve a long-term 
solution, standards must be developed to ensure the interoperability of 
new equipment purchases. The SAFECOM program, within the DHS Science 
and Technology Directorate, is working to develop this standard.
    While significant amounts have grant funding have been available 
for interoperability projects from the Departments of Justice, Homeland 
Security, and Homeland Security, there has been a lack of clear 
guidance for making sound investments.. The interoperability program 
jointly administered by FEMA and COPS in fiscal year 2003 has provided 
an opportunity to fund innovative interoperability projects under a 
coherent framework developed by SAFECOM..
    These grants were awarded to state and local jurisdictions for 
demonstration projects that will explore uses of equipment and 
technologies to increase interoperability among the fire service, law 
enforcement, and emergency medical service communities. These projects 
will illustrate and encourage the acceptance of new technologies and 
operating methods to assist communities in achieving interoperability. 
The resulting ``best practices'' will be highlighted and shared with 
other communities across the Nation as DHS aggressively pursues 
solutions to interoperability. In addition, the lessons learned through 
these demonstration projects will be incorporated into the guidance for 
grants administered by the Office for Domestic Preparedness, whose 
grants may also be used for interoperability.
    6. What plans are in place to coordinate the response of state and 
local law enforcement, and entities such as the National Guard and the 
Air National Guard, NORTHCOM, and DHS?
    Answer: Governors command both the Army National Guard and the Air 
National Guard of their States. The Governor integrates the Guard into 
State operations through the State Emergency Manager. In many States, 
the Adjutant General of the National Guard is the State Emergency 
Manager and therefore coordinates the response for the Governor. 
Typically, Governors use their National Guard for State emergencies in 
either State Active Duty or Title 32 status. The Governor has command 
of the Guard units, troops, and Guard equipment; and the State pays for 
deployments when the Guard is in a ``State Active Duty'' status. The 
Governor also retains command although the Defense Department can pay 
for the deployments if troops are in a Title 32 status. Without a 
Federal Disaster Declaration, the State coordinates all response.
    Once the President declares a major Disaster, FEMA establishes a 
Disaster Field Office (DFO) in the disaster area. A Federal 
Coordinating Officer (FCO) is appointed to direct Federal operations, 
while a State Coordinating Officer is assigned by the State to work in 
the DFO with the FCO.
    After FEMA requests Federal military assistance, NORTHCOM provides 
command and control of any Federal military troops that may also be 
required in a State to assist in a disaster. NORTHCOM assigns a Defense 
Coordinating Officer to command Federal troops in the disaster area. 
The Defense Coordinating Officer sits in the DFO with the Federal and 
State Coordinating Officers. Together they coordinate all Federal, 
State, and military response actions.
    FEMA can reimburse States for National Guard activities resulting 
from a major disaster declaration The States can augment each others' 
capabilities under Emergency Management Assistance Compacts.
    FEMA routinely provides disaster response status reports to DHS 
during disasters on ongoing activities and any limiting factors or 
resource shortfalls.
    7. The Homeland Security Act directs you to maintain FEMA's current 
activities in natural disaster preparedness and pre-disaster mitigation 
while transferring all of its terrorist response related 
responsibilities to the Office for Domestic Preparedness. FEMA's Office 
of National Preparedness was created specifically for the purposes of 
assisting states and localities prepare for terrorist attacks using 
weapons of mass destructions. Now that its fundamental functions have 
been transferred, what now is the role of ONP? Does ONP have any role 
in terrorist response?
    Answer: No, terrorism-related functions of the Office of National 
Preparedness were transferred to the Office for Domestic Preparedness 
as required by the Homeland Security Act. The all-hazard elements of 
the Office of National Preparedness have been merged into the new 
Preparedness Division of FEMA, which includes the United States Fire 
Administration. FEMA's mission within the Emergency Preparedness and 
Response Directorate includes responsibility for coordinating the 
response to ``all-hazards'' including terrorism. Accordingly, FEMA's 
Response and Recovery Divisions are actively engaged in terrorist 
response planning.
    FEMA coordinates Federal disaster and emergency assistance programs 
and activities to support State and local governments in their response 
efforts. Through its Regional Offices, FEMA has established an 
excellent working relationship with every State and Territory. FEMA, 
State and local governments, and first responders work together to 
provide a coordinated response to any disaster, including a terrorist 
event.
    Consistent with its responsibility for consequence management, over 
the last several years FEMA has provided training as well as 
preparedness planning assistance, technical guidance, and exercise 
support to State emergency management organizations and first 
responders in the fire service, emergency medical, and law enforcement 
communities. With the enactment of the Homeland Security Act and the 
creation of the Preparedness Division, FEMA's preparedness program 
emphasizes risk-management, fire prevention and safety, and ``all-
hazards'' emergency and incident management.
    8. I know that DHS is looking to modify its first responder grants 
formula. What criterion is currently used to determine the level of 
funding for each state? Are the states' proximity to international 
borders, coasts, chemical and nuclear plants, or large urban 
populations taken into consideration? Could you explain to the 
committee on what factors DHS is looking at as you attempt to come up 
with recommendations for a new formula?
    [No Response Received by the Committee]

    9. Congress has authorized a number of programs specifically 
designed to assist state and local governments with homeland security 
activities all managed through different executive agencies-DHS, DOJ, 
and HHS. The Bush administration has expressed its wish to consolidate 
all first responder related grant programs into one agency--the Office 
for Domestic Preparedness. What programs specifically does the 
Administration want included in this consolidation? EMPG? COPS? Byrne 
Grants? Assistance to Firefighter Grants?
    Answer: Under its Fiscal Year 2004 budget submission, the 
Administration has requested that several domestic preparedness grant 
programs be placed within the Department of Homeland Security's (DHS) 
Office for Domestic Preparedness (ODP). These grant programs would be 
in addition to those programs currently administered by ODP, and are 
either new programs placed within ODP, or current programs merged or 
transferred into ODP. The programs selected directly supported either 
ODP's core terrorism preparedness mission or a particular community of 
responders vital to terrorism preparedness. These programs included the 
following:
    <bullet> Emergency Management Performance Grants;
    <bullet> Citizen Corps initiatives;
    <bullet> Assistance to Firefighters Grants authorized;
    <bullet> Terrorism Prevention and Deterrence initiative.
    Although this list is not considered definitive, it represents a 
start in improving DHS' ability to coordinate first responder support 
efforts and better serve the needs of the responder community.
    10. With respect to Assistance to Firefighter Grants, which are 
currently managed through FEMA, the Bush Administration in its `04 
budget has requested that all first responder- related grants be 
transferred to the Office for Domestic Preparedness. If Fire Grants are 
moved to ODP, will the United States Fire Administration-the office 
within FEMA responsible for the management of these grants-be moved to 
ODP?
    Answer: No, there are no plans to move the United States Fire 
Administration from FEMA to ODP. FEMA is, however, working closely with 
ODP on transition issues and will continue to be involved in the grants 
administration process. FEMA is continuing to work with the national 
fire services organizations and ODP to develop the grant guidance and 
criteria for the fiscal year 2004 program.
    11. Once transferred to the Office for Domestic Preparedness, will 
the Fire Grant Program be managed any differently than it was managed 
in FEMA?
    Answer: For Fiscal Year 2004 DHS is maintaining the Assistance to 
Firefighters Grant Program's administrative structure, including peer 
review, criteria development, and competitive grants directly to local 
departments. The basic capability focus will be enhanced to include the 
terrorism and weapons of mass destruction-specific activities 
authorized by Section 1061 of the National Defense Authorization Act of 
2002.
    12. I've noticed that ODP's website is still located within the 
Department of Justice's website. As many local officials will refer to 
the DHS website for information on first responder related grants (some 
managed through ODP), what is the timeline for transferring the 
information for first responder grants, managed through ODP, to the DHS 
website?
    [No Response Received by the Committee]

               Intelligence support to DHS--and DHS/UAUO

    1. In your confirmation hearing, you stated that ``a fundamental 
priority in our mission must be to analyze the threat, while 
concurrently and consistently assessing our vulnerabilities. The 
Department is structured in such a way as to efficiently conduct this 
task.''
    <bullet> Do you still believe that the Department is structured so 
as to conduct threat analysis and vulnerability assessments 
efficiently? Are any structural adjustments necessary or desirable?
    [No Response Received by the Committee]

    2. The Department's April 29 Press Release entitled ``First 100 
Days of Homeland Security'' is a several page-long list of what the 
Department has accomplished.
    <bullet> It does not mention integration or analysis of terrorist 
threat-related information. What progress has DHS made in that area? 
What specific tasks remain?
    [No Response Received by the Committee]

    3. In your confirmation hearing, you stated: ``The Information 
Analysis and Critical Infrastructure Directorate will bring together 
for the first time under one roof the capability to identify and assess 
threats to the homeland, map those threats against our vulnerabilities, 
issue warnings, and provide the basis from which to organize protective 
measures to secure the homeland.''
    <bullet> Is DHS/IAIP going to have the capability to identify and 
assess threats to the homeland?
    <bullet> TTIC taking over that aspect of the Department's mission?
    <bullet> Will DHS/IAIP get terrorism related information, including 
raw, unprocessed, information directly from the originators, and not 
merely from TTIC?
    <bullet> Is DHS/IAIP now receiving ``all reports (including 
information reports containing intelligence which has not been fully 
evaluated), assessments, and analytical information relating to threats 
of terrorism against the United States?'' HS Act, sec. 202(b)(2)(A).
    [No Response Received by the Committee]

    4. In June 2002, the DCI testified that he was ``committed to 
assuring that the new Department receives all of the relevant 
terrorist-related intelligence available.''
    <bullet> Can you assure us that you are satisfied that the 
Department is now getting all of the relevant terrorist-related 
intelligence available?
    [No Response Received by the Committee]

    5. Under the HS Act, DHS is entitled to receive threat and 
vulnerability-related information, regardless of whether the Secretary 
of HS has requested it and ``whether or not such information has been 
analyzed'' (sec. 202(b)(2)).
    <bullet> Can you assure us that DHS is, in fact, receiving the 
``raw,'' unevaluated information to which it is, by law, entitled?
    [No Response Received by the Committee]

    6. Can you assure us that the Department will--notwithstanding 
TTIC--have an independent, all-source-based capability to analyze all 
terrorist threat-related information available to the US Government 
that is in any way relevant to its homeland security mission?
    [No Response Received by the Committee]

    7. Congress passed the Homeland Security Act to make America safer. 
It requires DES to analyze all terrorist threat-related information 
available to the US Government and to make sure that those who need 
that information to protect the American people, territory, and 
interests get it in time for it to be useful.
    <bullet> When and how is DHS going to fulfill this part of its 
statutory mandate to make America safer?
    [No Response Received by the Committee]

    8. Last October, in an open hearing on the 9/li tragedy, DCI George 
Tenet testified: ``must move information in ways and to places it has 
never before had to move. Now, more than ever before, we need to make 
sure our customers get from us exactly what they need--which generally 
means exactly what they want--fast and free of unnecessary 
restrictions. ... We don't have the luxury of an alternative.''
    <bullet> Can you describe for us any innovations in information 
sharing that the Intelligence Community has made to serve the 
Department's needs?
    <bullet> Does this information routinely come to DHS in a readily 
usable form, free of handling restrictions confining access and use to 
a few, highly cleared individuals?
    <bullet> Do unclassified, ``tear-line,'' versions of classified 
reports come to DHS near real time, so that DHS can quickly make them 
available to state, local, and private sector customers who need them 
in order to safeguard American people and interests?
    <bullet> If not, have you been told when you can expect that? 
Removing impediments to sharing information
    [No Response Received by the Committee]

    1. The March 4 information sharing MOU requires the parties to 
recommend changes to existing formulations of the ``ORCON'' and ``third 
agency'' rules, including EO 12958, ``in order to comply with the DHS 
Legislation and to carry out the President's announced policies for 
protecting against terrorist threats to the homeland ...`` (sec. 3(l)).
    <bullet> Have the Attorney General, Secretary of HS, and DCI agreed 
on recommended changes to the ORCON and ``third agency'' rules, as the 
MOU requires?
    <bullet> Are those discussions now underway? When do you expect 
that they will be completed? Please keep this committee informed of 
your progress.
    [No Response Received by the Committee]

    DHS and TTIC
    1. Is there any role assigned to the TTIC that DHS could not itself 
perform, whether through IAIP or some other entity or combination of 
entities? Please explain.
    [No Response Received by the Committee]

    2. DHS is one of TTIC's four ``equal partners.'' The missions of 
three of TTIC's four partners are independent of the HS Act. Accepting 
your assurance that the Department remains fully committed to meeting 
its statutory mandate--
    <bullet> Why should we expect TTIC to share that interest and 
commitment?
    <bullet> Given TTIC's non-legislated structure and its 
preponderance of non-DHS partner participants, wouldn't it be logical 
to expect, in TTIC, a significant dilution of DHS's institutional 
commitment to terrorist threat analysis?
    [No Response Received by the Committee]

    3. Where is the Department getting its analysts? If from other USG 
agencies, how is it attracting them away? Won't DHS have to compete 
with TTIC for terrorism threat analysts?
    [No Response Received by the Committee]

    4. How can you provide DHS analysts to TTIC consistent with meeting 
DHS/IA's existing statutory responsibility for conducting all-source-
based analysis of terrorist threat-related information?
    [No Response Received by the Committee]

    5. Will TTIC--with its DHS analysts--eventually be folded into DHS?
    [No Response Received by the Committee]

    Disseminating warnings/advice to state/local officials
    1. The HS Act gives the DHS Under Secretary for IAIP ``primary 
responsibility for public advisories related to threats to homeland 
security'' and ``in coordination with other agencies,'' requires that 
he provide ``specific warning information and advice ... to State and 
local government agencies and authorities, the private sector, other 
entities, and the public'' (sec. 201(d)(7)).
    <bullet> Do you understand these DHS warning responsibilities to be 
exclusive or shared? Does the FBI have a role? Does any other Federal 
agency/entity?
    <bullet> Does TTIC? Could it issue a threat warning directly to 
state officials?
    [No Response Received by the Committee]

    2. The HS Act requires the Under Secretary for IAIP to 
``disseminate, as appropriate, information analyzed by the Department 
... to agencies of State and local govermnents and private sector 
entities ... in order to assist in the deterrence, prevention, 
preemption of, or response to, terrorist attacks against the United 
States'' (sec. 201(d)(9)).
    <bullet> Will TTIC now exercise that function for DHS/IAIP?
    <bullet> Will DHS disseminate TTIC products to state/local 
officials? As TTIC products and without annotation or other changes?
    [No Response Received by the Committee]

    Getting state/local officials the information they need, when they 
need it
    [No Response Received by the Committee]

    1. Is the Department providing homeland security related 
information to state and local officials?
    <bullet> Even if it--e.g., an indication of a possible attack--is 
classified?
    [No Response Received by the Committee]

    2. Who decides if state and local officials really need access to 
classified information?
    <bullet> If the mayor of, e.g., a mid-sized city gets an 
unclassified warning of a possible terrorist threat and then says he 
needs access to additional threat-related information, which is 
classified, in order to assess the city's vulnerabilities, will DHS 
grant the mayor the access he is seeking?
    <bullet> Under what conditions? How soon? Who decides?
    [No Response Received by the Committee]

    3. Has the Department ever denied any state or local official's 
request for access to classified homeland security-related information?
    [No Response Received by the Committee]

    4. Does the Department itself conduct the clearance process for 
state/local HS officials, or does the FBI or some other entity do that?
    [No Response Received by the Committee]

    5. Approximately how long does it take to clear state and local 
officials? Are some state/local officials considered priorities for 
clearance? How is that determined?
    <bullet> Is that determination based on an assessment of the risk 
of terrorist attack on that official's jurisdiction? On population? 
Other criteria?
    <bullet> Could a state/local official ever be denied access only 
because DHS did not consider his or her locale populous enough?
    [No Response Received by the Committee]

    6. How will you prevent state and local officials from getting 
bogged down in current Federal clearance processes that can delay, 
e.g., nominations to senior Administration positions?
    Infrastructure Security
    1. The Department is tasked with developing a comprehensive 
national plan for securing key resources and critical infrastructure. 
How are you going about creating this plan?
    [No Response Received by the Committee]

    2. The Department is tasked with carrying out a comprehensive 
assessment of the vulnerabilities of key resources and critical 
infrastructures. How is this progressing? What resources are being 
dedicated to this task?
    [No Response Received by the Committee]

    3. What actions is the Department taking to improve the protection 
of:
    <bullet> Chemical facilities?
    <bullet> Our electric grid?
    <bullet> Ports and waterways?
    <bullet> Dams?
    <bullet> Railroads?
    <bullet> Bridges?
    <bullet> Nuclear power plants?
    <bullet> The food supply?
    [No Response Received by the Committee]

    4. The postal system was used to deliver terrorist weapons. What 
has been done to prevent this from happening again?
    Answer: The U.S. Postal Service is in a better position to answer 
this question. The USPS has shared with the Department the fact that in 
response to a report language request by the House and Senate conferees 
on HR 3338, the Postal Service produced an Emergency Preparedness Plan 
(EPP), and provided it to Congress in March 2002. In the Plan the 
Postal Service described how the USPS intends to protect against the 
use of the mail as a tool of terrorism and to protect Postal employees 
and customers from exposure to biohazardous materials while maintaining 
the current level of service to the American public. This was to be 
accomplished primarily by focusing on the technology-based and process-
based initiatives that together would establish multiple layers of 
protection.

                              Immigration

    1. Are our borders more secure against the entrance of potential 
terrorists than before 9/11/01? What new security measures have been 
put in place? What new screening processes have been put in place?
    [No Response Received by the Committee]

    2. Has the INS been fully transitioned to the Department of 
Homeland Security and been fully separated into two bureau's, one to 
focus on enforcement of immigration laws and the other to service legal 
immigrants?
    [No Response Received by the Committee]

    3. Does the service bureau have access to the criminal history 
information possessed by the National Crime Information Center's 
Interstate Identification Index?
    Answer: USCIS only has limited access to the information in the 
NCIC records. Since July 2002, applicants and beneficiaries of all 
applications and petitions are subject to a complete IBIS query that 
includes a concurrent check of the NCIC ``Hot Files'':
    Wants and warrants, missing persons, violent gangs and terrorists, 
protection orders, registered sexual offenders, presidential 
protection/secret service, foreign fugitives, deported felons and 
supervised release. Sec. 
    However, at this time, USCIS does not have direct computer access 
to the past criminal history and arrest information contained in NCIC 
III for purposes of checking the backgrounds of all persons seeking 
immigration benefits, unless the person is the subject of a known law 
enforcement investigation. USCIS is presently able to obtain NCIC III 
records from the FBI only on persons from whom fingerprints are 
required (e.g. asylum and naturalization applicants, applicants for 
family unity/LIFE Act benefits, certain Temporary Protected Status 
applicants, and Adjustment of Status applicants). The FBI is 
considering a recent USCIS request for direct access to NCIC III for 
purposes of all immigration benefits. We note that, unlike USCIS 
Adjudicators, CBP Inspectors at the Ports of Entry and ICE 
Investigators (among other officers who enforce the immigration laws) 
have long been granted direct access to NCIC III. However, the FBI's 
ability to provide direct access to USCIS may be limited by certain 
constraints within the National Crime Prevention and Privacy Compact 
Act of 1998, 42 U.S.C. Sec. 14616(b)(Article I:18)(indicating that 
``immigration and naturalization matters'' are `noncriminal justice 
purposes' that require fingerprints to be submitted under the Act, 
which governs distribution of NCIC III records) and section 403 of the 
USA PATRIOT Act, 8 U.S.C. Sec. 1105. Section 403 provided a partial 
expansion of the authority of the FBI to give USCIS and the Department 
of State access to ``extracts'' from NCIC III for making determinations 
regarding visa applicants and applicants for admission, but those alien 
categories do not cover the universe of applicants, petitioners and 
beneficiaries who may seek immigration benefits. For example, many 
aliens who have already been admitted to the U.S. seek extensions and 
changes of their status, as well as advance permission to leave and 
reenter. USCIS seeks the ability to conduct direct checks of all parts 
of NCIC, including III, on these individuals and other aliens who seek 
benefits. The FBI is currently reviewing the laws mentioned above and 
others before making a determination on the USCIS request for greater 
NCIC III access.
    4. Is there effective coordination between Federal, state and local 
law enforcement?
    [No Response Received by the Committee]

    5. What are in place to ensure that there is effective coordinate 
between our immigration services and Canadian and Mexican officials?
    [No Response Received by the Committee]

    6. What additional measures are you considering to improve our 
security?
    [No Response Received by the Committee]

    7. Obviously the ability of law abiding visitors from all country 
to enter our country is important to our country economically and as a 
principle of our openness. How is this balanced against the need for 
additional security?
    [No Response Received by the Committee]

    Visa Issuance
    1. How has the process by which we grant visas been improved to 
ensure that we are not lefting in potential terrorists?
    [No Response Received by the Committee]

    2. What new technologies are being used--or are under development--
to ensure visa authenticity?
    [No Response Received by the Committee]

    3. The Enhanced Border Security and Visa Entry Reform Act created 
additional security requirements. Among the requirements are that 
Federal law enforcement agencies and the intelligence community provide 
State Department and immigration enforcement officials the information 
needed to screen those trying to enter the country, the establishment 
of an entry-exit system, and that U.S. visas be issued with biometric 
identifiers. Are these new procedures in place and fully implemented? 
Why not?
    [No Response Received by the Committee]

    4. The National Security Entry Exit Registration System requires 
the registration of adult male foreign nationals from countries that 
are state sponsors of terrorism or that have an active terrorist 
infrastructure. Is this program up and running? How does the 
registration work? What kind of increased scrutiny are registered 
individuals given?
    [No Response Received by the Committee]

                        Department Organization

    1. Have all of the programs and authorities scheduled to be 
transferred actually been transferred?
    Answer: To the best of the Department's knowledge, all programs and 
authorities have been transferred. Per Section 1516 of the Homeland 
Security Act of 2002, the Director of OMB, in consultation with the 
Secretary of Homeland Security, is authorized to conduct incidental 
transfers of personnel, assets, and liabilities relating to functions 
transferred by the Act. Except for the planned transfer of 
approximately 20 administrative personnel at the Plum Island Animal 
Disease Center from USDA to the Department (effective October 1, 2004), 
we are unaware of any pending or planned incidental transfers.
    2. Several of the reports required by the Homeland Security Act 
have not been submitted on-time. Why not? Is this indicative of an 
underlying failure to perform your assigned tasks?
    Answer: The Department of Homeland Security is working diligently 
to comply with the multitude of reporting requirements contained in the 
Homeland Security Act of 2002. The combination of the challenges to 
build the proper level of staffing within the Department as well as the 
challenge of merging 22 agencies each with its own operating and 
management procedures into a cohesive organization contributed to the 
responsiveness to the reporting requirements in the Act. In no way is 
it indicative of the Department's failure to perform. The day-to-day 
work of the vast majority of employees that merged to create this 
Department is unchanged--they continue to perform outstanding service 
in the protection of our homeland.
    3. What portion of positions have you filled that require Senate 
confirmation? In managerial positions? Of the total? Why has progress 
been so slow?
    [No Response Received by the Committee]

    4. How was the Department's fiscal year 2004 Budget request 
created? Did each formerly independent agency simply create its own 
request, and then you pasted them together at the end? Or was there an 
effort to assess your funding needs from an integrated perspective?
    [No Response Received by the Committee]

    5. When are you going to pick a permanent Homeland Security 
Department Headquarters? Right now, DHS employees continue for the most 
part to work from their old offices, scattered all over the District. 
Are there any plans to concentrate your resources at some point?
    Answer: The Department of Homeland Security is coordinating with 
GSA in their effort to identify and recommend a permanent headquarters 
facility. Concurrently, the department continues to house additional 
headquarters functions at the interim location, the Nebraska Avenue 
Complex. Efforts are also underway to consolidate, collocate and 
integrate operational components within the greater D.C. area.

                                Aviation

    1. There have been numerous reports about sloppiness, waste, and 
inefficiency in the TSA. Indeed, TSA has begun cutting back on the 
number of baggage screeners at the airport. What are you doing to 
address the problems?
    [No Response Received by the Committee]

    2. Is it any more difficult to sneak a box-cutter onto a plane now 
than it was before September 11?
    [No Response Received by the Committee]

    3. Originally, every airport was required to have bomb-detectors by 
last year. How far along are we?
    [No Response Received by the Committee]

    4. How are you working with airlines to screen passengers?
    [No Response Received by the Committee]

    5. What steps are you taking to improve security for cargo planes, 
which could be used as missiles just as easily as passenger planes?
    [No Response Received by the Committee]

                              Bioterrorism

    1. The Public Health Security and Bioterrorism Preparedness and 
Response Act of 2002, and the new BioShield Act, require HHS and DHS to 
coordinate with respect to setting priorities and goals for 
bioterrorism-related research and preparedness activities. How are you 
coordinating?
    Answer: FEMA has created a new Senior Medical Policy Advisor 
position in its Response Division. This individual is responsible for 
coordinating FEMA's BioShield activities. Within DHS, we are 
coordinating with the appropriate offices, especially the Science and 
Technology Directorate. Externally, FEMA is working with the DHHS 
Office of the Assistant Secretary for Public Health Preparedness to 
prioritize bioterrorism-related research and preparedness activities 
and to coordinate programs and processes between the Departments. These 
discussions take place routinely and include DHS participation in DHHS 
technical meetings related to program and research development.
    2. What are you doing to assess bioterror threats, and decide which 
ones require the development of countermeasures? What capabilities do 
you have?
    Answer: The DHS Information Analysis and Infrastructure Protection 
Directorate has the lead role in DHS on bioterrorism threat 
intelligence gathering and analysis. FEMA plays a key role in 
countermeasures through the SNS, although DHHS identifies the materials 
that should be included in the Stockpile.
    3. What problems are you having inoculating first responders 
against smallpox? How are you planning to overcome them?
    Answer: These questions should be redirected to DHHS.
    4. What new plans have been put in place so that Federal officials 
can communicate with states and locals in the event of a bioterrorist 
attack?
    [No Response Received by the Committee]

    5. What has the SARS experience taught us? What difference does it 
make in responding to a naturally occurring outbreak (such as SARS) and 
one that is perpetrated by terrorists?
    Answer: These questions should also be provided to DHHS for 
response.
    The SARS experience has shown the need for close coordination with 
other agencies involved, particularly DHHS, and it has illustrated a 
number of important points in responding to a new or emerging 
infectious disease.
    Early detection is very important in designing an effective 
response. The earlier an outbreak is detected, the earlier that public 
health interventions can occur. In the case of SARS, basic public 
health interventions were effective in terminating the spread of 
disease. Such interventions include active surveillance, case contact 
identification, and restriction of patient movement.
    Effective communication is also important for an effective 
response. Keeping the public informed is essential. Maintaining timely 
and effective communications with the health care community is crucial 
to keeping them informed as to what medical countermeasures are 
necessary to treat patients and how to protect themselves and their 
facilities from the disease.
    Disease outbreaks do not respect jurisdictional boundaries. By 
sharing information with established domestic and international health 
organizations, outbreaks can be controlled. Domestically, good 
partnerships among a variety of Federal organizations aided in the SARS 
response.
    Finally, having a developed plan that coordinates the operational 
response is essential to ensuring that every participating organization 
knows what their responsibilities are during a response.
    The biggest difference between an emerging infection and a 
terrorist attack is that naturally occurring outbreaks can be 
predictable and with time, followed by and controlled with public 
health interventions. A bioterrorist event is much less predictable and 
has the potential to become immediately widespread, depending on how it 
is introduced. A bioterrorism event is more complicated in that there 
is the need to perform a criminal investigation in association with the 
health response. Furthermore, public concern over a bioterrorism event 
is greater than that which occurs with an emerging infectious disease.
    Implementation of Government-wide Cybersecurity Program
    1. What steps are being taken to assess the cybersecurity threat?
    [No Response Received by the Committee]

    2. What is the Department doing to protect critical cyber-
infrastructure?
    [No Response Received by the Committee]

    3. The Homeland Security Act requires DHS to implement a 
government-wide cybersecurity program. How is this being done?
    [No Response Received by the Committee]

    The Use of the Homeland Security Advisory System
    1. When the threat level is changed to orange, or to red, what does 
this actually entail as far as security procedures followed by the 
Federal Government?
    [No Response Received by the Committee]

    2. What is being done to make the system more useful, or to give 
people a better idea of what they are supposed to do when the status is 
elevated?
    [No Response Received by the Committee]


                   Question from the Minority staff:

                            General overview

    1. What are the top priorities for DHS, both in terms of getting 
the new Department fully up and running as well as programmatically? 
How are these priorities reflected in the fiscal year 2004 budget 
request?
    Answer: The Department is establishing, and will report as part of 
its fiscal year 2005 Budget request, program specific goals which will 
be tied to measurable performance outcomes. Also, the Department is 
setting up the office of Program Analysis and Evaluation within its 
Office of Management with a key responsibility of developing the 
Departments Strategic Plan and ensuring associated goal, strategies and 
performance measures are in place to effectively review the performance 
of all programs. Also, the Departments Future Years Homeland Security 
Program will provide proper evaluation of program priorities making 
sure goals and objectives are properly planned, programmed and 
budgeted. The fiscal year 2005 budget request will have measures for 
each area of responsibility. However, the ultimate measure of success 
will be the ability to identify, respond, and stop potential terrorist 
threats to our nation.
    Our fiscal year 2004 budget ensures that both our homeland security 
and non-homeland security missions are adequately resourced and carried 
out.
    2. Are existing national preparedness guidelines or standards 
sufficient for generating preparedness requirements? What more needs to 
be done in this area?
    Answer: DHS recognizes the importance of developing a better 
understanding of the nation's preparedness needs and is working with 
other Federal departments and agencies to establish appropriate and 
measurable national preparedness targets. As we reach a greater 
understanding of the level of preparedness we need, we can develop 
better recommendations as to the level and type of Federal investments 
needed to reach those targets. These efforts will build on initiatives 
already underway in a number of areas to set standards and targets for 
specific preparedness functions.
    As part of this effort, the Department recognizes preparedness 
guidelines and standards need to be improved. DHS is proposing to take 
this work to the next phase by initiating an interagency process for 
creating definitive lists of the specific tasks that emergency 
personnel, organizations, and systems need to perform in order to 
prevent terrorist attacks and to respond when events do occur. These 
mission-essential task lists can then be used to guide planning, 
training, and exercising, and to assess readiness at all levels.
    The Department is working to identify other standards that 
currently exist, to develop a prioritized list of critical gaps, and to 
craft a plan for a coordinated approach to addressing those gaps. This 
is an important first step in ensuring a consistent and uniform manner 
of preparedness and response for all hazards across all jurisdictions 
and disciplines.
    The Department encourages the development of baseline all-hazards 
emergency management standards. These all-hazards standards will be 
used to ensure consistent and interoperable planning, equipment, 
training, and exercises as well as to establish the groundwork for the 
NIMS. Not only will these standards be used to ensure an effective 
national response capability, they will also be used to establish 
protocols for qualifications, training, and credentialing.
    DHS will utilize a two-phase approach to identify a common set of 
functional emergency management capability standards and guidelines. 
Phase 1 involves conducting research on existing standards by 
discipline and by emergency management function (planning, training, 
etc.) and identifying critical gaps. Groups of subject matter experts 
led by DHS will be brought together to accomplish the project goal. In 
phase 2, the Department will outline a plan for a coordinated approach 
to address those gaps and will serve as a liaison to organizations 
responsible for the development of emergency management standards and 
guidelines.
    As a first step, the Department has assembled a preliminary 
inventory of existing emergency management and response standards 
applicable for all hazards. This preliminary inventory will be vetted 
and will serve as the basis for this project.
    Response resource requirements, utilization, and terminology for 
emergency management vary greatly across the country, often triggering 
confusion and inefficiencies during a disaster when mutual aid 
assistance arriving from nearby jurisdictions does not meet the needs 
of the requesting locality. Addressing this problem will require 
agreed-upon descriptions, standards, and typologies for deployable 
response assets, as well as protocols for resource interoperability, 
personnel credentialing, and registration, and a common policy for the 
issuance of credentials. In order for mutual aid to function as a truly 
national system, it needs to allow for all parts to build upon each 
other among all levels of government.Sec. his can only be accomplished 
in a national forum that involves public and private sector 
representatives from all levels of government and all emergency 
management and response disciplines.
    DHS agrees that preparedness guidelines and standards need to be 
improved. The guidelines and standards are not standardized. DHS is 
proposing to take this work to the next phase by initiating an 
interagency process for creating definitive lists of the specific tasks 
that emergency personnel, organizations, and systems need to perform in 
order to prevent terrorist attacks and to respond when events do occur. 
These mission-essential task lists can then be used to guide planning, 
training, and exercising, and to assess readiness at all levels.
    As a starting point, nationally recognized emergency management 
standards have already been developed and. These standards are embodied 
in the Emergency Management Accreditation Program, which is supported 
by the Department, the National Emergency Management Association 
(state-level emergency management organization) and the International 
Association of Emergency Managers (local-level emergency management 
organization). DHS is currently sponsoring a national emergency 
management baseline capability assessment of all States and 
Territories. This effort is known as the National Emergency Management 
Baseline Capability Assessment Program. The nascent National Incident 
Management System (NIMS) is expected to drive the development and 
recognition of additional or more detailed standards.
    3. What specific steps are being taken to ensure maximum 
coordination and planning across disciplinary and jurisdictional 
boundaries? How can funding and resource decisions be designed to 
contribute to better coordination and planning?
    Answer: The Department is strongly encouraging comprehensive state 
and regional planning and mutual aid initiatives that span disciplines 
and jurisdictions. Such planning is a prerequisite for receiving the 
bulk of DHS preparedness grants. To support these efforts, DHS has 
provided significant levels of planning assistance through both FEMA 
and ODP. These plans are intended to guide resource allocation at the 
Federal, state and local levels.
    Rather than encouraging the creation of specialized capabilities in 
every jurisdiction, DHS has made promoting mutual aid a top priority, 
both through the enhancement of existing mutual aid systems such as the 
Emergency Management Assistance Compact and through the development of 
new interlocal and intrastate agreements and compacts.
    DHS is leading the national mutual aid project, which involves the 
establishment of a comprehensive, integrated National Mutual Aid and 
Resource Management System that will allow for an efficient and 
effective response to all hazards, including a terrorist attack. Under 
this system, jurisdictions will be capable of requesting and receiving 
resources quickly and effectively and resources received through mutual 
aid will be able to integrate operationally into ongoing response 
efforts, necessitating interoperability of management systems, 
equipment, and communications. This system will also provide senior 
officials and elected leaders at all levels of government with detailed 
incident awareness and the ability to see real-time inventory of nearby 
response assets available through mutual aid and their operational 
status. The national mutual aid project is an inclusive effort, 
requiring participation and buy-in from a diverse group of Federal, 
State, and local agencies and organizations that are key stakeholders 
in the project.
    4. How much has the ``Get Ready'' public relations campaign cost 
the Department and to what effect?
    Answer: The development of the ``Ready'' campaign was made possible 
through a $3 million grant from the Alfred P. Sloan foundation to the 
Ad Council. Although DHS did not spend any of its funds to develop the 
campaign, it did spend approximately $150,000 on printing the tri-fold 
brochure in support of the campaign.
    The Department will, however, assume responsibility for the 
campaign on October 1, 2003. The Department will spend approximately $1 
million on the campaign in fiscal year 2004 in order to build on the 
``Ready'' campaign's current momentum and success.
    The campaign has had the most successful launch in Ad Council 
history. The website has received 1.5 billion hits and 17 million 
unique visitors. Approximately 2.7 million brochures have been 
downloaded from the website and an additional 144,000 brochures have 
been requested through the campaign's toll-free number. The Ad Council 
estimates that roughly 113 million people have heard of or read about 
the ``Ready'' campaign through public relations outreach. Donated media 
to the Campaign is estimated to be valued at $100 million.
    5. Is there any central repository for all the separate homeland 
security plans being developed by state and local governments? Who 
reviews these plans?
    [No Response Received by the Committee]

    6. Is there an individual or office in DHS responsible for 
collecting ``lessons learned'' from September 11, the Space Shuttle 
Recovery and TOPOFF II exercises? How will the information be shared?
    Answer: At the DHS level, the Office for Domestic Preparedness is 
responsible for collecting terrorism-related lessons learned, and FEMA 
is responsible for collecting natural disaster-related lessons learned. 
FEMA collects both real-world and exercise lessons learned pertinent to 
FEMA areas of disaster responsibility in accordance with the FEMA 
Remedial Action Management Program.
    7. Has DHS obtained and reviewed the report, both unclassified and 
classified, of the Joint Inquiry of the Senate Select Committee on 
Intelligence and the House Permanent Select Committee on Intelligence 
of the 107 Congress? What actions has DHS taken in response to the 
recommendations of the report?
    [No Response Received by the Committee]

    8. Many of the 22 agencies combined into DHS are still working on 
individual budgets. When will DHS have a consolidated budget in place?
    [No Response Received by the Committee]

    9. Will there be a reorganization of the regional offices of the 
various agencies now in the Department? Is there a time table for 
reorganization?
    [No Response Received by the Committee]

    10. What is the Department's overall approach to investment? Is it 
tied to the most likely threats as indicated by current intelligence? 
Is the priority protecting against catastrophic attacks? Is it an ``all 
hazards'' approach?
    [No Response Received by the Committee]

    11. Will there be a successor to the summer 2002 National Homeland 
Security Strategy? Does the 2002 strategy still guide DHS planning and 
prioritization?
    Answer: The National Strategy for Homeland Security is intended as 
an enduring strategic document that outlines the nation's objectives 
and will guide Federal, state, local, private sector, and citizen 
planning and prioritization for the foreseeable future. The 
Administration will update the document as appropriate when strategic 
circumstances or the underlying assumptions of the Strategy change.

                               DHS Budget

    The Administration requests $29.2 billion in discretionary budget 
authority to fund the operations and programs of the DHS for next 
fiscal year, representing an 18 percent increase in the appropriated in 
the fiscal year 2003 Omnibus. However, if the fiscal year 2003 
supplemental is taken into account--which includes funding that the 
Administration requested--the DHS budget proposed for next year is 
actually a $1.9 billion, or six percent, decrease over current levels. 
The DHS budget for next fiscal year also requests 179,241 full time 
equivalent positions, which is about a two percent decrease over 
current levels.
    12. Is the Department's budget request for fiscal year 2004 
sufficient to address multiple homeland security needs? Given the need 
for additional appropriations this year, will another supplemental be 
needed next year to provide adequate resources for homeland security 
needs? Are there specific initiatives or programs which remain under-
funded for next fiscal year? If so, please identify the programs.
    The majority of the DHS' $29.2 billion discretionary request is 
slated for border and transportation security efforts. Other large 
programs, as a percentage of the total request, include the U.S. Coast 
Guard and programs for the Emergency Preparedness and Response 
Directorate, some of which are geared more towards traditional disaster 
relief versus new homeland security needs. Outside experts have 
questioned whether the DHS fiscal year 2004 budget request properly 
rationalizes homeland security priorities, and whether such priorities 
are adequately funded.
    [No Response Received by the Committee]

    13. With outside experts questioning whether homeland security 
needs are adequately funded, how did DHS determine what priorities to 
fund in the Department's fiscal year 2004 request? Does the 
Department's budget request for next year adequately address them?
    The Administration has proposed sizeable discretionary funding 
increases over the last two years as part of its annual budget request 
for programs and activities which now fall under the DHS. Additionally, 
the Congress has also provided $14.3 billion and $6.3 billion in 
supplemental funding for fiscal years 2002 and 2003, respectively, for 
homeland security programs. However, critics of the Administration 
argue that more should be spent on homeland security needs. To cite one 
example, about $600 million is still required for port security grants 
to satisfy the Coast Guard's estimate of first year funding to make 
facility improvements and port conduct vulnerability assessments.
    [No Response Received by the Committee]

    14. Why are the Administration's current funding levels below those 
required by the Coast Guard?
    Funding for select programs or activities which are now part of the 
DHS has significantly increased over the last two fiscal years. 
Specifically:
    <bullet> Funding for information analysis and infrastructure 
protection activities increased 20 percent between fiscal year 2002 and 
fiscal year 2003, and is proposed to rise by 353 percent between now 
and fiscal year 2004;
    <bullet> Relative to the full amount appropriated in fiscal year 
2002, the Administration proposes to increase funding for border and 
transportation security by 40 percent next fiscal year;
    <bullet> Funding for the Office of Domestic Preparedness, which 
oversees grant programs for state and local first responders, rose 267 
percent between fiscal year 2002 and fiscal year 2003, and is proposed 
to rise another eight percent between now and fiscal year 2004;
    <bullet> Funding for homeland security research and development 
programs rose 231 percent from last year, and is proposed to rise by 45 
percent next year.
    [No Response Received by the Committee]

    15. What added measure of security have we ``purchased'' with these 
funding increases? What are some tangible examples of how we are better 
prepared to deter, or respond to, a terrorist attack against the 
homeland?
    [No Response Received by the Committee]

                    Funding Issues/First Responders

    The Office of Domestic Preparedness (ODP) requests $3.6 billion for 
fiscal year 2004, $1.9 billion of which is slated for the Homeland 
Security Grant Program, which finances equipment, training, planning, 
and exercises to enhance the ability of state and local officials to 
respond to an incident involving weapons of mass destruction. Given the 
fiscal year 2003 supplemental, next year's requested amount is equal to 
the current year total. The request also includes $500 million for the 
FIRE grants program, and $500 million for terrorism-preparedness 
activities for state and local law enforcement. The Administration's 
fiscal year 2004 request, however, reduces or eliminates funding for 
existing law enforcement programs outside of the DHS, such as the 
Community Oriented Policing Services (COPS) program, and Local Law 
Enforcement Block Grants.
    16. How did the Department determine the total amount to request 
for ODP first responder and other grant programs for fiscal year 2004? 
What is the basis for the request? What factors were considered?
    [No Response Received by the Committee]

    17. Given the recent fiscal year 2003 supplemental, the 
Administration `s request for fiscal year 2004 first responder grant 
programs is about the same as the request for these activities next 
year. Is this sufficient to address the needs of the first responder 
community? Why did the Administration choose to reduce funding for 
existing law enforcement programs outside of the DHS, such as those for 
Community Oriented Policing Services (COPS), and Local Law Enforcement 
Block Grants?
    The Homeland Security Grant Program, which finances equipment, 
training, planning, and exercises for state and local first responders, 
as well as the grants included in the recent fiscal year 2003 
supplemental to assist in protecting critical infrastructure, are 
distributed based partly on a formula, included in the 2002 Patriot 
Act, which guarantees each state a percentage of the total grant 
amount. Population data is also used by the DHS to determine grant 
awards. We understand that Secretary Ridge favors changing the rules 
for grant distributions, such that awards are tied more closely to 
regional or local threats. We also understand that the Department is 
engaging the states to update their first responder vulnerability 
assessments and plans.
    [No Response Received by the Committee]

    18. Does the Department intend to propose new rules for determining 
grants to state and local first responders? If so, when will they be 
proposed? How will state vulnerability assessments be tied to grant 
awards? How will the DHS require that each state's vulnerability 
assessment link to the national homeland security strategy?
    Answers:
    A) Since its creation in March 2003, DHS has provided nearly $4 
billion to our first responder community to increase our nation's 
preparedness. While DHS inherited all of the flexible authorities under 
which ODP operated as part of the Department of Justice, the majority 
of its fiscal year 2003 funds have been allocated under the authority 
provided by the USA PATRIOT Act of 2001 (P.L 107-56) and the Homeland 
Security Act of 2002 (Public Law 107-296). Pursuant to this formula, 
fiscal year 2003 allocations were determined using a base amount of .75 
percent of the total allocations for the states (including the District 
of Columbia and the Commonwealth of Puerto Rico), and .25 percent of 
the total allocation for the U.S. territories (American Samoa, the 
Commonwealth of the Northern Mariana Islands, Guam and the U.S. Virgin 
Islands). ODP has discretion on how the remaining balance of funds have 
been allocated. Consistent with past practice they were distributed on 
a population-share basis. Population figures were determined from 2000 
U.S. Bureau of Census data.
    However, the Department has concluded that this allocation method 
is flawed. The combination of the .75 percent minimum and the 
population-based formula means that some states do not receive funding 
proportionate to the risk and threat they actually face. The 
Administration has supported legislation to reduce (but not eliminate) 
the minimum funding level, and codify the Secretary's ability to 
consider threats and the presence of critical infrastructure in 
allocating the reminder. DHS will continue to work with Congress, 
including the House Select Committee on Homeland Security, on specific 
legislative proposals to achieve these goals.
    B) Through its Office for Domestic Preparedness (ODP), the 
Department of Homeland Security (DHS) has refined the State Homeland 
Security Assessment and Strategy (SHSAS) process that was originally 
established in Fiscal Year 1999. The SHSAS provides states and 
localities a uniform, consistent, and objective means by which they can 
assess threats, vulnerabilities, capabilities, and needs related to 
preventing, preparing for, and responding to terrorist incidents 
involving weapons of mass destruction. The fiscal year 2003 SHSAS 
process will allow state and local jurisdictions to update their 
previous assessment data to reflect post-September 11, 2001 realities, 
as well as to identify progress on the priorities outlined in their 
initial homeland security strategies.
    The original assessment and strategy process provided vital 
information to the states, ODP, and the national leadership critical to 
evaluating the needs of emergency responders. This information 
contributed to, and is reflected in, the President's National Strategy 
for Homeland Security. The updated SHSAS process and plans will 
initially serve as a planning tool for states and localities in 
allocating their fiscal year 2004 funds. ODP will compare fiscal year 
2004 funding applications to the priorities outlined in these plans. 
They will further assist the Administration in better allocating 
Federal resources for homeland security, both in fiscal year 2004 and 
fiscal year 2005. It is the overarching goal of the Department and the 
Administration that the updated assessment and strategy process will 
provide additional information that will be used to further enhance the 
nation's preparedness. The completion target of the SHSAS process is 
December 31, 2003, and states are required to provide these updated 
strategies in order to receive fiscal year 2004 funding.
    C) The Office for Domestic Preparedness (ODP) launched its Fiscal 
Year (FY) 2003 State Homeland Security Assessment and Strategy (SHSAS) 
process on July 1, 2003. As part of this effort, ODP has refined the 
SHSAS process that was originally established in fiscal year 1999.
    The fiscal year 2003 assessment process, designed to compliment the 
President's National Homeland Security Strategy, will allow states and 
local jurisdictions to update their needs assessment data to reflect 
post-September 11, 2001 realities, as well as identify progress on the 
priorities outlined in their initial homeland security strategies. 
Furthermore, the refined process will serve as a planning tool for 
state and local jurisdictions, and will assist the Administration in 
better allocating Federal resources for homeland security.
    Consistent with the President's National Strategy for Homeland 
Security, ODP coordinated the revision, development, and implementation 
of the SHSAS with Federal agencies, including the FBI, Centers for 
Disease Control and Prevention, Department of Agriculture, and the 
Transportation Security Administration, (what about EP&R/FEMA?) as well 
as state and local representatives, and state and local associations. 
This coordination has ensured that the updated assessment and strategy 
process is aligned with and focuses on the six critical missions 
defined by the National Strategy, including: intelligence and warning, 
border and transportation security, domestic counterterrorism, 
protecting critical infrastructure, defending against catastrophic 
terrorism, and emergency preparedness and response.
    Currently, state and local first responders must complete a multi-
step process with the Department in order to receive their grant 
funding allocations. While the Department makes funds available to the 
first responder community to help them prepare for and respond to 
terrorist incidents, it takes time for state s and localities to secure 
the necessary approvals, obligate funds, and be reimbursed by DHS. All 
of this results in delays in getting needed funding to state and local 
officials
    19. Does the Department have a plan to streamline the first 
responder grant process ? If not, why not?
    Answer: The Department of Homeland Security (DHS) and the Office 
for Domestic Preparedness (ODP) share your goals of providing funds to 
states in a timely, efficient, and effective manner. As you know, to 
facilitate this process Congress provided language in both the fiscal 
year 2003 Omnibus Appropriations Act and the fiscal year 2003 Emergency 
Wartime Supplemental Appropriations Act that directed states to apply 
for funds within 30 days of the grant announcement and required ODP to 
make awards within 30 days of receipt of a state's application.
    ODP has complied with this language by creating an electronic grant 
application process that is efficient while preserving accountability. 
For example, the fiscal year 2003 SHSGP--Part II requires that the 
applicant apply online through the Grants Management System (GMS), 
which consists of providing basic applicant information and then 
certifying their compliance with Federal assurances, such as complying 
with drug-free workplaces and civil rights requirements. The 
application must also include a brief program narrative and budgets for 
the items to be purchased. The program narrative and budgets are 
provided as attachments in the online system. Once the online portion 
is completed, the applicant submits the application to ODP through the 
GMS.
    When the application is received at ODP, the program office is 
committed to reviewing the application within seven days. The State and 
Local Program Management Division (SLPMD) at ODP reviews the 
application usually within 24 hours and forwards it for further 
processing to the Office of Justice Programs, (OJP), Office of the 
Comptroller (OC). Even though ODP is now officially part of DHS, the 
OJP OC still provides the grant financial management process. The 
Comptroller has committed to processing ODP grants within twenty-one 
days; but it typically takes just ten. Once the grant award is 
available, the award package is delivered (via Federal Express) to the 
State Administrative Agency.
    ODP has successfully implemented this process for both regular and 
supplemental grants in fiscal year 2003. Applications for funds under 
the Fiscal Year 2003 Omnibus Appropriations Act were available on March 
7, 2003--15 days after the act was signed into law. Under the terms of 
the application, applicants were required to submit their application 
by April 22, 2003. All 56 eligible applicants submitted applications, 
with 54 applicants submitting applications between April 15th and April 
22nd . Thirty-five applications were received on April 22nd , the last 
day of the solicitation period. Once received, applications were 
approved and funds awarded on a rolling basis. Forty-four applications 
or 78% of applications received were approved in less than four days. 
Similarly 44 applicants, or 78% of those who applied, were awarded 
funds within 15 days of submitting their applications. By May 8th, 49 
of 56 awards (87%) had been completed.
    Applications for funds under the Fiscal year 2003 Wartime 
Supplemental Appropriations Act were made available on April 30, 2003--
14 days after the act was signed into law. Under the terms of the 
application, applicants were required to submit their applications by 
May 30, 2003. Again all 56 eligible applicants (the states, 
territories, and the District of Columbia) applied. Of the 56 
applications submitted, 33 applications were submitted between May 28th 
and May 30th. Seventeen applications were submitted on May 30th--the 
last day of the solicitation period. As in the first round of Fiscal 
Year 2003 State Homeland Security Grant Program (SHSGP) award 
applications, applications under the Supplemental were approved, and 
funds awarded, on a rolling basis. Fifty-one applications (91%) were 
approved within 7 days of submission. Similarly, 41 applicants, or 73% 
of those who applied, were awarded funds within 21 days of submitting 
their application. By June 4th, 51 of 56 awards (91%) had been 
completed. By early July, ODP had awarded all 56 awards.
    A total of $700 million was included in the recent fiscal year 2003 
supplemental to bolster security in select high threat urban areas. 
Unlike other programs, the grants are not formula based. Instead, the 
fiscal year 2003 supplemental outlined specific considerations for the 
DHS to consider in making grant allocations, such as credible threat 
information about a particular area, the presence of critical 
infrastructure of national importance, and identified needs of public 
agencies. We understand from the DHS that the Information Analysis and 
Infrastructure Protection Directorate played a significant role in 
determining grant allocations.
    20. What role did the Department's Information Analysis and 
Infrastructure Protection Directorate play in determining allocations 
for the recently released High-Threat Urban Area grants? How did the 
Directorate determine which localities should be awarded grant funding?
    Answer: The Fiscal Year 2003 Omnibus Appropriations Act, together 
with the Fiscal Year 20003 Emergency Wartime Supplemental 
Appropriations Act, provided the Department of Homeland Security (DHS) 
with $800 million to address the security requirements of high threat, 
high density urban areas with critical infrastructure. Based on this 
direction, DHS developed the Urban Areas Security Initiative or UASI. 
Under the provisions of the legislation, UASI funds were targeted and 
allocated in a manner proscribed by the Secretary.
    ODP worked closely with DHS' Information Analysis and 
Infrastructure Protection (IAIP) Directorate, to develop a methodology 
by which urban areas can be identified and funded. UASI's initial focus 
in fiscal year 2003 was 30 urban areas, 14 port authorities, and 20 
mass transit systems Those areas were selected based upon an assessment 
model using. The model employed multiple factors including classified 
information on current threat estimates, the presence of critical 
assets and infrastructure, and population density. Every major city was 
assessed through this model. In an attempt to ensure that funding 
levels were sufficient to produce a substantive difference, the funding 
line was drawn at the 30 top cities. The model coupled with other 
factors such as resources and the overall magnitude of the UASI 
initiative, solidified DHS' decision to initially fund 30 cities. This, 
however, does not preclude future expansion of the UASI program beyond 
that number. Future decisions will be based on identified needs and 
future Budget requests.
    21. What methodology is DHS using to determine national 
requirements for assistance to first responders?
    Answer: The requested ODP funding level for fiscal year 2004 was 
based on the Administration's request for a similar $3.5 billion `First 
Responder' initiative within FEMA in fiscal year 2003. That amount was 
based on an assessment of national-level costs of preparing state and 
local first responders for terrorist incidents in the wake of 9/11. 
Planning, exercise, training, and equipment needs were considered for a 
range of communities and first responder disciplines, e.g. 
firefighters, law enforcement, EMS, and emergency management. Those 
these initial estimates forecast a Federal investment of $11 billion 
over three years.
    DHS is currently supporting a more in-depth series of vulnerability 
assessments at the local, state, and Federal levels that will inform 
future ODP funding requests. . The updated State Homeland Security 
Assessment and Strategy (SHSAS) process, and the subsequent information 
that it provides will not only serve as a planning tool for states and 
localities, but it will assist ODP and its partners in better 
allocating Federal resources for homeland security. It is the 
overarching goal of the Department and the Administration that the 
updated assessment and strategy process will provide additional 
information that will be used to further enhance the nation's 
preparedness. The completion of the SHSAS process is December 31, 2003, 
and states are required to provide updated strategies in order to 
receive fiscal year 2004 funding. These completed assessments will also 
contribute to DHS funding priorities in fiscal year 2004 and beyond.
    22. What steps are being taken to encourage long-term planning and 
budgeting to sustain enhancements to America's first responders?
    Answer: Through its Office for Domestic Preparedness (ODP), the 
Department of Homeland Security (DHS) has refined the State Homeland 
Security Assessment and Strategy (SHSAS) Process that was originally 
established in Fiscal Year (FY) 1999 to assess threats, 
vulnerabilities, capabilities, and needs related to preparedness for 
weapons of mass destruction terrorism incidents. The fiscal year 2003 
SHSAS process will allow state and local jurisdictions to update their 
previous assessment data to reflect post-September 11, 2001 realities, 
as well as to identify progress on the priorities outlined in their 
initial homeland security strategies.
    The original assessment and strategy process provided vital 
information to the states, ODP, and the national leadership critical to 
evaluating the needs of emergency responders. This information 
contributed to the President's National Strategy for Homeland Security. 
The updated SHSAS process, and the subsequent information that it 
provides will not only serve as a planning tool for states and 
localities, but it will assist ODP and its partners in better 
allocating Federal resources for homeland security. It is the 
overarching goal of the Department and the Administration that the 
updated assessment and strategy process will provide additional 
information that will be used to further enhance the nation's 
preparedness. The completion of the SHSAS process is December 31, 2003, 
and states are required to provide updated strategies in order to 
receive fiscal year 2004 funding.
    It should also be noted that the Homeland Security Presidential 
Directive/HSPD-5 calls on the Secretary of Homeland Security to develop 
and administer a National Incident Management System (NIMS). This 
system will provide a consistent nationwide approach for Federal, 
state, and local governments to work effectively and efficiently 
together to prevent, prepare for, respond to, and recover from 
incidents of domestic terrorism. NIMS will include a core set of 
concepts, principles, terminology, and technology coverage the incident 
command system; multi-agency coordination systems; unified command; 
training; and identification and management of resources.
    Beginning with fiscal year 2004, participation in and adoption of 
NIMS will be a requirement for receiving grant funds from ODP. This 
system will allow Federal, state, and localities to betters coordinate 
their activities and allow them, and the Federal Government, to plan 
for future needs and requirements.
    A major emphasis of ODP is creating strategic planning capabilities 
at the state level. The fiscal year 2003 Omnibus Appropriations Act 
included $40 million for strategic planning capability development and 
enhancement. Each state received an allocation under the fiscal year 
2003 State Homeland Security Grant Program, Part I. A portion of each 
state's allocation may be used for planning and strategy. Additionally, 
states were eligible to use a portion of their funds allocated under 
the Emergency Wartime Supplemental Appropriations Act for planning and 
statewide homeland security strategy development. These funds were made 
available through the State Homeland Security Grant Program, Part II. 
It is envisioned that the fiscal year 2003 emphasis on strategic 
planning and administration will help states to strengthen their 
planning capabilities.
    A top issue for state and local officials continues to be a lack of 
interoperable equipment for first responders. This has been a problem 
for decades, and was dramatically emphasized by the inability of New 
York City police and firefighters to communicate with each other on 
September 11. Despite additional grant funding that has been made 
available to our first responders in the wake of 9/11, including $80 
million for interoperable communications this fiscal year, estimates 
exist indicating that much more is needed to solve the problem (note--
additional information provided by HAC minority staff during the 
development of the fiscal year 2003 supplement put some estimates as 
high as $3 billion. Also, while $3.3 billion is proposed for the full 
range of first responder needs in fiscal year 2004, no specific program 
is proposed to address the interoperability problem).
    23. There appears to be no program dedicated specifically to 
solving the problem of interoperable communications in the Department's 
fiscal year 2004 budget request. Why is this so?
    Answer: The Science and Technology Directorate oversees the SAFECOM 
program, which is coordinating the efforts of local, tribal, State and 
Federal Public Safety agencies to improve public safety response 
through more effective, efficient, interoperable wireless 
communications. The fiscal year 2004 Budget includes almost $32 million 
for this effort. State and local acquisition of interoperable 
communications equipment will be supported through ODP's grant 
programs, as communications interoperability is but one of many 
challenges they face in enhancing their preparedness. ODP funds have 
long been used for such projects, making up over 15 percent of their 
equipment funds in recent years. DHS believes setting aside a fixed 
dollar amount for interoperability grants would unnecessarily constrain 
states and localities. The same logic would dictate fixed amounts for 
needs such hazmat gear, breathing apparatus, detection equipment, and 
so on.
    24. If an attack similar to September 11 happened today, how could 
we explain to the American people that first responders at the scene 
could still not talk to each other?
    When it comes to protecting the American people against terrorist 
attack, the Office of Domestic Preparedness (ODP), has been given 
``primary responsibility'' under Section 430 of the Homeland Security 
Act to assist the first responder community to prepare for and respond 
to a terrorist incident involving weapons of mass destruction (WMD). 
ODP is supposed to coordinate the preparedness efforts of every level 
of government in the United States, along with the private sector. Yet 
within the past month we have heard news that DHS plans to shift ODP's 
place in the organizational structure of the Department.
    [No Response Received by the Committee]

    25. Why is DHS preparing to move ODP? Is ODP able today to fulfill 
its mission to prepare and protect the first responder community, and 
by extension, the American people from terrorist attack?
    ODP is charged with the mission of ``directing and supervising 
terrorism preparedness grant programs of the Federal Government. State 
and local officials have told Committee members that they are confused 
and frustrated by the grant process that is supposed to help them 
prepare their communities against the threat of terrorist attack.
    Answer: As part of the Department of Homeland Security's (DHS) 
ongoing efforts to better serve the state and local emergency response 
community, DHS has supported legislation moving the Office for Domestic 
Preparedness (ODP) from its current position within he Directorate for 
Border and Transportation Security to the Office for State and Local 
Coordination within the Office of the Secretary. .
    The Department believes that this re-location will enhance its 
ability to assist state and local jurisdictions by placing ODP, the DHS 
component most responsible for providing grants to state and local 
jurisdictions, within the Office for State and Local Coordination, the 
DHS component responsible for the formation and implementation of DHS 
policy for supporting state and local jurisdictions.
    26. How many grant programs for emergency preparedness are there? 
Who reports to the Secretary on the progress of their implementation?
    In the latest round of grants made available for fire departments, 
over 20,000 communities sent applications specifying $2.1 billion of 
need. Funds available are far short of that figure.
    Answer: Currently there are a number of grant programs assisting 
states and localities with emergency response and/or terrorism 
preparedness Most of these programs found in DHS and HHS, and to lesser 
extent, the Department of Justice. The following list focuses on those 
programs funded in fiscal year 2003 and requested in fiscal year 2004.
    Terrorism & Emergency Preparedness programs
    Department of Homeland Security
    Office for Domestic Preparedness
    <bullet> State Homeland Security Grant Program
    <bullet> Law enforcement terrorism prevention
    <bullet> Fire department grants (transfer from EP&R)
    <bullet> Urban Areas Security Initiative
    <bullet> Citizen Corps (from EP&R)
    <bullet> National training and exercises programs
    EP&R/FEMA
    <bullet> All-Hazard Planning (EMPG)
    <bullet> Citizen Corps
    <bullet> Urban Search & Rescue Teams
    <bullet> Interoperability Grants (duplicative of ODP equipment 
grants)
    Department of Justice
    <bullet> Regional Info-Sharing System (RISS)
    <bullet> Terror Prevention/Response Training
    <bullet> Citizen Corps (law enforcement only)
    <bullet> COPS Interoperability Grants (duplicative of ODP equipment 
grants)
    Public Health Preparedness Programs
    Department of Homeland Security
    <bullet> Metropolitan Medical Response System
    <bullet> Strategic National Stockpile grants
    Department of Health and Human Services
    <bullet> Smallpox vaccination assistance (HRSA)
    <bullet> Centers for Disease Control
    <bullet> HRSA grants for hospital preparedness
    The Administration has sought to emphasize and strengthen those 
programs most related terrorism preparedness, while ensuring that more 
basic emergency response programs are better coordinated with terrorism 
preparedness efforts. For example, the fiscal year 2004 Budget proposes 
to transfer the EMPG and Fire Grant programs to ODP so that they may be 
better coordinated with ongoing terrorism preparedness efforts. As 
currently administered, the Assistance to Firefighters Grant program is 
focused on basic firefighting needs in rural areas, not investments in 
emergency and terrorism preparedness in the metropolitan areas at risk 
of terrorist attack.
    27. Does the Department support a significant increase in funding 
for America's fire fighters above the current level? As it stands 
today, there are 32 National Guard Civil Support Teams that can respond 
to any catastrophic event involving nuclear, biological or radiological 
attack on the American people. These teams currently have about a 
seven-hour response time capability to almost any place in the United 
States. Congress, however, has authorized the establishment of 55 of 
these teams to assist state and local first responders. To reach the 
full authorized level, an additional 23 teams need to be formed.
    [No Response Received by the Committee]

    28. What is the Administration's plan for creating more National 
Guard Civil Support Teams? Should each state have at least one of these 
units?
    Answer: The Department of Defense's (DOD's) plan to establish 
additional Civil Support Teams (CST) is best articulated in its report 
to Congress. However, that plan assumed that the earliest that new 
teams could be added was fiscal year 2005 due to the budget process. In 
order to accelerate the process, Congress has appropriated $88.2 
million to stand up 12 new CSTs in fiscal year 2004, with the remaining 
teams scheduled for fiscal year 2005 (to be funded within the DOD 
budget). The stationing of the teams will be decided based on 
population coverage and critical infrastructure, although Congress has 
also indicated that priority should go to States with port security 
concerns. The CSTs primarily respond in Title 32 status under the 
control of the Governor. They provide support directly to the Incident 
Commander while remaining under the command and control of the state 
National Guard.
    This question should be referred to the White House and National 
Guard Bureau for a more complete response. The Defense Coordinating 
Officer has direct command of Federal troops in a disaster area.
    29. Please describe the costs implicated by increasing the threat 
level from ``yellow'' to ``orange.''
    The costs to our country for ensuring the proper security against 
an increased threat are shared among the various levels of government. 
Earlier this year, the US Conference of Mayors released a study that 
showed cities were spending an additional $70 million per week in 
personnel costs to keep up with the demands of increased domestic 
security. While the 2003 supplemental provided limited assistance with 
Operation Liberty Shield, the Administration as a general rule is not 
planning to reimburse costs associated with changing the threat level. 
However, we are making resources available (ODP etc.) to enhance their 
permanent capabilities to respond to increased threat. The President's 
budget requested $462M for vulnerability reduction efforts under the 
Assistant Secretary for Infrastructure Protection. Part of that mission 
will take into account the consequences of loss, vulnerability to 
terrorism, likelihood of success by terrorists, terrorist capabilities, 
and threat assessments to determine the relative risk to critical 
infrastructure and key assets. Specifically, DHS has begun 
implementation of a plan to reduce the vulnerabilities of high value/
high probability of success terrorist targets within the United States.
    Just prior to the war in Iraq, the Department announced the 
implementation of Operation Liberty Shield to increase security for 
American citizens and key infrastructures. Although the Administration 
requested, and Congress provided, in excess of $700 million for 
Operation Liberty Shield expenses in the recent fiscal year 2003 
supplemental, it remains unclear just how much the Operation cost the 
Federal Government and the private sector.
    [No Response Received by the Committee]

    30. How much did Operation Liberty Shield cost ftdera4 state, 
local, and private sector entities? Does the Department have reliable 
cost estimates for agencies and companies below the Federal level? If 
not, why not? While security operations are important, what unfunded 
mandates were passed on to the state, local, and private sector level?
    So far this fiscal year, the Department has allocated $2.9 billion 
to state and local first responders to assist them in preparing for and 
responding to terrorist incidents involving weapons of mass 
destruction. While such funding is certainly needed, guidance and 
assistance from Department of Homeland Security officials is also 
desired to help ensure we receive the best return on our investment.
    [No Response Received by the Committee]

    31. Does the Department intend to increase its outreach to state 
and local first responders? If so, how? If not, why not? How can we 
avoid a situation where state and local first responders who wish to 
establish a dialogue with the Department feel no one in Washington is 
listening?
    [No Response Received by the Committee]

    32. Please provide a detailed breakdown as to how the grant monies 
administered by the Department have been spent and where the greatest 
needs remain amongst local communities.
    [No Response Received by the Committee]

    33. Are the ways in which the States and Localities are spending 
the grant monies consistent with the overall priorities articulated by 
the President in his homeland security strategy?
    Answer: The applications submitted to the Office for Domestic 
Preparedness' (ODP) confirm that States and localities are spending ODP 
grant monies in a manner consistent with the three strategic objectives 
noted in the President's Homeland Security Strategy: prevent terrorist 
attacks, reduce vulnerabilities, and minimize the damage from attacks 
that do occur.
    In the area of preventing attacks, state and localities are 
spending grant funds to purchase systems in the area of terrorist 
incident prevention equipment, such as data collection and information 
gathering software or Geographic Information System (GIS) technology 
and software. Additionally, states are using their grant funds to plan 
for, design, develop, conduct, and evaluate exercises that train 
emergency responders and assess the readiness of jurisdictions to 
prevent and respond to a terrorist attack.
    In order to reduce vulnerabilities, state and localities are 
purchasing systems to ``harden'' targets, such as motion detection 
systems, video surveillance cameras, waterfront radar systems, and 
chemical and biological warning systems. To determine these 
vulnerabilities, each state is required to conduct a comprehensive 
needs, threats, and vulnerabilities assessment through the State 
Homeland Security Assessment and Strategy (SHSAS) process.
    The SHSAS process was designed to assist states in developing one 
comprehensive planning document that includes all needs for response to 
a WMD terrorism incident irrespective of the sources of funding. The 
strategies will address the scope, nature, and extent of the challenge 
faced by emergency responders and explain the state's strategy for 
utilizing state planning, organization, equipment, training, and 
exercise resources as well as any other resources available that will 
enhance efforts to increase prevention and response capabilities.
    The majority of funding provided goes towards the priorities 
consistent with minimizing damage from attacks that do occur. For 
instance, under the conditions of ODP's grant programs, states and 
localities may purchase equipment from 12 broad categories covering 
every element of a response to a terrorist incident. The different 
types of equipment include: personal protective equipment; explosive 
device mitigation and remediation equipment; chemical biological, 
radiological, nuclear and explosive (CBRNE) search and rescue 
equipment; interoperable communications equipment; detection equipment; 
decontamination equipment; physical security enhancement equipment; 
terrorism incident prevention equipment; CBRNE logistical support 
equipment; CBRNE incident response vehicles; medical supplies and 
limited types of pharmaceuticals; and CBRNE reference materials.
    Border Security
    Securing our borders must be a top priority when it comes to 
protecting America from terrorist attack. The Homeland Security Act 
recognized this fact and created the position of Chief of Policy and 
Strategy for the Bureau of Border Security within the Department.
    34. Who is the Chief of Policy and Strategy for Border Security and 
what progress has that individual made in developing a plan of action 
to secure our borders?
    Since September 11, 2001, the Coast Guard has taken on much greater 
burdens in protecting the homeland. The Coast Guard is being pushed to 
the limit in terms of its many missions. In addition, many Coast Guard 
vessels are old and require replacement.
    35. Are we providing enough resources to the Coast Guard to support 
the increasing demands placed on the Coast Guard post September 11? 
When will the Coast Guard have the replacement vessels it needs?
    ANSWER: The multi-mission resources requested in the Fiscal Year 
2004 budget are critical to overall mission balancing efforts and to 
the sustainment of the Coast Guard's high standards of operational 
excellence across all mission areas. It is important to note that every 
Homeland Security dollar directed to the multi-mission Coast Guard will 
contribute to both our safety and security, which are two sides of the 
same coin.
    The Integrated Deepwater System (IDS) is an integral part of the 
Coast Guard's maritime homeland security (MHS) strategy and in 
balancing our non-MHS missions. MHS necessitates pushing America's 
maritime borders outward, away from ports and waterways so layered, 
maritime operations can be implemented.
    Earlier this year, President Bush that he supported giving the 
Coast Guard $700 million for a fleet of smaller, faster response ships 
that can aid in port security.
    36. Is there a timeline for the acquisition of these ships?
    ANSWER: On March 31, 2003, President Bush announced the forthcoming 
of a fleet of up to 700 Response Boats to aid in port security. 
Concurrently, The Department of Homeland Security (DHS) released a 
press release announcing the selection of SAFE Boats International LLC, 
of Port Orchard, WA as the contractor selected to begin building the 
fleet of up to 700 Response Boat--Small (RB-S) boats.
    The first boat is expected to be delivered in September 2003 and 
production will continue through 2007. This is in addition to a fleet 
of 100 similar boats also built by SAFE Boats under a contract awarded 
in March 2002. Under current planning, Coast Guard will exercise 
options for up to approximately 170-200 boats under the RB-S contract.
    It is the Committee's understanding that the US Coast Guard is 
undertaking a comprehensive review of the security of America's ports.
    37. Under current funding levels, when will this review be 
completed? The President's fiscal year 2004 budget proposal for the 
Bureau for Customs and Border Protection (BCBP) is $6.7 billion.
    ANSWER: The Coast Guard adopted an approach involving a family of 
security assessments that identify critical infrastructure/key assets 
(CI/KA), identify vulnerabilities to those CI/KA, and recommend 
mitigation strategies to improve overall port security. This approach 
aligns with the family of security plans approach and addresses 
specific aspects of vessel, facility, and port security.
    The Port Security Risk Assessment Tool (PS-RAT) survey was used to 
meet the initial assessment requirement of the Maritime Transportation 
Security Act of 2002 (MTSA). The PS-RAT is a risk- based decision 
making aid that the Captains of the Port (COTP) used to rank relative 
risk within their ports. These initial PS-RAT assessment results were 
utilized by the Coast Guard when developing and using the National Risk 
Assessment Tool (N-RAT) to determine which vessel and facility types 
pose a higher security risk and will require a ``detailed assessment'' 
and individual security plans.
    Certain vessels and facilities are required by MTSA regulations to 
conduct Security Self-Assessments due to higher risk (identified 
through the N-RAT). The Coast Guard believes that these self-
assessments are an essential and integral part of the process for 
developing and updating the required facility and vessel security 
plans. These Security Self-Assessments identify and evaluate, in 
writing, existing security measures; key operations; the likelihood of 
possible threats to key operations; and weaknesses, including human 
factors in the infrastructure, policies, and procedures of the vessels 
or facilities. These higher risk facilities and vessels are required to 
conduct Security Self-Assessments and develop security plans under 
regulations issued on July 1st, 2003. The resulting plans must be 
implemented by July 1st, 2004.
    Under the direction of the COTP, Area Maritime Security Committees 
will conduct port-wide security assessments and develop over-arching 
port wide Area Maritime Security Plans that take into account not only 
individual vessel and facility plans, but will also address security 
measures for those entities and infrastructures in the port that are 
not otherwise required to develop security plans. In this way, the 
security of the entire port is addressed.
    The port wide assessments conducted by the Area Maritime Security 
Committees are distinct from the Coast Guard sponsored Port Security 
Assessments (PSA). PSAs, which are conducted by a team of Coast Guard 
and contracted security experts, provide a level of detail that the 
port stakeholders cannot achieve on their own. The PSAs will complement 
the assessments conducted by the Area Maritime Security Committees, and 
will directly feed into the Area Maritime Security Plans required by 
the MTSA. PSAs on the top 55 militarily and economically strategic U.S. 
ports were commenced in August of 2002, and will be completed by 
December 2004. To date, PSAs have been completed at 13 of the 55 ports 
and have commenced on 15 additional ports.
    38. How many new Customs inspectional personnel are requested in 
the President's Budget?
    Answer:
    The fiscal year 2004 President's Budget Requests 628 new 
inspectional personnel. This includes 504 Inspectors and 124 Canine 
Enforcement officers.

------------------------------------------------------------------------
                                                 Inspectors     CEO's
------------------------------------------------------------------------
C-TPAT                                                   20            0
NII                                                      66          124
AQI                                                      53            0
CSI                                                      60            0
Entry/Exit                                              305            0
Total                                                   504          124
------------------------------------------------------------------------

    Currently, Customs user fees known as COBRA fees provide funding 
for over 1100 Customs personnel as well as all overtime. The user fee 
is set to expire on September 30, 2003.
    39. Has DHS sent legislative language to the Hill to reauthorize 
the COBRA fees? If not, when will the Department send this language?
    Answer: A proposal to extend the COBRA fees was initiated by the 
Bureau of Customs and Border Protection. The proposal was reviewed at 
the Department level and cleared by the Office of Management and 
Budget. DHS is in the process of forwarding the proposed extension to 
the House Ways and Means and Senate Finance Committees.
    Under Customs' Container Security Initiative (CS!), increasing 
numbers of Customs inspectors will be stationed overseas.
    40. How many inspectors are currently overseas? Is there a concern 
about sending inspectors overseas while there is still a staffing 
shortage at many ports in the U.S.?
    Answer: Currently, there are approximately 50 Inspectors overseas 
on CSI Temporary Duty Assignments. While there are plans to expand the 
CSI program to additional ports, the number of staff in relation to the 
entire Bureau of Customs and Border Protection at domestic ports of 
entry is relatively small. In addition, by using CSI to ``push our 
borders out'', the sort of targeting and analysis of high-risk cargo 
that these CSI Inspectors are doing is actually saving the time and 
effort of Inspectors located at U.S. ports of entry.
    There have been reports that many of the new hires in Customs are 
being assigned to work in place of senior inspectors, rather than to 
augment and increase border coverage across the country. Additionally, 
the Bureau of Customs and Border Protection's current year budget is 
$5.8 billion, which includes funding for over 41,000 full time 
equivalent personnel. The current budget includes $100 million 
appropriated in the recent fiscal year 2003 supplemental to boost the 
number of border patrol agents and inspectors at the Northern Border 
and key maritime ports of entry. The Department proposes to increase 
the Bureau's workforce by 892 personnel, or 2 percent, next fiscal 
year. However, even with this increase, the Committee understands that 
the total number of customs and border inspectors will still fall short 
of the Bureau's optimum staffing levels.
    41. Does the Administration's fiscal year 2004 request adequately 
fund staffing shortfalls at our nation's borders? Is the request 
consistent with optimum staffing levels for the border?
    Answer: Funding provided in FY 04 President's budget is designed to 
greatly improve the border security of our Nation. As the positions and 
technology provided in the budget are deployed, BCBP will be better 
able to assess the gap between existing resources and optimal staffing.
    42. What steps has the Department taken to increase the number of 
Customs trade personnel (import specialists) in the BCBP? What steps 
has the Department taken to ensure that Customs trade missions are not 
being lost in the anti-terrorism focus of the DHS?
    Answer: The Bureau of Customs and Border Protection (BCBP) is 
actively working to fully staff field Import Specialists and other 
trade personnel to the maximum level funded. BCBP is ensuring 
``critical need'' ports are adequately staffed in order to carry out 
the Bureau's trade responsibilities.
    Although the priority mission of the BCBP is to detect and prevent 
terrorists and terrorist weapons from entering the United States, we 
have not abrogated our trade and narcotics interdiction 
responsibilities.
    BCBP trade personnel in Headquarters and field offices continue to 
ensure trade functions are carried out correctly and efficiently. The 
changes in BCBP's primary mission have not negatively affected our 
ability to collect and protect the revenue, enforce trade agreements, 
monitor import compliance, and enforce textile quotas. We use a risk 
management approach to ensure the efficient use of resources to move 
legitimate trade across our borders. We identify and interdict 
violators and merchandise in violation of importing laws, embargoes, 
and/or sanctions to stop predatory and unfair trade practices that 
threaten the United States economic stability, market competitiveness 
and public safety. An example of this is the President's Steel 201 
initiative that BCBP is aggressively enforcing.
    The Under Secretary for Border and Transportation Security and his 
staff, including the Assistant Secretary for Border and Transportation 
Security Policy and Planning, have been focused on maintaining the 
trade missions assigned to BCBP.
    Recently, a spokesman for the DHS stated that DHS plans to add an 
additional 90 remote inspectional video surveillance camera systems 
(R.V.I.S.) on the Northern Border. Currently, there are 236 
surveillance systems along both the northern and southern borders. A 
number of frontline Customs inspectional personnel have stated that on 
more than one occasion these RVIS systems are down or are unable to 
identify persons or automobiles crossing the border into the United 
States.
    43. Is it in the best interest of homeland security to increase the 
use of video entry technology that, according to a January 2002 
Treasury Department Inspector General report, often fails because of 
severe weather and software problems?
    Answer: It is not in the best interest of homeland security to 
replace people at these often-remote locations. That is one of the 
reasons that on October 31, 2002, Commissioner Bonner approved a 
recommendation by the Office of Field Operations to terminate the RVIS 
program and incorporate the existing RVIS equipment into the Northern 
Border Security Project.
    The North Atlantic CMC issued a notice to the public indicating 
that the RVIS ports would be closed as of March 15, 2003.
    Federal regulations were issued on March 25, 2003, directing 
companies that transport hazardous materials to put in place security 
plans for their cargo and personnel in the next six months. The 
regulations provide for civil penalties.
    44. What is the plan for enforcement of this measure?
    Oversight of hazardous materials transportation, including 
security, is entrusted in a number of Federal agencies within DHS and 
the Departments of Transportation and Treasury. The activities these 
agencies have been coordinated, and each issued regulations this year 
intended to strengthen security. The specific regulations to which you 
refer were issued by the Research and Special Programs Administration 
(RSPA) of the Department of Transportation (DOT). You should consult 
with RSPA on precisely how this regulation will be fully implemented. 
That said, DHS has a close working relationship with DOT and will 
ensure that the enforcement of these regulations will support homeland 
security goals.
    The Daschle- Comprehensive Homeland Security Act of 2003- S 6 calls 
for an additional 250 Customs personnel each fiscal year between fiscal 
year 2003 through fiscal year 2006 for a total of 1,000 additional 
Customs personnel. The Domenici- Border Infrastructure and Technology 
Modernization Act- S 539 calls for an additional 200 Customs and Border 
Protection (CBP) personnel each fiscal year between fiscal year 2004 
through 2008 for a total of 1,000 additional CBP personnel.
    [No Response Received by the Committee]

    45. Does the Department support these bills that would increase the 
number of frontlinc border security personnel?
    Answer: BCBP fully supports the President's fiscal year 2004 
budget, which provides over 600 additional personnel at our borders. In 
the future, as staffing needs are reviewed, we will work with the 
Department and the Administration to ensure that the proper number of 
border security personnel are in place at the frontline.
    The Committee understands that a report by the Inspector General of 
the Agriculture Department has pointed out that the U.S. Forest Service 
has 620 officers who currently patrol 520 miles of our border. The 
problem is that there are 970 miles of miles of our border within land 
that is in the jurisdiction of the US Forest Service.
    46. What specific steps has the Department of Homeland Security 
taken with the Department of Agriculture or related agencies to ensure 
that the 450 mile hole in our border is closed?
    [No Response Received by the Committee]

    47. What is the expectation of DHS that inspectors from Customs, 
INS, and APHIS would be expected to do all of the work of all of the 
agencies? Wouldn't this lead to the homogenization of the individual 
inspector position, with no recognition of the expertise and 
specialization need to do the detailed and specific work done by the 
different agencies today? How does DHS plan to make sure expertise is 
not lost?
    The Transportation Safety Administration is beginning a program to 
do background checks on the 3.5 million truck drivers who are licensed 
to carry hazardous materials in the United States.
    [No Response Received by the Committee]

    48. When will the checks be completed? Does this program include 
truck drivers from Mexico?
    Each year, approximately 2.5 million rail cars cross America's 
borders. Some are open, most conceal their cargo.
    [No Response Received by the Committee]

    49. How many of these rail cars are inspected for radiological and 
chemical devices that could be detonated on our soil?
    While we have devoted a great deal of attention to improving 
airline security, there has been little noticeable difference in 
security for passenger rail. At the same time, numerous published 
reports have indicated that there is a terrorist threat to the rail 
system. While we have devoted a great deal of attention to improving 
airline security, there has been little noticeable difference in 
security for passenger rail. At the same time, numerous published 
reports have indicated that there is a terrorist threat to the rail 
system.
    [No Response Received by the Committee]

    50. What are the Department's plans for improving security on 
passenger rail?
    An often repeated statistic is that at present only about 2% of the 
millions of containers entering the United States each year can be 
inspected.
    [No Response Received by the Committee]

    51. Has the Department determined the optimum percentage, in terms 
of security and of protecting the flow of commerce, of containers that 
should be inspected?
    Answer: BCBP continues to increase the number of containers 
examined and will continue this increase as additional inspectors are 
hired and trained and additional non-intrusive inspection equipment 
(e.g. x-ray equipment) are procured. The increased use of non-intrusive 
inspection equipment should enable BCBP to achieve higher inspection 
percentages while minimizing the impact on the trade. BCBP also 
continues to minimize the impact on legitimate trade through programs 
such as the Customs Trade Partnership Against Terrorism (C-TPAT) and 
increasing the percentage of containers examined before reaching the 
United States through the Container Security Initiative (CSI) Program.
    52. Of the 2% of the containers that are being inspected, what are 
the inspectors looking for? Are the inspectors informed by intelligence 
on what terrorists might be trying to send in these containers?
    Answer: Containers are targeted for examination for many reasons. 
In addition to examinations performed for security purposes, these 
reasons include regulatory concerns of many other agencies such as FDA 
and USDA and also include trade concerns such as evasion of anti-
dumping and countervailing duty cases and quota restrictions. 
Inspectors performing these examinations are informed of the causes of 
these examinations through BCBP's targeting systems. Targeting criteria 
of the BCBP's Automated Commercial System (ACS) provide specific 
information regarding the reason for the examination and also provide 
examination instructions. The Automated Targeting System (ATS) provides 
the results of targeting rules designed to collectively determine 
relative levels of risk and integrates the targeting with the Treasury 
Enforcement Communications System (TECS). This linkage to TECS provides 
a systemic mechanism for linking critical intelligence to specific 
examination activities. All of this targeting information includes 
high-risk cargo that might be exploited by terrorists.
    Information Analysis/Infrastructure Protection
    The press release which accompanied the decision to lower the 
threat level from ``orange'' to ``yellow'' following the conclusion of 
active combat in Iraq indicated that this was based on ``credible 
intelligence reports.'' Committee staff has asked for a briefing on 
these reports, and the decision making process, but no briefing has yet 
been provided.
    53. What are the reports in question? How was this decision made?
    Committee members have heard from local law enforcement departments 
that they hear about changes to the threat level on CNN. Congressional 
offices get a fax when the threat level changes - usually a few hours 
after the announcement.
    [No Response Received by the Committee]

    54. Is DHS notifying the people with a compelling need to know 
prior to changes in the threat level?
    There still exists some confusion over what role the Department 
will play in analyzing terrorist threat information given the recent 
creation of the CIA-FBI Terrorist Threat Integration Center. Deputy 
Secretary Gordon England has testified to the Senate Governmental 
Affairs Committee that the Department would cede its intelligence 
analysis role over to the TTIC. However, Assistant Secretary Paul 
Redmond, who heads the intelligence analysis section of the Department, 
recently briefed Committee staff that DHS would conduct rigorous 
analysis of intelligence products created by both the Department and 
the TTIC. Secretary Ridge indicated in his testimony before the 
Committee that the Department would gain access to all the necessary 
intelligence through the Department's presence at the TTIC.
    [No Response Received by the Committee]

    55. Who is right? What type of analysis will DHS perform? What 
analysis will the TTIC perform? How do these arrangements square with 
Homeland Security Act's mandate to have the Department serve as the 
central place in the U.S. government where all of the ``dots'' can be 
connected?
    [No Response Received by the Committee]

    56. What is the relationship between the new Terrorism Threat 
Integration Center (TTIC) and the Department of Homeland Security? Will 
DHS receive the same information that TTIC receives? Will DHS have its 
own personnel in the TTIC?
    On February 28, 2003, Secretary Ridge executed a Memorandum of 
Understanding ``Between the Intelligence Community, Federal Law 
Enforcement Agencies, and the Department of Homeland Security 
Concerning Information Sharing.'' Section 3(f) of that document 
contains the agreement ``that, when fully operational the Terrorist 
Threat Integration Center (TTIC) shall be the preferred, though not 
exclusive, method for sharing covered information [ terrorism 
information, and other information relevant to the duties of the 
Department of Homeland Security] at the national level.''
    [No Response Received by the Committee]

    57. The Homeland Security Act requires the Secretary, through the 
Undersecretary for Information Analysis and Infrastructure Protection, 
to ``disseminate, as appropriate, information analyzed by the 
Department within the Department, to other agencies of the Federal 
Government with responsibilities relating to homeland security and to 
agencies of State and Local governments...'' How is Section 3(1) 
consistent with the statutory obligations? Given that the Information 
Analysis/Infrastructure Protection Directorate was intended to be the 
central place for ``mapping threat and vulnerability,'' why should TTIC 
be the ``preferred... method'' for sharing such information? Should 
TTIC be established in law?
    The Homeland Security Act requires the Secretary, through the 
Undersecretary for Information Analysis & Infrastructure Protection, to 
``identify and assess the nature and scope of terrorist threats to the 
homeland.''
    [No Response Received by the Committee]

    58. Have any such assessments been completed? If so, please 
identify them by subject matter, and provide copies to the Committee. 
If not, why not? Has a schedule been set to complete such assessments?
    The Homeland Security Act requires the Secretary, through the 
Undersecretary for Information Analysis & Infrastructure Protection, to 
``carry out comprehensive assessments of the vulnerabilities of the key 
resources and critical infrastructures of the United States, including 
the performance of risk assessments to determine the risks posed by 
particular types of terrorist attacks within the United States...''
    [No Response Received by the Committee]

    59. Have any such ``comprehensive assessments'' been completed? If 
so, please identify them by subject matter, and provide copies to the 
Committee. If not, why not? Has a schedule been set to complete such 
assessments?
    The Homeland Security Act requires the Secretary, through the 
Undersecretary for Information Analysis & Infrastructure Protection, to 
``integrate relevant information, analyses, and vulnerability 
assessments... in order to identify priorities for protective and 
support measures by the Department... and other entities.''
    [No Response Received by the Committee]

    60. Has the Department completed this task and identified such 
priorities? If so, please identify them. Have they been reduced to 
writing? If so, please provide copies to the Committee.
    The Homeland Security Act requires the Secretary, through the 
Undersecretary for Information Analysis & Infrastructure Protection, to 
``develop a comprehensive national plan for securing the key resources 
and critical infrastructure of the United States.''
    [No Response Received by the Committee]

    61. When will such a comprehensive national plan be completed?
    The Homeland Security Act requires the Secretary, through the 
Undersecretary for Information Analysis & Infrastructure Protection to 
``recommend measures necessary to protect the key resources and 
critical infrastructures of the United States...''
    [No Response Received by the Committee]

    62. What recommendations have been made thus far?
    [No Response Received by the Committee]

    63. How does the Department assign responsibilities for protecting 
critical infrastructure that is owned and operated by the private 
sector?
    [No Response Received by the Committee]

    The Homeland Security Act requires the Secretary, through the 
Undersecretary for Information Analysis & Infrastructure Protection, to 
``review, analyze, and make recommendations for improvements in the 
policies and procedures governing the sharing of law enforcement 
information, intelligence information, intelligence-related 
information, and other information relating to homeland security.''
    [No Response Received by the Committee]

    64. Has the Department made any such recommendations? What are 
they?
    The Homeland Security Act makes the Secretary responsible for 
providing the Information Analysis & Infrastructure Protection with ``a 
staff of analysts having appropriate expertise and experience to assist 
the Directorate in discharging responsibilities [ the Act.]
    65. How many such analysts are currently on staff? Has the 
Department set a schedule for providing such a staff?
    The Intelligence Authorization Act for Fiscal Year 2003 requires 
the Director of Central Intelligence to establish ``standards and 
qualifications'' for individuals within the
    Intelligence
    Community undertaking intelligence tasks--to the extent the 
Information Analysis & Infrastructure Protection is ``concerned with 
the analysis of foreign intelligence information'' it is within the 
Intelligence Community.
    66. How many of the analysts in IAJIP are ``concerned with the 
analysis of foreign intelligence information,'' and have they met 
standards established by the Director of Central Intelligence?
    [No Response Received by the Committee]

    67. How many people are working at the Directorate of Information 
Analysis & Infrastructure Protection? Are there enough? There have been 
reports that a planned reliance on skilled detailees from the 
Intelligence Community has failed, as the detailees either never came, 
or were pulled back to their home agencies soon after coming to DHS. Is 
this true?
    The Committee has repeatedly asked for intelligence information to 
inform critical policy decisions--as of yet, we have been provided 
almost nothing. The Department has requested the Congress provide the 
resources for $36 billion worth of programs, many of which involve, to 
quote the Homeland Security Act, the necessity to ``determine the risks 
posed by particular types of terrorist attacks within the United 
States.'' The Committee assumes that the Department's budget and 
programmatic requests have been informed by a careful reading of 
timely, comprehensive intelligence describing the threats posed by 
terrorist groups.
    [No Response Received by the Committee]

    68. How does the Department expect a Member of the Congress to 
consider the DHS budget and program requests without reading the same 
intelligence? Is the underlying assumption true--that DHS has been 
relying on intelligence product? If so, please identify what 
intelligence supports the Department's plans.
    The Committee understands that allocations of first responder grant 
funding to states and localities are based, in part, on ``threat and 
vulnerability assessments'' that each state has produced which 
highlight their specific vulnerabilities. A total of $2.9 billion has 
already been made available to the Department this year for 
disbursement to state and local first responders to assist them in 
preparing for and responding to terrorist incidents. However, it 
remains unclear whether such a state ``vulnerability assessments'' are 
informed by intelligence assessments of likely threats. It is also 
unclear if the assessments are tied in any way to the National Homeland 
Security Strategy.
    [No Response Received by the Committee]

    69. How does the Department expect a state or local official, with 
no expertise in foreign intelligence analysis (or access to the 
classified intelligence data), to accurately assess the level of threat 
posed by a terrorist group? What is the value of first responder grant 
vulnerability assessments if they are not tied to any sort of national 
plan?
    Answer: The State Homeland Security Assessment and Strategy (SHSAS) 
process was developed by the Department of Homeland Security's Office 
for Domestic Preparedness (ODP), in coordination with Federal agencies, 
state and local representatives, and state and local organizations. As 
such, the assessment process provides detailed guidance on how to 
identify threats, risks, vulnerabilities, and needs. Further, the 
assessment process facilitates a collaborative effort among state and 
local officials as well as Federal representatives such as the FBI's 
local weapons of mass destruction task forces. The assessment process 
also incorporates the experience and expertise of the state and local 
public safety officials, who are often best equipped to identify 
critical vulnerabilities and needs.
    Further, as it did with its previous assessment and strategy 
process, ODP is providing comprehensive guides and templates for each 
state's State Administering Agency (SAA), which coordinates the state's 
assessment and strategy development process. These reference materials 
were provided to each SAA. To facilitate this process, ODP has 
activated a revised Online Date Collection Tool, which allows states 
and local jurisdictions to input date from the assessment section of 
the SHSAS online, without the need to develop complex systems to 
support the required data collection.
    Additionally, ODP has established a technical assistance toll-free 
helpline to provide information and expert guidance to those collecting 
and inputing data. As part of its technical assistance efforts, ODP is 
providing each state and territory with access to tailored technical 
assistance options. For instance, ODP is providing four distinct 
training sessions to assist state and local jurisdictions to develop 
comprehensive security strategies. These includes sessions on 
``Understanding and Implementing the ODP SHSAS,'' ``Jurisdiction 
Assessment Technical Assistance,'' ``Direct Jurisdiction Assessment 
Technical Assistance,'' and ``Developing a State Homeland Security 
Strategy.''
    To further support the implementation and successful completion of 
the SHSAS process, ODP is providing financial assistance to cover 
related expenses. Through the State Homeland Security Grant Program, 
every state, territory, and the District of Columbia has received an 
administration and planning allocation.
    [No Response Received by the Committee]

    70. Has the Department of Homeland Security created any 
``tailored'' intelligence product designed to assist State and Local 
officials in making the decisions which are necessary in their jobs? 
Please note that the question does not refer to current threat 
information, but rather to strategic and tactical intelligence 
assessments. What are those products? Please provide copies to the 
Committee.
    71. Should the National Security Act be amended to add ``State and 
Local Officials responsible for counter- and anti- terrorism'' to the 
list of so-called ``Intelligence Consumers,'' joining the more 
traditional Federal intelligence consumers? Would that encourage a more 
creative approach to serving a new type of intelligence customer?
    The Department's advisory announcing the lowering of the threat 
level from orange to yellow stated that during the ``Liberty Shield'' 
operation, the Department worked closely with the FBI and the CIA in 
evaluating all source threat information.
    [No Response Received by the Committee]

    72. What was the role of the Information Analysis/Infrastructure 
Protection Directorate in Liberty Shield?
    [No Response Received by the Committee]

    73. What types of intelligence did IA/IP receive from the FBI, CIA 
and other intelligence community agencies?
    At a recent Government Reform Committee hearing, the Chief 
Information Officer (ClO) for the Department confirmed that there is 
still no single terrorist ``watchlist'' for the Federal Government. As 
Members of the Intelligence Committee are all too aware, this continues 
to be a significant problem for the Federal Government.
    [No Response Received by the Committee]

    74. Why, more than a year and half after September 11, is there not 
a single integrated watchlist for the Federal Government? In the 
absence of a single integrated list, who is watching the watchlists? 
Aren't we still vulnerable to flaws in our existing watchlist systems?
    [No Response Received by the Committee]

    75. What role will the Department play in finally solving this 
problem? When can we expect the formation of one list?
    [No Response Received by the Committee]

    76. With regard to the nation's critical infrastructure, please 
identify the industries that are of greatest concern to the Department 
from a security perspective?
    [No Response Received by the Committee]

    77. To best protect the nation's infrastructure, should government 
regulation of security measures be required? If so, who will be 
responsible for paying for the required improvements? If not, please 
give an assessment of the ways in which the Nation can ensure adequate 
security of its critical infrastructure.
    [No Response Received by the Committee]

    78. Beyond the segment of the private sector labeled as pertinent 
to critical infrastructure, please outline the outreach and programs 
DHS has underway with the balance of the private sector.
    Numerous experts have stated that the nation's chemical industry 
remains critically vulnerable to a terrorist attack. The GAO pointed 
out in a March, 2003 report that additional funding may be required to 
assess vulnerabilities at chemical plants across the country. Much of 
our nation's chemical plants exist within the private sector. Leaving 
security precautions to the private sector, however, may not result in 
the types of protections that are needed.
    [No Response Received by the Committee]

    79. What steps is the Department taking to address the issue of 
security at our nation's chemical plants? Does the Department favor 
government safety regulations, or a mix of government and private 
sector efforts?
    [No Response Received by the Committee]

    80. How does the Department prioritize budget requests between, for 
example, protecting against chemical, biological, and conventional 
weapons attacks?
    [No Response Received by the Committee]

    81. How is DHS soliciting information from local authorities and 
businesses? Is information collected at the local level getting 
integrated into national threat analysis?
    Secretary Ridge's written testimony states that IA/IP provides 
indications and warnings of potential attacks.
    [No Response Received by the Committee]

    82. To whom is IA/IP providing these products? How is the 
information being provided?

                           Immigration Issues

    Section 428 of the Homeland Security Act grants the Secretary 
certain authorities to refuse visas and to develop programs of homeland 
security training for consular officers, working with the Secretary of 
State.
    83. Has the Secretary exercised the authority to refuse visas? If 
so, please describe the circumstances.
    [No Response Received by the Committee]

    84. Has the Department developed training programs for consular 
officers?
    Section 428 of the Homeland Security Act also mandates that the 
Secretary conduct a study of the role of foreign nationals in the 
granting or refusal of visas, including any security concerns involving 
the employment of foreign nationals.
    [No Response Received by the Committee]

    85. Has DHS begun the study? What progress has been made?
    Under Section 441 of the Homeland Security Act, the Bureau of 
Customs and Border Security has the responsibility for the Student and 
Exchange Visitor Information System (SEVIS). SEVIS is designed to track 
foreign students attending U.S. colleges and universities. Universities 
that enroll foreign students must enter the students' information into 
SEVIS, but they are reporting that they cannot enter the information 
due to technical problems with the system. A March, 2003 Department of 
Justice Inspector General report found numerous problems with the SEVIS 
system, and a lack of adequate personnel and training for the (then-
INS) offices that were receiving the SEVIS information.
    [No Response Received by the Committee]

    86. What is the Department doing to alleviate problems associated 
with the SEVIS system? When can we expect these problems to be solved?
    Section 451 of the Act authorizes the Bureau of Citizenship and 
Immigration Services to initiate pilot initiatives to eliminate the 
backlog in the processing of immigration benefit applications.
    87. What steps are being taken to address the backlog? Will the 
Department be able to meet the statutory deadline for elimination of 
the backlog by November 25, 2003 (8 U.S.C. Sec. 1573)?
    Answer: Beginning in fiscal year 2002, the President pledged $500 
million over a 5-year period for the Bureau of Citizenship and 
Immigration Services (CIS, then the Immigration and Naturalization 
Service) to reduce backlogs and achieve 6-month processing time for all 
immigration benefit applications. To meet this objective, CIS developed 
a comprehensive Backlog Reduction Plan. Under this plan, CIS initially 
realized significant improvements in reducing processing time. After 
September 11th, however, CIS implemented necessary national security 
measures that were extremely time consuming and costly (e.g., 
conducting background checks on all applications and conducting 
interviews for the National Security Entry Exit Registration Program). 
These measures have resulted in substantial increases in application 
processing times, leading to increased backlogs. The CIS is currently 
revising its Backlog Reduction Plan to reflect the post-September 11th 
changes. The plan will establish specific milestones toward achieving 
the 6-month processing time goal, and reflect initiatives identified by 
the Director to eliminate the current backlog.
    The Washington Post reported on May 24, 2003 that Foreign Services 
officers will be required to conduct face-to-face interviews with most 
visa applicants from countries in the Middle East, Asia and Latin 
America.
    88. What would be gained in terms of increased security by 
requiring face to face interviews of each visa applicant? What 
resources would be required to conduct interviews of each applicant? 
What impact would the interviews have on the international economy? 
Would the benefits in increased security balance any harm to our 
economy?
    Section 461 of the Homeland Security Act directs the Secretary, 
within 60 days of the effective date of the Act, to appoint a 
Technology Advisory Committee to advise the Secretary on establishing 
an Internet-based system that will provide the current status of 
applications filed with the Bureau of Citizenship and Immigration 
Services.
    89. Has the committee been appointed? What steps are being taken to 
establish such a system?
    Answer: In October 2002, legacy INS introduced the Case Status 
Online service to allow customers to check the status of a pending 
application or petition. Customers with a receipt number for an 
application or petition filed with BCIS at a Service Center can check 
the status of their case at the BCIS website. Today, the Case Status 
Online service is the most visited page on the BCIS website with over 
37,000 visits per day.
    On May 29, 2003, BCIS began offering customers the option of e-
filing for certain immigration benefits using the Internet. Customers 
who e-file are also able to pay the fees for these applications online 
through the electronic transfer of U.S. funds from their checking or 
savings account. The applications available for online filing are forms 
I-765 (Application for Employment Authorization) and I-90 (Application 
for Replacement of Green Card). These two forms represent approximately 
30% of the total number of benefit applications filed with BCIS 
annually. Upon completion of the e-filing session, customers will 
receive instant electronic confirmation that the application was 
received. To date over 26,000 applications have been received 
electronically.
    Section 477 of the Homeland Security Act requires the Secretary, 
within 120 days of the effective date of the Act, to provide certain 
reports on the implementation of the Act with regard to the Bureau of 
Border Security and the Bureau of Citizenship. The required reports are 
to cover the proposed division of funds and personnel between the two 
bureaus and the organizational structure, procedures, and transition 
involved in splitting the former INS into the two bureaus. The statute, 
which was passed before the creation of this Committee, requires the 
Secretary to submit the report to the Appropriations and Judiciary 
Committees.
    [No Response Received by the Committee]

    90. Has DHS submitted these reports? If so, please provide copies 
to the Committee.
    On April 29, Secretary Ridge announced a new ``U.S. Visit'' system 
which will use at least two biometric identifiers to build an 
electronic check inlcheck out system for people coming to the United 
States. It will replace existing system, and also integrate the SEVIS 
program. Secretary Ridge announced that the first phase of ``U.S. 
Visit'' would be in place by the end of 2003.
    91. Please elaborate on what procedures will be in place by 2003.
    [No Response Received by the Committee]

    92. Has the Department decided which biometric identifiers will be 
used? Who has provided the expertise to the Department on what 
biometric identifiers should be used?
    [No Response Received by the Committee]

    93. When will the entire system be deployed? Please describe what 
the system will be like when fully deployed.
    [No Response Received by the Committee]

    94. Are there plans for the development and deployment of a 
universal, secure biometric ID card for the twelve million 
transportation workers in the United States. If so, what is the 
timeline for full deployment?
    A recent GAO report stated that `` 1990, we have reported that INS 
managers and field officials did not have adequate, reliable, and 
timely information to effectively carry out the agency's mission'' and 
identified ``INS's IT management capacities as the root cause of its 
system problems''.
    [No Response Received by the Committee]

    95. Given that history, and the recent problems with SEVIS, what 
assurances can the Department give that the new entry/exit system will 
not suffer from similar technical problems?
    Under Section 402 of the Act, the Secretary is responsible, acting 
through the Under Secretary for Border and Transportation Security, for 
carrying out the immigration enforcement functions formerly vested in 
the Commissioner of the INS.
    [No Response Received by the Committee]

    96. As the Department now has immigration enforcement 
responsibility, what is the Department's view on whether state and 
local law enforcement officers have authority to enforce Federal 
immigration laws?

                            Airline Security

    Section 1402 of the Homeland Security Act established the Federal 
Flight Deck Officer Program. The Act requires the establishment of 
procedures that address important issues such as the risk of accidental 
discharge, interaction between armed pilots and Federal air marshals, 
and proper storage and transportation of firearms between flights.
    [No Response Received by the Committee]

    97. What is the progress of the Department to date in establishing 
those procedures?
    [No Response Received by the Committee]

    98. Has the Department analyzed intelligence on the current threat 
to airline safety that is addressed by the arming of pilots? What 
agency has provided the intelligence or threat assessment on this 
issue?
    There have been numerous recent articles about the problem of 
``false positives'' on the No-Fly List.
    [No Response Received by the Committee]

    99. What agencies provide the information for the No-Fly List?
    [No Response Received by the Committee]

    100. Is each agency responsible for the accuracy of the information 
that leads to their request for a name to be added to the No-Fly List? 
Does TSA take any action to vet the information received from other 
agencies? Is there one person ``in charge'' of making sure that the 
names on the No-Fly List should be on the No-Fly List?
    The press reports indicate that once the airlines receive the No-
Fly List, they use a variety of name-matching systems that result in an 
alert for any passenger with a similar spelling or phonetic as the name 
on the No-Fly List.
    [No Response Received by the Committee]

    101. Is TSA or any other agency taking action to improve the 
accuracy of the systems used by the airlines?
    The TSA announced on April 30, 2003 that due in part to budget 
constraints, the agency will cut 3,000 positions by May 31 and another 
3,000 positions by September 30.
    [No Response Received by the Committee]

    102. How will the reductions in personnel affect airline security? 
Did TSA conduct an analysis of the effect on airline security of the 
reduction in these positions?
    [No Response Received by the Committee]

    It is the Committee's understanding that TSA is developing a system 
that will cross reference various databases for personal information to 
develop profiles of suspect passengers needing higher security 
scrutiny. This is the so-called CAPPS II system.
    103. What is the status of the CAPPS II program? What privacy 
assurances are built into the system and when is planned deployment?
    The mandate of the Transportation Safety Administration is to 
secure the safety of passengers and every kind of transportation 
network in the United States. That means on the land, sea and air. We 
are all familiar with the TSA agents deployed by the thousands at our 
nation's airports.
    [No Response Received by the Committee]

    104. What percentage of TSA's funding goes to securing 
transportation modes other than air transport?

                            Civil Liberties

    Section 705 of the Homeland Security Act established an Office for 
Civil Rights and Civil Liberties, and the President has appointed 
Daniel Sutherland as the Officer for Civil Rights and Civil Liberties. 
The stated mission of the Office is to review and assess allegations of 
abuse of civil rights and civil liberties by the Department, and to 
make public through the media the responsibilities and functions of the 
Office.
    [No Response Received by the Committee]

    105. How big will the staff of the Office for Civil Rights and 
Civil Liberties be? How many allegations of abuse of civil rights and 
civil liberties have been received thus far?
    [No Response Received by the Committee]

    106. The statute states that the Office will ``review and assess'' 
allegations of abuse of civil rights and civil liberties. Will the 
Office have any powers beyond to ``review and assess''
    [No Response Received by the Committee]

    107. Will the Office have the authority and resources to 
investigate the allegations? If not, who will have that authority? Will 
it be the DHS Inspector General?
    [No Response Received by the Committee]

    108. Has the Office for Civil Rights and Civil Liberties made 
efforts to notify the public of the existence and functions of the 
Office?
    [No Response Received by the Committee]

    The Homeland Security Act requires the Secretary, through the 
Department's Privacy Officer, to conduct ``a privacy impact assessment 
of proposed rules of the Department.''
    109. Has the Department proposed any rules, and if so, has a 
privacy impact assessment been completed? Have any rules been adopted 
without a privacy impact assessment having been competed?
    [No Response Received by the Committee]

    Under regulations that went into effect in April, doctors and other 
health professionals are permitted to disclose health information to 
Federal officials for conducting national security and intelligence 
activities.
    110. Is this authority being used by the Department or any other 
Federal agency? What safeguards exist to prevent the misuse of this 
authority?
    Personnel Issues
    Section 881 of the Homeland Security Act directs the Secretary, in 
consultation with the Office of Personnel and Management, to review the 
pay and benefit plans of each agency that has been transferred into the 
Department and to submit a plan to Congress within 90 days of the 
effective date of the Act to eliminate disparities in pay and benefits 
within the Department
    111. The Committee has not received such a plan. Has the Department 
submitted such a plan to other committees or the congressional 
leadership? If so, please provide a copy to the Committee.
    [No Response Received by the Committee]

    A point of contention in the debate in forming the Department dealt 
with the personnel protections of the employees of the new department. 
Section 841 of the Homeland Security Act authorized the Secretary, 
working with the Director of the Office of Personnel Management, to 
establish a human resources management system that will be ``flexible'' 
and ``contemporary''.
    112. How does the Department plan on building a new human resources 
management system? What aspects of the human resources systems does the 
Department intend to reform? How will the Department go about deciding 
what changes need to be made?
    [No Response Received by the Committee]

    113. What will the Department do to make sure that equal 
employment, whistleblower and other protections that must be continued 
pursuant to the Homeland Security Act remain vigorous in the 
Department?
    [No Response Received by the Committee]

    One aspect of the President's management agenda for the Federal 
Government is the outsourcing of certain positions currently held by 
Federal employees.
    114. To what extent does the Department outsource positions to 
private contractors? Please describe what types of functions are 
performed by contractors. Does the Department use contractors that are 
foreign companies? Are there certain positions that should not be 
contracted out?

                         Emergency Preparedness

    A recent GAO Report surveyed seven cities and their state 
governments on their level of preparedness for a biological attack. The 
overwhelming response was that cities and state governments need more 
guidance from the Federal Government on how best to prepare for a 
possible biological attack.
    115. What guidance is being provided by the Department to state and 
local officials on how to increase their preparedness to prevent or 
respond to a biological attack? Why hasn't more been done to date? Is 
such guidance even available?
    Answer: This question should also be directed to DHHS.
    FEMA has extensive guidance available for use by States and local 
communities to increase preparedness for all hazards, as well as for 
terrorism.
    116. Should we seek some baseline level of readiness everywhere 
across the country, and build additional readiness in higher threat or 
higher vulnerability areas?
    It is the Committee's understanding that the Office for Domestic 
Preparedness (ODP) has established a comprehensive training strategy 
for emergency responders that initiated the establishment of 
performance standards for WMD terrorism response training and 
operations nationally. ODP has also worked with established training 
entities that have a proven track record in this area. There appear to 
be a plethora of other Federal agencies that are still involved in 
aspects of WMD terrorism incident response training.
    Answer: The Department of Homeland Security (DHS) was created with 
the primary mission of protecting the homeland by preventing acts of 
terrorism. DHS' Office for Domestic Preparedness (ODP), is the lead 
program for supporting states and local efforts to prevent and prepare 
for acts of terrorism. . Even prior to the creation of DHS, ODP had 
developed a strategic approach to training and a national training 
architecture for the development and delivery of ODP programs and 
services.
    The ODP Training Strategy identified 10 emergency response 
disciplines that required training, and the critical tasks associated 
with the disciplines. Consistent with the identification the emergency 
response disciplines and the tasks requiring training, ODP also 
developed Emergency Responder Guidelines, which provide minimum 
performance standards for the development of training. In developing 
the training strategy and performance guidelines, ODP consulted with 
subject matter experts at the Federal, state and local levels. Building 
upon this effort, ODP recently completed development of minimum 
performance standards that also address prevention and deterrence 
training for homeland security professionals.
    As the Committee noted, there are a plethora of other Federal 
agencies that are involved in aspects of WMD terrorism incident 
response training. These are generally embedded in broader training 
curriculum maintained by each agency, and are therefore more limited 
than the programs provided by ODP. Nevertheless, coordinating these 
multiple training efforts is critical. In April 2000, ODP established 
the Training and Resources Data Exchange (TRADE) Group as a vehicle to 
meet with other Federal agencies to coordinate the development and 
delivery of WMD training. The TRADE Group meets on a quarterly basis 
and consists of over 15 Federal agencies. The ODP also meets with other 
Federal agencies to ensure coordination in the development and delivery 
of training. The Department of Homeland Security is committed to 
ensuring that all federally-supported terrorism training efforts are 
fully coordinated and meet rigorous standards.
    117. What is the plan for establishing oversight for the national 
training program for our state and local emergency responders?
    Answer: The President's National Strategy for Homeland Security 
identified the requirement to ``build a national training and 
evaluation system.'' The Department of Homeland Security is still 
considering the best means for providing oversight and coordination of 
the various homeland security community training activities within the 
Department and elsewhere. DHS looks forward to working with Congress 
once this plan is ready for implementation.
    We applaud the effort to put accountability in the grant process 
for emergency responders. While the programs were under DOJ, ODP 
adhered to the provisions Congress established for awarding grants to 
states based on the state's submission of a threat, risk, and needs 
assessment-based state strategy.
    118. What are the Department's intentions for continuing this 
stewardship of the funding appropriated for our emergency response 
communities?
    Answer: The Department of Homeland Security (DHS) will build on the 
solid foundation it has established with the state and local emergency 
response community. ODP has provided resources for equipment 
acquisition, training, exercise support, planning, and technical 
assistance to state and local jurisdictions since 1998. Since that 
time, ODP has provided nearly $5 billion in support, has trained more 
than 225,000 responders, and has supported over 175 exercises.
    ODP has also established strong and reliable contacts with the 
State Administering Agencies as well as the Urban Area Working Groups, 
which support the Urban Area Security Initiative in the 30 
participating cities. ODP and other DHS officials are actively engaged 
with state and local officials to provide expert guidance, advice, and 
assistance. For instance, ODP convened a series of regional meetings to 
discuss with SAAs the State Homeland Security Assessment and Strategy 
Program and the Urban Areas Security Initiative Program. These regional 
meetings allowed ODP officials to orient state officials on these two 
programs, and to ensure open communications between ODP and its state 
partners.
    In addition to working with the state and local community, ODP has 
established excellent relationships with several agencies, including 
the EP&R and IAIP directorates within DHS, the FBI, the Centers for 
Disease Control and Prevention, and the U.S. Departments of 
Agriculture, Health and Human Services, State, and Transportation.
    119. Is the Department considering reinstituting civil defense 
programs?
    Secretary Ridge's written testimony states that the EP&R 
Directorate is improving on-site management of Federal assets in the 
immediate aftermath of an incident by initiating plans for the rapid 
deployment of DHS Incident Response Teams. EP&R is incorporating 
Domestic Emergency Support Teams, Nuclear Incident Response Teams, the 
National Disaster Medical System and the Strategic National Stockpile 
into its planning and response capabilities.
    Answer: DHS is committed to assisting state and local governments 
and the public to prepare for all hazards, including terrorism. This 
preparation includes community preparedness through the Citizen Corps 
program. We do not envision a return to the civil defense programs but 
intend to continue with the ongoing evolution of all-hazards 
preparedness.
    120. Both of these initiatives are characterized as being in the 
planning phase. When will the DHS Incident Management Teams be 
activated, and when will the various response teams be fully 
incorporated into the National Response Plan?
    Answer: The United States today is not only at risk from natural 
and technological hazards, but also from the new and changing threat of 
terrorism. These threats can take many forms and have the potential to 
involve destructive chemical, biological, radiological and nuclear 
weapons for the purpose of wreaking unprecedented damage on this 
country. The Department of Homeland Security (DHS) has the per-eminent 
role in domestic disaster response, policy and coordination for 
managing such events, and to that end is developing a National Response 
Plan (NRP) and National Incident Management System (NIMS) that will 
provide the Nation a comprehensive capability to respond to and recover 
from all threats and hazards, including incidents involving weapons of 
mass destruction (WMD) and major natural and technological incidents.
    The Federal Emergency Management Agency (FEMA), Emergency 
Preparedness and Response (EP&R) Directorate, DHS, retains the 
responsibility as the lead agency for all-hazards consequence 
management when and if a Presidential disaster or emergency is declared 
under the Stafford Act. Current FEMA authorities, policies, structures 
and procedures remain in effect at both Headquarters and in the regions 
if a Federal response is required. While the NRP is being finalized as 
the standard operative Federal procedure for responding to all 
disasters and emergencies (fully coordinated and integrated with State 
and local governments, private-sector and volunteer organizations), the 
use of newly developed Federal Incident Management Teams (IMT) will 
help streamline a wide variety of incident management structures, 
response procedures, and lead and support agency responsibilities and 
relationships. IMTs will provide more unified response leadership and a 
system that can ultimately be folded into the NRP and NIMS and will 
provide a critical response asset that will enhance the capability of 
DHS, EP&R, and FEMA to meet the intent of Homeland Security 
Presidential Directive-5. .
    The IMT concept will be tested during Fiscal Year 2004 by creating 
a Prototype IMT that can bridge response capability gaps until the 
permanent teams are established and can develop operational doctrine 
that will guide the future teams. A Prototype IMT fielded in fiscal 
year 2004 can complete the necessary advance work and set the framework 
for fielding dedicated permanent IMTs in fiscal year 2005. This advance 
work to be completed this fiscal year includes the development of the 
required doctrine, policies, and procedures and other preparatory work 
necessary to guide operations of the prototype team as well as future 
teams and deploying to an incident, if required.
    Secretary Ridge's written testimony described the activities of the 
Citizen Corps.
    What has Citizens Corps done to enhance the preparedness of state 
and local governments? What activities are being executed by Citizen 
Corps Councils?

                                 <all>

</pre></body></html>
